                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINQTON,VIRGINIA 22202-4704




                                                                               December 10,2003
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
               FINANCIAL OFFICER
SUBJECT: Independent Auditor's Report on the Department of Def-  Fiscal Year 2003
        Agency-Wide Principal Financial Statements (ReportNo. D-2004-036)

       We are providing the subject report to be published in the DoD FY 2003 Performance
and Accountability Report in conjunction with the FY 2003 DoD Agency-Wide Principal
Financial Statements provided to us in draft on November 19,2003. The report includes our
disclaimer of opinion on the f m c i a l statements, as well as the assessments of internd control
and compliance with laws and regulations. Because our disclaimer of opinion is being issued to
accompany the FY 2003 DoD Agency-Wide Principal Financial Statements, this audit report
should not be disseminated separately from those statements.
       We appreciate the courtesies extended to the audit staff. Please contact Mr. Marvin L.
Peek at (703) 604-9587 or Ms. Lorin T. Pfeil at (703) 604-9487 if you have any questions.



                                      P ~ Grandto,
                                          Z . CPA
                                            Director
                                   Defense Financial Auditing
                                            Service
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 222024704




                                                                                 December 10,2003
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                            (COMPTROUER)/CHEF FINANCIAL OFFICER
SUBJECT: Independent Auditor's Report on the Department of Defense Fiscal
        Year 2003 Agency-Wide Principal Financial Statements
         (Report No. D-2004-036)

The Chief Financial Officers (CFO) Act of 1990, as amended, requires the Inspector
General of the Department of Defense to audit the accompanying DoD Consolidated
Balance Sheet as of September 30,2003 and 2002,the related Consolidated Statement of
Net Cost, the Consolidated Statement of Changes in Net Position, the Combined
Statement of Budgetary Resources, the Combined Statement of Financing, and the
Statement of Custodial Activity for the fiscal years then ended. The financial statements
are the responsibility of DoD management. DoD is also responsible for implementing
effective internal control and for complying with laws and regulations. In addition to our
disclaimer of opinion on the financial statements, we are including the required reports on
internal control and compliance with laws and regulations.

Disclaimer of Opinion on the Financial Statements
The Under Secretary of Defense (Comptrol1er)lChief Financial Officer acknowledged to
us that (1) DoD financial management systems do not substantially comply with Federal
financial management systems requirements, generally accepted accounting principles,
and the U.S. Government Standard General Ledger at the transaction level and (2) DoD
financial management and feeder systems cannot provide adequate evideace to support
various material amounts on the financial statements. Therefore, we did not perform
auditing procedures to determine if material amounts on the financial statements were
fairly presented. In addition, other auditing procedures were not performed because
Section 1008(d) of the FY 2002 National Defense Authorization Act requires the
Inspector General of the Department of Defense to perform only the audit procedures
required by generally accepted government pditing a m d d that arc consistent with
representations made by DoD management. DoD has also acknowledged, and prior
audits have identified, the material weaknesses listed in the S t l l l l ~ l ~ a of
                                                                                  r y Internal Control.
These material weaknesses also affect the reliability of other infbrmation contained in the
annual financial statements, mych of which is taken from the same data s o m a as the
principal financial statements. These deficiencies would have precluded an audit


'weperfomd audit work on tbe U.S. Army Corps of Engineers account balancss during FY 2003 because
 management asserted that their fincia1 statcmtnts were ready for audit. In addition, we performed audit
 work on the DoD Environmntal Liability account balance because management asserted that the account
 balance was ready for au&t.
 he annual financial statements include the principal financial statements, lllgnagemtnt discussion and
 analysis, consolidating and combining financial statements, Required Supplementary Stew*
 Information, Required Supplementary Information, and Other Acconpanying Lnf~ntlstion.
 A regular Statement and Account of the Receipts and Expenditures of aN public Money
shall be published from time to time. -Constitution of the United States, Article I, Section 9
opinion. Therefore, we are unable to express, and we do not express, an opinion on the
financial statements and the accompanying information.

Summary of Internal Control
In planning our audit, we considered DoD internal control over financial reporting and
compliance. We did this to determine our procedures for auditing the financial
statements and to comply with Office of Management and Budget guidance but not to
express an opinion on internal control. Accordingly, we do not express an opinion on
internal control over financial reporting and compliance because previously identified
reportable conditions,3 all of which are material, continued to exist in the following areas:

                •    financial management systems;

                •    Fund Balance with Treasury;

                •    Inventory;

                •    Operating Materials and Supplies;

                •    Property, Plant, and Equipment (PP&E);

                •    Government-Furnished Material and Contractor-Acquired Material;

                •    Environmental Liabilities;

                •    intragovernmental eliminations and other accounting entries;

                •    Statement of Net Cost; and

                •    Statement of Financing.

A material weakness is a condition that precludes the entity’s internal control from
providing reasonable assurance that misstatements, losses, or noncompliance that are
material in relation to the financial statements would be prevented or detected on a timely
basis. Our internal control work would not necessarily disclose all material weaknesses.
See the Attachment for additional details on material internal control weaknesses.

Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and
regulations related to financial reporting was limited because management
acknowledged, and prior audits confirm, that instances of noncompliance continue to
exist. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
acknowledged to us that DoD financial management systems do not comply substantially
with Federal financial management system requirements, generally accepted accounting
principles, and the U.S. Government Standard General Ledger at the transaction level.

3
    Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be
    communicated to management because they represent significant deficiencies in the design or operation
    of internal control, which could adversely affect the organization’s ability to initiate, record, process, and
    report financial data consistent with the assertions of management in financial statements.
A regular Statement and Account of the Receipts and Expenditures of all public Money
shall be published from time to time. —Constitution of the United States, Article I, Section 9
                                                          2
Our work supports DoD conclusions and confirms that uncorrected instances of
noncompliance continue to exist related to other provisions of laws and regulations.
In order for DoD to comply with statutory reporting requirements and applicable
financial management systems requirements, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer is developing a DoD-wide Business Enterprise
Architecture. It is unlikely that DoD will be able to fully corn ly with the statutory
reporting requirements until the architecture is hlly develop and implemented. Set the
Attachment for additional details on compliance with laws and regulations.
We caution that other noncompliance may have occurred and not been detected. Further,
the results of our limited procedures may not have been sufficient for other purposes.
Our objective was not to express an opinion on noncompliance with applicable laws and
regulations.

Management Responsibility
Management is responsible for:
       preparing the financial statements in conformity with generally accepted
       accounting principles;
       establishing, maintaining, and assessing internal control to provide reasonable
       assurance that the broad control objectives of section 3512, title 31, United States
       Code, which incorporates the reporting requirements of the Federal Managers'
       Financial Integrity Act (FMFLA) of 1982, are met;
       ensuring that DoD financial management systems substantially comply with
       Federal Financial Management Improvement Act (FFMIA) of 1996 requirements;
       and
       complying with applicable laws and regulations.



                                    Paul J. & n e t t o , CPA
                                           Director
                                  Defense Financial Auditing
                                            Service
Attachment
As stated




A regirlar Statement and Accouii~r!f'rheReceipts and ESFpendifurcsof all public Money
shull he published from time to lirrre. .--Constitution of the Unittxi States, Article I, Section 9
                                                 3
                  Reports on Internal Control and
                Compliance with Laws and Regulations
                                  Internal Control
Management is responsible for implementing effective internal control and for providing
reasonable assurance that accounting data are recorded and reported properly; and that
assets are safeguarded. We did not perform tests of DoD internal control over financial
reporting and we did not obtain sufficient evidence to support or express an opinion on
internal control because previously identified reportable conditions, all of which are
material, continue to exist. The following financial management deficiencies are
indications of internal control weaknesses that significantly impair the ability of DoD to
prepare financial statements in compliance with generally accepted accounting principles
and to detect and prevent fraud or theft of assets. A high risk of material misstatements
will continue to exist until the internal control deficiencies are corrected.

Financial Management Systems. Statement of Federal Financial Accounting Concept
(SFFAC) No. 1, “Objectives of Federal Financial and Reporting,” requires financial
management systems controls that are adequate to ensure that transactions: are executed
in accordance with budgetary and financial laws and other requirements, are consistent
with the purposes authorized, and are recorded in accordance with federal accounting
standards. SFFAC No. 1 also requires that financial management system controls ensure
that assets are properly safeguarded to deter fraud, waste, and abuse, and that
performance measurement information is adequately supported. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer acknowledged that DoD financial
management and feeder systems are unable to provide adequate evidence supporting
various material amounts on the financial statements. Specifically, systemic deficiencies
in financial management systems and business processes result in the inability to collect
and report financial and that performance information that is accurate, reliable, and
timely.

Fund Balance With Treasury. DoD is required by the U.S. Treasury Financial Manual
and DoD Financial Management Regulation 7000.14-R, to resolve financial and
accounting inconsistencies to accurately report Fund Balance with Treasury. However,
inconsistencies continue to exist related to: in-transit disbursements; problem
disbursements, including unmatched disbursements and negative unliquidated
obligations; unreconciled differences in suspense accounts; and unreconciled differences
between the Department of Treasury records and DoD disbursing stations for checks
issued, deposits and electronic fund transfers, and interagency transfers. The absolute
value of these inconsistencies was approximately $20.6 billion as of March 31, 2003, and
presents a major internal control problem for the Defense Finance and Accounting
Service (DFAS). In addition, a survey of the managers of the 39 systems used at the
5 DFAS centers to identify and report in-transit and problem disbursements found that
1 system had been reviewed and 14 systems had not been reviewed for reliability. The
remaining 24 system managers did not respond to the survey.

Inventory. DoD is required by the Statement of Federal Financial Accounting Standards
(SFFAS) No. 3, “Accounting for Inventory and Related Property,” to use the latest
acquisition cost adjusted for holding gains and losses or moving average cost for valuing
Inventory. However, DoD acknowledged that the existing process for inventory
valuation does not produce an auditable approximation of historical cost because the
associated gains and losses cannot be accurately tracked to specific items or purchases.

                                                                               Attachment
Additionally, DoD does not distinguish between Inventory Held for Sale and Inventory
Held in Reserve for Future Sale, as required by SFFAS No. 3. Also, prior audit reports
have identified inaccurate inventory records, deficiencies related to existence and
completeness of inventory, and inaccurate inventory valuation.

Operating Material and Supplies. SFFAS No. 3 states that Operating Materials and
Supplies shall be expensed when the items are consumed. However, DoD has
acknowledged that significant amounts of Operating Materials and Supplies were
expensed when purchased instead of when they were consumed. In addition, DoD
acknowledged that significant amounts of Operating Materials and Supplies in the
possession of contractors were not included in the Operating Materials and Supplies
account balance.

Property, Plant, and Equipment. DoD acknowledged they could not support the
reported cost of military equipment in accordance with generally accepted accounting
principles because of an absence of detailed cost information. For additional details, see
Note 10 to the financial statements. DoD also acknowledged that General PP&E is not
reliably reported because legacy property and logistic systems were not designed to
capture the acquisition cost and the cost of modifications and upgrades or calculate
depreciation. In addition, there is a lack of supporting documentation for General PP&E
with long useful lives.

Government-Furnished Material and Contractor-Acquired Material.
SFFAS No. 11, “Amendments to Accounting for Property, Plant, and Equipment,”
requires that property and equipment in the possession of a contractor for use in
accomplishing a contract is considered Government property. Government property
should be accounted for based on the nature of the item, regardless of possession. DoD
has acknowledged that it is unable to comply with applicable requirements for
Government-Furnished Property and Contractor-Acquired Materials. As a result, the
value of DoD property and material in the possession of contractors is not reliably
reported.

Environmental Liabilities. DoD acknowledged that environmental guidance, inventory
of ranges and operational activities (landfills, open burning pits, etc), and audit trails are
incomplete. DoD also acknowledged that it did not recognize any unamortized clean-up
costs associated with PP&E. In addition, we determined that data4 and processes used for
the Army Defense Environmental Restoration Program, non-Defense Environmental
Restoration Program, and Army Base Realignment and Closure program resulted in
unreliable Environmental Liability estimates. The Environmental Liability estimates
were unreliable because Army activities did not have effective controls in place to:
ensure adequate audit trails and documentation for supporting estimates, comply with
established guidance in developing estimates, maintain reliable feeder and coordination
systems, document supervisory review of estimates, and establish quality control
programs.

Intragovernmental Eliminations and Other Accounting Entries. DoD acknowledged
that it made unsupported adjustments with its trading partners because of the inability to
reconcile most intragovernmental transactions. In addition, DoD acknowledged that
material amounts of unsupported accounting entries continue to be made.

4
    We reviewed environmental financial data as of September 30, 2002, as FY 2003 data were unavailable at
    the beginning of the audit in February 2003. Even though DoD is in the process of implementing
    corrective actions such as issuing policy guidance and correcting some feeder and coordination systems,
    we believe the FY 2003 environmental financial data continue to be unreliable.

                                                          2
Statement of Net Cost. SFFAC No. 2, “Entity and Display,” requires the Statement of
Net Cost to provide an understanding of the net costs of each organization and each
program. In addition, the Statement of Net Cost should provide gross and net cost
information that can be related to the amounts of outputs and outcomes for the programs
and/or organization. DoD acknowledged the following deficiencies related to the
Statement of Net Cost:

   •   amounts presented in the Statement of Net Cost may not in all cases report actual
       accrued costs;

   •   transactions are generally recorded on a cash basis instead of an accrual basis as
       required by generally accepted accounting principles;

   •   costs cannot to be accumulated for major programs based on performance
       measures as required by the Government Performance and Results Act because
       current financial processes and systems do not capture and report this type of cost
       information;

   •   accounting systems do not capture cost data in a manner that enables DoD to
       determine if the cost was incurred to generate intragovernmental revenue; and

   •   accounting systems do not capture trading partner data at the transaction level in a
       manner that facilitates trading partner aggregations; therefore, DoD was unable to
       reconcile intragovernmental revenue balances with its trading partners.

Statement of Financing. The SFFAS No. 7, “Concepts for Reconciling Budgetary and
Financial Accounting,” states that the Statement of Financing reconciles resources
obligated during the period to the net cost of operations. However, DoD has
acknowledged that it is unable to reconcile budgetary data to net costs. Specifically,
budgetary data are not in agreement with proprietary expenses and assets capitalized.
DoD disclosed in the notes to the financial statements that the Statement of Financing
was adjusted by a net $12.5 billion to match the Statement of Net Costs. In addition,
DoD presented the Statement of Financing on a combined basis instead of the
consolidated basis as required by the Office of Management and Budget (OMB) Bulletin
01-09, “Form and Content of Agency Financial Statements.”

                    Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to
financial reporting. Our work to determine compliance with selected provisions of the
applicable laws and regulations was limited because management acknowledged
instances of noncompliance, and previously reported instances of noncompliance
continue to exist. Therefore, we did not determine whether DoD was in compliance with
selected provisions of all applicable laws and regulations related to financial reporting.
Our objective was not to express an opinion on compliance with applicable laws and
regulations.




                                               3
Statutory Financial Management Systems Reporting Requirements. DoD is required
to comply with the following financial management systems reporting requirements.

   •   Section 3512, title 31, United States Code, incorporates the reporting
       requirements of the FMFIA of 1982 and requires DoD to evaluate its systems and
       to annually report whether those systems are in compliance with applicable
       requirements.

   •   The FFMIA requires DoD to establish and maintain financial management
       systems that comply substantially with the Federal financial management systems
       requirements, applicable Federal accounting standards, and the U.S. Government
       Standard General Ledger. The FFMIA also requires DoD to develop a
       remediation plan when its financial management systems do not comply with
       Federal financial management systems requirements. The remediation plan is to
       include remedies, resources required, and target dates.

For FY 2003, DoD did not fully satisfy the statutory reporting requirements identified in
these provisions. DoD acknowledged that many of its critical financial management and
feeder systems do not comply substantially with the Federal financial management
systems requirements, Federal accounting standards, and the U.S. Government Standard
General Ledger at the transaction level. In an attempt to comply with statutory reporting
requirements and applicable financial management systems requirements, DoD is
developing a DoD-wide Business Enterprise Architecture. However, the transition plan
for the Business Enterprise Architecture falls short of meeting the requirements of a
remediation plan under the FFMIA because it does not identify the resources that will be
required to correct the noncompliance with Federal financial management system
requirements.

The Business Enterprise Architecture, when completed, will provide a clear and
comprehensive picture of DoD current or “As Is” operational and technological
environment and its target or “To Be” environment. In addition, it will contain a capital
investment plan for transitioning from the current to the target environment.

DoD relies on a complex and error-prone information technology environment that
consists of approximately 2,300 systems that are not standardized across the Department.
Consequently, it is unlikely that DoD will be able to fully comply with the statutory
reporting requirements until the Business Enterprise Architecture is fully developed and
implemented. Therefore, we did not perform tests of compliance for these requirements.

National Defense Authorization Act of Fiscal Year 2003. DoD complied with the
Act’s requirements to develop a Business Enterprise Architecture for all DoD systems
and a transition plan for implementing that Business Enterprise Architecture by the
required due date of May 1, 2003. However, a General Accounting Office (GAO) report,
“DoD Business Systems Modernization – Important Progress Made to Develop Business
Enterprise Architecture, but Much Work Remains,” September 2003 (GAO-03-1018),
states that the Business Enterprise Architecture does not adequately address Federal
requirements and accounting standards as required by the Act. For example, GAO found
that approximately 19 percent of Joint Financial Management Improvement Program
requirements reviewed were not adequately addressed in version 1.0 of the “To Be”
architecture. In addition, GAO found that DoD has not yet defined and implemented an
effective approach to select and control business systems investments for obligations
exceeding $1 million while the Business Enterprise Architecture is being developed and
after it is completed.

                                               4
Federal Information Security Management Act of 2002. DoD is required to report on
the adequacy and effectiveness of information security policies, procedures, practices,
and compliance with various laws and regulations. DoD is also required to develop,
document, and implement a DoD-wide information security program, approved by OMB,
to provide information security for the information and information systems that support
the operations and assets of DoD. However, DoD has not developed, documented, and
implemented a DoD-wide information security program, approved by OMB, to provide
information security for the information and information systems that support the
operations and assets of DoD.

Government Performance and Results Act of 1993. The Act and OMB
implementation guidance contained in OMB Circular No. A-11, “Preparation,
Submission, and Execution of the Budget,” and OMB Bulletin 01-09 requires DoD to
issue a revised and updated strategic plan every 3 years, an annual performance plan by
December 31 of the current fiscal year for each program activity, and an annual
performance report identifying actual program performance. DoD has not revised and
updated their strategic plan and the previously issued strategic plan does not comply with
OMB guidance. DoD also did not issue an annual performance plan for FY 2003 and has
yet to issue an annual performance plan for FY 2004. In addition, the DoD Annual
Performance Report for FY 2003 does not fully comply with the requirements of the Act
and OMB implementation guidance. For example, the Annual Performance report does
not: evaluate the performance plan, summarize program evaluations completed during
the fiscal year, or provide a description of any material inadequacies in the completeness
and reliability of performance data. Additionally, DoD acknowledged that it is unable to
accumulate costs for major programs based on performance measures identified by the
Government Performance and Results Act.

Prompt Payment Act of 1982. DoD is required to pay interest penalties for late
payments, adhere to due dates and make periodic payments for partial deliveries or other
contract performance, review invoices as soon as possible after receipt to determine if the
invoice is proper, and maintain an internal control environment in accordance with OMB
Circular A-123, “Management Accountability and Control.” We identified uncorrected
deficiencies in the DoD control environment related to payments. Specifically, we
identified deficiencies in internal control standards prescribed by OMB Circular A-123 to
include: access and accountability for resources, recording and documentation, and
segregation of duties.




                                                5
                                  Audit Disclosures
The Under Secretary of Defense (Comptroller)/Chief Financial Officer acknowledged to
us on April 17, 2003, that DoD financial management systems cannot provide adequate
evidence supporting various material amounts on the financial statements. As a result,
we were unable to obtain adequate evidential matter to form or express an opinion on the
financial statements, internal control, and compliance with laws and regulations.

We did not perform sufficient audit followup work of DoD compliance with selected
provisions of the Antideficiency Act, the Debt Collection Improvement Act of 1996, the
Pay and Allowance System for Civilian Employees, the Federal Credit Reform Act, and
the Department of Defense Appropriation Act for FY 2003. We plan to perform audit
tests of selected provisions of the previously discussed laws and regulations in the near
future.

This report does not include recommendations to correct the material control weaknesses
and instances of noncompliance because previous audit reports contained
recommendations for corrective actions.




                                               6
                   DR

    Department of Defense




Performance and Accountability Report
          Fiscal Year 2003
             December 23, 2003
Table of Contents

Message from the Deputy Secretary of Defense                     ii
Report Overview                                                 iv

Part 1. Management Discussion and Analysis
    Mission, Organization and Resources                          1
    Performance Highlights                                       5
    Financial Highlights                                        10
    Compliance with Legal and Regulatory Requirements           15
    President’s Management Agenda                               29

Part 2. Performance Information
    Annual Performance Goals and Results                        31

Part 3. Financial Information
    Financial Statements
        Principal Statements                                    39
        Notes to the Principal Statements                       50
        Consolidating and Combining Statements                 199
        Required Supplementary Stewardship Information         276
        Required Supplementary Information                     293
        Other Accompanying Information                         311
    Independent Auditors’ Report on the Principal Statements   337

Part 4. Inspector General Summary of Management Challenges     346

Part 5. Appendices
    A. Detailed Performance Metrics                            366
    B. Internet Links                                          392




DoD Performance and Accountability Report      i
Message from the Deputy Secretary of
Defense
I am pleased to present the Department of Defense fiscal year 2003 Performance and
Accountability Report.

The Department has made significant progress in transforming America’s defense posture
to enable decisive plans to address future security challenges. We have demonstrated our
superior warfighting capabilities in Iraq and Afghanistan. The price of democracy is not
cheap. We see continual pressures on the Department’s resources in the years ahead. We
will focus relentlessly on efficient and careful use of these resources as we continue
fighting the global war on terror.

I am very proud of the improvements the Department has made in its personnel
management practices and we will continue to drive towards a performance-based rating
of our workforce. The quality of life of our military members, who risk their lives for all
of us to enjoy the freedoms of democracy, has been enhanced by upgrading facilities and
advancing private-public partnerships in military housing. We have also seen increased
efficiencies due to practicing more realistic budgeting, increasing our focus on core
support functions, and reforming our annual review of programs and funding.

I have seen impressive advancements throughout the past year in the Department’s efforts
to improve financial reporting and management processes. Specifically, through the
Department’s Business Management Modernization Program, the financial management
processes and controls are being integrated into the business processes to ensure
accountability and auditability of the Department’s business transactions. This program
is enabling the transformation of the Department’s business areas and is way overdue.
This effort will eliminate the reporting and accountability deficiencies in the current
systems and processes.

The Department now has a report card that identifies how well we did towards achieving
the strategic plan, objectives, and goals. This is a very effective management tool that is
allowing us to keep fine tuning our implementation of the strategic plan. Looking at our
report card results this year, the Department met several of its performance goals, but still
has work to do in other areas.

The Department is committed to effective internal controls, full compliance with
established guidelines and standards, and proper stewardship of the resources entrusted to
it. During fiscal year 2003 we corrected 25 management control weaknesses, and except
for the unresolved weaknesses noted in the Management Discussion and Analysis section
(Part 1) of this report, the Department has reasonable assurance that its management
controls are effective. The Department will continue its efforts to resolve the remaining
issues and I am confident that the Department will continue to fulfill its mission
responsibilities.
DoD Performance and Accountability Report   ii        Message from the Deputy Secretary of Defense
Looking ahead, the Department continues the transformation of its support structure and
management practices. While the Department has made progress in many areas, we must
continue to upgrade performance and accountability, streamline and strengthen
management, and ensure that every defense dollar is expended as wisely as possible.




                                        Paul Wolfowitz

                                                         V




DoD Performance and Accountability Report     iii        Message from the Deputy Secretary of Defense
Report Overview
The Department of Defense fiscal year 2003              results. Next, it provides financial
Performance and Accountability Report is                highlights—covered in more detail in
designed to provide useful information for              Part 3—for fiscal year 2003. The
American citizens, the President, Congress,             Department’s compliance with legal and
other federal organizations, and Department             regulatory requirements are also discussed
of Defense military members, civilians and              in this section. Part 1 concludes with a
contractors.                                            summary of the Department’s status on
                                                        meeting the President’s Management
Our report encompasses the Department’s                 Agenda objectives.
operations for fiscal year 2003, which
occurred from October 1, 2002 through                   Part 2: Performance Information presents
September 30, 2003. It contains five parts.             the Department’s strategic plan, strategic
Combined, they provide a thorough                       objectives, annual performance goals, and
accounting of the Department’s stewardship              annual performance results for fiscal
of our critical resources and services to the           year 2003 in accordance with the
American people.                                        Government Performance and Results Act.
                                                        It displays key performance indicators—and
The pressures on the Department’s resources             their fiscal year 2003 goals and results—that
have never been greater and will continue to            the Department uses to manage certain risk
grow in the years ahead. Our response must              areas and to accomplish its strategic
be to focus relentlessly on efficient and               objectives.
careful use and management of these
resources. Only by effectively measuring the            Part 3: Financial Information is composed
results we achieve, as documented in this               of the Department’s principal financial
report, can we adjust the tactics and strategies        statements, notes to these statements,
we use to meet our goal of mission                      consolidating and combining statements,
excellence, and deliver the best possible               and other required information for fiscal
performance for our customers, the American             year 2003. This section includes the DoD
people.                                                 Inspector General Auditors’ Report on the
                                                        Department’s fiscal year 2003 financial
Part 1: Management Discussion and                       statements. The Auditors’ Report provides
Analysis is a high-level overview of the                the Inspector General’s assessment of
Department’s performance and financial                  whether the Department’s financial
information for fiscal year 2003. It is                 statements are fairly presented, in all
designed for citizens, members of the public,           material respects, and in conformity with
and officials from federal, state, and local            generally accepted accounting principles.
government. Part 1 starts with a discussion
of the Department of Defense (DoD) mission,             Part 4: Inspector General Summary of
organization and resources. It highlights the           Management Challenges presents a
Department’s performance—covered in more                summary of the most serious management
detail in Part 2—by summarizing the                     challenges facing the Department. This
strategic plan and goals and the fiscal                 assessment was prepared by the DoD’s
year 2003 annual performance goals and                  Office of Inspector General.

DoD Performance and Accountability Report          iv                                 Report Overview
Part 5: Appendices presents detailed DoD
performance indicators and a list of internet
links for further information referred to in
this report.

We are interested in your feedback regarding
the content of this report. Please feel free to
email your comments to DoDPAR@osd.mil
or write to:

U.S. Department of Defense
Office of the Under Secretary of Defense
(Comptroller)
1100 Defense Pentagon
Washington, DC 20301-1100

Additional copies of this report can be
obtained by sending a written request to the
e-mail or mailing address listed above.

You may also view this document at
www.dod.mil/comptroller/par.




DoD Performance and Accountability Report         v   Report Overview
           Part 1:
   Management Discussion and
          Analysis




DoD Performance and Accountability Report
Mission, Organization, and Resources

Mission

The mission of the United States Armed Forces is to protect and advance the security and
national interests of the United States, to deter aggressors and, if deterrence fails, to defeat any
adversary.




Photos courtesy of Military Department webmasters




DoD Performance and Accountability Report           1         Part 1: Management Discussion and Analysis
Organization                                          These Departments recruit, train, and equip
                                                      military forces. When the President and
The Department of Defense (DoD) is a                  Secretary of Defense determine that military
Cabinet-level organization that receives              action is required, these trained and ready
orders directly from the President of the             forces are assigned to a combatant command
United States. The Secretary of Defense is            that is responsible for conducting the
appointed by the President and is                     military operations.
responsible for the formulation and
execution of defense policy.                          The Military Departments are composed of
                                                      Active Duty, Guard, and Reserve Forces.
The Office of the Secretary of Defense                The National Guard and Reserve
carries out the Secretary’s policies by               Components represent approximately half of
tasking the Military Departments, the                 America’s total uniformed force. These
Chairman of the Joint Chiefs of Staff (JCS),          forces provide additional support during
the Combatant Commands, and the Defense               military operations. They also perform
Agencies and DoD Field Activities.                    critical humanitarian, peacekeeping, law
                                                      enforcement, and disaster assistance
Military Departments. The Military                    missions for the Department of Defense, all
Departments consist of the Army, Navy—of              of which are important to protecting the
which the Marine Corps is a component—                national security of the United States.
and the Air Force. The U.S. Coast Guard is
also special component of the Navy in
wartime, but is otherwise a bureau of the
Department of Homeland Security.



                                                National     • President
                                               Command       • Secretary of Defense
                                               Authority

                                  Office of the Secretary of Defense


                   Military Departments                    Chairman of the JCS
                   • Organize, train & equip                • Plan & coordinate



                  Combatant Commands                        Defense Agencies &
                                                            DoD Field Activities
                   • Conduct operations
                                                            • Provide support & services




DoD Performance and Accountability Report         2         Part 1: Management Discussion and Analysis
Chairman of the Joint Chiefs of Staff.                The other four commands have worldwide
The Chairman of the Joint Chiefs of Staff             mission objectives for their area of
plans and coordinates troop deployments               responsibility:
and DoD operations that are conducted by
the Combatant Commands.                               •   U.S. Strategic Command
Combatant Commands. The nine                          •   U.S. Special Operations Command
Combatant Commands have responsibility                •   U.S. Transportation Command
for conducting DoD missions in specific               •   U.S. Joint Forces Command
geographical areas of the world. The Army,
Navy and Marines, and Air Force supply                For example, the U.S. Transportation
forces to these commands.                             Command is responsible for moving
                                                      military equipment, supplies and personnel
Five of these commands have specific                  around the world for peacekeeping and
mission objectives for their geographic area          military missions.
of responsibility:
                                                      Defense Agencies and DoD Field
•   U.S. European Command (EUCOM)                     Activities. Defense Agencies and DoD
•   U.S. Central Command (CENTCOM)                    Field Activities provide support services that
•   U.S. Pacific Command (PACOM)                      are commonly used throughout the
•   U.S. Southern Command (SOUTHCOM)                  Department. For instance, the Defense
•   U.S. Northern Command (NORTHCOM)                  Finance and Accounting Service provides
                                                      accounting services, contractor and vendor
For example, CENTCOM was primarily                    payments, and payroll services, and the
responsible for conducting Operation Iraqi            Defense Logistics Agency provides logistics
Freedom.                                              support and supplies to all DoD activities.

                           Combatant Commands with Geographic Responsibilities




DoD Performance and Accountability Report       3           Part 1: Management Discussion and Analysis
Resources
People. To provide the citizens of the
United States with the highest level of
national security, the Department of Defense
employs 1.4 million men and women in
Active Duty, another 1.2 million in the
Reserve and Guard Components, and
approximately 680 thousand civilians.
Together, these men and women work daily
to protect American interests in numerous
countries.

Physical Assets. The Department maintains
a robust infrastructure, operating more than
600,000 individual buildings and structures
located at more than 6,000 different
locations, and using more than 30 million
acres. To protect the security of the United
States, the Department uses about 250,000
vehicles, more than 15,000 aircraft, more
than 1,000 oceangoing vessels, and some
550 public utility systems.

Budget. The Department’s budget for fiscal
year 2003 was $435.7 billion.




     Fiscal Year 2003 DoD Budget
                   ($ in Billions)
                $63.2
                                                 $123.8



      $122.9

                                        $125.8
       Navy/ Marine Corps   Air Force    Army       DoD-wide


                   Total = $435.7 billion




DoD Performance and Accountability Report                      4   Part 1: Management Discussion and Analysis
Performance Highlights
Key Performance results are summarized in
this section; detailed performance                   Transforming the United States Armed
information provided in Part 2 and Part 5 of         Forces is the underlying theme in the
this report.                                         Department’s Quadrennial Defense Review
                                                     report from 2001, which serves as our
                                                     strategic plan. The Department is required
Strategic Plan                                       by law to reevaluate defense missions and
                                                     priorities every 4 years, immediately
                                                     following the presidential election. These
The attacks of September 11, 2001 ushered            major assessments cover all facets of the
the United States into a new and dangerous           Department’s operations and result in the
period. Enemies will seek to strike the              issuance of the Quadrennial Defense Review
United States and its forces in novel and            report (http://www.defenselink.mil/pubs/
surprising ways. As a result, the United             qdr2001.pdf).
States must fight and win the present war
against terrorism while preparing for future
wars that will be notably different from             Strategic Goals
those of the past century and even from the
current conflict.                                    The Quadrennial Defense Review, which
                                                     serves as the Department’s strategic plan,
Some believe that, with the United States in         has four strategic defense policy goals.
the midst of a difficult and dangerous war on
terrorism, now is not the time to transform
our Armed Forces. The opposite is true.                          Strategic Goals
Now is precisely the time to make changes.
The attacks of September 11, 2001 lent
urgency to this endeavor.                             1. Assuring allies and friends
                                                      2. Dissuading future military
Transforming the United States Armed                     competition
Forces is necessary because the challenges
                                                      3. Deterring threats and coercion
presented by this new century are vastly
                                                         against U.S. interests
different from those of the last century or
even the last 10 years. During the Cold               4. If deterrence fails, decisively
War, America faced a relatively stable and               defeating any adversary
predictable threat. The challenges of the 21st
century are much less predictable. Future            Assuring Allies and Friends. The presence
attacks could grow vastly more deadly than           of American forces overseas is one of the
those on September 11, 2001. Surprise and            most profound symbols of the U.S.
uncertainty thus define the challenge the            commitment to allies and friends. Through
Department of Defense faces in this new              its willingness to use force in its own
century—to defend the nation against the             defense and that of others and to advance
unknown, the unseen, and the unexpected.             common goals, the United States
                                                     demonstrates its resolve and the credibility

DoD Performance and Accountability Report        5         Part 1: Management Discussion and Analysis
of the U.S. military. The Department helps            Annual Performance Goals
allies and friends create favorable balances
of military power in critical areas of the            and Results
world to deter aggression or coercion. The
Department’s strategic direction is
inevitably linked with that of U.S. allies and        The Department cannot achieve the goals of
friends.                                              the defense strategy without a disciplined
                                                      approach to managing risk. The previous
Dissuading Future Military Competition.               emphasis on near-term operational risk
United States strategy and actions influence          minimized critically needed investments in
the nature of future military threats, guide          people, in modernizing equipment, and in
threats in certain directions, and complicate         maintaining the defense infrastructure. The
military planning for potential adversaries.          defense strategy attempts to balance various
The U.S. also exerts influence by conducting          risks by establishing a framework composed
research, development, test, and                      of four risk categories.
demonstration programs, and maintaining or
enhancing advantages in key areas of                  1. Force management risk – This risk
military capability. Well targeted strategy           stems from issues affecting the ability to
and policy can therefore dissuade other               recruit, retain, train, and equip sufficient
countries from initiating future military             numbers of quality personnel and sustain the
competitions.                                         readiness of the force while accomplishing
                                                      our many operational tasks.
Deterring Threats and Coercion Against
U.S. Interests. The Department provides               2. Operational risk – This risk results from
forces and capabilities to the President that         factors shaping the ability to achieve
give him a wide range of military options to          military objectives in a near-term conflict or
discourage aggression and coercion. The               other contingency.
Department is enhancing future military
capability by using global intelligence and           3. Future challenges risk – This risk
information. The Department also requires             derives from issues affecting the ability to
forces that can strike with precision at fixed        invest in new capabilities and develop new
and mobile targets and that can be rapidly            operational concepts needed to dissuade or
deployed and easily sustained to decisively           defeat mid- to long-term military challenges.
defeat any adversary.
                                                      4. Institutional risk – This risk stems from
If Deterrence Fails, Decisively Defeating             the management practices and controls that
Any Adversary. U.S. forces must maintain              affect the efficiency with which resources
the capability at the direction of the                are used and that shape the effectiveness of
President to decisively defeat any                    the Defense establishment.
adversaries of the United States and its allies
and friends. Such a decisive defeat could             This risk management framework guides the
include changing the regime of an adversary           Secretary and his senior military and civilian
state or occupation of foreign territory until        advisors in making strategic trades in how
U.S. strategic objectives are met.                    we set management priorities and allocate
                                                      resources.



DoD Performance and Accountability Report         6         Part 1: Management Discussion and Analysis
                                                     all-volunteer force, and to keeping faith with
                                                     the men and women who serve in the
                                                     uniform.

                                                     The Department met several of its fiscal
                                                     year 2003 performance goals related to the
                                                     force management risk area. These include
                                                     maintaining military manning levels,
                                                     meeting military recruiting goals, and
                                                     meeting military retention goals. The
                                                     Department continues to work toward
                                                     improving the quality of military health care
                                                     and other force management related goals
The following paragraphs summarize the               because obtaining these goals is critical for
annual performance goals established to              ensuring effective civilian recruitment,
reduce risk in these four areas and                  training, and retention.
summarize the Department’s fiscal
year 2003 results.
                                                            Reducing Operational Risk

     Reducing Force Management Risk
                                                     During the past decade, near-term
                                                     operational risks have been the dominant
Force management risks steadily mounted              concern of the Department, crowding out
during the past decade. The Department               attention given to other sources of risk. This
under-invested in its people, both in terms of       was the result of the primacy in the
compensation and quality of life factors such        Department’s thinking of the two major
as housing. At the same time, the increase           theater war construct for sizing and planning
in deployments led to excessive operational          United States forces. Under this construct,
tempo for units and excessive personnel              operational risk was measured almost
tempo for service members. Together, these           exclusively in terms of the ability of the
trends took a toll on military families,             Armed Forces to wage two major theater
reduced morale, and contributed to the               wars simultaneously in Northeast Asia and
reduced ability to retain military personnel         Southwest Asia.
with key skills and leadership abilities. This
negative cycle illustrates the kind of force         In 2001, the Department adopted a new
management risk that the Department must             approach to managing operational risk,
monitor and control.                                 moving away from the two major theater
                                                     war construct and adopting a new construct
Just as the Department invests resources to          that more realistically captures the demands
maintain the operational readiness of its            facing the Armed Forces.
forces, it will now also consciously invest
dollars to mitigate force management risks.          In 2003, the Department met several of its
These actions are indispensable in terms of          performance goals related to the operational
sustaining the nation’s commitment to an             risk area. The Department developed a

DoD Performance and Accountability Report        7         Part 1: Management Discussion and Analysis
building-block approach to aligning and              goals for fiscal years 2004 and 2005. The
packaging forces consistent with that new            Department also developed a prototype and
construct. In addition, the Department               defined standard operating procedures for
examined how to reshape the “global                  the Standing Joint Force Headquarters.
footprint” of forces stationed permanently or
on rotation overseas, as well as their               In addition, an independent peer review
associated base infrastructure. It also              panel rated 96% of the Department’s
established a formal feedback loop to                Defense Technology Objectives—
ongoing operations by creating an                    technologies such as radar, jet engines,
integrated, Department-wide protocol for             nuclear weapons, night vision and smart
collecting and assessing lessons learned             weapons—as progressing satisfactorily for
from recent or current operations, so as to          fiscal year 2003.
quickly adjust how the United States
allocates, equips, employs, and sustains
capabilities in the field.
                                                            Reducing Institutional Risk


                                                     As the Department transforms its military
    Reducing Future Challenges Risk                  capabilities to meet changing threats, it must
                                                     do more to ensure that its people can focus
                                                     their immense talents to defend America,
In light of the dynamic changes in the               and that they have the resources,
security environment, a premium has been             information, and freedom to perform.
placed on the need to manage future
challenges risk. While many elements of the          Mitigating institutional risk necessitates
existing force will continue to contribute to        changing the way the Department conducts
the United States Armed Forces capabilities,         its daily business. It is a matter of urgency,
defense managers acknowledge the need to             because left alone, the current organizational
develop new, leading-edge capabilities.              arrangements, processes, and systems will
                                                     continue to drain scarce resources from
The Department met several fiscal year 2003          training, infrastructure, operations, and
goals pertaining to the future challenges risk       housing. In addition, if left unattended,
area. The Department completed a Joint               institutional risks over time will increase
Experimentation Campaign Plan to explore             risks in other areas like force management,
concepts developed both inside and outside           operational, and risks related to future
of the Department—any new idea that could            challenges.
improve how we command and control joint
forces across the battle space in cities,            The Department met several fiscal year 2003
jungles, mountains, or forests. In March, the        goals related to the institutional risk area.
Department completed its evaluation of the           For example, the Department reduced the
lessons learned from Millenium Challenge             percentage of its budget spent on
2000, the first joint exercise conducted by          infrastructure and reduced the number of
U.S. Joint Forces Command. In June, the              inadequate military family housing units.
Chairman of the Joint Chiefs of Staff                The Department did not meet its
published joint experiment performance               performance goals for reducing major

DoD Performance and Accountability Report        8         Part 1: Management Discussion and Analysis
defense acquisition program cycle times,
decreasing the recapitalization rate for
funding DoD facilities and buildings, and
reducing customer wait time in the supplies
and materials ordering process.




DoD Performance and Accountability Report     9   Part 1: Management Discussion and Analysis
Financial Highlights
Key Financial information is summarized in            streamlined, integrated business processes
this section with detailed financial                  and systems.
information provided in Part 3 of this
report.                                               The Department also developed a transition
                                                      plan to help describe the transformation
Financial Overview                                    from the current business management
                                                      structure to the future business enterprise
                                                      architecture. The Department also initiated
                                                      a corporate governance process to help
The Department is continuing to improve its
                                                      implement the architecture.
business management practices. To remain
as the world’s premier military power, it can
                                                      During the next phase of business
do no less. The Department is currently
                                                      transformation, the Department will focus
teaming with IBM to transform our business
                                                      on business process reengineering by using
processes and systems through the
                                                      the architecture as the starting point for
Department’s Business Management
                                                      changing business processes. Concurrent
Modernization Program (http://www.dod.
                                                      with maintaining and extending the
mil/comptroller/bmmp/pages/index.html).
                                                      architecture, the Department will implement
This transformation effort is designed to
                                                      the transition plan and ensure cross-
better support the Department’s combat
                                                      functional management of business systems
forces and help achieve the Department’s
                                                      and processes.
strategic goals.
                                                      When the architecture is fully implemented,
Through this program, the Department
                                                      the Department will more effectively and
developed the initial version of a new
                                                      efficiently manage and account for
business enterprise architecture in
                                                      resources. Architecture implementation will
April 2003—on schedule and under budget.
                                                      also help enable the Department to obtain a
The architecture helps describe how the
                                                      favorable audit opinion on its financial
Department’s business processes and
                                                      statements.
systems will integrate to ensure that accurate
and timely financial information is readily
                                                      A summary of the Department’s business
available for decision makers. The
                                                      enterprise architecture implementation plan
architecture provides a foundation for
                                                      follows, identifying key actions, the status,
breaking down inefficient stovepipe
                                                      milestones, and costs.
processes and systems and effecting




DoD Performance and Accountability Report        10          Part 1: Management Discussion and Analysis
                      Defense Business Modernization Program Summary

         Action                         Status                     Milestone                  Cost
                                                                                          (thousands)
Business Enterprise          Version 1.0 delivered on     April 30, 2003                    $65,793
Architecture                 schedule.

Business Enterprise          Version 1.0 delivered on     April 30, 2003                     $9,559
Architecture Transition      schedule.
Plan
Business Process             Developing initial           April 30, 2004 – Business         $63,269
Reengineering                information exchanges,       Enterprise Architecture
                             data process models, and     and Transition Plan
                             business rules.              version 2.0

Overhauling the Department’s business and               The Department created detailed financial
financial management processes and                      improvement plans this year to obtain a
systems represents a major management                   favorable audit opinion on the fiscal
challenge that goes far beyond financial                year 2007 DoD-wide financial statements.
accounting. The Secretary and his senior                These improvement plans will be used to
leaders are committed to changing the                   provide disciplined leadership, identify
Department’s business culture, thus                     corrective actions, implement solutions, and
improving the Department’s combat support               plan for audits commensurate with
infrastructure.                                         management’s representations. Achieving
                                                        this goal is critical because a favorable
    Nearly 50 percent of the                            opinion provides independent assurance to
                                                        the public and other external users that the
    Department’s liabilities                            Department’s financial information is
    received favorable audit                            reliable and accurate.
    results
                                                        The Department’s Financial Indicators
The Department has already made progress                Program is aligned with the President’s
in transforming its business and financial              Management Agenda (discussed later) and
processes and systems. A number of the                  the risk management framework established
Department’s subordinate agencies                       in the Department’s strategic plan. The
including the Military Retirement Trust                 Financial Indicators Program provides the
Fund, the Defense Commissary Agency, the                framework for establishing executive-level
Defense Contract Audit Agency, and the                  performance goals and tracking results;
Defense Finance and Accounting Service                  designates key performance outcomes,
received favorable audit opinions on their              measures, and indicators; and assigns
financial statements this year. Nearly 50               responsibility for cascading performance
percent of the Department’s liabilities                 metrics to the individual component levels
received favorable audit results.                       within the Department.




DoD Performance and Accountability Report        11           Part 1: Management Discussion and Analysis
  Financial Statement                                  total cash seized as of September 30, 2003
                                                       was $2.5 billion and $2.1 billion was spent
  Analysis                                             to support the Iraqi people and Iraq
                                                       reconstruction effort.

                                                       Investments increased $24.8 billion
              Types of Assets                          primarily due to the receipt of funds for the
                                                       Department’s newly established Medicare
       Inventory     Other Assets                      Eligible Retiree Health Care Fund for retired
      and Related        3%
        Property
                                                       military members and their dependents.
          17%                        Property,                                 Assets
                                      Plant &
                                     Equipment                                     Fiscal    Fiscal
                                        40%                                        Year      Year                Change
                                                          Asset Type
                                                                                   2003      2002
Investments                                                                                Billions
   18%                                                 Property, Plant,             $446.3    $122.6               $323.7
                                                       and Equipment
                                                       Inventory and                $194.2          $146.2          $48.0
                                                       Related Property
                    Fund Balance
                                                       Fund Balance with            $252.0          $205.8          $46.2
                    with T reasury
                                                       Treasury
                         22%
                                                       Investments               $205.6             $180.8          $24.8
                                                       Other Assets               $31.8              $26.5           $5.3
                                                       Total                   $1,129.9             $681.9         $448.0
  Assets. The Consolidated Balance Sheet
  shows that DoD assets as of
  September 30, 2003, were $1,129.9 billion,
  a net increase of $448.0 billion (66%) from                  Types of Liabilities
  fiscal year 2002.
                                                                        Accounts
                                                                        Payable       Other Liabilities
  A new federal accounting standard requiring           Environmental     2%                3%
  military equipment (tanks, planes, ships,               Liabilities                                       Military
  etc.) and missiles to be included on the                   4%                                            Retirement
                                                                                                          Benefits and
  balance sheet caused Property, Plant, and                                                                  Other
  Equipment to increase $323.7 billion, and                                                               Employment
  Inventory and Related Property to increase                                                                Related
                                                                                                            Actuarial
  $48.0 billion.                                                                                           Liabilities
                                                                                                              91%
  Increased funding to fight the Global War
  on Terrorism and to conduct Operation Iraqi
  Freedom and Enduring Freedom in
  Afghanistan caused the Fund Balance with
  Treasury to increase $46.2 billion. In               Liabilities. The Consolidated Balance
  addition, a small portion ($387 million) of          Sheet shows that DoD liabilities as of
  the Fund Balance with Treasury increase is           September 30, 2003, were $1,558.6 billion,
  due to cash seized both inside and outside of        an increase of $107.3 billion (7%) from
  Iraq during Operation Iraqi Freedom. The             fiscal year 2002.

  DoD Performance and Accountability Report       12           Part 1: Management Discussion and Analysis
Military Retirement Benefits and Other                      due to fighting the Global War on
Employment Related Actuarial Liabilities                    Terrorism. As indicated by the table below,
increased $100.8 billion due to expected                    increases occurred in several major military
changes in liabilities related to interest and              programs to support this effort. Most
accrual costs, and the net effect of other                  notably, costs to pay military personnel
actuarial gains and losses such as: changes                 increased by $22.2 billion and costs to
in actuarial assumptions including medical                  operate, maintain, supply and transport
trend and salary increase, revised                          forces increased by $35.7 billion. In
methodology for the projection of reservists,               addition, the Department’s military
and a new military pay table.                               retirement costs increased $34.3 billion due
                                                            to increased actuarial liabilities. The
Accounts Payable increased $3.7 billion                     Consolidating Statement of Net Cost
which is primarily attributable to increased                provides a more detailed breakout of the
spending due to fighting the Global War on                  Department’s costs.
Terrorism, such as conducting Operation
Iraqi Freedom and Operation Enduring                                             Costs
Freedom.                                                                        Fiscal      Fiscal
                                                                                Year        Year       Change
                                                            Program Type
Environmental Liabilities increased                                             2003        2002
                                                                                           Billions
$2.1 billion primarily due to the Department                Military              $108.9       $86.7      $22.2
of the Army’s ongoing efforts to improve                    Personnel
their estimating for closed ranges requiring                Operation &           $176.2     $140.5       $35.7
environmental restoration.                                  Maintenance
                                                            Procurement            $60.0      $57.8        $2.2
                    Liabilities                             Research,              $51.1      $42.6        $8.5
                                                            Development,
                     Fiscal        Fiscal                   Test &
                     Year          Year      Change         Evaluation
 Liability Type
                     2003          2002
                                                            Military               $48.8      $14.5       $34.3
                                  Billions                  Retirement
Military            $1,429.6      $1,328.8    $100.8        Other Program          $67.3      $38.1      $29.2
Retirement
                                                            Total                 $512.3     $380.2     $132.1
Benefits and
other
Employment
Related Actuarial
                                                            Revenues. The Consolidated Statement of
Liabilities
Accounts               $28.0        $24.3       $3.7        Net Cost shows that the total revenues
Payable                                                     received by the Department for fiscal
Environmental          $61.5        $59.4       $2.1        year 2003 were $25.7 billion. This is a
Liabilities                                                 $3.7 billion (13%) decrease in revenues
Other Liabilities      $39.5         $38.8      $0.7        received in fiscal year 2002.
Total               $1,558.6      $1,451.3    $107.3
                                                            The decrease in revenues occurred primarily
Costs. The Consolidated Statement of Net                    due to the amount of interest earned by the
Cost shows that the total cost of operations                Military Retirement Fund. Interest on
for the Department of Defense for fiscal                    investments for this fund decreased from
year 2003 was $512.3 billion, an increase of                $12.4 billion to $10.0 billion due to falling
$132.1 billion (35%) from fiscal year 2002.                 interest rates on investments held in 2003.
The increased costs were primarily incurred

DoD Performance and Accountability Report              13          Part 1: Management Discussion and Analysis
                   Revenues                         Outlays. An outlay is a payment to
                  ($ in billions)                   liquidate an obligation (other than the
                                                    repayment of debt principal). Outlays
                                                    generally are equal to cash disbursements,
$30.0
                                                    but also are recorded for cash-equivalent
                                                    transactions, such as the subsidy cost of
$20.0
              $29.4                                 direct loans and loan guarantees, and interest
                                $25.7
                                                    accrued on public issues of public debt.
$10.0
                                                    Outlays are the measure of Government
                                                    spending. The Combined Statement of
 $0.0
        Fiscal Year 2002 Fiscal Year 2003           Budgetary Resources shows that outlays
                                                    made during fiscal year 2003 were
                                                    $468.6 billion, an increase of $77.0 billion
                                                    (20%) from fiscal year 2002.
Budget Authority. This is the authority
provided by law to incur financial
obligations that will result in outlays.               Statement of Budgetary Resources
Specific forms of budget authority include                       ($ in billions)
appropriations, borrowing authority,
                                                      $800.0
contract authority, and spending authority
from offsetting collections. The Combined             $600.0
Statement of Budgetary Resources shows                $400.0
that the amount of budget authority the
                                                      $200.0
Department had for fiscal year 2003 was
$626.4 billion. This is a $163.8 billion                $0.0
                                                                Budget     Obligations    Outlays
(35%) increase from fiscal year 2002.                          Authority
Increased funding to fight the Global War
on Terrorism caused this increase and the                        Fiscal Year 2002   Fiscal Year 2003
corresponding increases to both obligations
and outlays, which are discussed next.

Obligations. An obligation is a binding
agreement that will result in outlays,
immediately or in the future. Budgetary
resources must be available before
obligations can be incurred legally. The
Combined Statement of Budgetary
Resources shows that obligations made
during fiscal year 2003 were $669.8 billion,
an increase of $121.4 billion (22%) from
fiscal year 2002.




DoD Performance and Accountability Report      14         Part 1: Management Discussion and Analysis
Compliance with Legal and Regulatory
Requirements
Each year the Department works                      The Department created detailed financial
aggressively to comply with laws made by            improvement plans to obtain a favorable
Congress to ensure that the federal                 audit opinion on its fiscal year 2007
government provides the best possible               financial statements. These plans identify
service to the American people. Among               specific corrective actions, costs, and key
these laws are the:                                 milestones for improving the information
                                                    reported in the Department’s financial
•   Chief Financial Officers Act of 1990            statements.
•   Federal Managers’ Financial Integrity
    Act of 1982                                     During the fiscal year 2002 DoD-wide
•   Federal Financial Management                    financial statement audit, the auditors
    Improvement Act of 1996                         highlighted 13 financial statement
•   Inspector General Act Amendments of             weaknesses. The Department informed its
    1988                                            financial statement auditors that two of these
•   Improper Payments Information Act of            weaknesses relating to military retirement
    2002                                            health care liabilities and problem
•   Homeland Security Act of 2002                   disbursements were corrected in fiscal year
                                                    2003. A table summarizing the
                                                    Department’s remaining 11 financial
Chief Financial Officers                            statement weaknesses follows:
Act
The Chief Financial Officers Act requires
federal agencies to prepare auditable annual
financial statements. Each year, the
Department prepares annual financial
statements.

As discussed earlier, several of the
Department’s subordinate agencies have
received a favorable audit opinion on their
financial statements. However, to date, the
DoD-wide statements have received a
disclaimer of opinion from the auditors,
which means the statements are unauditable.




DoD Performance and Accountability Report      15         Part 1: Management Discussion and Analysis
Financial Statement                    Description                               Status
    Weakness
Financial                 DoD-wide systemic deficiencies in        The Department developed the
Management Systems        financial management systems and         initial version of a new business
                          business processes result in the         enterprise architecture. The
                          inability to collect and report          architecture helps describe how
                          financial and performance                the Department’s business
                          information that is accurate,            processes and systems will
                          reliable, and timely.                    integrate to ensure that accurate
                                                                   and timely financial information
                                                                   is readily available for decision
                                                                   makers. The Department
                                                                   expects to implement the
                                                                   financial management portion of
                                                                   the business architecture and
                                                                   correct this weakness by
                                                                   4th quarter, fiscal year 2006.

Intragovernmental         The inability to reconcile most          The Department is actively
Eliminations              intragovernmental transactions           working with other federal
                          results in adjustments that cannot       agencies to help resolve this
                          be verified.                             issue. Many of the problems
                                                                   will be corrected with the
                                                                   implementation of the
                                                                   government-wide
                                                                   intragovernmental transactions
                                                                   web-based portal and the
                                                                   Department’s business enterprise
                                                                   architecture over the next few
                                                                   years. The Department expects
                                                                   to resolve this weakness by
                                                                   4th quarter, fiscal year 2006.

Accounting Entries        The Department continues to enter        The Department has
                          material amounts of unsupported          implemented a training program
                          accounting entries.                      to minimize unsupported
                                                                   accounting entries. Total
                                                                   elimination of these entries is
                                                                   contingent upon full
                                                                   implementation of the
                                                                   Department’s business enterprise
                                                                   architecture. The Department
                                                                   expects to correct this weakness
                                                                   4th quarter, fiscal year 2006.



DoD Performance and Accountability Report       16             Part 1: Management Discussion and Analysis
Financial Statement                    Description                             Status
     Weakness
Fund Balance with         A significant amount of                 The Department strengthened
Treasury                  disbursements are not accurately        internal controls for
                          reported. Uncleared differences         disbursements through
                          exist between cash transactions         reconciliation training and
                          reported by the DoD and Treasury        metric tracking to more
                          Department’s records.                   accurately record disbursements.
                                                                  The Department also obtained
                                                                  legislation to clear old
                                                                  unreconcilable suspense
                                                                  accounts and check issue
                                                                  differences. The Department has
                                                                  a multi-phase program underway
                                                                  to enhance system functionality
                                                                  for improving expenditure
                                                                  reconciliation and reporting.
                                                                  The Department expects to clear
                                                                  this weakness by 4th quarter,
                                                                  fiscal year 2005.
Environmental             Guidance and audit trails are           The Department issued guidance
Liabilities               insufficient. The inventory of          in October 2002 and will issue
                          ranges and operational activities       additional guidance for on-going
                          (landfills, open burning pits, etc.) is operations within the next few
                          incomplete.                             months. An inventory of ranges
                                                                  is 95 percent complete and the
                                                                  operational ranges inventory will
                                                                  be completed by August 2004.
                                                                  The Department expects to
                                                                  correct this weakness by
                                                                  4th quarter, fiscal year 2004.
General Property,         The cost and depreciation of PP&E The Department implemented
Plant and Equipment       is not reliably reported due to (a) a   guidance and training to improve
(PP&E)                    new accounting requirement that         property accountability and
                          went into effect in fiscal year 2003 provide better financial
                          that classifies military equipment as reporting. We developed an
                          General PP&E, (b) a lack of             estimation model in coordination
                          supporting documentation for            with the Bureau of Economic
                          PP&E with long useful lives, and        Analysis to record a value for the
                          (c) most legacy property and            Department’s military equipment
                          logistics systems are not               in fiscal year 2003. We expect
                          integrated with acquisition and         complete and reliable PP&E
                          financial systems and were not          reporting by 4th quarter, fiscal
                          designed to capture the acquisition year 2005.
                          cost, cost of modifications and
                          upgrades or to calculate
                          depreciation.

DoD Performance and Accountability Report       17           Part 1: Management Discussion and Analysis
Financial Statement                    Description                                 Status
     Weakness
Government                The cost of DoD property and               The Department is working on
Furnished Material        material in the possession of              policy and processes to help
and Contractor            contractors is not reliably reported       correct this weakness.
Acquired Material         due to a lack of an integrated             Implementation of new policy
                          reporting methodology with                 and the Department’s business
                          industry.                                  enterprise architecture will
                                                                     eliminate this problem. The
                                                                     Department expects to correct
                                                                     this weakness by 4th quarter,
                                                                     fiscal year 2005.
Inventory                 The existing inventory valuation           We will publish and implement
                          method does not produce an                 policy that changes the
                          auditable approximation of                 Department’s inventory
                          historical cost because the                valuation method to moving-
                          associated gains and losses cannot         average-cost in fiscal year 2004.
                          be accurately tracked to specific          This new policy will allow the
                          items or purchases.                        Department to adequately
                                                                     capture necessary costs, gains,
                                                                     and losses. This policy and the
                                                                     implementation of the
                                                                     Department’s business enterprise
                                                                     architecture will correct this
                                                                     weakness by 4th quarter, fiscal
                                                                     year 2005.
Operating Materials       The Department’s systems were              The implementation of the
and Supplies              designed to expense materials when         Department’s business enterprise
                          purchased rather than when                 architecture will correct this
                          consumed.                                  weakness by 4th quarter, fiscal
                                                                     year 2005.
Statement of Net Cost The Statement of Net Cost is not               The implementation of the
                      presented by specific programs that            Department’s business enterprise
                      align with major goals and outputs             architecture will correct this
                      described in the Department’s                  weakness by 4th quarter, fiscal
                      strategic and performance plans                year 2006.
                      required by the Government
                      Performance and Results Act.
                      Revenues and expenses are
                      reported by appropriation
                      categories because financial
                      processes and systems do not
                      collect costs in line with
                      performance measures.


DoD Performance and Accountability Report       18               Part 1: Management Discussion and Analysis
Financial Statement                    Description                              Status
    Weakness
Statement of              The DoD cannot reconcile                The implementation of the
Financing                 budgetary obligations to net cost       Department’s business enterprise
                          without making unsupported              architecture will correct this
                          adjustments.                            weakness by 4th quarter, fiscal
                                                                  year 2006.


Federal Managers’                                     The Department uses periodic self-
                                                      assessments as the basis for the annual
Financial Integrity Act                               statement of assurance and reports
                                                      management control weaknesses relating to
The Federal Managers’ Financial Integrity             Sections 2 and 4 of this Act. Section 2
Act requires federal agencies to assess the           requires “internal accounting and
effectiveness of management, administrative           administrative controls that reasonably
and accounting controls, and financial                ensure costs comply with applicable laws,
management systems. Using self-                       assets are safeguarded, and revenue and
assessments as the basis, this Act requires           expenses are recorded and accounted for
agency heads to provide an annual statement           properly.” Section 4 requires that
of assurance on the effectiveness of the              “accounting systems conform to principles,
management controls and to include                    standards or related requirements prescribed
material weaknesses found in management               by the Comptroller General.”
controls that warrant reporting to a higher
level. The Department’s fiscal year 2003              The Department strongly encourages
Annual Statement of Assurance is provided             forthright reporting of material weaknesses
in the Deputy Secretary’s Message at the              in management controls on all operations
front of this report.                                 important to mission accomplishment of
                                                      defending our nation from adversaries,
Maintaining integrity and accountability in           foreign or domestic. As old weaknesses are
programs and operations:                              corrected, the same number or more may be
                                                      found and reported. Therefore, the
(1) is critical for good government,                  outstanding number of uncorrected
(2) demonstrates responsible stewardship              weaknesses may not change significantly
    over assets and resources,                        from one fiscal year to another. The
(3) promotes high-quality, responsible                Department monitors corrective activities
    leadership,                                       and does not allow milestone slippage
(4) enhances the sound delivery of services           without justification by senior leaders.
    to customers, and
(5) maximizes desired program outcomes.

The Department regularly monitors and
aggressively works to improve the
management control effectiveness of its
operations, programs and financial systems.



DoD Performance and Accountability Report       19            Part 1: Management Discussion and Analysis
The Department classifies management                The Department identified nine areas that
control weaknesses into 3 categories:               affect numerous DoD Components as
                                                    systemic weaknesses. The Department
                                                    identified the remaining 31 weaknesses as
  1. Section 2 Material Weaknesses:
                                                    material weaknesses affecting the individual
  Weaknesses in management controls
                                                    component as indicated on the table below.
  that warrant reporting to a higher level
  and usually affect a single DoD
                                                    In fiscal years 2002 and 2003, the
  Component.
                                                    Department reported one Section 4 System
                                                    Nonconformance Weakness which
  2. Section 2 Systemic Weaknesses:
                                                    encompasses the entire DoD financial
  Material Weaknesses that affect
                                                    system noncompliance with control
  management controls across
                                                    requirements. The Department also
  organizational and program lines and
                                                    considers DoD financial system’s
  usually affect multiple DoD
                                                    noncompliance as a systemic weakness
  Components.
                                                    affecting multiple DoD Components. In
                                                    addition, the auditors have identified DoD
  3. Section 4 System
                                                    financial systems as a material weakness
  Nonconformance Weaknesses:
                                                    under the requirements of the Chief
  Systems nonconformance with the
                                                    Financial Officers Act in both
  principles, standards or related
                                                    fiscal years 2002 and 2003.
  requirements prescribed by the
  Comptroller General.
                                                    The following table lists the systemic
                                                    weaknesses (9), material weaknesses (31),
Last fiscal year, the Department had 70             and system nonconformance weakness (1).
uncorrected material weaknesses. In fiscal          The material weaknesses are further divided
year 2003, the Department reported 10 new           into those adversely affecting the
weaknesses, corrected 25 weaknesses, and            Department’s financial operations, and those
consolidated the reporting of 15 additional         that adversely affect operations critical to
weaknesses, leaving 40 uncorrected                  the core mission of national defense or other
weaknesses at the end of fiscal year 2003.          critical DoD function. The systemic
Of the 10 new weaknesses, 2 are systemic            weakness correction dates reflect the
and 8 are material weaknesses.                      Department’s fiscal year 2003 position.


                                 Section 2 Systemic Weaknesses

1. DoD Financial Management Systems and Processes: DoD financial and business
management systems and processes are not fully integrated and do not provide information
that is reliable, timely and accurate. The estimated correction date is 4th Qtr, fiscal
year (FY) 2006.

2. Management of Information Technology and Assurance: DoD needs to better manage
information technology and needs assurance that information technology is adequately
protected. The estimated correction date is 3rd Qtr, FY 2007.



DoD Performance and Accountability Report     20          Part 1: Management Discussion and Analysis
                         Section 2 Systemic Weaknesses (Continued)

3. Environmental Liabilities: The DoD has not developed the policies, procedures, and
methodologies needed to ensure that cleanup costs for all of its ongoing and inactive or closed
operations are identified, consistently estimated, and appropriately reported. Site inventories
and cost methodologies to identify budget requirements and financial liabilities continue to
need improvement. The estimated correction date is 1st Qtr, FY 2006.

4. Personnel Security Investigations Program: DoD hiring is adversely affected because
personnel security investigations are backlogged. The estimated correction date is 4th Qtr,
FY 2004.

5. Real Property Infrastructure: The Department has not adequately managed the real
property infrastructure to halt the deterioration or obsolescence of facilities on military
installations. The estimated correction date is 1st Qtr, FY 2006.

6. Contracting for Services: Acquisition oversight is not always adequate when contracting
for DoD services and can result in failure to obtain the best value on individual procurements.
The estimated correction date is 2nd Qtr, FY 2005.

7. Government Card Program Management: Instances of misuse, abuse, and fraud in
respect to purchase and travel card use have been attributed to inadequate DoD emphasis on
proper use of the cards, poorly enforced controls, and lax oversight. The estimated correction
date is 4th Qtr, FY 2004.

8. Valuation of Plant, Property and Equipment on Financial Reports: The valuation of
general plant, property, and equipment is not always correctly reported. FY 2003 is the first
year DoD reported this as a systemic weakness. The estimated correction date is 4th Qtr,
FY 2006.

9. Valuation of Inventory on Financial Reports: The valuation of inventory is not always
correctly reported. FY 2003 is the first year DoD reported this as a systemic weakness. The
estimated correction date is 2nd Qtr, FY 2006.

                           Section 2 Financial Material Weaknesses
                                                                          Targeted Correction
                                                               FY                Date
                  Material Weaknesses                         First        As of      As of
                                                            Reported      FY 2002 FY 2003
                                                                          (Qtr / FY)    (Qtr / FY)
1. Adequate documentation does not always exist to
support adjustments used to reconcile general ledger
                                                               2003          N/A        1st / 2005
data to budgetary data. (Defense Finance and
Accounting Service)



DoD Performance and Accountability Report      21           Part 1: Management Discussion and Analysis
                    Section 2 Financial Material Weaknesses (Continued)
                                                                         Targeted Correction
                                                              FY                Date
                  Material Weaknesses                        First        As of      As of
                                                           Reported      FY 2002 FY 2003
                                                                         (Qtr / FY)    (Qtr / FY)
2. Policy for recording, reporting, collecting and
reconciling accounts receivable from public and
                                                              2003          N/A        4th / 2004
government sources is not always followed. (Defense
Finance and Accounting Service)

3. DoD components do not properly monitor the
estimation of accrued liabilities, when goods and
                                                              2003          N/A        2nd / 2004
services are provided. (Defense Finance and
Accounting Service)

4. Suspense account balances with the Treasury trial
balances are not fully resolved and reconciled. (Defense      1997       4th / 2003    4th / 2004
Finance and Accounting Service)

5. Appropriation balances in the accounting records do
not always balance with the Treasury’s balances and
                                                              1999       4th / 2003    4th / 2006
transaction level reconciliations are not always
performed. (Defense Finance and Accounting Service)

6. The actual loss of government funds could not
always be fully identified because of improper
disbursement transaction processing and inadequate            2002       4th / 2003    1st / 2004
documentation. (Defense Finance and Accounting
Service)

7. Due to inadequate supporting documents, freight
supply payments are not properly pre-certified before
                                                              1999       4th / 2003    4th / 2004
they are made. (Defense Finance and Accounting
Service)

8. Telecommunication invoices are not always certified
and obligations are not pre-validated prior to payment.       2001       4th / 2003    1st / 2004
(Defense Finance and Accounting Service)

9. Payments less than $2,500 are not always certified
and post payment audits are not always performed on
electronic vendor payments to verify that the supporting      2002       4th / 2003    4th / 2004
documentation is correct. (Defense Finance and
Accounting Service)


DoD Performance and Accountability Report     22           Part 1: Management Discussion and Analysis
                    Section 2 Financial Material Weaknesses (Continued)

                                                                           Targeted Correction
                                                                FY                Date
                  Material Weaknesses                          First        As of      As of
                                                             Reported      FY 2002 FY 2003
                                                                           (Qtr / FY)    (Qtr / FY)
10. Accounts receivable and accounts payable need to
be actively managed and reduced to acceptable levels.           2002       4th / 2003    4th / 2004
(Defense Logistics Agency)
11. Adequate management controls were not in place to
detect or prevent disbursements in excess of obligations.
                                                                1994       4th / 2003    2nd / 2004
(Office of the Under Secretary of Defense for
Comptroller)
12. The military pay system has made invalid payments
resulting in members separating from service in debt.           2003          N/A        4th / 2004
(Defense Finance and Accounting Service)

                        Section 2 Non-Financial Material Weaknesses

                                                                           Targeted Correction
                                                                FY                Date
                  Material Weaknesses                          First        As of      As of
                                                             Reported      FY 2002 FY 2003
                                                                           (Qtr / FY)    (Qtr / FY)

13. DoD’s capital investment process for information
technology does not confirm that the best investments
are selected, that they deliver expected benefits, or that      2002       4th / 2004    4th / 2004
the final product or service delivers what DoD expects.
(Defense Information Systems Agency)

14. Procedures are not always adequate to ensure that
the prices paid for contracts are reasonable. (Defense          2001       3rd / 2003    4th / 2004
Logistics Agency)

15. Payments for fuel charges incurred as part of the
DoD Fleet Card have been delinquent. (Defense                   2002       4th / 2003    4th / 2004
Logistics Agency)

16. Controls for assessing which employees can receive
mass transit benefits are not always adequate. (Defense         2003          N/A        4th / 2004
Logistics Agency)



DoD Performance and Accountability Report       23           Part 1: Management Discussion and Analysis
                 Section 2 Non-Financial Material Weaknesses (Continued)

                                                                         Targeted Correction
                                                              FY                Date
                  Material Weaknesses                        First         As of        As of
                                                           Reported       FY 2002      FY 2003
                                                                         (Qtr / FY)    (Qtr / FY)

17. Lack of oversight and guidance for cooperative
programs with other countries has placed DoD’s funds
                                                              2002       4th / 2003    4th / 2004
at risk of being allocated unnecessarily. (Defense
Threat Reduction Agency)

18. Better controls are needed to properly account for
proceeds from submarine dismantlement scrap revenues.         2001       4th / 2003    4th / 2004
(Defense Threat Reduction Agency)

19. Not all DoD components have completed essential
continuity of operations plans. (Defense Threat               2002       4th / 2003    1st / 2004
Reduction Agency)

20. Existing controls did not ensure that incidents of
sexual assault among the cadet population were                2003          N/A        4th / 2005
prevented or reported. (Air Force)

21. Responsible DoD officials failed to secure host
nation telecommunications agreements necessary to
                                                              1999       4th / 2004    4th / 2004
maximize the combat effectiveness of warfighters.
(Air Force)

22. Controls over management of spare parts were not
always adequate to meet the warfighter mission.               1999       4th / 2005    4th / 2005
(Air Force)

23. Better controls over efforts to provide safe areas
surrounding air installations are needed to minimize
                                                              2000       4th / 2004    4th / 2005
public exposure from the hazards of aircraft operations.
(Air Force)

24. DoD has not established guidance or effective
controls for processing line of duty and incapacitation
pay, which adversely affects reservists who attempt to        2002       4th / 2004    4th / 2005
receive benefits after their duty obligation is met.
(Army)




DoD Performance and Accountability Report      24          Part 1: Management Discussion and Analysis
                 Section 2 Non-Financial Material Weaknesses (Continued)

                                                                          Targeted Correction
                                                                                 Date
                                                               FY
                  Material Weaknesses                         First
                                                                            As of        As of
                                                            Reported
                                                                           FY 2002      FY 2003
                                                                          (Qtr / FY)    (Qtr / FY)

25. Current processes for managing workload, linking
workload to dollars required, or predicting future
manpower requirements have not been established.               1997        4th / 2005   4th / 2005
(Army)

26. Processes for reporting the readiness for going to
war are not always accurate and consistent. (Navy)             2002       4th / 2003    3rd / 2004


27. Some procedures for projecting training
requirements have not been adequate, causing inefficient
                                                               1999       4th / 2005    4th / 2006
use of training resources and lost operational work
years. (Navy)

28. Better management of Active and Reserve
recruiting functions is needed to maintain a ready force.      2001       4th / 2003    4th / 2004
(Navy)

29. Controls were not adequate to ensure that the
program manager of the Joint Chemical Agent
Detector—an Acquisition Category III program—
                                                               2003          N/A        1st / 2004
reported cost breaches to the acquisition program
baseline. (Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics)

30. DoD risks improperly storing Privacy Act
information on systems. (DoD Counterintelligence               2003          N/A        4th / 2004
Field Activity)

31. Automated management tools are needed to ensure
accountability of Reserve Component personnel from
home station to duty station and back home. (Army)             1988       4th / 2003    4th / 2004




DoD Performance and Accountability Report      25           Part 1: Management Discussion and Analysis
                         Section 4 System Nonconformance Weakness

                                                                                       Targeted
                                                                          FY
                                                                                      Correction
                         Material Weakness                               First
                                                                                         Date
                                                                       Reported
                                                                                      (Qtr / FY)

1. DoD Financial Management Systems: “Convoluted”
business processes that include superfluous process steps—driven
by overlapping accounting, operational, and organizational
                                                                          1998         4th / 2006
structures; and further complicated by aged and disparate
systems—have caused an inability to consistently provide reliable
financial and managerial data for effective decision-making.


Federal Financial                                     Department expects to meet all the
                                                      requirements of this Act.
Management Improvement
Act                                                   Inspector General Act
                                                      Amendments
The Federal Financial Management
Improvement Act requires federal agencies
                                                      The Inspector General Act Amendments
to conform to the United States Government
                                                      require explanation for all audit reports with
Standard General Ledger, comply with all
                                                      recommendations open for more than 1 year.
applicable federal accounting standards,
                                                      As of September 30, 2003, the Department
establish financial management systems that
                                                      had 218 audit reports open for more than
meet government-wide standards and
                                                      1 year. The total amount of monetary
requirements, and support full disclosure of
                                                      benefits that the Department can realize by
federal financial data, including the costs of
                                                      implementing recommendations from these
federal programs and activities.
                                                      reports is $821 million. The Department
                                                      closed out and implemented
The Department does not fully comply with
                                                      recommendations from 131 audit reports in
these requirements. However, as part of the
                                                      fiscal year 2003 with claimed monetary
Business Management Modernization
                                                      benefits of $777 million.
Program, the Department teamed with IBM
to develop an initial version of the business
enterprise architecture in April 2003 to help         Improper Payments
transform our business processes and                  Information Act
systems. The architecture helps describe
how the Department’s business processes
and systems will integrate to ensure accurate         The Improper Payments Information Act
and timely financial information is readily           requires federal agencies to report payments
available for decision makers. When the               that should not have been made or that were
architecture is fully implemented, the                made in an amount different than that
                                                      required by law, regulation or contract. The

DoD Performance and Accountability Report        26         Part 1: Management Discussion and Analysis
Office of Management and Budget Circular              tying of tubes, lysis of adhesions, and other
A-11, “Preparation, Submission and                    procedures that would result in a payment of
Execution of the Budget,” includes                    more than $10,000.
provisions implementing this Act.
                                                      A cost avoidance of $74 million was
In accordance with these provisions, the              realized in fiscal year 2002 and a cost
Department is reviewing all programs and              avoidance of $143 million is projected for
activities and identifying those which are            fiscal year 2003 as a result of military health
susceptible to significant improper                   benefits program rebundling edits.
payments. The Department will then
estimate the amount of improper payments              The Department projected $53.484 million
and establish goals to reduce the amount of           of improper payments (underpayments and
these payments. Programs that meet the                overpayments) for the military health
threshold criteria established in this                benefits program—purchased care
guidance will be reported in next year’s              program—in fiscal year 2003. This
report. Those not meeting the criteria will           represents an error rate of approximately
be tracked internally to ensure that all cost-        1.36% of the $3.9 billion in military health
effective measures are being taken to                 benefits program payments made during
minimize the amount of improper payments.             fiscal year 2003.

For fiscal year 2003, the Office of                   Military Retirement. The Department
Management and Budget Circular A-11                   conducts various types of prepayment and
requires the Department of Defense to report          postpayment reviews for military retirement
improper payments for only two programs:              payments. One example is that all payments
Military Health Benefits and Military                 more than $9,000 made to retirees and more
Retirement.                                           than $5,500 made to annuitants are
                                                      reviewed. Another example is a monthly
Military Health Benefits. The military                review of the retired pay file for similar
health benefits program has numerous                  social security numbers to minimize
prepayment and postpayment controls built             duplicate payments.
into the claims processing system to
minimize improper payments.                           The Department projected $33.087 million
                                                      of improper payments (underpayments and
One control is the claims edit system, which          overpayments) for the Military Retirement
rebundles services that should be billed              Program in fiscal year 2003. This represents
under a single comprehensive procedure                an error rate of 0.1% of the $32.7 billion in
code, but are broken out by medical service           military retirement payments made during
providers to increase reimbursement. This             fiscal year 2003.
is a fraudulent practice condemned by
national professional medical organizations.

An example of this practice is with a
                                                      Homeland Security Act
hysterectomy which bills out at a single
comprehensive code that might pay $3,500.             This Act established the Department of
An unbundled claim would list multiple                Homeland Security and requires certain
services to include exploratory surgery,              functions being performed by other federal

DoD Performance and Accountability Report        27          Part 1: Management Discussion and Analysis
agencies to be transferred to the Department
of Homeland Security. In accordance with
the provisions of this Act, the Department of
Defense transferred two programs and their
corresponding budgetary resources to the
Department of Homeland Security in fiscal
year 2003.

The Department of Defense transferred
$1.022 billion in budgetary resources to the
Department of Homeland Security. The
breakout for these transfers follows:

• $416.5 million from DoD Bioterrorism
  Initiatives funds
• $400.0 million from the Iraqi Freedom
  Fund
• $75.6 million from the Defense
  Emergency Response Fund
• $130.7 million for the National
  Communication System

These budgetary resources will be used to
pay for salary, benefits, contract, travel,
supplies, and other program costs at the
Department of Homeland Security.




DoD Performance and Accountability Report       28   Part 1: Management Discussion and Analysis
President’s Management Agenda
                            The Department
                            continues progress       3. Improving Financial Performance
                            towards                  involves improving the quality and
                            accomplishing            timeliness of financial information so that
                            President George W.      it can be used to reduce waste, fraud, and
                            Bush’s Management        abuse and manage federal programs more
                            Agenda. The goal of      effectively. Progress is achieved by
                            this Agenda is to        meeting various objectives such as
                            improve performance      maintaining financial systems that meet
                            in five key federal      federal requirements and obtaining
                            management areas:        favorable audit opinions on financial
                                                     statements.


1. Strategic Human Capital
Management is the transformation of how              4. Expanding Electronic Government is
we employ, deploy, develop and evaluate              designed to make better use of information
the workforce. It places the right people in         technology investments to eliminate
the right jobs to most effectively perform           wasteful federal spending, reduce
the work of the organization. Progress is            government’s paperwork burden on
achieved by meeting various objectives,              citizens and businesses, and improve
such as aligning human capital strategies            government response time to citizens.
with mission goals and developing a                  Progress is made by implementing
results-oriented performance culture that            government-wide or citizen-focused
rewards those who achieve desired results            information technology systems, and
and correct performance deficiencies.                developing business cases to support
                                                     funding for all major system purchases.




2. Competitive Sourcing is a process                 5. Budget and Performance Integration
used to determine if a government function           seeks to link budget decisions to program
should be contracted out. Its objective is to        performance. It gives dollars to programs
improve the efficiency and effectiveness of          that work and invokes reform, constraint,
activities the government performs so that           or cancellation of programs that do not
taxpayers get more value for their tax               work. Progress is attained by improving
dollar. Progress is measured by aspects,             performance plans and results
such as how well agencies implement                  measurement, generation of regular reports
competitive sourcing plans and the amount            that track spending to actual performance
of cost savings realized.                            and outcome goals.



DoD Performance and Accountability Report       29   Part 1: Management Discussion and Analysis
The Department’s progress and current                 The improvement in the Competitive
status ratings against the President’s                Sourcing initiative occurred because the
management goals in these five key federal            Department achieved its goal of competing at
management areas are depicted in the chart            least 15% (67,800) of its commercial
below. The scorecard employs a simple                 functions (452,000) with the private sector.
grading system: green for success, yellow
for mixed results, and red for unsatisfactory.        The improvement for Budget and
                                                      Performance Integration occurred due to the
The Department aggressively works each of             Department’s implementation of the Office
these five key federal management areas and           of Management and Budget’s Program
is making progress in each area. The                  Assessment Rating Tool for more than 20%
Department improved its Current Status for            of DoD’s programs in the fiscal year 2004
Human Capital, Competitive Sourcing, and              budget. This Tool assigns performance
Budget and Performance Integration from               scores to these programs and will eventually
red in fiscal year 2002 to yellow for fiscal          be used as a basis for management’s funding
year 2003.                                            decisions.

The improvement for Human Capital was
primarily the result of the Department
executing its strategic plan by developing a
de-layered, mission focused, and cost-
effective organizational structure.



   President’s Management Agenda Initiative                 Current Status            Progress
   Strategic Human Capital Management                             Yellow                 Green

   Competitive Sourcing                                           Yellow                Yellow

   Improving Financial Performance                                  Red                  Green

   Expanding Electronic Government                                  Red                  Green

   Budget and Performance Integration                             Yellow                 Green




DoD Performance and Accountability Report        30        Part 1: Management Discussion and Analysis
                Part 2:
        Performance Information




DoD Performance and Accountability Report
Performance Information
                                                                 duty and reserves—authorized and those
 Annual Performance                                              actually on-board. Consistent with statutory
 Goals and Results                                               requirements, the Department's goal is to be
                                                                 within 2% of the number of military
                                                                 personnel authorized by Congress. The
As discussed in Part 1, “Management                              Department met this goal the past 4 years,
Discussion and Analysis,” the Department                         but did not meet the goal for fiscal year
established fiscal year 2003 performance                         2003. By authority granted by executive
goals that display leading performance                           order and law, the statutory requirements
trends and demonstrate how well the                              were waived, and Services exceeded the
Department is progressing toward achieving                       authorized number of personnel in order to
its strategic performance goals. These                           have sufficient forces to fight the Global
measures meet the conditions of the                              War on Terror.
Government Performance and Results Act
of 1993. Key performance results for fiscal
year 2003 are provided below. Part 5,                                             Military Personnel
“Appendix A,” of this report displays                                           (Actual vs. Authorized)
detailed information on these measures.                          4.0
                                                                 3.0                                          2.4
                                                    % Variance




The performance goals, measures, and
                                                                 2.0                                1.5
results mentioned below portray only some
                                                                 1.0
of the Department’s fiscal year 2003                                             0.0      0.2
                                                                 0.0
performance measures used to manage risk
                                                                 -1.0
during the year. Performance results for all                            -0.7

measures were not available in time for                          -2.0
publication. However, they will be included                             1999    2000     2001      2002      2003
in next year’s report. In addition, the 2003
Annual Defense Report (http://www.
                                                                 Outcome Goal: Meet Military Recruiting
defenselink.mil/execsec/adr2003/) describes                      Goals. The Department’s goal is that at
the Department’s ongoing efforts to develop                      least 90% of new military recruits have a
additional performance measures and to                           high school diploma and that at least 60%
further refine and improve the suite of                          have an Armed Forces Qualification Test
metrics used to manage DoD’s performance.                        (AFQT) score at or above the average score
                                                                 of 50. In the aggregate, the Department met
                                                                 these goals for fiscal year 2003, which is the
  Reducing Force Management Risk                                 12th year in a row that the Department has
                                                                 met its aggregate level goals. The Military
                                                                 Departments’ Active Component exceeded
Outcome Goal: Maintain Manning Levels                            the high school diploma graduates goal and
of Military Forces. The following graph                          the AFQT score goal for fiscal year 2003.
displays the percentage variance for the                         The Reserve Component did meet the AFQT
number of military personnel—both active                         score goal, but the Army National Guard

DoD Performance and Accountability Report      31                                 Part 2: Performance Information
and Naval Reserve achieved only 84% high                             goals, in the aggregate, with an overall
school diploma graduates, and the Air                                attrition rate of 18.4%—the lowest since
National Guard was unable to report a                                1991. This was primarily due to the Reserve
satisfactory rate of high school diploma                             Component’s ongoing support of the war on
graduates due to data system difficulties.                           terrorism, as well as the implementation of
                                                                     “stop loss” programs that minimize attrition
                                                                     in certain military positions.
               Military Recruiting
                                                                     Outcome Goal: Satisfaction with Military
  92%         92%         91%          92%         92%
                                                                     Health Care. The Department’s fiscal
                    66%         65%
                                             68%         69%         year 2003 goal was to meet or exceed the
        66%
                                                                     private sector civilian average for
                                                                     satisfaction with health plan (59%). While
                                                                     there has been substantial improvement in
                                                                     DoD’s health plan satisfaction in fiscal
  1999         2000       2001         2002        2003              year 2003 (from 46% to 51%), it did not
        High School Diploma      AFQT score at/above 50              meet the private sector civilian average,
                                                                     which also increased significantly during
                                                                     fiscal year 2003. One significant reason for
Outcome Goal: Meet Military Retention                                DoD’s improvement is better performance
Goals. To maintain adequate force levels                             in the area of claims processing, where 99%
the Department actively monitors military                            of the claims are being processed within 30
retention trends. In the Active Component,                           days, compared to 97% for fiscal year 2002.
the Department measures the retention rates,                         In addition to claims processing, customer
which is generally defined as the number of                          service and access to medical service
service members who elect to extend their                            improvements will be needed to achieve the
commitments as a percentage of those                                 ultimate goal of meeting and exceeding the
eligible to reenlist. In the Reserve                                 civilian average.
Component, the Department tracks attrition
rates, which is the total number of Reserve
Component personnel who leave service                                 "Ve ry Satisfie d" with Military He alth Plan
during the year divided by the average
number of personnel on board for the year.                          60%
                                                                    50%
In fiscal year 2003, the Army and Navy met                          40%
or exceeded all of their retention goals, but                       30%
the Air Force and Marine Corps missed                               20%
some of their goals. We expect the effects                          10%
of an improving economy and the waning                              0%
emotional patriotic high of decisive victory                                    2002                    2003
in Operation Iraqi Freedom will combine to                                              Actual   Goal
increase pressure on our retention programs.

In addition, the Department met its fiscal
year 2003 Reserve Component attrition

DoD Performance and Accountability Report                      32                      Part 2: Performance Information
                                                      in nature. The Theater Engagement Plans
      Reducing Operational Risk                       did not describe how Combatant Command
                                                      activities aligned with activities managed by
                                                      the Defense Agencies. Accordingly, two
Outcome Goal: Joint Operations                        years ago, the Department decided to
Concepts. The Joint Operations Concepts               restructure this approach and refocus the
will describe how the Joint Force, to include         efforts of the Combatant Commands, the
the Army, Navy, Air Force, Marines and                Military Departments, and Defense
Special Operations forces, intends to operate         Agencies around a set of common regional
across the entire range of military operations        security cooperation goals.
within the next 15 to 20 years. The Joint
Operations Concepts were chartered to                 In April 2003, the Department issued new
identify seven desired attributes and eight           security cooperation guidance intended to
common core capabilities of the future joint          guide the Department—and specifically the
military force. It links the strategy to              Combatant Commands—in developing
capability-based planning, creates joint              fiscal year 2004 strategies that include
experimentation and transformation                    qualitative performance goals. The
roadmaps, and is the foundation for                   Department will also develop quantitative
developing and improving capabilities                 measures of effectiveness that will be
across the domains of air, land, sea, space,          incorporated into the security cooperation
and information.                                      strategies by fiscal year 2005.

During 2003, the Department’s Joint                   Outcome Goal: Defense Readiness
Operations Concepts were approved and                 Reporting System: For many years, we
four subordinate Joint Operating Concepts             have relied primarily on the classified
were developed: major combat operations,              Global Status of Resources and Training
stability operations, homeland security, and          System reports maintained by all the
strategic deterrence. The Department also             military departments to track actual
defined five joint functional concepts:               personnel levels, equipment stocks, and
battlespace awareness, joint command and              training performance against Military
control, force application, focused logistics,        Department identified benchmarks.
and protection. These concepts will be sent           However, this System does not capture
to the Secretary of Defense for final                 performance information for joint missions
approval in February 2004.                            or for the full range of missions beyond a
                                                      major regional contingency, such as those
Outcome Goal: Security Cooperation.                   required to prosecute a successful war on
Prior to 2001, program plans for conducting           terrorism.
overseas security cooperation activities,
such as combined military exercises and               Accordingly, the Department has undertaken
military-to-military exchanges, were                  a fundamental overhaul of its readiness
collected in Theater Engagement Plans                 reporting process. The Defense Readiness
prepared by the regional Combatant                    Reporting System successfully completed a
Commands. Theater Engagement Plan                     proof-of-concept demonstration in fiscal
activities were linked to resources via a             year 2003, which prompted the Department
database that was only fiscally quantitative          to issue implementing guidance for these

DoD Performance and Accountability Report        33                    Part 2: Performance Information
modern readiness assessment tools. This                In March 2003, we completed a
guidance contains specific activities for all          Department-wide evaluation of the lessons-
DoD Components to begin implementing                   learned from Millennium Challenge 2000,
the vision behind Department-wide                      the first joint exercise conducted by U.S.
readiness.                                             Joint Forces Command. In June 2003, the
                                                       Chairman of the Joint Chiefs of Staff
The Department also began testing several              published joint experiment performance
automated tools to assess operational risk             goals for fiscal years 2004 and 2005.
and measure shortfalls. These tools further
highlight the shortcomings of current                  Also during fiscal year 2003, the
readiness systems. The results from these              Department’s lead for joint experimentation,
assessments, performed in days rather than             the U.S. Joint Forces Command, co-
the weeks needed by current processes,                 sponsored wargames and experiments with
demonstrate significant promise in shaping             the Navy and the Army. In addition, U.S.
the Department’s readiness discussions in              Joint Forces Command conducted its own
preparation for future contingencies. The              joint experiment. Each of these events
Department selected a prime contractor to              focused on new warfighting concepts—the
develop and implement the Enhanced Status              joint operational concepts and joint
of Resources and Training System with                  functional concepts described under
initial operational capability in fiscal               Operational Risk earlier—that are part of the
year 2004 and full operational capability              Department’s transformation process. In
during fiscal year 2007. The Department                December 2003, the Department completed
has established performance goals to track             its draft update of the Joint Experimentation
the activities required to successfully                Campaign Plan for fiscal year 2004.
implement this system Department-wide.
                                                       Outcome Goal: Establish a Standing
                                                       Joint Force Headquarters. The concept of
                                                       organizing forces under a joint task force
Reducing Future Challenges Risk                        commander has been used to great effect
                                                       since the Gulf War of 1990. However, each
                                                       time we respond to a crisis, we must create
                                                       these joint organizations from scratch,
Outcome Goal: Experiment with New                      siphoning people and equipment from other
Warfare Concepts. The Department is                    commands—and when the emergency is
crafting a Joint Experimentation Campaign              over, these high-functioning units disband.
Plan that will explore concepts developed
both inside and outside of the Department              The Department is in the process of creating
that could improve how the Department                  permanent joint headquarters for each of our
commands and controls joint forces across              combatant commands worldwide. These
the battle space in cities, jungles, mountains,        headquarters will be equipped with the most
or forests. Our goal is to set in motion a             capable command, control, computers,
process of continuing transformation and a             communications, intelligence, and
culture that will keep the United States               surveillance assets we have available. The
several steps ahead of any potential                   permanent staff will be trained to a common
adversaries.

DoD Performance and Accountability Report         34                   Part 2: Performance Information
standard and be expert about how joint               progress toward achieving the goals outlined
forces function in battle.                           in the training transformation plan.

In fiscal year 2003, the Department                  Outcome Goal: Monitor the Status of
established a Functional Capability Review           Defense Technology Objectives.
board, chaired by the Commander, U.S.                Technological superiority has been, and
Joint Forces Command to oversee                      continues to be, a cornerstone of the national
implementation of the Standing Joint Force           military strategy. Technologies such as
Headquarters. The U.S. Joint Forces                  radar, jet engines, nuclear weapons, night
Command developed a prototype and                    vision, smart weapons, stealth, the Global
defined standard operating procedures for            Positioning System, and vastly more capable
the Standing Joint Force Headquarters. The           information management systems have
model concept for a Standing Joint Force             changed warfare dramatically. Maintaining
Headquarters will be ready for testing by the        this technological edge has become even
end of fiscal year 2004, with the goal of            more important as the size of U.S. forces
fielding the model globally to regional              decreases and high-technology weapons are
Combatant Commands during fiscal                     now readily available on the world market.
year 2005.
                                                     The Department’s investments in science
Outcome Goal: Transform DoD                          and technology are focused and guided
Training. The dramatic transformation of             through a series of Defense Technology
America’s strategic environment demands              Objectives. Each of these objectives
an equally dramatic transformation in how            highlights a specific technological
we prepare the force. Accordingly, the               advancement that will be developed or
Department must also transform the                   demonstrated, the anticipated date the
methods used to train its military forces. On        technology will be available, and the
June 10, 2003, the Deputy Secretary of               specific benefits that should result from the
Defense signed the training transformation           technological advance.
implementation plan (www.t2net.org). This
plan provides a road map to developing and           Every two years, independent peer review
fielding dynamic, capabilities-based training        panels composed of approximately six
to Active and Reserve Components; federal,           experts in relevant technical fields assess the
state, and local agencies; and our                   Defense Technology Objectives for each
international security partners, including           program. At least two-thirds of the team
nongovernmental organizations.                       members are from academia, private
                                                     industry, and other U.S. Government
The Department completed one of three                agencies. The reviews are conducted
tasks scheduled for fiscal year 2003 by              openly; observation by stakeholders is
restructuring the implementation plan to             welcomed. The teams assess progress
focus on measuring training outputs instead          against three factors—technical approach,
of tracking ongoing developmental                    funding, and technical progress.
activities. Accordingly, beginning in fiscal
year 2004, the Department will begin using           The independent peer review panel rated
output-oriented performance metrics to track         96% of the Department’s Defense
                                                     Technology Objectives as progressing

DoD Performance and Accountability Report       35                    Part 2: Performance Information
satisfactorily for fiscal year 2003. This is            months) from program start to initial
well above the Department’s goal of 70%.                operating capability. To reverse this trend,
The Department has greatly exceeded this                we have set a goal for reducing the average
goal for several years now, however, due to             acquisition cycle time for major defense
the inherent high risk of failure in                    acquisition programs started since 1992.
technology development, the goal will be                The goal is to reduce the cycle by 25%—to
maintained at 70%.                                      less than 99 months or about 8 years. Over
                                                        the long term, we want to cut average cycle
                                                        time to less than 5-1/2 years (66 months) for
                                                        all major defense acquisition programs
    Reducing Institutional Risk                         started after fiscal year 2001. To achieve
                                                        that objective, the Department is introducing
                                                        improvements to development and
Outcome Goal: Reduce Major Defense                      production schedules similar to those it
Acquisition Program Cycle Time.                         initiated for managing system performance
Acquisition cycle time is the elapsed time, in          and cost.
months, from program initiation until the
system attains initial operational                      The Department restructured a significant
capability—that is, when the product works              number of programs during fiscal year 2003.
as designed and is fielded to operational               In addition, during the program and budget
units. The Department measures the                      reviews, several programs, such as the Black
average cycle time across all major defense             Hawk helicopter upgrade, Land Warrior
acquisition programs (new equipment or                  soldier system, and the Wideband Gapfiller
material systems that cost more than                    Satellite, were realigned to improve
$365 million in fiscal year 2000 constant               schedule estimates, which extended their
dollars to research and develop, and more               cycle times. Although only a few such
than $2 billion to procure and field).                  programs were extended, this caused the
Since more than a third of the annual                   Department’s overall average cycle time to
defense budget goes to buying and operating             increase from 103 months in fiscal
major weapons systems, the Department                   year 2002 to 104 months in fiscal year 2003.
must understand how quickly new
technologies are moving from the drawing                Outcome Goal: Reduce Percentage of
board to the field. This performance                    DoD Budget Spent on Infrastructure.
measure is a leading indicator of technology            The share of the defense budget devoted to
transfer—typically, the faster a program                infrastructure is one of the principal
moves toward fielding, the quicker                      measures the Department uses to gauge
associated operational improvements can be              progress toward achieving its infrastructure
introduced to the force, and the easier it is to        reduction goals. A downward trend in this
control overall program costs.                          metric indicates that the balance is shifting
                                                        toward less infrastructure and more mission
During the 1960s, a typical acquisition took            programs. The Department estimates that it
7 years (84 months) from initiating research            allocated about 42% of the defense’s budget
and development activities to achieving                 to infrastructure activities in fiscal
initial operating capability. By 1996, a                year 2003, down from 44% last year.
similar acquisition required 11 years (132

DoD Performance and Accountability Report          36                    Part 2: Performance Information
         Percentage of DoD Budget Spent on                all expected service life benchmarks,
          Infrastructure (lagged indicator)               weighted by the value of the facilities
60%                                                       represented by each benchmark, is 67 years.
50%

40%
                                                          The Department had a recapitalization rate
                                                          of 149 years for fiscal year 2003 and has
30%
                                                          made progress in reducing the 200+ year
20%                                                       recapitalization rate average in 1999.
10%                                                       However, it is still well above the goal of a
0%                                                        67-year recapitalization rate.
      1998   1999   2000    2001    2002      2003


                                                                        Facilities Recapitilization Rate
 (Note: This is a lagged indicator since the
                                                                  250
 Department updates the percentage of the
 budget spent on infrastructure each time the                     200
 President’s budget projections are revised.
                                                                  150

                                                          Years
 Also, the Department normalizes previous
 years’ data to adjust for the effect of                          100
 definitional changes that may generate
                                                                  50
 inaccurate data. Because of these
 adjustments, there may be slight shifts                            0
                                                                        2000      2001       2002      2003
 upward or downward in previously reported
 results.)

                                                          Outcome Goal: Eliminate Inadequate
 Outcome Goal: Fund to a 67-Year                          Family Housing by 2007. As part of our
 Recapitalization Rate by 2007. The                       commitment to improving the quality of life
 Facilities Recapitalization Metric measures              for service members and their families, the
 the rate at which an inventory of facilities is          Army, Navy, and Marine Corps are
 being “recapitalized”—that is, modernized                committed to eliminating inadequate family
 or restored. Recapitalization may mean a                 housing by the end of fiscal year 2007; the
 facility has been totally replaced or                    Air Force will reach that goal within the
 recapitalization can occur in increments over            continental United States in 2008 and
 time, until the facility is upgraded                     overseas by 2009.
 sufficiently to meet acceptable standards.
                                                          Each military department has developed a
 The Department’s recapitalization                        Family Housing Master Plan that outlines,
 performance goal is based on the average                 by year, what needs to happen to achieve
 expected service life of its overall facilities          these goals within the Department’s
 inventory. For example, the expected                     $4 billion annual budget for military
 service life of a pier is 75 years, and the              housing.
 expected service life of a dental clinic is 50
 years—provided the facilities are fully                  To date, the Department has upgraded about
 sustained during that time. The average of               38,000 family housing units through

 DoD Performance and Accountability Report           37                         Part 2: Performance Information
   privatization. During fiscal year 2003, more              Department to monitor the time it takes to
   than 14,000 family housing units were                     fulfill these orders, which indicates the
   revitalized, demolished, or placed in the                 entire logistics system’s responsiveness to
   hands of private-sector firms for                         internal DoD customers’ needs.
   refurbishment and management. However,
   129,955 (51%) of all family housing units                 As of June 30, 2003, the Department’s fiscal
   lived in by service members during fiscal                 year 2003 customer wait time was 19 days.
   year 2003 rate as “inadequate” because they               The Department projects that it will not
   needed a major repair, a key component                    meet its 16 days goal for fiscal year 2003.
   (like a furnace or kitchen) replaced, or were             This is mainly due to the increase in demand
   so rundown they needed complete                           for critical items and delays in closing out
   renovation.                                               transactions caused by Operation Iraqi
                                                             Freedom.
          Number of Inadquate Family Housing Units

                                                                                               Customer Wait Time
200,000
                                                                                   25


                                                          Average Number of Days
150,000                                                                            20

100,000                                                                            15

                                                                                   10
 50,000
                                                                                   5
     0
              2000      2001      2002       2003                                  0
                                                                                        2001           2002            2003




   Outcome Goal: Reduce Customer
   Wait Time to 15 days, on Average, by
   fiscal year 2004. In the past, good logistics
   performance meant holding large
   inventories—today, all Military
   Departments have agreed on a common set
   of business rules for monitoring the
   performance of the entire logistics
   enterprise. As part of this common set of
   business rules, the Department measures
   internal DoD customer wait time to assess
   its logistics performance. Customer wait
   time is modeled after commercial industry
   best practices. Customer wait time is
   measured as the elapsed time from order to
   receipt when a customer orders supplies or
   materials. This measure allows the

   DoD Performance and Accountability Report         38                                        Part 2: Performance Information
                     Part 3:
              Financial Information




DoD Performance and Accountability Report
                Principal Financial
               Statements and Notes




DoD Performance and Accountability Report
Department of Defense
Agency Wide
CONSOLIDATED BALANCE SHEET
As of September 30, 2003 and 2002
   ($ in Millions)
                                                                 2003 Consolidated           2002 Consolidated
                                                                                                 Restated

1. ASSETS (Note 2)
    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
           a. Entity                                        $              251,544.1    $               205,278.8
          b. Non-Entity Seized Iraqi Cash                                     278.1                            0.0
          c. Non-Entity-Other                                                 239.8                          537.4
        2. Investments (Note 4)                                            205,376.0                    180,804.5
        3. Accounts Receivable (Note 5)                                      1,066.6                       1,121.9
        4. Other Assets (Note 6)                                              105.0                            0.1
        5. Total Intragovernmental Assets                   $              458,609.6    $               387,742.7
    B. Cash and Other Monetary Assets (Note 7)              $                1,534.9    $                    742.7
    C. Accounts Receivable (Note 5)                                          7,299.9                       6,341.9
    D. Loans Receivable (Note 8)                                                64.0                          44.2
    E. Inventory and Related Property (Note 9)                             194,174.1                    146,198.6
    F. General Property, Plant and Equipment (Note 10)                     446,308.9                    122,569.7
    G. Investments (Note 4)                                                   217.8                            0.0
    H. Other Assets (Note 6)                                                21,729.6                      18,245.8
2. TOTAL ASSETS                                             $            1,129,938.8    $               681,885.6
3. LIABILITIES (Note 11)
     A. Intragovernmental:
         1. Accounts Payable (Note 12)                      $                 101.3     $                     85.8
        2. Debt (Note 13)                                                     698.2                          874.3
        3. Environmental Liabilities (Note 14)                                   0.0                           0.0
        4. Other Liabilities (Note 15 & Note 16)                             9,739.1                       8,213.6
        5. Total Intragovernmental Liabilities              $               10,538.6    $                  9,173.7
    B. Accounts Payable (Note 12)                           $               27,863.8    $                 24,182.4
    C. Military Retirement Benefits and Other Employment-                1,429,565.5                   1,328,826.5
        Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                  61,490.6                      59,353.1
    E. Loan Guarantee Liability (Note 8)                                        25.9                          10.8
    F. Other Liabilities (Note 15 & Note 16)                                29,109.3                      29,795.3
   G. Debt Held by Public (Note 13)                                              0.0                           0.0
4. TOTAL LIABILITIES                                        $            1,558,593.7    $              1,451,341.8
5. NET POSITION
    A. Unexpended Appropriations (Note 18)                  $              192,955.8    $               177,282.6
    B. Cumulative Results of Operations                                  (621,610.7)                   (946,738.8)
6. TOTAL NET POSITION                                       $            (428,654.9)    $              (769,456.2)
7. TOTAL LIABILITIES AND NET POSITION                       $            1,129,938.8    $               681,885.6




  DoD Performance and Accountability Report                 39                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
    ($ in Millions)
                                                             2003 Consolidated           2002 Consolidated
                                                                                             Restated

1. Program Costs
      A. Intragovernmental Gross Costs                  $               11,748.3    $                 10,714.1
     B. (Less: Intragovernmental Earned Revenue)                      (13,239.0)                    (15,586.8)
     C. Intragovernmental Net Costs                     $              (1,490.7)    $                (4,872.7)
     D. Gross Costs With the Public                                    526,288.4                    398,956.8
     E. (Less: Earned Revenue From the Public)                        (12,507.1)                    (13,876.7)
     F. Net Costs With the Public                       $              513,781.3    $               385,080.1
     G. Total Net Cost                                  $              512,290.6    $               380,207.4
2. Cost Not Assigned to Programs                                             0.0                           0.0
3. (Less:Earned Revenue Not Attributable to Programs)                        0.0                           0.0
4. Net Cost of Operations                               $              512,290.6    $               380,207.4




  DoD Performance and Accountability Report             40                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
     ($ in Millions)
                                                                          2003 Consolidated           2002 Consolidated
                                                                                                          Restated

CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                                $            (946,947.7)    $              (874,049.9)
2. Prior period adjustments (+/-)                                                   383,283.8                    (61,760.0)
3. Beginning Balances, as adjusted                                                (563,663.9)                   (935,809.9)
4. Budgetary Financing Sources:
    4.A. Appropriations received                                                          0.0                           0.0
       4.B. Appropriations transferred-in/out (+/-)                                       0.0                           0.0
       4.C. Other adjustments (rescissions, etc) (+/-)                                 (13.0)                           0.0
       4.D. Appropriations used                                                     457,461.9                    361,217.8
       4.E. Nonexchange revenue                                                        931.2                        1,236.5
       4.F. Donations and forfeitures of cash and cash equivalents                       24.4                          24.1
      4.G. Transfers-in/out without reimbursement (+/-)                               1,329.2                       (706.7)
      4.H. Other budgetary financing sources (+/-)                                  (2,867.4)                       3,225.5
5. Other Financing Sources:
    5.A. Donations and forfeitures of property                                            4.6                           0.3
       5.B. Transfers-in/out without reimbursement (+/-)                            (6,702.1)                         744.3
       5.C. Imputed financing from costs absorbed by others                           3,866.9                       3,520.0
       5.D. Other (+/-)                                                                308.1                           16.7
6.    Total Financing Sources                                                       454,343.8                    369,278.5
7.    Net Cost of Operations (+/-)                                                  512,290.6                    380,207.4
8.    Ending Balances                                                $            (621,610.7)    $              (946,738.8)




     DoD Performance and Accountability Report                       41                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
    ($ in Millions)
                                                                          2003 Consolidated           2002 Consolidated
                                                                                                          Restated

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                                $              177,282.6    $               163,190.6
2. Prior period adjustments (+/-)                                                         0.0                       1,553.3
3. Beginning Balances, as adjusted                                                  177,282.6                    164,743.9
4. Budgetary Financing Sources:
    4.A. Appropriations received                                                    477,036.7                    365,636.4
       4.B. Appropriations transferred-in/out (+/-)                                   1,217.8                       9,389.2
       4.C. Other adjustments (rescissions, etc) (+/-)                              (5,137.1)                     (2,707.4)
       4.D. Appropriations used                                                   (457,444.2)                   (359,779.5)
       4.E. Nonexchange revenue                                                           0.0                           0.0
       4.F. Donations and forfeitures of cash and cash equivalents                        0.0                           0.0
      4.G. Transfers-in/out without reimbursement (+/-)                                   0.0                           0.0
      4.H. Other budgetary financing sources (+/-)                                        0.0                           0.0
5. Other Financing Sources:
    5.A. Donations and forfeitures of property                                            0.0                           0.0
       5.B. Transfers-in/out without reimbursement (+/-)                                  0.0                           0.0
       5.C. Imputed financing from costs absorbed by others                               0.0                           0.0
       5.D. Other (+/-)                                                                   0.0                           0.0
6.    Total Financing Sources                                                        15,673.2                      12,538.7
7.    Net Cost of Operations (+/-)                                                        0.0                           0.0
8.    Ending Balances                                                $              192,955.8    $               177,282.6




     DoD Performance and Accountability Report                       42                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
    ($ in Millions)
                                                                 2003 Combined                2002 Combined
                                                                                                 Restated

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
1. Budget Authority:
   1a. Appropriations received                              $           546,761.4       $               415,113.9
   1b. Borrowing authority                                                       0.0                           0.0
   1c. Contract authority                                                28,109.0                          2,318.0
   1d. Net transfers (+/-)                                                1,000.3                            986.6
   1e. Other                                                                     0.0                           0.0
2. Unobligated balance:
   2a. Beginning of period                                              217,722.3                       210,128.9
   2b. Net transfers, actual (+/-)                                          204.3                          9,107.7
   2c. Anticipated Transfers balances                                            0.0                           0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                    0.0                           0.0
      1. Collected                                                      135,587.2                       117,942.4
      2. Receivable from Federal sources                                   (714.6)                       (1,116.6)
   3b. Change in unfilled customer orders                                        0.0                           0.0
      1. Advance received                                                   (30.6)                           185.9
      2. Without advance from Federal sources                            11,000.9                          3,576.2
   3c. Anticipated for the rest of year, without advances                        0.0                           0.0
   3d. Transfers from trust funds                                                0.0                           0.0
   3e. Subtotal                                                         145,842.9                       120,587.9
4. Recoveries of prior year obligations                                  22,841.9                         15,293.1
5. Temporarily not available pursuant to Public Law                              0.0                           0.0
6. Permanently not available                                            (33,730.4)                       (7,954.7)
7. Total Budgetary Resources                                $           928,751.7       $               765,581.4




  DoD Performance and Accountability Report                 43                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
    ($ in Millions)
                                                            2003 Combined              2002 Combined
                                                                                          Restated

STATUS OF BUDGETARY RESOURCES
8. Obligations incurred:
   8a. Direct                                          $           522,562.4     $               420,239.6
   8b. Reimbursable                                                147,147.8                     128,030.3
   8c. Subtotal                                                    669,710.2                     548,269.9
9. Unobligated balance:
   9a. Apportioned                                                  55,052.0                       40,917.6
   9b. Exempt from apportionment                                   180,704.3                     171,560.5
   9c. Other available                                                  (0.1)                          (0.1)
10. Unobligated Balances Not Available                              23,285.3                        4,833.5
11. Total, Status of Budgetary Resources               $           928,751.7     $               765,581.4
RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period       $           181,919.4     $               162,829.3
13. Obligated Balance transferred, net (+/-)                           (23.9)                           0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                        (10,216.4)                    (10,929.3)
   14b. Unfilled customer order from Federal sources               (38,422.1)                    (27,421.1)
   14c. Undelivered orders                                         213,597.8                     176,183.8
   14d. Accounts payable                                            49,412.6                       45,789.1
15. Outlays:
   15a. Disbursements                                              604,105.8                     509,723.7
   15b. Collections                                               (135,556.8)                   (118,128.2)
   15c. Subtotal                                                   468,549.0                     391,595.5
16. Less: Offsetting receipts                                      (43,294.0)                    (45,593.8)
17. Net Outlays                                        $           425,255.0     $               346,001.7




  DoD Performance and Accountability Report            44                       Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
    ($ in Millions)
                                                                 2003 Combined                2002 Combined
                                                                                                 Restated

NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
1. Budget Authority:
   1a. Appropriations received                              $                    0.0    $                      0.0
   1b. Borrowing authority                                                   50.5                             44.2
   1c. Contract authority                                                        0.0                           0.0
   1d. Net transfers (+/-)                                                       0.0                           0.0
   1e. Other                                                                     0.0                           0.0
2. Unobligated balance:
   2a. Beginning of period                                                  104.0                              6.0
   2b. Net transfers, actual (+/-)                                               0.0                           0.0
   2c. Anticipated Transfers balances                                            0.0                           0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                    0.0                           0.0
      1. Collected                                                           56.2                             22.3
      2. Receivable from Federal sources                                    (90.0)                            90.6
   3b. Change in unfilled customer orders                                        0.0                           0.0
      1. Advance received                                                        0.0                           0.0
      2. Without advance from Federal sources                                35.8                              0.0
   3c. Anticipated for the rest of year, without advances                        0.0                           0.0
   3d. Transfers from trust funds                                                0.0                           0.0
   3e. Subtotal                                                                  2.0                         112.9
4. Recoveries of prior year obligations                                          1.9                           0.0
5. Temporarily not available pursuant to Public Law                              0.0                           0.0
6. Permanently not available                                                 (0.2)                             0.0
7. Total Budgetary Resources                                $               158.2       $                    163.1




  DoD Performance and Accountability Report                 45                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
    ($ in Millions)
                                                            2003 Combined                2002 Combined
                                                                                            Restated

STATUS OF BUDGETARY RESOURCES
8. Obligations incurred:
   8a. Direct                                          $               136.4       $                    142.4
   8b. Reimbursable                                                         0.0                           0.0
   8c. Subtotal                                                        136.4                            142.4
9. Unobligated balance:
   9a. Apportioned                                                          1.3                           0.7
   9b. Exempt from apportionment                                            0.0                           0.0
   9c. Other available                                                  (0.1)                             0.0
10. Unobligated Balances Not Available                                  20.6                             20.0
11. Total, Status of Budgetary Resources               $               158.2       $                    163.1
RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period       $               (95.1)      $                      0.0
13. Obligated Balance transferred, net (+/-)                                0.0                           0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                             (0.6)                           (90.6)
   14b. Unfilled customer order from Federal sources                   (35.8)                             0.0
   14c. Undelivered orders                                              66.3                             89.6
   14d. Accounts payable                                                    0.0                           0.7
15. Outlays:
   15a. Disbursements                                                   63.6                             52.0
   15b. Collections                                                    (56.2)                           (22.3)
   15c. Subtotal                                                            7.4                          29.7
16. Less: Offsetting receipts                                               0.0                           0.0
17. Net Outlays                                        $                    7.4    $                     29.7




  DoD Performance and Accountability Report            46                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
     ($ in Millions)
                                                                     2003 Combined                2002 Combined
                                                                                                     Restated

Resources Used to Finance Activities:
Budgetary Resources Obligated
1. Obligations incurred                                         $           669,846.6       $               548,412.3
2. Less: Spending authority from offsetting collections                    (168,688.7)                     (135,993.9)
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                 501,157.9                       412,418.4
4. Less: Offsetting receipts (-)                                            (43,294.0)                      (45,593.8)
5. Net obligations                                                          457,863.9                       366,824.6
Other Resources
6. Donations and forfeitures of property                                             4.6                           0.3
7. Transfers in/out without reimbursement (+/-)                              (6,702.1)                            24.1
8. Imputed financing from costs absorbed by others                            3,866.9                          3,520.0
9. Other (+/-)                                                                  308.1                          (475.5)
10. Net other resources used to finance activities                           (2,522.5)                         3,068.9
11. Total resources used to finance activities                              455,341.4                       369,893.5
Resources Used to Finance Items not Part
of the Net Cost of Operations
12. Change in budgetary resources obligated for goods,
     services and benefits ordered but not yet provided
     12a. Undelivered Orders (-)                                            (37,435.1)                      (28,342.6)
    12b. Unfilled Customer Orders                                            11,006.1                          3,762.3
13. Resources that fund expenses recognized in prior periods                   (686.3)                       (7,317.5)
14. Budgetary offsetting collections and receipts that                          929.3                            819.3
    do not affect net cost of operations
15. Resources that finance the acquisition of assets                        (72,984.9)                       (9,075.6)
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
    16a. Less: Trust or Special Fund Receipts Related to                             0.0                           0.0
   16b. Other (+/-)                                                           6,623.6                             (1.1)
17. Total resources used to finance items not                               (92,547.3)                      (40,155.2)
    part of the net cost of operations
18. Total resources used to finance the net cost of                         362,794.1                       329,738.3




  DoD Performance and Accountability Report                     47                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
     ($ in Millions)
                                                                       2003 Combined                2002 Combined
                                                                                                       Restated

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future
19. Increase in annual leave liability                                            662.7                            478.3
20. Increase in environmental and disposal liability                            2,033.6                          1,712.9
21. Upward/Downward reestimates of credit subsidy expense                              0.0                           0.0
22. Increase in exchange revenue receivable from the the public                    (6.6)                            (3.3)
23. Other (+/-)                                                                95,403.2                         34,270.2
24. Total components of Net Cost of Operations that                            98,092.9                         36,458.1
    will require or generate resources in future periods
Components not Requiring or Generating Resources:
25. Depreciation and amortization                                              55,274.7                          7,229.5
26. Revaluation of assets or liabilities (+/-)                                  6,299.4                          (377.4)
27. Other (+/-)                                                               (10,170.5)                         7,158.9
28. Total components of Net Cost of Operations that                            51,403.6                         14,011.0
    will not require or generate resources
29. Total components of net cost of operations that                           149,496.5                         50,469.1
    will not require or generate resources in the current
30. Net Cost of Operations                                                    512,290.6                       380,207.4




  DoD Performance and Accountability Report                       48                         Part 3: Financial Information
Agency Wide
STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2003 and 2002
     ($ in Millions)
                                                                     2003 Combined                2002 Combined



1.SOURCE OF COLLECTIONS
    A. Deposits by Foreign Governments                          $             9,971.6       $                 10,732.3
    B. Seized Iraqi Cash                                                        808.9                              0.0
    C. Other Collections                                                             0.0                           0.0
    D. Total Cash Collections                                   $            10,780.5       $                 10,732.3
    E. Accrual Adjustments (+/-)                                $                    0.7    $                      0.2
    F. Total Custodial Collections                              $            10,781.2       $                 10,732.5
2.DISPOSITION OF COLLECTIONS
    A. Disbursed on Behalf of Foreign Governments and           $            10,118.8       $                 10,570.0
International Organizations
     B. Seized Assets Disbursed on behalf of Iraqi People                       530.8                              0.0
    C. Increase (Decrease) in Amounts to be Transferred                        (146.5)                           162.5
    D. Collections Used for Refunds and Other Payments                               0.0                           0.0
    E. Retained by The Reporting Entity                                              0.0                           0.0
    F. Seized Assets Retained for Support of the Iraqi People                   278.1                              0.0
    G. Total Disposition of Collections                         $            10,781.2       $                 10,732.5
3. NET CUSTODIAL COLLECTION ACTIVITY                            $                    0.0    $                      0.0




  DoD Performance and Accountability Report                     49                         Part 3: Financial Information
Note 1.        Significant Accounting Policies

1.A. Basis of Presentation

        These financial statements have been prepared to report the financial position and
        results of operations of the Department of Defense (DoD), as required by the “Chief
        Financial Officers (CFO) Act of 1990,” expanded by the “Government Management
        Reform Act (GMRA) of 1994,” and other appropriate legislation. The financial
        statements have been prepared from the books and records of the Department in
        accordance with the “DoD Financial Management Regulation,” Office of
        Management and Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency
        Financial Statements,” and to the extent possible Federal generally accepted
        accounting principles (GAAP). The accompanying financial statements account for
        all resources for which the Department is responsible except that information relative
        to classified assets, programs, and operations has been excluded from the statements
        or otherwise aggregated and reported in such a manner that it is no longer classified.
        The DoD’s financial statements are in addition to the financial reports also prepared
        by the Department pursuant to OMB directives that are used to monitor and control
        the DoD’s use of budgetary resources.

        The Department is unable to fully implement all elements of Federal GAAP and
        OMB Bulletin No. 01-09 due to limitations of its financial management processes and
        systems, including nonfinancial feeder systems and processes. The Department
        derives its reported values and information for major asset and liability categories
        largely from nonfinancial feeder systems, such as inventory systems and logistic
        systems. These were designed to support reporting requirements focusing on
        maintaining accountability over assets and reporting the status of federal
        appropriations rather than preparing financial statements in accordance with Federal
        GAAP. As a result, the Department cannot currently implement every aspect of
        Federal GAAP and OMB Bulletin No. 01-09. The Department continues to
        implement process and system improvements addressing the limitations of its
        financial and nonfinancial feeder systems. The Department provides a more detailed
        explanation of these financial statement elements in the applicable footnote.
    1.B. Mission of the Reporting Entity

        The National Security Act of 1947 created The Department of Defense (DoD) on
        September 18, 1947. The overall mission of the Department is to organize, train, and
        equip armed forces to deter aggression and, if necessary, defeat aggressors of the United
        States and its allies. Fiscal year (FY) 2003 is the eighth year that the Department has
        prepared audited DoD Agency-wide financial statements required by the CFO Act and
        GMRA. The reporting entities within the Department changed to facilitate this reporting
        requirement. Auditors will be issuing opinions on the financial statements of the
        following stand-alone reporting entities: (1) Army General Fund, (2) Army Working
        Capital Fund, (3) Navy General Fund, (4) Navy Working Capital Fund, (5) Air Force
        General Fund, (6) Air Force Working Capital Fund, (7) Military Retirement Fund, (8)

DoD Performance and Accountability Report         50                     Part 3: Financial Information
        DoD Medicare-Eligible Retiree Health Care Fund (new for FY 2003), and (9) U.S. Army
        Corps of Engineers (Civil Works).

        In addition to the nine stand-alone reporting entities, separate columns in the
        combining/consolidating statements are included with the financial information of the
        “Other Defense Organizations General Funds” or “Other Defense Organizations Working
        Capital Funds.” The Office of the Inspector General will not issue separate audit
        opinions on the statements of the Other Defense Organizations; instead the financial
        statements and records of those organizations will be included in the audit performed to
        support the opinion issued on the DoD Agency-wide financial statements.

        Also, the Department requires the following Defense Agencies to prepare internal stand-
        alone annual financial statements to be audited by certified public accounting firms: (1)
        Defense Logistics Agency, (2) Defense Finance and Accounting Service (DFAS), (3)
        Defense Information Systems Agency, (4) Defense Contract Audit Agency, (5) Defense
        Commissary Agency, (6) Defense Security Service, and (7) Defense Threat Reduction
        Agency.

    1.C. Appropriations and Funds

        The Department receives its appropriations and funds as general, working capital
        (revolving funds), trust, special, and deposit funds. The Components use these
        appropriations and funds to execute their missions and report on resource usage.

        •   General funds are used for financial transactions arising under congressional
            appropriations, including personnel, operation and maintenance, research and
            development, procurement, and construction accounts.

        •   Trust funds represent the receipt and expenditure of funds held in trust by the
            government for use in carrying out specific purposes or programs in accordance
            with the terms of the donor, trust agreement, or statute.

        •   Special funds are accounts for government receipts earmarked for a specific
            purpose.

        •   Deposit funds generally are used to: (1) hold assets for which the Department is
            acting as an agent or a custodian or whose distribution awaits legal determination,
            or (2) account for unidentified remittances.

        •   Working Capital funds (WCF) (revolving funds) receive their initial working
            capital through an appropriation or a transfer of resources from existing
            appropriations or funds and use those capital resources to finance the initial cost
            of products and services. Financial resources to replenish the initial working
            capital and to permit continuing operations are generated by the acceptance of
            customer orders. The Defense Working Capital Fund operates with financial
            principles that provide improved cost visibility and accountability to enhance


DoD Performance and Accountability Report          51                      Part 3: Financial Information
        business management and improve the decision making process. The activities
        provide goods and services on a reimbursable basis. Receipts derived from
        operations generally are available in their entirety for use without further
        congressional action.

1.D. Basis of Accounting

    For FY 2003, the Department’s financial management systems are unable to meet all
    of the requirements for full accrual accounting. Many of the Department’s financial
    and nonfinancial feeder systems and processes were designed and implemented prior
    to the issuance of Federal GAAP for federal agencies and, therefore, were not
    designed to collect and record financial information on the full accrual accounting
    basis as required by Federal GAAP. Most of the Department’s legacy systems were
    designed to record on a budgetary basis.

    The Department has undertaken efforts to determine the actions required to bring its
    financial and nonfinancial feeder systems and processes into compliance with all
    elements of Federal GAAP. One such action is the current revision of its accounting
    systems to record transactions based on the United States Government Standard
    General Ledger (USSGL). Until such time as all of the Department’s financial and
    nonfinancial feeder systems and processes are updated to collect and report financial
    information as required by Federal GAAP, the DoD’s financial data will be based on
    budgetary transactions (obligations, disbursements, and collections), transactions
    from nonfinancial feeder systems, and adjusted for known accruals of major items
    such as payroll expenses, accounts payable, and environmental liabilities.

    In addition, the Department identifies programs based upon the major appropriation
    groups provided by Congress. The Department is in the process of reviewing
    available data and attempting to develop a cost reporting methodology that balances
    the need for cost information required by the Statement of Federal Financial
    Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and
    Standards for the Federal Government,” with the need to keep the financial
    statements from being overly voluminous.

1.E. Revenues and Other Financing Sources

    The Department receives congressional appropriations as financing sources for
    general funds (annual and a multi-year basis). When authorized, these appropriations
    are supplemented by revenues generated by sales of goods or services through a
    reimbursable order process. The Department recognizes revenue as a result of costs
    incurred or services performed on behalf of other federal agencies and the public.
    Under the reimbursable order process, the Department recognizes revenue when
    earned.

    Depot Maintenance and Ordnance Working Capital Funds (WCF) recognize revenue
    according to the percentage of completion method. Supply Management WCF
    activities recognize revenue from the sale of inventory items.

DoD Performance and Accountability Report        52                      Part 3: Financial Information
    The Department does not include non-monetary support provided by U.S. Allies for
    common defense and mutual security in its list of other financing sources that appears
    in the Statement of Financing. The U.S. has agreements with foreign countries that
    include both direct or indirect sharing of costs that each country incurs in support of
    the same general purpose. Examples include countries where there is a mutual or
    reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. fleet
    is in a port. DoD is reviewing these types of financing and cost reductions in order to
    establish accounting policies and procedures to identify what, if any, of these costs
    are appropriate for disclosure in the Department's financial statements in accordance
    with generally accepted accounting principles. Recognition of support provided by
    host nations would affect both financing sources and recognition of expenses.

1.F. Recognition of Expenses

    For financial reporting purposes, the DoD policy requires the recognition of operating
    expenses in the period incurred. However, because the Department’s financial and
    nonfinancial feeder systems were not designed to collect and record financial
    information on the full accrual accounting basis, accrual adjustments are made for
    major items such as payroll expenses, accounts payable, and environmental liabilities.
    The Department’s expenditures for capital and other long-term assets are not
    recognized as operating expenses until depreciated in the case of Property, Plant and
    Equipment (PP&E) or consumed in the case of Operating Materials and Supplies
    (OM&S). Net increases or decreases in unexpended appropriations are recognized as
    a change in the net position. Certain expenses, such as annual and military leave
    earned but not taken, are financed in the period in which payment is made. The
    Departments adjust operating expenses as a result of the elimination of balances
    between DoD Components. See Note 19.I., Intragovernmental Expenses and
    Revenue for disclosure of adjustment amounts.

1.G. Accounting for Intra-governmental Activities

    The Department as an agency of the federal government, interacts with and is
    dependent upon the financial activities of the federal government as a whole.
    Therefore, these financial statements do not reflect the results of all financial
    decisions applicable to the Department as though the agency was a stand-alone entity.

•   Public Debt

        The Department’s proportionate share of public debt and related expenses of the
        federal government are not included. The federal government does not apportion
        debts and its related costs to federal agencies. The DoD’s financial statements,
        therefore, do not report any portion of the public debt or interest thereon, nor do
        the statements report the source of public financing whether from issuance of debt
        or tax revenues.



DoD Performance and Accountability Report           53                   Part 3: Financial Information
        Financing for the construction of DoD facilities is obtained through budget
        appropriations. To the extent this financing ultimately may have been obtained
        through the issuance of public debt, interest costs have not been capitalized since
        the Department of the Treasury does not allocate such interest costs to the
        benefiting agencies.

•   Civilian/ Military Retirement Systems

        The Department’s civilian employees participate in the Civil Service Retirement
        System (CSRS) and the Federal Employees Retirement System (FERS) while the
        Military Retirement System (MRS) covers military personnel. Additionally,
        employees and personnel covered by FERS and MRS also have varying coverage
        under Social Security. The Department funds a portion of the civilian and
        military pensions. Reporting civilian pensions under CSRS and FERS retirement
        systems is the responsibility of the Office of Personnel Management (OPM). The
        Department recognizes an imputed expense for the portion of civilian employee
        pensions and other retirement benefits funded by the OPM in the Statement of Net
        Cost; and recognizes corresponding imputed revenue from the civilian employee
        pensions and other retirement benefits in the Statement of Changes in Net
        Position.

•   Actuarial Liability

        The Department reports the assets, funded actuarial liability, and unfunded
        actuarial liability for the military personnel in the DoD financial statements. The
        Department recognizes the actuarial liability for the military retirement health
        benefits in the Other Defense Organization General Fund column and the
        Medicare-eligible health care benefits in that Fund’s column of the DoD
        Agency-wide consolidating/combining statements.

•   Inter/Intra Governmental Elimination

        Preparation of reliable financial statements requires the elimination of
        transactions occurring between entities within the Department or between two or
        more federal agencies. However, the Department, as well as the rest of the
        federal government, cannot accurately identify all Intragovernmental transactions
        by customer because our systems do not track buyer and seller data needed to
        match related transactions. For FY 1999 and beyond, seller entities within the
        Department provided summary seller-side balances for revenue, accounts
        receivable, and unearned revenue to the buyer-side internal DoD accounting
        offices. In most cases, the buyer-side records have been adjusted to recognize
        unrecorded costs and accounts payable. Intra-DoD Intragovernmental balances
        were then eliminated.

        The Department of the Treasury Financial Management Service (FMS) is
        responsible for eliminating transactions between the Department and other federal

DoD Performance and Accountability Report         54                      Part 3: Financial Information
        agencies. In September 2000, the FMS issued the “Federal Intragovernmental
        Transactions Accounting Policies and Procedures Guide.” The Department was
        not able to fully implement the policies and procedures in this guide related to
        reconciling Intragovernmental assets, liabilities, revenues, and expenses for non-
        fiduciary transactions. The Department, however, was able to implement the
        policies and procedures contained in the “Intragovernmental Fiduciary
        Transactions Accounting Guide,” as updated by the “Federal Intragovernmental
        Transactions Accounting Policies and Procedures Guide,” issued October 2002
        and updated October 2003, for reconciling Intragovernmental transactions
        pertaining to investments in federal securities, borrowings from the United States
        (U.S.) Treasury and the Federal Financing Bank, Federal Employees’
        Compensation Act transactions with the Department of Labor (DoL), and benefit
        program transactions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations

    Each year, the DoD Components sell defense articles and services to foreign
    governments and international organizations, primarily under the provisions of the
    “Arms Export Control Act of 1976.” Under the provisions of the Act, the Department
    has authority to sell defense articles and services to foreign countries and
    international organizations, generally at no profit or loss to the U.S. Government.
    Customers may be required to make payments in advance.
1.I. Funds with the U.S. Treasury

    The Department’s financial resources are maintained in U.S. Treasury accounts.
    DFAS, Military Services, U.S. Army Corps of Engineers (USACE) disbursing
    stations, and the Department of State financial service centers process the majority of
    cash collections, disbursements, and adjustments worldwide. Each disbursing station
    prepares monthly reports, which provide information to the U.S. Treasury on check
    issues, electronic fund transfers, interagency transfers and deposits.

    In addition, the DFAS sites and the USACE Finance Center submit reports to the
    Department of the Treasury, by appropriation, on interagency transfers, collections
    received, and disbursements issued. The Department of the Treasury then records
    this information to the applicable Fund Balance with Treasury (FBWT) account
    maintained in the Treasury’s system. Differences between the Department’s recorded
    balance in the FBWT accounts and Treasury’s FBWT accounts sometimes result and
    are subsequently reconciled. See Note 3, Fund Balance with Treasury for material
    disclosure. Differences between accounting offices’ detail-level records and
    Treasury’s FBWT accounts are disclosed in Note 21.B, specifically, differences
    caused by in-transit disbursements and unmatched disbursements (which are not
    recorded in the accounting offices’ detail-level records).




DoD Performance and Accountability Report         55                      Part 3: Financial Information
1.J. Foreign Currency

    The Department conducts a significant portion of its operations overseas. The
    Congress established a special account to handle the gains and losses from foreign
    currency transactions for five general fund appropriations (operation and
    maintenance, military personnel, military construction, family housing operation and
    maintenance, and family housing construction). The gains and losses are computed
    as the variance between the exchange rate current at the date of payment and a budget
    rate established at the beginning of each fiscal year. Foreign currency fluctuations
    related to other appropriations require adjustments to the original obligation amount
    at the time of payment. The Department does not separately identify currency
    fluctuations.

1.K. Accounts Receivable

    As presented in the Balance Sheet statement, accounts receivable includes accounts,
    claims, and refunds receivable from other federal entities or from the public.
    Allowances for uncollectible accounts due from the public are based upon analysis of
    collection experience by fund type. The Department does not recognize an allowance
    for estimated uncollectible amounts from other federal agencies. Claims against other
    federal agencies are to be resolved between the agencies. See Note 5, Accounts
    Receivable for material disclosure.

1.L. Loans Receivable. As Applicable.

    The Department of Defense operates a loan guarantee program authorized by the
    National Defense Authorization Act for FY 1996, Public Law 104-106 Statute 186,
    Section 2801, that includes a series of authorities that allow the Department to work
    with the private sector to renovate military housing. The Department’s goals are to
    obtain private capital to leverage government dollars; make efficient use of limited
    resources; and use a variety of private sector approaches to build and renovate
    military housing faster and at a lower cost to American taxpayers.

    The Act also provides the Department with a variety of authorities to obtain private
    sector financing and expertise to improve military housing. The Department uses
    these authorities individually, or in combination. They include guarantees, both loan
    and rental; conveyance/leasing of existing property and facilities; differential lease
    payments; investments, both limited partnerships and stock/bond ownership; and
    direct loans. In addition, the “Federal Credit Reform Act of 1990” governs all
    amended direct loan obligations and loan guarantee commitments made after
    FY 1991 resulting in direct loans or loan guarantees.
1.M. Inventories and Related Property

    Effective October 1, 2002, Statement of Federal Financial Accounting Standards
    No. 23, Eliminating the Category National Defense Property, Plant, and Equipment,
    revises accounting principles for military equipment (previously referred to as
    National Defense Property, Plant, and Equipment). The standard renames National

DoD Performance and Accountability Report         56                     Part 3: Financial Information
    Defense Property, Plant, and Equipment to military equipment, classifies military
    equipment as general property, plant, and equipment, and requires the capitalization
    and depreciation of the cost of military equipment, including the cost of modifications
    and upgrades. Likewise, military equipment (previously referred to as National
    Defense Property, Plant, and Equipment) also includes items which will now be
    classified as Operating Materials and Supplies.

    Implementation of the new accounting principles requires the adjustment of the
    October 1, 2002, Operating Materials and Supplies balance to recognize the
    investment, accumulated depreciation, and net book value of military equipment that
    previously had been expensed and is discussed further in Note 9.

    The predominate amount of the Department’s inventories are currently reported at an
    approximation of historical cost using Latest Acquisition Cost (LAC) adjusted for
    holding gains and losses. Approximately 5 percent of inventories are now reported at
    moving average cost (MAC) in accordance with the Department’s new policy which
    was disseminated in July 2001.

    The Latest Acquisition Cost method is used because legacy inventory systems were
    designed for material management rather than accounting. Although these systems
    provide visibility and accountability over inventory items, they do not maintain
    historical cost data necessary to comply with SFFAS No. 3, “Accounting for
    Inventory and Related Property.” Additionally, these systems cannot produce
    financial transactions using the United States Government Standard General Ledger
    (USSGL), as required by the Federal Financial Management Improvement Act of
    1996 (P.L. 104-208). As noted above, utilizing new systems development processes,
    Components of the Department have transitioned, and are continuing to transition,
    inventory to the moving average cost method. Once completely implemented, the
    Department should be in full compliance with SFFAS No. 3.

    SFFAS No. 3 distinguishes between “Inventory held for sale” and “Inventory held in
    reserve for future sale.” There is no management or valuation difference between the
    two USSGL accounts. Further, the DoD manages only military or government-
    specific material under normal conditions. Items commonly used in and available
    from the commercial sector are not managed in the DoD material management
    activities. Operational cycles are irregular, and the military risks associated with
    stock-out positions have no commercial parallel. The Department holds material
    based on military need and support for contingencies. Therefore, the Department does
    not attempt to account separately for items held for “current” or “future” sale.

    Related property includes Operating Materials and Supplies (OM&S) and stockpile
    materials. The OM&S, including munitions not held for sale, are valued at standard
    purchase price. The Department uses the consumption method of accounting for
    OM&S, for the most part, expensing material when it is issued to the end user.
    Where current systems cannot fully support the consumption method, the Department
    uses the purchase method - that is, materials and supplies are expensed when


DoD Performance and Accountability Report         57                     Part 3: Financial Information
    purchased. For FY 2003, the Department reported significant amounts using the
    purchase method either because the systems could not support the consumption
    method or because management deemed that the item is in the hands of the end user.

    The Department implemented new policy in FY 2002 to account for condemned
    material, only, as “Excess, Obsolete, and Unserviceable.” The net value of
    condemned material is zero, because the costs of disposal are greater than the
    potential scrap value. Potentially redistributable material, presented in previous years
    as “Excess, Obsolete, and Unserviceable,” is included in “Held for Use” or “Held for
    Repair” categories according to its condition.

    In addition, past audit results identified uncertainties about the completeness and
    existence of quantities used to produce the reported values. Material disclosures
    related to inventory and related property are provided at Note 9.

1.N. Investments in U.S. Treasury Securities

    The Department reports investments in U.S. Treasury securities at cost, net of
    amortized premiums or discounts. Premiums or discounts amortize into interest
    income over the term of the investment using the effective interest rate method or
    another method obtaining similar results. The Department intent is to hold
    investments to maturity, unless they are needed to finance claims or otherwise sustain
    operations. Consequently, a provision is not made for unrealized gains or losses on
    these securities.

    The Department invests in both marketable and non-marketable securities.
    Marketable securities are investments trading on a public market. The two types of
    non-marketable securities are par value and market based Intragovernmental
    securities. The Bureau of Public Debt issues non-marketable Par Value
    Intragovernmental Securities. Non-marketable, Market Based Intragovernmental
    Securities mimic marketable securities, but are not traded publicly. See Note 4 for
    material disclosures.

1.O. General Property, Plant and Equipment

    Statement of Federal Financial Accounting Standards No. 23, Eliminating the
    Category National Defense Property, Plant, and Equipment, establishes new
    generally accepted accounting principles for valuing and reporting military equipment
    (e.g., ships, aircraft, combat vehicles, weapons) in federal financial statements. The
    standard requires the capitalization and depreciation of the cost of military equipment,
    including the cost of modifications and upgrades, for accounting periods beginning
    after September 30, 2002.

    Until this change in accounting principle, the acquisition costs for military equipment
    were classified as National Defense Property, Plant, and Equipment (PP&E) and were
    expensed in the period incurred. Implementation of this new accounting principle
    required the Department to adjust the October 1, 2002 General PP&E balance to

DoD Performance and Accountability Report         58                      Part 3: Financial Information
    recognize the investment, accumulated depreciation, and net book value of military
    equipment that previously had been expensed. As discussed further in Note 10,
    General PP&E, the adjustment was based on data provided by the Bureau of
    Economic Analysis at the Department of Commerce and is not in compliance with
    GAAP.

    General PP&E assets are capitalized at historical acquisition cost plus capitalized
    improvements when an asset has a useful life of two or more years, and when the
    acquisition cost equals or exceeds the DoD capitalization threshold of $100,000.
    Also, DoD requires capitalization of improvement costs over the DoD capitalization
    threshold of $100,000 for General PP&E. The Department depreciates all General
    PP&E, other than land, on a straight-line basis.

    Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of
    $15,000, $25,000, and $50,000 for FYs 1993, 1994, and 1995 respectively, and an
    estimated useful life of two or more years. These assets remain capitalized and
    reported on WCF financial statements. General PP&E previously capitalized at
    amounts below $100,000 were written off General Fund financial statements in FY
    1998. See Note 10, General PP&E, Net for material disclosures.

    The United States Army Corps of Engineers (USACE) Civil Works General PP&E
    assets are capitalized at historical acquisition cost plus capitalized improvements
    when an asset has a useful life of 2 or more years, and when the acquisition cost
    equals $25,000 (one exception is all buildings and structures related to hydro- power
    projects are capitalized regardless of cost.) During 2003 the Corps increased its
    buildings and structures threshold to $25K (from $0) for all Civil Works
    Appropriations with the exception of Revolving Fund and Power Marketing Agency
    (PMA) assets. All Civil Works Appropriations Buildings and Structures currently
    capitalized under $25K (excluding Revolving Fund and PMA) were expensed in FY
    2003 and removed from Corps of Engineers Financial Management System
    (CEFMS). Starting in FY 2004 all Civil Works Buildings and Structures over $25K
    will be expensed except for PMA assets.


    Government Equipment in the Hands of Contractors

    When it is in the best interest of the government, the Department provides to
    contractors government property necessary to complete contract work. The
    Department either owns or leases such property, or it is purchased directly by the
    contractor for the government based on contract terms. When the value of contractor
    procured General PP&E exceeds the DoD capitalization threshold, such PP&E is
    required to be included in the value of General PP&E reported on the Department’s
    Balance Sheet.

    The Department completed a study that indicates that the value of General PP&E
    above the DoD capitalization threshold and not older than the DoD Standard
    Recovery Periods for depreciation, and that is presently in the possession of

DoD Performance and Accountability Report        59                      Part 3: Financial Information
    contractors, is not material to the Department’s financial statements. Regardless, the
    Department is developing new policies and a contractor reporting process that will
    provide appropriate General PP&E information for future financial statement
    reporting purposes. Accordingly, the Department currently reports only government
    property, maintained in the DoD’s property systems, in the possession of contractors.

    To bring DoD closer to full compliance with federal accounting standards, the
    Department has issued new property accountability and reporting regulations that
    require the DoD Components to maintain, in DoD Component property systems,
    information on all property furnished to contractors. This action and other DoD
    proposed actions are structured to capture and report the information necessary for
    compliance with federal accounting standards.

1.P. Advances and Prepayments

    The Department records payments in advance of the receipt of goods and services as
    advances or prepayments and reports them as assets on the Balance Sheet. In
    addition, when the department receives the related goods and services it recognizes
    advances and prepayments as expenditures and expenses.
1.Q. Leases

    Generally, lease payments are for the rental of equipment and operating facilities and
    are classified as either capital or operating leases. When a lease is essentially
    equivalent to an installment purchase of property (a capital lease) the Department
    records the applicable asset and liability if the value equals or exceeds the current
    DoD capitalization threshold. The Department records the amounts as the lesser of
    the present value of the rental and other lease payments during the lease term
    (excluding portions representing executory costs paid to the lessor) or the asset’s fair
    value. The Department deems the use of estimates for these costs as adequate and
    appropriate due to the relatively low dollar value of capital leases. Imputed interest
    was necessary to reduce net minimum lease payments to present value calculated at
    the incremental borrowing rate at the inception of the leases. In addition, the
    Department classifies leases that do not transfer substantially all of the benefits or
    risks of ownership as operating leases and records payment expenses over the lease
    term.

1.R. Other Assets

    The Department conducts business with commercial contractors under two primary
    types of contracts: fixed price and cost reimbursable. To alleviate the potential
    financial burden on the contractor that long-term contracts can cause, the Department
    provides financing payments. One type of financing payment that the Department
    makes, for real property, is based upon a percentage of completion. In accordance
    with the SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” such
    payments are treated as construction in process and are reported on the General PP&E
    line and in Note 10, General PP&E, Net.


DoD Performance and Accountability Report          60                      Part 3: Financial Information
    In addition, the Federal Acquisition Regulations allow the Department to make
    financing payments under fixed price contracts that are not based on a percentage of
    completion. The Department reports these financing payments as advances or
    prepayments in the “Other Assets” line item. The Department treats these payments
    as advances or prepayments because the Department becomes liable only after the
    contractor delivers the goods in conformance with the contract terms. If the contractor
    does not deliver a satisfactory product, the Department is not obligated to reimburse
    the contractor for its costs and the contractor is liable to repay the Department for the
    full amount of the advance.

    The Department has completed its review of all applicable federal accounting
    standards; applicable public laws on contract financing; Federal Acquisition
    Regulation Parts 32, 49, and 52; and the OMB guidance in 5 CFR Part 1315, “Prompt
    Payment.” The Department concluded that SFFAS No. 1 does not fully or adequately
    address the subject of progress payment accounting and is considering appropriate
    actions.

1.S. Contingencies and Other Liabilities

    The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a
    contingency as an existing condition, situation, or set of circumstances that involves
    an uncertainty as to possible gain or loss to the Department. The uncertainty will be
    resolved when one or more future events occur or fail to occur. The DoD recognizes
    contingencies as liabilities when past events or exchange transactions occur, a future
    loss is probable and the loss amount can be reasonably estimated.

    Financial statement reporting is limited to disclosure when conditions for liability
    recognition do not exist but there is at least a reasonable possibility of incurring a loss
    or additional losses. Examples of loss contingencies include the collectibility of
    receivables, pending or threatened litigation, possible claims and assessments. The
    Department’s loss contingencies arising as a result of pending or threatened litigation
    or claims and assessments occur due to events such as aircraft, ship and vehicle
    accidents, medical malpractice, property or environmental damages, and contract
    disputes.

    Other liabilities arise as a result of anticipated disposal costs for the Department's
    assets. This type of liability has two components: nonenvironmental and
    environmental. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and
    Equipment” recognition of an anticipated environmental disposal liability commences
    when the asset is placed into service. Nonenvironmental disposal liabilities are
    recognized for assets when management decides to dispose of an asset based upon the
    Department's policy, which is consistent with SFFAS No. 5 “Accounting for
    Liabilities of Federal Government”. The Department agrees to the recognition of
    nonenvironmental disposal liability for military equipment nuclear powered assets
    when placed into service. Such amounts are developed in conjunction with, and not
    easily separately identifiable from, environmental disposal costs. See Notes 14 and
    15 for material disclosures.

DoD Performance and Accountability Report           61                       Part 3: Financial Information
1.T. Accrued Leave

    The Department reports civilian annual leave and military leave that has been accrued
    and not used as of the balance sheet date as liabilities. The liability reported at the
    end of the fiscal year reflects the current pay rates.

1.U. Net Position

    Net Position consists of unexpended appropriations and cumulative results of
    operations.

•   Unexpended Appropriations represent amounts of authority, which are unobligated
    and have not been rescinded or withdrawn. Unexpended appropriations also
    represent amounts obligated for which legal liabilities for payments have not been
    incurred.

•   Cumulative Results of Operations represents the difference, since inception of an
    activity, between expenses and losses and financing sources (including
    appropriations, revenue, and gains). Beginning with FY 1998, this included the
    cumulative amount of donations and transfers of assets in and out without
    reimbursement.

1.V. Treaties for Use of Foreign Bases

    The DoD Components have the use of land, buildings, and other facilities, which are
    located overseas obtained through various international treaties and agreements
    negotiated by the Department of State. DoD purchases capital assets overseas with
    appropriated funds; however, the host country retains title to land and improvements.
    Generally, treaty terms allow the DoD Components continued use of these properties
    until the treaties expire. The DoD’s fixed assets decrease by not renewing a treaty or
    not reaching agreements. Therefore, in the event treaties or other agreements are
    terminated whereby use of the foreign bases is prohibited, losses are recorded for the
    value of any non-retrievable capital assets after negotiations between the U.S. and the
    host country have been concluded to determine the amount to be paid the U.S. for
    such capital investments.
1.W. Comparative Data

    Financial statement fluctuations greater than ten percent between year-end FY 2002
    and year-end FY 2003 are explained within the Notes to the Financial Statements.
1.X. Unexpended Obligations

    The Department obligates funds to provide goods and services for outstanding orders
    not yet delivered. The financial statements do not reflect this liability for payment for
    goods/services not yet delivered.


DoD Performance and Accountability Report          62                      Part 3: Financial Information
1.Y. Problem Disbursements

    The elimination of problem disbursements is one of the highest financial management
    priorities of the Department. Problem disbursements are disbursements made that can
    not be matched to an obligation or that exceed an obligation amount in the accounting
    systems. Efforts are underway to improve systems and processes to resolve and
    prevent problem disbursements. See Note 21B, Disclosures Related to Problem
    Disbursements, In-Transits Disbursements, Suspense/Budget Clearing Accounts for
    additional disclosures.




DoD Performance and Accountability Report       63                      Part 3: Financial Information
    Note 2.       Nonentity Assets



As of September 30,
                                                                  2003                  2002
(Amounts in millions)

1. Intragovernmental Assets
   A. Fund Balance With Treasury                           $             517.9   $             537.3
   B. Investments
   C. Accounts Receivable                                                  2.0                    5.4
   D. Other Assets
   E. Total Intragovernmental Assets                       $             519.9   $             542.7

2. Non-Federal Assets
   A. Cash and Other Monetary Assets                       $          1,393.0    $             578.2
   B. Accounts Receivable                                             5,063.4                4,139.9
   C. Loans Receivable
   D. Inventory and Related Property
   E. General PP&E
   F. Other Assets                                                      126.0                  125.0
  G. Total Non-Federal Assets                              $          6,582.4 $              4,843.1

3. Total Non-Entity Assets                                 $          7,102.3 $              5,385.8

4. Total Entity Assets                                     $      1,122,836.5 $          676,499.8

5. Total Assets                                            $      1,129,938.8 $          681,885.6


    Other information:

    Asset accounts are categorized as entity or nonentity. Entity assets consist of
    resources that the Department has the authority to use, or where management is
    legally obligated to use funds to meet entity obligations. Nonentity assets are assets
    for which the Department maintains stewardship accountability and responsibility to
    report, but are not available for use in the operations.




DoD Performance and Accountability Report         64                      Part 3: Financial Information
Other Disclosures


Nonentity Fund Balance with Treasury

Nonentity fund balance with treasury is comprised of $386.8 million in deposits and
suspense accounts.

Iraqi custodial funding of $278.1 million is also included in nonentity fund balance with
treasury. Iraqi custodial funding connotes Iraqi cash seized by coalition forces during
Operation Iraqi Freedom. It will be used in support of the Iraqi people.
See Notes 3 and 23 for additional information.

Finally, nonentity fund balance with treasury includes net funds (funds collected less
funds distributed) of the Foreign Military Sales Trust Fund (FMSTF). Under authority of
the Arms Export and Control Act, the FMSTF receives collections from foreign
governments that are dedicated specifically to FMS purchases.


Nonentity Intra-Governmental Accounts Receivable

The Department is reporting $2.0 million as nonentity intra-governmental accounts
receivable. These are receivables from cancelled year appropriations. They will be
returned to the Treasury as miscellaneous receipts once collected.


Nonentity Cash and Other Monetary Assets

Nonentity cash and other monetary assets consists of cash held by Disbursing Officers to
carry out their paying, collecting and foreign currency accommodation exchange mission.
The primary source of the amounts reported is the Standard Form 1219, Statements of
Accountability reported by DoD Disbursing Officers. Foreign currency is valued using
the Department of Treasury Prevailing Rate of Exchange. This rate is the most favorable
rate that would legally be available to the U.S. Government’s acquisition of foreign
currency for its official disbursements and accommodation of exchange transactions.


Nonentity Non-Federal Accounts Receivable

Non-Federal receivables are primarily related to Navy General Fund advance payments
made to contractors and associated accrued interest, which remains in litigation. In
addition, the U.S. Army Corps of Engineers reports that their non-federal nonentity
accounts receivable include long-term receivables due from state and local municipalities
for water storage contracts, hydraulic mining, and the leasing of land for flood control
purposes. The balance of the amounts reported as nonentity non-federal accounts
receivable represent receivables from closed accounts, accrued interest receivable,

DoD Performance and Accountability Report        65                      Part 3: Financial Information
penalties, fines and administrative fees receivable. The Department does not derive or
receive any benefit from these collections but incurs the cost of administering them.


Non-Federal Other Assets

The $126.0 million reported as other nonentity assets primarily represents advances to
contractors by the Air Force General Fund. These advances are payments made as a part
of an advance-payment pool agreement made with the Massachusetts Institute of
Technology and other non-profit institutions. Advance-payment pool agreements are
used for the financing of cost-type contracts with nonprofit educational or research
institutions for experimental, or research and development work, when several contracts
or a series of contracts require financing by advance payments.


Note Reference

For additional line item discussion, see:
Note 3, Fund Balance with Treasury
Note 4, Investments
Note 5, Accounts Receivable
Note 6, Other Assets
Note 7, Cash and Other Monetary Assets
Note 8, Loans Receivable
Note 9, Inventory and Other Related Property




DoD Performance and Accountability Report        66                     Part 3: Financial Information
    Note 3. Fund Balance with Treasury



As of September 30                                             2003                         2002
(Amounts in millions)

1. Fund Balances:
   A. Appropriated Funds                              $               238,052.2    $               195,621.4
   B. Revolving Funds                                                  11,131.1                      7,823.4
   C. Trust Funds                                                         559.0                        809.6
   D. Other Fund Types                                                  2,319.7                      1,561.8
   E. Total Fund Balances                             $               252,062.0    $               205,816.2



2. Fund Balances Per Treasury Versus Agency:
   A. Fund Balance per Treasury                       $               251,682.0    $               204,945.0
   B. Fund Balance per Department of Defense                          252,062.0                    205,816.2

    C. Reconciling Amount                             $                 ( 380.0)   $                 ( 871.2)

3. Explanation of Reconciliation Amount:


                              Fund Balance    Fund Balance per    Reconciling    Reconciling
    Reporting Entity          with Treasury     Entity Books       Amount          Amount
 (Amounts in millions)           FY 2003          FY 2003          FY 2003         FY 2002
 Navy GF                    $         78,415 $           78,415 $                $
 Air Force GF                         59,766             59,766
 Army GF                              55,035             55,035
 ODO GF                               48,423             48,737            (314)       (813)
 Corps of Engineers                     2,530             2,596             (66)        (59)
 MERHCF                                     5                 5
 MRF                                       25                25
 Air Force WCF                          2,475               733            1,742         860
 Army WCF                               1,549             1,549
 ODO WCF                                1,631             3,373          (1,742)       (859)
 Navy WCF                               1,828             1,828
 Total                      $        251,682 $          252,062 $          (380) $     (871)

Analysis of Reconciling Amounts

Currently, the Department of Treasury reports fund balances at the appropriation basic
symbol level. The Defense Finance and Accounting Service Central Sites adjust their
funds to agree with the official DoD cash figures shown in each entity’s expenditure
system:

•   Data Element Management/Accounting Reporting System (DELMAR) for Army
•   Centralized Expenditure and Reimbursement Processing System (CERPS) for Navy


DoD Performance and Accountability Report        67                      Part 3: Financial Information
•   Merged Accounting and Fund Reporting System (MAFR) for Air Force

For the Defense Agencies, the Department of the Defense reconciles at the agency-wide
level, since Defense Treasury Index 97 funds allotted at limit level preclude individual
entity reporting compliance. The Department continues to improve internal
methodology to properly account for their funds at the entity level.

As of year-end FY 2003, the Department of Defense shows a reconciling net difference
of ($380) million with the Department of the Treasury, which is comprised of:

•   ($314) million in undistributed collections and disbursements reported at the
    departmental level for the ODO General Fund but not yet recorded by the applicable
    agency;
•   ($66) million in collections reported by the Department of the Treasury for the Inland
    Waterways and Harbor Maintenance Trust Funds. The Corps of Engineers is the lead
    agency for reporting;
•   $1,742 million in cash for the United States Transportation Command is recorded as
    Fund Balance with Treasury in the Air Force Working Capital Fund. The accounting
    for these funds is actually performed within the Entity Books of the ODO Working
    Capital Fund. For final Fiscal Year end reporting, the Fund Balance with Treasury
    for the ODO Working Capital Fund is adjusted downward to reconcile with the Air
    Force Working Capital Fund;
•   ($1,742) million which is the downward adjustment to the Fund Balance with
    Treasury for the ODO Working Capital Fund to reflect that the cash reporting to the
    Department of the Treasury for the United States Transportation Command is done
    through the Air Force Working Capital Fund.
4. Other Information Related to Fund Balance with Treasury:

Total Fund Balance

Total Fund Balance increased, between year-end FY 2002 and year-end FY 2003, by
approximately $46.2 billion (21 percent). The Appropriated Funds increased by
approximately $42.4 billion (22 percent). This was primarily as a result of increased
budget authority in FY 2003 for the Army, Air Force and Navy General Funds. Between
year-end FY 2002 and year-end FY 2003, Army General Funds increased by
approximately $15.5 billion (39 percent), Air Force General Funds increased by
approximately $11.8 billion (25 percent), and Navy General Funds increased by
approximately $10.2 billion (15 percent). The increases are primarily attributable to
increased funding for various issues such as Operation Enduring Freedom, Operation
Iraqi Freedom, and funding for the Army Vision and Transformation. Some of the
increase is from the Defense Emergency Response Fund (DERF) for fighting terrorism
throughout the world.

The Army General Fund increase also includes $109.1 million in Vested Iraqi Cash. This
cash that represents frozen Iraqi deposits in the United States is vested in accordance with


DoD Performance and Accountability Report         68                      Part 3: Financial Information
the International Emergency Economic Powers Act, Section 1701 and will be used in
support of the Iraqi people. Army has collected $1,660.2 million of Vested Iraqi Cash
and has disbursed $1,551.1 million benefiting the Iraqi people as follows:


                                                                               Disbursed
                                                                              ($ in millions)
        Iraqi Salaries                                                            $1,170.7
        Repair/Reconstruction/Humanitarian Assistance                            $ 40.6
        Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)            $ 339.8
        Total Disbursed                                                          $1,551.1

The Revolving Funds increased by approximately $3.3 billion (42 percent). This was
primarily as a result of increases to the Army Working Capital Fund and the Other
Defense Organizations Working Capital Fund. The Army Working Capital Fund
increased as a result of a reversal of interfund credits and from receipt of an allocation
of appropriated funds to use for under-utlized plant capacity, purchases of war reserves
and spare parts. The Other Defense Organizations Working Capital Fund primarily
increased due to heightened levels of reimbursable activity in both the Airlift Mobility
Command and the Military Sealift Command for providing transportation for both
Operation Enduring Freedom and Operation Iraqi Freedom.

The Trust Funds decreased by approximately $250.6 million (31 percent) primarily
because the foreign military trust fund’s current year disbursements exceeded current
year collections.

The Other Fund Types increased by approximately $757.9 million (49 percent)
primarily as a result of the $464.8 million in the Iraqi Relief and Reconstruction Fund
and $278.1 million in non-entity seized (Custodial) Iraqi cash. During FY 2003, the
non-entity seized (Custodial) Iraqi cash had collections of $808.9 million and
disbursements of $530.8 million resulting in the balance of $278.1 million (See Note
23). The Iraqi seized cash will be used in support of the Iraqi people.


Check Issue Discrepancy

The Department of Defense is in the process of collecting information for all check issue
discrepancy data that are unsupportable because: (1) records have been lost during
deactivation of disbursing offices, (2) the Department of the Treasury may not assist in
research efforts for transactions over 1-year old, or (3) corrections were processed for
transactions that the Department of the Treasury had removed from the check comparison
report. Transactions that have no supporting documentation due to one of the preceding
situations shall be provided to the Department of the Treasury with a request to remove
them from the Treasury Check Comparison Report. The vast majority of the remaining
check issue discrepancies are a result of timing differences between the Department of
Defense and the Department of the Treasury for processing checks. Check issue


DoD Performance and Accountability Report          69                      Part 3: Financial Information
discrepancies greater than 180 days at year-end FY 2003 were approximately
($16) million.

Intra-governmental Payment and Collection (IPAC)

The Intra-governmental Payment and Collection (IPAC) differences are reconcilable
differences that represent amounts recorded by the Department of the Treasury but not
reported by the organizations. IPAC differences greater than 180 days at year-end
FY 2003 were approximately $126 thousand.


Deposit Differences

The Deposit differences are reconcilable differences that represent deposit amounts
reported by the Department of the Treasury or the Department of Defense. Deposit
differences greater than 180 days at year-end FY 2003 were approximately
($4.5) million.

Note Reference:

•   See Note Disclosure 1. I. – Significant Accounting Policies for additional discussion
    on financial reporting requirements and DoD policies governing Funds with the
    U.S. Treasury.
•   See Footnote 2 and Footnote 21B for further discussions on Other Fund Balance
    Types (e.g., Suspense, Budget Clearing, Special and Deposit, etc.)
•   See Footnote 18 for information summarizing the status of Funds Balance With
    Treasury, as discussed by OMB regulation 01-09.




DoD Performance and Accountability Report        70                     Part 3: Financial Information
    Note 4. Investments


As of September 30                                                                                            2003                                              2002
                                                                    Amorti-            Amortized
                                                                                                                Investments,           Market Value          Investments,
                                                    Cost            zation             (Premium/
                                                                                                                    Net                 Disclosure               Net
                                                                    Method              Discount)
(Amounts in millions)

1. Intra-governmental Securities:
    A. Marketable                          $                 0.0                   $                0.0   $                    0.0 $               0.0 $                  120.9
    B. Non-Marketable, Par Value
                                                             0.0                                    0.0                        0.0                 0.0                       0.0

   C. Non-Marketable, Market-Based                                  Effective
                                                       214,603.3                             (12,862.3)                 201,741.0            217,272.9                 176,447.9
                                                                        Interest
   D. Subtotal                             $           214,603.3                   $         (12,862.3)   $             201,741.0 $          217,272.9 $               176,568.8
   E. Accrued Interest                     $             3,635.0                                          $               3,635.0 $            3,635.0 $                 4,235.7
   F. Total Intragovernmental Securities   $           218,238.3                   $         (12,862.3)   $             205,376.0 $          220,907.9 $               180,804.5



2. Other Investments:                                      217.8                                    0.0                     217.8                  0.0                      0.0
                                           $                                                              $                                              $

3. Other Information:

         The decrease of $120.9 million in marketable securities is due to a reclassification from Intra-governmental to Other Investments.

         The increase in Other Investments by $217.8 million represents the $120.9 million mentioned above and new investments in the
         amount of $96.9 million for the DoD limited partnerships. These limited partnerships have been entered into on behalf of the U.S.
         Government by both the Department of the Navy and Army in support of the Military Housing Privatization Initiative as signed into
         Public Law 104-106 110, Stat 186 on February 11, 1996, and do not require Market Value Disclosure.




        DoD Performance and Accountability Report              71                           Part 3: Financial Information
The Net Investments increased by $25,293.1 million in Non-Marketable, Market-Based securities from year-end FY 2002 to year-end
FY 2003. The majority of this increase is attributable to the following reporting entities:

•   Investments of $18,445.2 million made by the Medicare-Eligible Retiree Health Care Fund, which was established at the
    beginning of FY 2003 (October 1, 2002).
•   A positive cash flow of $6,675.5 million earned by the Military Retirement Fund.




DoD Performance and Accountability Report       72                    Part 3: Financial Information
   Note 5. Accounts Receivable


As of September 30                                           2003                                                  2002
                                                           Allowance
                                    Gross                                             Accounts                  Accounts
                                                               For
                                   Amount                                            Receivable,               Receivable,
                                                           Estimated
                                     Due                                                Net                       Net
                                                          Uncollectibles
(Amounts in millions)
1. Intra-governmental
   Receivables:           $                 1,066.6                        N/A   $              1,066.6   $               1,121.9
2. Non-Federal
    Receivables (From
    the Public):          $                 7,918.1   $              (618.2)     $              7,299.9   $               6,341.9
3. Total Accounts
    Receivable:           $                           $                          $                        $
                                            8,984.7                 ( 618.2)                    8,366.5                   7,463.8
4. Allowance method:

        DoD Components used a variety of techniques for estimating Allowance for Uncollectible Accounts
        Receivable from the public. While the exact details differed among the Components, estimates were
        usually based on either a percentage of actual prior-year write-offs or a percentage of aged
        receivables from the public.
5. Other information:



        Fluctuations

        Total accounts receivable, net increased by $902.7 million or 12 percent between year-end FY 2002
        and year-end FY 2003.

        Intra-governmental receivables decreased by $55.3 million or 5 percent. The decrease was primarily
        due to improved accounts receivable reporting procedures implemented in FY 2003.

        Non-federal receivables, net increased by $958.0 million or 15 percent. The following factors
        caused an increase of $1,599.8 million:

        •   Improved accounts receivable management and reporting procedures and polices
        •   Reporting of non-current interest receivable for water storage contracts that were not recorded in
            FY 2002 by the U.S. Army Corps of Engineers ($879.9 million)
        •   Reclassifying amounts due from foreign governments previously recorded as other assets by the
            Air Force Working Capital Fund ($116.3 million)
        •   Recording interest related to a pending contract settlement currently in litigation for the
            Department of the Navy ($56.8 million)




        DoD Performance and Accountability Report             73                        Part 3: Financial Information
This increase was partially offset by a $641.8 million decrease primarily due to the reversal of a debt
previously in litigation by the Air Force General Fund ($299.1 million) and due to the collection of
contractor claims processing errors that occurred in FY 2002 for the Defense Health
Program ($202.6 million).

Other Information Related to Intra-Governmental Accounts Receivable

Intra-governmental Accounts Receivable of $1,066.6 million consists of:

                                                              Amount
                                                          ($ in millions)
Army General Fund                                             $ 80.2
Navy General Fund                                             $ 80.6
Air Force General Fund                                        $ 141.5
US Army Corps of Engineers                                    $ 414.1
Other Defense Components                                      $ 350.2
Total                                                         $1,066.6

Other Information Related to Non-Federal Accounts Receivable

Non-federal Accounts Receivable, Net of $7,299.9 million consists of:

                                                             Amount
                                                          ($ in millions)

Army General Fund                                            $ 514.6
Navy General Fund                                            $3,382.1
Air Force General Fund                                       $ 772.5
US Army Corps of Engineers                                   $1,935.6
Other Defense Components                                     $ 695.1
Total                                                        $7,299.9

Allocation of Undistributed Collections

Undistributed collections occur when a collection is received, but cannot be matched to an
appropriate receivable. The Department’s policy is to allocate supported undistributed collections
between intra-governmental and non-federal categories based on the percentage of
intra-governmental and non-federal accounts receivable. Unsupported undistributed collections are
recorded as Other Liabilities in Note 15.

Elimination Adjustments

The Department’s accounting systems do not capture trading partner data for purchases at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the Department
was unable to reconcile intra-governmental accounts receivable balances with its trading partners.
Through the ongoing Business Management Modernization Program, the Department intends to


DoD Performance and Accountability Report         74                        Part 3: Financial Information
develop long-term systems improvements by FY 2006 that will capture the data necessary to perform
reconciliations.

Other Information Related to Non-Federal Refunds Receivable

Three DoD Components reported non-federal refunds receivable in excess of 10 percent of the total
non-federal accounts receivable:
                            FY2003 Non-Federal          FY2003 Non-Federal               Percentage of
                           Refunds Receivable (Net)   Accounts Receivable (Net)          Net Amount
                                (in millions)               (in millions)



Army General Fund                            $314.5                       $514.6                      61.1%
Army WCF                                        5.4                         31.2                      17.3%
Military Retirement Fund                        5.6                         14.7                      38.1%

Amounts reported for non-federal refunds receivable primarily originated from debts owed by
military service members.

Note Reference

See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial
reporting requirements and DoD policies governing Accounts Receivable.

For further discussion on “Accounts Receivable” see the Department of Defense Financial
Management Regulation, Volume 6B, Chapter 10, paragraph 1007 and Volume 4, Chapter 3.




DoD Performance and Accountability Report             75                          Part 3: Financial Information
     Note 6.      Other Assets


 As of September 30                                            2003                        2002
 (Amounts in millions)
 1. Intra-governmental Other Assets:
    A. Advances and Prepayments                      $                  105.0    $                          0.1
    B. Other Assets                                                       0.0                               0.0
    C. Total Intra-governmental Other Assets         $                  105.0    $                          0.1

 2. Non-Federal Other Assets:
    A. Outstanding Contract Financing Payments       $                18,868.7   $                 15,227.2
    B. Other Assets (With the Public)                                  2,860.9                      3,018.6
    C. Total Non-Federal Other Assets                $                21,729.6   $                 18,245.8

 3. Total Other Assets:                              $                21,834.6   $                 18,245.9

 4. Other Information Related to Other Assets:

Fluctuations

Total Other Assets increased $3,558.7 million (approximately 19.7 percent) from year-end
FY 2002 to year-end FY 2003. Outstanding Contract Financing Payments was the most
significant change as the account increased by $3,641.5 million (23.9 percent). This increase
in Outstanding Contract Financing Payments occurred largely as a result of additional
progress payments of $2,369.4 million made by the Air Force during FY 2003 primarily for
the F-22 program. An additional increase in Outstanding Contract Financing Payments of
$1,200.3 million was due to increased funding in Navy Procurement accounts; primarily in
their Aircraft Procurement account.

Intragovernmental Other Assets

As of year-end FY 2003, there were approximately $105.0 million in Advances and
Prepayments between the DoD and the Department of the Interior. These Advances and
Prepayments are supported by the Department of Interior’s Intergovernmental Reconciliation
Accounting System report. This represents an increase of $104.9 million from year-end
FY 2002 when there was $90.1 million that represented the FY 2002 Advances and
Prepayments activity between the Department and other federal agencies.

For Intragovernmental Other Assets overall, per DoD’s practice, buyer-side “advances to
others” balances were adjusted to agree with the seller-side “advances from others” balances
in the financial records of other DoD reporting entities. Additionally, the buyer-side
“prepayments” balances were adjusted to agree with seller-side “deferred credits” balances in
the financial records of other DoD reporting entities.




   DoD Performance and Accountability Report         76                     Part 3: Financial Information
Non-Federal Other Assets

Outstanding Contract Financing Payments

The Department reports, as an advance and prepayment, all outstanding financing payments
for fixed-price contracts that are not based on percentage or stage of completion. Under the
contract terms, the Department becomes liable only after the contractor delivers the goods in
conformance with the contract terms. If the contractor does not deliver a satisfactory
product, the Department is not obligated to reimburse the contractor for its costs and the
contractor is liable to repay the Department for the full amount of the outstanding contract
financing payments.

Other Assets (With the Public)

For Other Assets (With the Public) overall, there was a $157.7 million (5.2 percent)
decrease.

Other Non-Federal Assets Disclosure
                                                                              FY 2003
                                Type of Asset                                    (in
                                                                              millions)
       Non-Federal
          Other Contract Financing Payments
              Army GF                                                   $        3,163.7
              Navy GF                                                            5,809.6
              Air Force GF                                                       9,645.3
              Army WCF                                                             250.1
       Total Other Contract Financing Payments                          $       18,868.7

           Other Assets With The Public

               Army
                Advances to Others                                      $           376.1
                Prepayments                                                            .2
                Other Assets                                                         48.8

               Navy
                Advances to Others                                      $           168.2
                Prepayments                                                         355.1
                Other Assets                                                        716.5

               Air Force
                Advances to Others                                      $           434.0
                Other Assets                                                        213.2

DoD Performance and Accountability Report        77                      Part 3: Financial Information
               DLA
                Advances to Others and Misc. Advances                              211.1

               Other Agencies
                Advances to Others                                      $           89.5
                Prepayments                                                        246.5
                Other Assets from Multiple Reporting Entities                        1.7

       Total Other Assets With the Public                               $        2,860.9

Navy’s $716.5 million Other Assets (With the Public) includes $606.3 million relating to the
outstanding debt principal reported for the Transportation Activity Group involving Time
Charter arrangements made by Military Sealift Command for the long-term use of the Afloat
Prepositioning Force – Navy ships. The outstanding debt principal is reported here to
reconcile with the amount reported by the Federal Financing Bank through the trading
partner elimination process (see Note 13 for additional disclosures).

Note Reference
See Note Disclosure 1. R. - Significant Accounting Policies for additional discussion on
financial reporting requirements and DoD policies governing Other Assets.




DoD Performance and Accountability Report        78                     Part 3: Financial Information
     Note 7. Cash and Other Monetary Assets


As of September 30                                                        2003                      2002
(Amounts in millions)

1.   Cash                                                           $            1,290.8   $                   573.2
2.   Foreign Currency (purchased and non-purchased)                                244.1                       148.6
3.   Other Monetary Assets                                                           0.0                        20.9
4.   Total Cash, Foreign Currency, & Other Monetary Assets          $            1,534.9   $                   742.7

5. Other Information Pertaining to Entity Cash & Other Monetary Assets:

            Definitions

            Cash and Foreign Currency – Cash is the total of cash resources under the control of the
            Department of Defense, which includes coin, paper currency, negotiable instruments, and
            amounts on deposit in banks and other financial institutions. Cash available for agency
            use includes petty cash funds and cash held in revolving funds which will not be
            transferred into the U.S. Government General Fund. Foreign currency consists of the
            total U.S. dollar equivalent of both purchased and non-purchased foreign currencies held
            in foreign currency fund accounts. Non-purchased foreign currency is limited to the
            Treasury Index 97X7000 fund account (formerly called FT accounts). There is a very
            limited dollar amount for non-purchased foreign currency. Non-purchased foreign
            currencies are acquired under the provisions of foreign assistance or foreign agricultural
            development programs.

            Other Monetary Assets - Includes gold, special drawing rights, and U.S. Reserves in the
            International Monetary Fund. This category is principally for use by the Department of
            the Treasury.

            Fluctuation and/or Abnormalities

            Cash increased $717.6 million (125.2 percent) primarily resulting from increases in cash
            on hand to support the military build-up related to both Operation Iraqi Freedom and
            Operation Enduring Freedom. Foreign currency increased $95.5 million (64.2 percent)
            primarily as a result of deployment for both Operation Iraqi Freedom and Operation
            Enduring Freedom. The foreign currency is primarily required to pay foreign vendors,
            provide cash for agents in support of deployed tactical units, and provide currency for
            exchange of U.S. dollars for troops stationed overseas. The other significant reason for
            the increase in foreign currency is attributed to the advance provided by the Korean
            government to the Army Corps of Engineers to cover construction, labor, and logistics
            costs of the Corps. Other monetary assets decreased by $20.9 million when an evaluation
            determined that the amount should be reclassified as an investment.




            DoD Performance and Accountability Report          79                    Part 3: Financial Information
Cash and Foreign Currency

Cash and foreign currency reported consists primarily of cash held by Disbursing
Officers to carry out their paying, collecting and foreign currency accommodation
exchange missions. The primary source of the amounts reported for cash and purchased
foreign currency is the Standard Form 1219, Statement of Accountability. The non-
purchased foreign currency, if there is any, is reported on the monthly DD Form 1363
(Statement of Transactions and Accountability (FT Accounts). Foreign currency is
valued using the Department of Treasury Prevailing Rate of Exchange. This rate is the
most favorable rate that would legally be available to the U.S. Government’s acquisition
of foreign currency for its official disbursements and provide currency for exchange of
U.S. dollars for troops. Cash seized during Operation Iraqi Freedom is restricted for use
to assist the Iraqi people and support the reconstruction of Iraq.

Note Reference

See Note Disclosure 1. J. - Significant Accounting Policies for additional discussion on
financial reporting requirements and DoD policies governing Foreign Currency.




DoD Performance and Accountability Report        80                      Part 3: Financial Information
    Note 8. A.          Direct Loan and/or Loan Guarantee Programs



1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan and/or
    loan guarantee program(s):
      Military Housing Privatization Initiative
      Armament Retooling & Manufacturing Support Initiative


2. Other Information:




Relevant Information for Comprehension

“Federal Credit Reform Act of 1990” (CRA) governs all direct loan obligations and loan guarantee commitments made or amended
after FY 1991 resulting in direct loans or loan guarantees. The Department complies with the CRA and reports direct loans and loan
guarantees in accordance with OMB Bulletin 01-09 “Form and Content of Agency Financial Statements.”

•   Direct loans are reported net of allowance for subsidy cost at present value.
•   Loan guarantee liabilities are reported at present value.

Military Housing Privatization Initiative

      The Military Housing Privatization Initiative (MHPI) includes both a Direct Loan and Loan Guarantee Program. MHPI fosters a
mutually beneficial relationship between the Department of Defense (DoD) and the private sector. The DoD obtains private sector
capital to leverage government dollars. The DoD provides protection against specific risks, such as base closure or member
deployment, for the private sector partner.



DoD Performance and Accountability Report         81                      Part 3: Financial Information
The Loan Guarantee Program authorized by the National Defense Authorization Act for FY 1996, Public Law 104-106 Statute 186,
Section 2801, includes a series of powerful authorities that allow the Department to work with the private sector to renovate military
housing. The Department’s goals are to:

•   obtain private capital to leverage government dollars;
•   make efficient use of limited resources; and
•   use a variety of private sector approaches to build and renovate military housing.

The Act also provides the Department with a variety of authorities to obtain private sector financing and expertise to improve military
housing. The Department uses these authorities individually, or in combination. They include:

•   guarantees, both loan and rental
•   conveyance/leasing of existing property and facilities
•   differential lease payments
•   investments, both limited partnerships and stock/bond ownership
•   direct loans

Armament Retooling and Manufacturing Support Initiative

The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 USC 4551-4555, is a Loan Guarantee Program
designed to encourage commercial use of the Army's Inactive Ammunition Plants through many incentives for businesses willing to
locate to a government ammunition production facility. These facilities’ production capacity is greater than current military
requirements. This capacity could be needed in the future. The revenues from the property rental are used to pay for the operation,
maintenance and environmental clean up at the facilities. The resulting savings in overhead costs lower the production cost of the
goods manufactured and fund environmental clean up at no cost to the government.

The US Department of Agriculture Rural Business-Cooperative Service (RBS) and the United States Army established a
Memorandum of Understanding (MOU) to furnish services to the Army in connection with the ARMS Initiative Loan Guarantee




DoD Performance and Accountability Report         82                     Part 3: Financial Information
Program (AILG) pursuant to Section 193 of the Armament Retooling and Manufacturing Support Act of 1992 (P.L. 102-484), as
amended (10 U.S.C. 2501 note). The Army was authorized by the National Defense Authorization Act for Fiscal Year 1995
(P.L. 103-337) to enter into this MOU with RBS pursuant to 31 U.S.C. 1535. RBS has the needed programmatic and administrative
services necessary and convenient and to provide other services required administering the AILG Program. Therefore, to ensure
service to the public and for protection of the federal interests and rights, it was necessary for Army to obtain services from RBS.


Prior to FY 2002, the RBS was required to include this program in the US Department of Agriculture (USDA) financial statements. In
FY 2002, the USDA was not required to include this program and the Department of the Army reports the balance. This complies
with the Office of Management and Budget (OMB) Bulletin No. 01-09, Note 36 and OMB Circular A-11, Section 20.4.




DoD Performance and Accountability Report        83                     Part 3: Financial Information
Note 8.B.       Direct Loans Obligated After FY 1991


As of September 30                                              2003                             2002
(Amounts in millions)
                   Loan Programs
   1. Military Housing Privatization Initiative:
    A. Loans Receivable Gross                       $                       129.1    $                           92.6
    B. Interest Receivable                                                    0.0                                 0.0
    C. Foreclosed Property                                                    0.0                                 0.0
    D. Allowance for Subsidy Cost (Present Value)                           (65.1)                              (48.4)

    E. Value of Assets Related to Direct Loans      $                        64.0    $                           44.2

  2. Armament Retooling & Manufacturing
     Support Initiative:
    A. Loans Receivable Gross                       $                         0.0    $                            0.0
    B. Interest Receivable                                                    0.0                                 0.0
    C. Foreclosed Property                                                    0.0                                 0.0
    D. Allowance for Subsidy Cost (Present Value)                             0.0                                 0.0

   E. Value of Assets Related to Direct             $                         0.0    $                            0.0
 Loans

  3. Total Loans Receivable:                        $                        64.0    $                           44.2



  4. Other Information:

     Subsidy costs are recognized when direct loans are disbursed to borrowers and are reestimated each year. Allowance for subsidy cost is the
     difference between the outstanding principal of the loans and the present value of their net cash inflows. New loans in the amount of $36.7
     million were disbursed relating to housing at Elmendorf, Alaska and Camp Pendleton, California. There were loan principal repayments of


        DoD Performance and Accountability Report        84                     Part 3: Financial Information
$.2 million during FY 2003 for the Lackland Air Force Base, TX project, resulting in a net increase of $36.5 million. The difference
between the FY 2002 Beginning Balance of Allowance for Subsidy Cost (Present Value) in this note and note 8.F. is due to a correction of
$6.6 million recognized in the current period. This amount is not material to the DoD, so the prior year amounts are not being restated.




DoD Performance and Accountability Report       85                     Part 3: Financial Information
Note 8.C.        Total Amount of Direct Loans Disbursed


As of September 30                                               2003                      202002
(Amounts in millions)

                 Direct Loan Programs

1. Military Housing Privatization Initiative:          $                    36.7   $                    92.6
2. Armament Retooling & Manufacturing Support                                0.0                            0.0
   Initiative
3. Total                                               $                    36.7   $                    92.6


4. Other Information:

  Direct loans disbursed declined by 60 percent or $55.9 million from FY 2002 to FY 2003. This is due to the reduced number of direct loans
  issued. Total direct loans disbursed in FY 2003 for the MHPI program are (in millions):

             Camp Pendleton Marine Corps Base, California           6.0
             Elmendorf Air Force Base, Alaska                      30.7
             Total Direct Loans Disbursed                          36.7




      DoD Performance and Accountability Report      86                     Part 3: Financial Information
Gross direct loans disbursed for the MHPI program from inception consists of the following (millions):


              Dyess Air Force Base, Texas                                        28.9
              Elmendorf Air Force Base, Alaska                                   48.0
              Lackland Air Force Base, Texas                                     10.6
              Warner Robins Air Force Base, Georgia                              22.3
              Camp Pendleton Marine Corps Base, California                       17.0
              Kingsville Air Force Base, Texas                                    2.5
              Total                                                             129.3

Direct loans disbursed in FY 2002 consisted of the following (in millions):

              Dyess Air Force Base, Texas                                         28.9
              Elmendorf Air Force Base, Alaska                                    17.3
              Lackland Air Force Base, Texas                                      10.6
              Warner Robins Air Force Base, Georgia                               22.3
              Camp Pendleton Marine Corps Base, California                        11.0
              Kingsville Air Force Base, Texas                                     2.5
              Total                                                               92.6




DoD Performance and Accountability Report        87                     Part 3: Financial Information
     Note 8.D.          Subsidy Expense for Post-1991 Direct Loans


As of September 30
(Amounts in millions)
                        2003                            Interest Differential              Defaults                   Fees             Other             Total
1.Subsidy Expense for New Direct Loans Disbursed:
   Military Housing Privatization Initiative        $                      19.2   $                      4.1   $             0.0   $           0.0   $           23.3
    Armament Retooling & Manufacturing Support                              0.0                          0.0                 0.0               0.0                0.0
   Initiative
   Total                                            $                      19.2   $                      4.1   $             0.0   $           0.0   $           23.3
                        2002                            Interest Differential              Defaults                   Fees             Other             Total
2.Subsidy Expense for New Direct Loans Disbursed:
   Military Housing Privatization Initiative        $                      34.6   $                      7.2   $             0.0   $           0.0   $           41.8
    Armament Retooling & Manufacturing Support                              0.0                          0.0                 0.0               0.0                0.0
   Initiative
   Total                                            $                      34.6   $                      7.2   $             0.0   $           0.0   $           41.8
                        2003                               Modifications                Interest Rate               Technical         Total              Total
                                                                                        Reestimates                Reestimates     Reestimates
3. Direct Loan Modifications and Reestimates:
    Military Housing Privatization Initiative       $                       0.0   $                      0.0   $             0.0   $           0.0   $            0.0
     Armament Retooling & Manufacturing Support                             0.0                          0.0                 0.0               0.0                0.0
    Initiative
    Total                                           $                       0.0   $                      0.0   $             0.0   $           0.0   $            0.0
                        2002                               Modifications                Interest Rate               Technical         Total              Total
                                                                                        Reestimates                Reestimates     Reestimates
4. Direct Loan Modifications and Reestimates:
    Military Housing Privatization Initiative       $                       0.0   $                      0.0   $             0.0   $           0.0   $            0.0
     Armament Retooling & Manufacturing Support                             0.0                          0.0                 0.0               0.0                0.0
    Initiative
    Total                                           $                       0.0   $                      0.0   $             0.0   $           0.0   $            0.0




       DoD Performance and Accountability Report        88                            Part 3: Financial Information
                                                                2003                       2002
5. Total Direct Loan Subsidy Expense:
   Military Housing Privatization Initiative           $                 23.3   $                     41.8
    Armament Retooling & Manufacturing Support                            0.0                          0.0
   Initiative
   Total                                               $                 23.3   $                     41.8


6. Other Information:


   The interest rate and default cost values represent the amounts for the three phased loans disbursed in FY 2003. These rates are established for
   each individual loan, ranging from 66 percent for the Camp Pendleton Marine Corps Base, CA project to 43 percent for the Elmendorf Air Force
   Base, AK project.

   The decline in the reporting of Interest Rate Differential Costs and Default Costs from year-end FY 2002 is proportional to six loans disbursed
   for FY 2002 and two loans disbursed in FY 2003. The reduction in loans disbursed results in an $18.5 million decrease for the direct loan
   subsidy expense. The subsidy rate differs for each project, from 66 percent for Camp Pendleton Marine Corps Base, CA to 43 percent for
   Elmendorf Air Force Base, AK. This has a direct impact on the variance from FY 2002 to FY 2003.

   The $23.3 million in total Subsidy Expense includes the recognition of Subsidy from loans disbursed prior to FY 2003. This represents a
   correction of $6.6 million recognized in the current period and not a reestimate. This amount is not material to the DoD, so the prior-year
   amounts are not being restated.

   As of September 30, 2003, there were no reestimates for the Direct Loans Program.




        DoD Performance and Accountability Report          89                       Part 3: Financial Information
     Note 8.E.          Subsidy Rate for Direct Loans



                                                          Interest
                                                                        Defaults       Fees           Other           Total
                                                         Differential


                      Direct Loans:


1. Military Housing Privatization Initiative:                 30.62%        9.33%        0.00%           0.00%                39.95%
2. Armament Retooling & Manufacturing Support                  0.00%        0.00%        0.00%           0.00%                 0.00%
   Initiative

3. Other Information:

   Subsidy rates pertain to the loan agreements contracted during the current fiscal year. These rates cannot be applied to the direct loans
   disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new loans disbursed in the current
   year could result from disbursement of loans from both current and prior-year loan agreements.

   Subsidy rates for FY 2004 are included in the FY 2004 Presidential Budget Federal Credit Supplement and are published at the
   following website:

      http://www.whitehouse.gov/omb/budget/fy2004/pdf/cr_supp.pdf.




      DoD Performance and Accountability Report        90                      Part 3: Financial Information
Note 8.F.        Schedule for Reconciling Subsidy Cost Allowance Balances for
                 Post-1991 Direct Loans

       Beginning Balance, Changes and Ending Balance                                                       2003
 (Amounts in millions)
 1. Beginning balance of the subsidy cost allowance                                                    $          41.8

 2. Add: subsidy expense for direct loans disbursed during the reporting years by component:
       A. Interest rate differential costs                                                             $          19.2
       B. Default costs (net of recoveries)                                                                        4.1
       C. Fees and other collections                                                                               0.0
       D. Other subsidy costs                                                                                      0.0
       E. Total of the above subsidy expense components                                                $          23.3

 3. Adjustments:
       A. Loan modifications                                                                           $           0.0
       B. Fees received                                                                                            0.0
       C. Foreclosed property acquired                                                                             0.0
       D. Loans written off                                                                                        0.0
       E. Subsidy allowance amortization                                                                           0.0
       F. Other                                                                                                    0.0
       G. Total of the above adjustment components                                                     $           0.0

 4. Ending balance of the subsidy cost allowance before reestimates                                    $          65.1

 5. Add or subtract subsidy reestimates by component:
       A. Interest rate reestimate                                                                     $           0.0
       B. Technical/default reestimate                                                                             0.0
       C. Total of the above reestimate components                                                     $           0.0



 6. Ending balance of the subsidy cost allowance                                                       $          65.1




DoD Performance and Accountability Report            91                Part 3: Financial Information
Note 8.G.        Defaulted Guaranteed Loans from Post-1991 Guarantees

As of September 30                                       2003                              2002
(Amounts in millions)

        Loan Guarantee Program(s)

1. Military Housing Privatization Initiative:
   A. Defaulted Guaranteed Loans
          Receivable, Gross                     $                   0.0   $                           0.0
   B. Interest Receivable                                           0.0                               0.0
   C. Foreclosed Property                                           0.0                               0.0
   D. Allowance for Subsidy Cost (Present
          Value)                                                    0.0                               0.0
   E. Value of Assets Related to Defaulted
          Guaranteed Loans Receivable           $                   0.0   $                           0.0

2. Armament Retooling & Manufacturing
   Support Initiative
   A. Defaulted Guaranteed Loans
         Receivable, Gross                      $                   0.0   $                           0.0
   B. Interest Receivable                                           0.0                               0.0
   C. Foreclosed Property                                           0.0                               0.0
   D. Allowance for Subsidy Cost (Present
         Value)                                                     0.0                               0.0
   E. Value of Assets Related to Defaulted
         Guaranteed Loans Receivable            $                   0.0   $                           0.0

3. Total Value of Assets Related to
    Defaulted Guaranteed Loans
    Receivable                                  $                   0.0   $                           0.0
4. Other Information:

As of the September 30, 2003, the Department had no defaulted guaranteed loans.



DoD Performance and Accountability Report           92                Part 3: Financial Information
    Note 8.H. Guaranteed Loans Outstanding

As of September 30
(Amounts in millions)
                                            Outstanding Principal,         Amount of Outstanding
                                             Guaranteed Loans,              Principal Guaranteed
Loan Guarantee Program Title                     Face Value
                2003
1. Military Housing Privatization
    Initiative                         $                      389.0    $                      389.0
2. Armament Retooling &
    Manufacturing Support
    Initiative                                                 26.8                            24.0
3. Total                               $                      415.8    $                      413.0

                2002
1. Military Housing Privatization
    Initiative                         $                        75.0   $                       75.0
2. Armament Retooling &
    Manufacturing Support
    Initiative                                                   8.6                            7.7
3. Total                               $                        83.6   $                       82.7

4. Other Information:

    MHPI

   During FY 2003 new Guaranteed Loans were created for Kirtland Air Force Base, NM, Wright Patterson Air Force Base, OH,
   Warner Robins Air Force Base, GA, Elmendorf Air Force Base, AK and Lackland Air Force Base, TX. The Guaranteed Loans
   Outstanding for the MHPI program as of the end of FY 2003 consists of the following (in millions):




DoD Performance and Accountability Report              93                          Part 3: Financial Information
             Warner-Robins Air Force Base, GA                                25.6
             Fort Carson Army Installation, CO                              147.0
             Kirtland Air Force Base, NM                                     74.0
             Wright Patterson Air Force Base, OH                             65.0
             Elmendorf Air Force Base, AK                                    48.0
             Lackland Air Force Base, TX                                     29.4

             Total                                                          389.0

ARMS

Guaranteed loans outstanding increased by $18.2 million or 213 percent as a result of issuing two additional loans in FY 2003.




DoD Performance and Accountability Report        94                     Part 3: Financial Information
    Note 8.I.      Liability for Post-1991 Loan Guarantees, Present Value


As of September 30
(Amounts in millions)                                                           2003                         2002

Loan Guarantee Program Title
1. Military Housing Privatization Initiative                       $                           24.6      $             13.4
2. Armament Retooling & Manufacturing Support Initiative                                        1.3                     0.7
3. Total                                                           $                           25.9      $             14.1
4. Other Information:

MHPI

The net increase of $11.2 million between FY 2002 and FY 2003 is the result of new guaranteed loans. New guaranteed loans for
FY 2003 are listed in note 8.H. The FY 2003 liability also includes a correction of a negative $2.1 million recognized in the current
period and not a reestimate. This amount is not material to the DoD, so the prior-year amounts are not being restated.

ARMS

Total Loan Guarantee Liabilities increased $.6 million as a result of two additional loans issued in FY 2003.




DoD Performance and Accountability Report        95                      Part 3: Financial Information
    Note 8.J.             Subsidy Expense for Post-1991 Loan Guarantees


As of September 30
(Amounts in millions)
                            2003                           Interest Differential           Defaults                    Fees                    Other             Total
1. Subsidy Expense for New Loan Guarantees Disbursed:
   Military Housing Privatization Initiative               $                   0.0   $                   11.3   $                 0.0   $              0.0   $           11.3
   Armament Retooling & Manufacturing Support Initiative                       0.0                        0.1                 (0.0)                    0.0                0.1

  Total                                                    $                   0.0   $                   11.4   $                 0.0   $              0.0   $           11.4
                            2002                           Interest Differential           Defaults                    Fees                    Other             Total
2. Subsidy Expense for New Loan Guarantees Disbursed:
   Military Housing Privatization Initiative               $                   0.0   $                   10.1   $                 0.0   $              0.0   $           10.1
   Armament Retooling & Manufacturing Support Initiative                       0.0                    (0.0)                       0.0                  0.0                0.0
   Total                                                   $                   0.0   $                   10.1   $                 0.0   $              0.0   $           10.1
                            2003                               Modifications             Interest Rate               Technical                 Total             Total
                                                                                         Reestimates                Reestimates             Reestimates
3. Loan Guarantee Modifications and Reestimates:
  Military Housing Privatization Initiative                $                   0.0   $                    0.0   $                 0.0   $              0.0   $            0.0
   Armament Retooling & Manufacturing Support Initiative                       0.0                        0.0                     0.0                  0.0                0.0
  Total                                                    $                   0.0   $                    0.0   $                 0.0   $              0.0   $            0.0
                            2002                               Modifications             Interest Rate               Technical                 Total             Total
                                                                                         Reestimates                Reestimates             Reestimates
4. Loan Guarantee Modifications and Reestimates: $4.
Direct Loan Modifications and Reestimates:
   Military Housing Privatization Initiative               $                   0.0   $                    0.0   $                 0.0   $              0.0   $            0.0
  Armament Retooling & Manufacturing Support Initiative                        0.0                        0.0                     0.0                  0.0                0.0
  Total                                                    $                   0.0   $                    0.0   $                 0.0   $              0.0   $            0.0




             DoD Performance and Accountability Report         96                        Part 3: Financial Information
                            2000                                    2003                 2002
5. Total Loan Guarantee Subsidy Expense:
   Military Housing Privatization Initiative               $               11.3   $                10.1
   Armament Retooling & Manufacturing Support Initiative                    0.1                     0.0
   Total                                                   $               11.4   $                10.1


6. Other Information:

  MHPI

  The MHPI has $11.3 million in Default Subsidy, which includes the recognition of subsidy from loans disbursed prior to FY 2003. This
  amount also includes a correction of a negative $2.1 million recognized in the current period and not a reestimate. This amount is not material
  to the DoD, so the prior-year amounts are not being restated.

  ARMS

  ARMS loan guarantee subsidy expense increased by $0.1 million as a result of increased loan activity.




            DoD Performance and Accountability Report          97                     Part 3: Financial Information
   Note 8.K.          Subsidy Rate for Loan Guarantees



                                                          Interest                   Fees and other
                                                                        Defaults                              Other       Total
                                                        Supplements                    Collections

                   Loan Guarantees:

1. Military Housing Privatization Initiative:                   0.00%       5.40%               0.00%            0.00%            5.40%
2. Armament Retooling & Manufacturing Support                   0.00%       4.94%              -1.60%            0.00%            3.34%
   Initiative

3. Other Information:


   MHPI

   The subsidy rates disclosed pertain only to the current year’s cohorts. These rates cannot be applied to the direct loans disbursed during
   the current reporting year to yield the subsidy expense. The subsidy expense for new loans reported in the current year that could result
   from disbursements of loans from both current year cohorts and prior year(s) cohorts. The subsidy expense reported in the current year
   also includes modifications and reestimates.

   These rates are obtained from the following web site: http://www.whitehouse.gov/omb/budget/fy2004/pdf/cr_supp.pdf.

   The FY 2004 Federal Credit Supplement provides summary information about Federal Direct Loan and Loan Guarantee Programs
   subject to the Federal Credit Reform Act (FCRA) of 1990, as amended by the Balanced Budget Act of 1997. The data is based on
   legislation enacted for FY 2002 and the proposals contained in the President’s 2003 Budget.




     DoD Performance and Accountability Report         98                     Part 3: Financial Information
Note 8.L.                  Schedule for Reconciling Loan Guarantee Liability Balances for
                           Post-1991 Loan Guarantees
   Beginning Balance, Changes and Ending Balance                                                             2003
(Amounts in millions)
1. Beginning balance of the loan guarantee liability                                                 $              14.1

2. Add: subsidy expense for guaranteed loans disbursed during the reporting years by component:
   A. Interest supplement costs                                                                      $                0.0
   B. Default costs (net of recoveries)                                                                             11.4
   C. Fees and other collections                                                                                    (0.0)
   D. Other subsidy costs                                                                                             0.0
   E. Total of the above subsidy expense components                                                  $              11.4

3. Adjustments:
   A. Loan guarantee modifications                                                                   $               0.0
   B. Fees received                                                                                                  0.4
   C. Interest supplements paid                                                                                      0.0
   D. Foreclosed property and loans acquired                                                                         0.0
   E. Claim payments to lenders                                                                                      0.0
   F. Interest accumulation on the liability balance                                                                 0.0
   G. Other                                                                                                          0.0
   H. Total of the above adjustments                                                                 $               0.4

4. Ending balance of the loan guarantee liability before reestimates                                 $              25.9

5. Add or subtract subsidy reestimates by component:
   A. Interest rate reestimate                                                                                       0.0
   B. Technical/default reestimate                                                                                   0.0
   C. Total of the above reestimate components                                                       $               0.0

6. Ending balance of the loan guarantee liability                                                    $              25.9
7. Other Information:




         DoD Performance and Accountability Report        99                 Part 3: Financial Information
    Note 8.M.           Administrative Expense

As of September 30
                                                                      2003                       2002
(Amounts in millions)

1. Direct Loans:
   Military Housing Privatization Initiative                 $                   0.0   $                 0.0
   Armament Retooling & Manufacturing Support Initiative                         0.0                     0.0
  Total                                                      $                   0.0   $                 0.0



2. Loan Guarantees:

  Military Housing Privatization Initiative                  $                   0.0   $                 0.0
  Armament Retooling & Manufacturing Support Initiative                          0.0                     0.0

  Total                                                      $                   0.0   $                 0.0



3. Other Information:




   Administrative Expense is limited to separately identified expenses administered to direct and guaranteed loans. DoD does not
   maintain a separate program to capture the expenses related to direct and guaranteed loans only for the MHPI.

   Administrative Expense for the ARMS is a fee paid to the U.S. Department of Agriculture Rural Business-Cooperative Service
   (RBS) for administering the loan guarantees under the ARMS, which is a joint program (see Note 8.A.). Administrative Expense
   for the ARMS is immaterial to the DoD financial statements.




DoD Performance and Accountability Report         100                  Part 3: Financial Information
      Note 9. Inventory and Related Property

As of September 30                                                         2003                        2002
(Amounts in millions)

1.   Inventory, Net (Note 9.A.)                              $                          52,995.0   $           53,375.1
2.   Operating Materials & Supplies, Net (Note 9.B.)                                   139,351.2               90,715.4
3.   Stockpile Materials, Net (Note 9.C.)                                                1,827.9                2,108.1
4.   Total                                                   $                         194,174.1   $          146,198.6




DoD Performance and Accountability Report              101       Part 3: Financial Information
    Note 9.A.         Inventory, Net

                                                                          2003                                                2002
                                               Inventory,               Revaluation                Inventory,               Inventory,         Valuation
As of September 30                            Gross Value               Allowance                     Net                      Net              Method
(Amounts in millions)
1. Inventory Categories:
   A. Available and Purchased for
      Resale                              $              70,162.0   $         (36,465.4)                     33,696.6   $           34,984.5
   B. Held for Repair                                    27,763.6             (10,408.3)                     17,355.3               16,066.1
   C. Excess, Obsolete, and
      Unserviceable                                     3,823.3                (3,823.3)                          0.0                    0.0
   D. Raw Materials                                         9.8                      0.0                          9.8                    0.0
   E. Work in Process                                   1,933.3                      0.0                      1,933.3                2,324.5
   F. Total                               $           103,692.0     $         (50,697.0)                     52,995.0   $           53,375.1
Legend for Valuation Methods:
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for    NRV = Net Realizable Value
   holding gains and losses                             O = Other
SP = Standard Price                                     MAC = Moving Average Cost
AC = Actual Cost
2. Restrictions of Inventory Use, Sale, or Disposition:

  Generally, there are no restrictions on the use, sale, or disposition of inventory except in the following situations:
  1) Distributions without reimbursement are made when authorized by Department of Defense directives;
  2) War reserve material includes fuels and subsistence items that are considered restricted; and
  3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private parties, and contractors
     in accordance with current policies and guidance or at the direction of the President.




  DoD Performance and Accountability Report        102                       Part 3: Financial Information
3. Other Information:

 Category                                     Valuation Method
 Available and Purchased for Resale           LAC; MAC; AC
 Held for Repair                              LAC; O; MAC
 Excess, Obsolete, and Unserviceable          LAC; AC; NRV; O
 Work in Process                              MAC; LAC; SP


 Definitions

 Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable items owned and managed
 by the Department. This inventory includes material held due to a managerial determination that these items should be retained to
 support military or national contingencies.

 Inventory Held for Repair is damaged inventory that requires repair to make suitable for sale. It is more economical to repair than to
 procure these inventory items. In addition, because the Department often relies on weapon systems and machinery no longer in
 production, the Department supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential
 to maintaining a ready, mobile, and armed military force.

 Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be economically repaired and are
 awaiting disposal. Potentially reusable material, presented in previous years as “Excess, Obsolete and Unserviceable” is included in
 “Held for Use” or “Held for Repair” categories according to its condition. As explained below, this category is no longer used.

 Work in Process balances include costs related to the production or servicing of items, including direct material, direct labor, applied
 overhead and other direct costs. Work in Process also includes the value of finished products or completed services pending the
 submission of bills to the customer. The Work in Process designation may also be used to accumulate the amount paid to a contractor
 under cost reimbursable contracts, including the amount withheld from payment to ensure performance, and the amount paid to other
 Government plants for accrued costs of end items of material ordered but not delivered.




 DoD Performance and Accountability Report       103                      Part 3: Financial Information
Changes from Prior Year’s Accounting Methods – Inventory Valuation

Effective for fiscal year 2002 and prior, OUSD(C) memorandum dated August 12, 2002, Subj: Accounting for Excess, Obsolete, and
Unserviceable Inventory and Operating Materials and Supplies, implemented a Department-wide change in policy for classification of
and accounting for excess, obsolete, and unserviceable inventory. This policy change revised the Department’s previous process
which used supply stratification reports to determine potential excess items. These items were written down annually to Net
Realizable Value - with the annual net changes recorded as expenses. The change in policy limited the write-down of inventory to
specific condition codes for condemned items with a net realizable value of zero. This change was applied to FY 2002 and prior and,
accordingly, required a reversal of previous years’ expenses - and a reestablishment of significant amounts of inventory as Inventory
“Available and Purchased for Resale.” This policy is reflected in the following schedule of Inventory, Net, by reporting Service and
Agency:

                                 Inventory, Net Categories
                                                                                                           Sept 30, 2003    Sept 30,2002
                                          Available and                                                             Total            Total
 Agencies                           Purchased for Resale     Held for Repair        Work In Process         (in Millions)    (in millions)
 Army                                          11,269.0               895.1                  261.0             12,425.0        $11,319.3
 Navy                                           3,319.3            13,242.9                  957.2             17,519.4         17,012.6
 Air Force                                      6,598.8             3,206.7                  693.6             10,499.2         12,846.8
 Defense Logistics Agency                      12,149.0                10.5                                    12,159.5         11,525.1
 Other Defense Agencies                           370.4                                        21.5               391.9            671.3
 Total                                         33,706.4           17,355.2                  1,933.3            52,995.0        $53,375.1

 Total – September 30, 2002                  $34,984.0           $16,066.6                $2,324.5           $53,375.1

Fluctuations and/or Abnormalities

The high value for Navy “Held for Repair” was attributed to increased support for Operation Iraqi Freedom which included significant
movement of reparable items from activities to repair facilities such as shipyards and aircraft maintenance facilities.

The overall decrease in Inventory, Net is $380.1 million. This amount is .72 percent of the total value of Inventory. This reflects the
requirements of Operation Iraqi Freedom.


DoD Performance and Accountability Report            104                   Part 3: Financial Information
U.S. Army
Raw Materials increased $9.8 million or 100%. The Army Working Capital Fund is reporting this category of inventory for the first
time in FY 2003. This is the result of implementation of the Army’s Logistics Management Program at some of its activities. These
reclassified items were previously reported as Available and Purchased for Resale.

General Composition of Inventory

Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale by Defense Working Capital Funds. Inventory
is tangible personal property that is:
        1) Held for sale, or held for repair for eventual sale;
        2) In the process of production for sale; or
        3) To be consumed in the production of goods for sale or in the provision of services for a fee.

Spare and repair parts, clothing and textiles, fuels, ammunition, missiles, aircraft engines, and other items held for consumption by
General Funds are categorized as Operating Materials & Supplies. (See Note 9.B.)

Inventory “held for repair” is damaged material that requires repair to make it usable. “Excess inventory” is condemned material that
must be retained for management purposes. “Work in process” includes munitions in production and depot maintenance work with its
associated labor, applied overhead, and supplies used in the delivery of maintenance services. The United States Standard General
Ledger does not include a separate work in process general ledger account unrelated to sales.

Changes from Prior Year’s Accounting Methods – Revaluation Allowance

“In accordance with generally accepted accounting principles and Statement of Federal Financial Accounting Standards Number 3, the
Department’s inventory is required to be valued at historical cost or at an approximation of historical cost utilizing an accepted method
as stated in SFFAS No. 3. Because the Department’s logistics and accounting systems were not designed to maintain historical values
as required, the Department has been utilizing an accepted alternative which adjusts latest acquisition costs (LAC) and standard prices
to an approximation of historical cost. Latest acquisition cost and standard prices apply the latest procurement prices to all like items
in inventory. LAC and standard price methods, however, typically create inflated inventory values due to unrealized gains generated
by procurement cost adjustments to all items. Because such gains should not be realized until items are sold, the Department requires


DoD Performance and Accountability Report        105                      Part 3: Financial Information
an adjustment for price gains and operating surcharges for regulatory reporting. These gains have been, and continue to be, captured
in an Allowance account which, when netted against gross inventory values, produce a net inventory which approximates historical
cost.

In a July 6, 2001 memorandum, the Office of the Under Secretary of Defense (Comptroller) prescribed moving average cost (MAC) as
the inventory valuation method to be used by the Department. However, the change in policy recognized the deficiencies in current
systems as noted above and authorized the continued use of the Allowance method for other functional areas (e.g., logistics,
procurement, budget) - and for legacy financial systems - but only until such time as those systems are replaced. Transition from the
Allowance method to MAC began in fiscal year 2002 and continues in 2003 and beyond.



Note Reference

    See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD
    policies governing Inventory and Related Property.

    For regulatory discussion on accounting treatment of “Inventory, Net” see Department of Defense Financial Management
    Regulation, Volume 6B, Chapter 10, paragraph 101103.




DoD Performance and Accountability Report      106                      Part 3: Financial Information
Note 9.B. Operating Materials and Supplies, Net

                                                                          2003                                                2002
As of September 30                             OM&S                    Revaluation                                                              Valuation
                                                                                               OM&S, Net                    OM&S, Net
                                            Gross Value                Allowance                                                                 Method
(Amounts in
    millions)
1. OM&S
    Categories:
   A. Held for Use                      $            122,732.3     $                 0.0   $                122,732.3   $            79,979.5
   B. Held for Repair                                   18,169.3             (1,550.4)                       16,618.9                10,255.6
   C. Excess, Obsolete, and
       Unserviceable                                     3,708.9             (3,708.9)                            0.0                  480.3
   D. Total                             $            144,610.5     $         (5,259.3)     $                139,351.2   $            90,715.4

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost            NRV = Net Realizable Value
   adjusted for holding gains and losses          O = Other
SP = Standard Price                               MAC = Moving Average Cost
AC = Actual Cost
2. Restrictions on OM&S:

Generally, there are no restrictions on the use, sale, or disposition of inventory except in the following situations:

1. Distributions without reimbursement are made when authorized by DoD directives;
2. War reserve material includes fuels and subsistence items that are considered restricted; and
3. Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private parties, and contractors
   in accordance with current policies and guidance or at the direction of the President.



DoD Performance and Accountability Report         107                       Part 3: Financial Information
3. Other Information:

OM&S Categories                              Valuation Method
Held for Use                                 LAC; MAC; AC; SP; O
Held for Repair                              LAC; SP; MAC; O
Excess, Obsolete, and Unserviceable          AC; NRV; O; SP

General Composition of Operating Materials and Supplies

Operating Materials and Supplies includes spare and repair parts, ammunition, tactical missiles, aircraft configuration pods, and
centrally managed aircraft engines.

Decision Criteria for Identifying the Category to Which Operating Materials and Supplies are Assigned

Managers determine which items are more costly to repair than to replace. Items retained for management purposes are coded
“condemned.” The net value of these items is zero, and is shown as “Excess, Obsolete, and Unserviceable.” The category “Held for
Use” includes all issuable and economically reparable material. Before FY 2002, the Department showed “Potentially re-
distributable” material, regardless of condition, as “Excess, Obsolete, and Unserviceable.”




DoD Performance and Accountability Report       108                      Part 3: Financial Information
Fluctuations and/or Abnormalities for OM&S, Net
                                                                   Operating Materials & Supplies, Net
                                                                                                         Sept 30,2003     Sept 30,2002
                                                                             Excess, Obsolete, and                Total            Total
           Agencies                         Held for Use   Held for Repair          Unserviceable         (in millions)    (in millions)
 Army                                         32,383.4                 -                         -          32,383.4         26,964.9
 Navy                                         50,685.2           3,663.2                         -          54,348.4         33,003.6
 Air Force                                    39,515.5          12,955.7                         -          52,471.2         28,817.5
 Defense Logistics Agency                          8.6                 -                         -               8.6             10.5
 Other Defense Agencies                          139.6                 -                         -             139.6          1,918.9
             Total                           122,732.3          16,618.9                                   139,351.2         90,715.4

 Total – September 30, 2002                   79,979.5          10,225.6                   480.3            90,715.4




Fluctuations and/or Abnormalities

OM&S increased by $48,635.8 million. The majority of this increase is attributable to the implementing the requirements under
Statement of Federal Financial Accounting Standards (SFFAS) #23. “Eliminating the Category National Defense Property, Plant and
Equipment (NDPP&E).” As a result the Department now reports under OM&S assets formerly reported as NDPP&E. This
information was previously reported as Required Supplementary Stewardship Information (RSSI).

Government Furnished Material (GFM) and Contractor Acquired Material (CAM). Generally, the value of the Department’s GFM
and CAM in the hands of contractors is not included in the OM&S values reported above. DoD is presently reviewing its process for
reporting these amounts in an effort to determine the appropriate accounting treatment and the best method to annually collect and
report required information without duplicating information already in other existing logistics systems.




DoD Performance and Accountability Report            109                 Part 3: Financial Information
Note Reference

See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD
policies governing Inventory and Related Property.

For regulatory discussions on accounting treatment of “Stockpile Materials, Net” see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 101106.




DoD Performance and Accountability Report      110                     Part 3: Financial Information
    Note 9.C.         Stockpile Materials, Net

                                                                              2003                                              2002
As of September 30                               Stockpile                 Allowance             Stockpile Materials,    Stockpile Materials,    Valuation
                                                 Materials                 for Gains                     Net                     Net              Method
                                                 Amount                     (Losses)
(Amounts in millions)(((((m(
1. Stockpile Materials Categories:
   A. Held for Sale                         $                1,691.7   $               0.0   $                 1,691.7   $             2,039.7
   B. Held in Reserve for Future Sale                          136.2                   0.0                       136.2                    68.4

   C. Total                                 $                1,827.9   $               0.0   $                 1,827.9   $             2,108.1

Legend for Valuation Methods:
LAC = Latest Acquisition Cost                     NRV = Net Realizable Value
SP = Standard Price                               O = Other
AC = Actual Cost
2. Restrictions on Stockpile Materials:

There are legal restrictions on the use of stockpile materials. Strategic and critical materials are stockpiled in the interest of national
defense to preclude a dangerous and costly dependence on foreign sources of supply in times of a national emergency. Due to
environmental considerations, there is a moratorium on the sale of mercury and thorium nitrate.


3. Other Information:
Category                                        Valuation Method
Held for Sale                                   AC; LCM (Lower of Cost or Market)
Held for Reserve                                AC; LCM




DoD Performance and Accountability Report         111                         Part 3: Financial Information
General Composition of Stockpile Materials

Stockpile materials are strategic and critical materials, held due to statutory requirements, for use in national defense, conservation or
national emergencies. Strategic and critical materials are stockpiled in the interest of national defense to preclude a dangerous and
costly dependence on foreign sources of supply in times of a national emergency. The quantities to be stockpiled are required to be
sufficient to sustain the U. S. for a period of not less than three years during a national emergency (including a sustained conventional
global war of indefinite duration). Required stockpile levels may only be changed by law through a Presidential proposal in the
Annual Material Plan submitted to Congress.

Decision Criteria for Categorizing Stockpile Materials as “Held For Sale”

Materials for which Congress has not authorized sale are classified as Materials Held in Reserve. The balance of the stockpile is
available for sale on the open market and is classified as Held for Sale. Disposals cannot be made from the stockpile except under the
following situations: (1) necessary upgrading, refining, or processing; (2) necessary rotation to prevent deterioration; (3)
determination as excess with potential financial loss if retained; and (4) as authorized by law.

Changes in the Criteria for Categorizing Stockpile Materials as “Held For Sale”

All materials held by the Defense National Stockpile (DNS) are classified as Materials Held in Reserve until Congressional action
declares the materials are no longer required to be stockpiled and are available for sale on the open market. When DNS receives
authorization to offer materials declared no longer needed and available for sale, DNS removes the materials from Material Held in
Reserve and reclassifies them as Material Held for Sale.

Other Information Related to Stockpile Material, Net

The financial statements report the recorded historical cost in accordance with the lower of cost or market (LCM) principal.

Note Reference

See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD
policies governing Inventory and Related Property.


DoD Performance and Accountability Report        112                       Part 3: Financial Information
For regulatory discussion on accounting treatment of “Stockpile Materials,, Net” see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 101109.




DoD Performance and Accountability Report     113                     Part 3: Financial Information
    Note 10. General PP&E, Net


As of September 30                                                  2003                                                                  2002
                                 Depreciation/                                             (Accumulated
                                                  Service         Acquisition                                       Net Book           Prior FY Net
                                 Amortization                                              Depreciation/
                                                   Life             Value                                            Value             Book Value
                                   Method                                                  Amortization)
(Amounts in millions)
1. Major Asset Classes:
   A. Land                            N/A           N/A       $            9,663.4                          N/A $          9,663.4 $               9,560.0
   B. Buildings, Structures,
      and Facilities                   S/L       20 Or 40                159,527.4 $                (83,139.4)            76,388.0                73,556.1
   C. Leasehold
      Improvements                     S/L       lease term                  196.6                     (100.4)                96.2                   101.2
   D. Software                         S/L       2-5 Or 10                 5,022.2                   (2,629.5)             2,392.7                 1,391.7
   E. Equipment                        S/L       5 Or 10               1,163,111.2                 (825,057.0)           338,054.2                13,454.6
   F. Assets Under Capital
      Lease 1                          S/L       lease term                     577.2                  (343.6)                 233.6                  264.4
   G. Construction-in-
      Progress                        N/A           N/A                   19,388.3                        N/A             19,388.3                24,143.2
   H. Other                                                                   92.5                         0.0                92.5                    98.5
   I. Total General PP&E                                      $        1,357,578.8 $               (911,269.9) $         446,308.9 $             122,569.7


1
 Note 15.B for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line     N/A = Not Applicable

2. Other Information:

 Fluctuations and/or Abnormalities

 Total General PP&E increased by $323.7 billion (264.2 percent) from year-end FY 2002 to year-end FY 2003. The majority of this fluctuation was
 due to re-establishing the value of military equipment on the Balance Sheet (see disclosure below).




 DoD Performance and Accountability Report          114                     Part 3: Financial Information
Equipment increased by $324.6 billion. This increase was primarily due to inclusion of $325.1 billion in military equipment. The estimated total
acquisition cost of military equipment was $1,123.5 billion with accumulated depreciation of $798.4 billion resulting in a net book value of
$325.1 billion. Military equipment was previously reported as National Defense PP&E in the Required Supplementary Stewardship Information.

The software increased by a net of $1,001.0 million (71.9 percent) due to the reclassification from the Construction-in-Progress (CIP) category to the
software category. The majority of the change is attributable to the DFAS Working Capital Fund’s reclassification of $433.9 million and the Air
Force Working Capital Fund’s reclassification of $510.0 million.

The CIP account decreased by $4,754.9 million (19.7 percent). The principal reasons for the decrease were as follow:
• The reclassification of software totaling $1,001.0 million (as described above).
• Compliance with a DoDIG audit recommendation to expense approximately $1,000.0 million for cost-sharing.
• The Corps of Engineer corrective action of $2,584.8 million to transfer out completed assets and to reclassify non project cost to expense.



Other Information Related to General PP&E, Net

Military Equipment

The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards No. 23, Eliminating the Category
National Defense Property, Plant, and Equipment, in May 2003. This standard, which is effective for accounting periods beginning after
September 30, 2002, establishes generally accepted accounting principles for valuing and reporting military equipment (e.g., ships, aircraft, combat
vehicles, weapons) in federal financial statements. The standard requires the capitalization and depreciation of the cost of military equipment,
including the cost of modifications and upgrades.

The Department has determined that it is not practical at this time to accumulate from internal records the information necessary to value military
equipment in accordance with generally accepted accounting principles, because the Department is currently working to revise its accounting
processes and systems to support the informational needs of management and compliance with generally accepted accounting principles. In the
interim, the Department will base the value of military equipment for financial statement presentation purposes on data provided by the Bureau of
Economic Analysis (BEA), Department of Commerce.

The data provided by BEA consist of investment and net book value data for 84 groups of equipment such as aircraft, ships and combat vehicles.
BEA uses Department budget data for equipment acquisitions and actual quantities of equipment items delivered to calculate the Department’s
annual investment in equipment, after recognizing any equipment transfers or war losses. The Department adjusted BEA data to eliminate equipment

DoD Performance and Accountability Report       115                      Part 3: Financial Information
items that are not accounted for as military equipment, such as spares, munitions, and inventory items, which are accounted for and reported as
Inventory and Related Property.




Note 10.A. Assets Under Capital Lease


As of September 30                                                      2003                         2002
(Amounts in millions)
1. Entity as Lessee, Assets Under Capital Lease:
   A. Land and Buildings                                     $                    574.6 $                     576.3
   B. Equipment                                                                     2.6                        11.5
   C. Other                                                                         0.0                         0.0
   D. Accumulated Amortization                                                  (343.6)                     (323.4)
   E. Total Capital Leases                                   $                    233.6 $                     264.4


2. Description of Lease Arrangements:

   Assets Under Capital Lease consist primarily of leases for the Section 801 Family Housing Program.
3. Other Information:

   Fluctuations and/or Abnormalities

   Assets Under Capital Lease decreased $30.8 million or 11.6 percent primarily due to straight-line depreciation of lease assets and expiration of
   leases.

    Other Disclosures

    Imputed interest was necessary to reduce net minimum lease payments to the present value calculated at the incremental borrowing rate at the
    inception of the leases.



DoD Performance and Accountability Report       116                      Part 3: Financial Information
    Note Reference

    Note 15B discusses the related capital lease liabilities. It discloses the current and noncurrent portion.

   See Note 1.Q. – Significant Accounting Policies for additional discussion on financial reporting requirements and Department of Defense policies
   governing leases.




DoD Performance and Accountability Report         117                      Part 3: Financial Information
    Note 11.     Liabilities Not Covered by Budgetary Resources



As of September 30,
                                                                  2003                  2002
(Amounts in millions)

1. Intragovernmental Liabilities:
   A. Accounts Payable                                     $              0.0 $                  7.0
   B. Debt                                                               18.2                   65.6
   C. Environmental Liabilities                                           0.0                    0.0
   D. Other                                                           4,814.5                4,268.0
   E. Total Intragovernmental Liabilities                  $          4,832.7 $              4,340.6

2. Non-Federal Liabilities
   A. Accounts Payable                                     $              0.0    $             0.0
   B. Military Retirement Benefits and Other                      1,233,557.2          1,157,773.5
      Employment-Related Actuarial Liabilities
   C. Environmental Liabilities                                      58,047.6             55,420.3
   D. Loan Guarantee Liability                                            0.0                  0.0
   E. Other Liabilities                                              12,552.1             11,439.7
   F. Total Non-Federal Liabilities                        $      1,304,156.9 $        1,224,633.5

3. Total Liabilities Not Covered by Budgetary              $      1,308,989.6 $        1,228,974.1
   Resources

4. Total Liabilities Covered by Budgetary                  $        249,604.1 $          222,367.7
   Resources

5. Total Liabilities                                       $      1,558,593.7 $        1,451,341.8




Definitions

Liabilities Not Covered by Budgetary Resources are those liabilities which are not
considered covered by realized budgetary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are those that are incurred by the reporting
entity which are covered by realized budget resources as of the balance sheet date.
Budgetary resources encompass not only new budget authority, but also other resources
available to cover liabilities for specified purposes in a given year. Available budgetary

DoD Performance and Accountability Report        118                      Part 3: Financial Information
resources include (1) new budget authority; (2) spending authority from offsetting
collections (credited to an appropriation or fund account); (3) recoveries of unexpired
budget authority through downward adjustments of prior year obligations; (4)
unobligated balances of budgetary resources at the beginning of the year or net transfers
of prior year balances during the year; and (5) permanent indefinite appropriations or
borrowing authority, which have been enacted and signed into law as of the balance sheet
date, provided that the resources may be apportioned by the Office of Management and
Budget (OMB) without further action by the Congress or without a contingency first
having to be met.


Fluctuations

Fluctuations in liabilities are disclosed in the individual footnotes. See Note Reference
below for the applicable note schedule.


Other Information Related to Liabilities Not Covered By Budgetary Resources

Not Covered by Budgetary Resources (Fiscal Year 2002)

In FY 2002 certain liabilities that were covered by budgetary resources were improperly
classified as not covered by budgetary resources. For FY 2003 reporting, mapping
corrections of this misclassification resulted in a change to the amount of not covered by
budgetary resources reported in the prior year column.


Intra-governmental Other

Intra-governmental Other (not covered by budgetary resources) consist primarily of an
unliquidated progress payments and associated accrued interest receivable of
$2,409.3 million for contractor debt, workmen compensation of $1,278.2 million,
judgement fund liabilities of $591.4 million, and other custodial liabilities of
$351.8 million. The contractor debt is reported as an unfunded liability to Treasury.
Collections on this debt will be due and payable to Treasury as the appropriations are in a
cancelled status. See Note 5 for further disclosure.



Non-Federal Other Liabilities


Non-Federal Other Liabilities (not covered by budgetary resources) consist primarily of
unfunded annual leave of $7,572.7 million, non-environmental disposal liabilities of
$2,168.7 million, and contingent liabilities of $1,528.6 million.


DoD Performance and Accountability Report        119                      Part 3: Financial Information
Note Reference

For Additional Line Item discussion, see:
Note 2, Nonentity and Entity Assets
Note 8, Direct Loans and/or Loan Guarantee Programs
Note 12, Accounts Payable
Note 13, Debts
Note 14, Environmental Restoration Liabilities, and Environmental Disposal Liabilities
Note 15, Other Liabilities
Note 17, Military Retirement Benefits and Other Employment-Related Actuarial
Liabilities
Note 23, Disclosures Related to the Statement of Custodial Activity




DoD Performance and Accountability Report      120                     Part 3: Financial Information
    Note 12.            Accounts Payable

As of September 30

                                                                          2003                                                2002
                                                                        Interest,
                                            Accounts Payable         Penalties, and                   Total                   Total
                                                                   Administrative Fees
(Amounts in millions)
1. Intra-governmental Payables:       $                    101.3            N/A            $                     101.3    $               85.8
2. Non-Federal Payables (to the
    Public):                          $                27,862.8    $                 1.0   $                   27,863.8   $           24,182.4


3. Total                              $                27,964.1    $                 1.0   $                   27,965.1   $           24,268.2


4. Other Information:

The Non-Federal Payables balance for fiscal year 2002 of $24,182.4 million is $22.6 million more than the agency-wide balance of
$24,159.8 million published in the FY 2002 Performance and Accountability Report. The reason for the difference is as follows:

The Defense Finance and Accounting Service made a $22.6 million prior period adjustment to record a fiscal year 2002 audit
adjustment that had been made to the DFAS statements after publishing the DoD-wide statements. A prior period adjustment was
recorded in fiscal year 2003 to include this change in the DoD-wide statements.

Intra-governmental accounts payable consists of amounts owed to other Federal agencies for goods or services ordered and received
but not yet paid. Interest, penalties and administrative fees are not applicable to Intra-governmental payables. Non-Federal payables
(to the public) are payments to non-federal government entities.




DoD Performance and Accountability Report            121                       Part 3: Financial Information
Fluctuations

Total accounts payable, net increased by $3,696.9 million or 15.2 percent between year-end FY 2002 and year-end FY 2003.


Intra-governmental Accounts Payable

Intra-governmental accounts payable increased by $15.5 million or 18 percent between year-end FY 2002 and year-end FY 2003. The
major contributors to the increase were:

                                                                                              Amount
                                                                                          ($ in millions)
                                Air Force General Fund                                        $ 13.8
                                US Army Corps of Engineers                                    $ 12.1
                                Other Defense Organizations Working Capital Funds             $ (9.3)
                                Other Defense Components                                      $ (1.1)
                                Total                                                         $ 15.5

The increase in intra-governmental payables was primarily the result of new trust fund payables. The U.S. Corps of Engineers is the
lead agency for reporting the Inland Waterways and the Harbor Maintenance Trust Funds. Based on a change in accounting
procedures, the Corps now reports both the payables and the receivables for transfers of invested balances. This increase is also the
result of improved reporting of payables.




DoD Performance and Accountability Report       122                      Part 3: Financial Information
Non-Federal Payables

Non-federal accounts payables, net increased $3,681.4 million or 15.2 percent from year-end FY 2002 to year-end FY 2003. The
major contributors to the increase were:
                                                                                          Amount
                                                                                      ($ in millions)
                               Army General Fund                                          $ 3,121.9
                               Navy General Fund                                          $ 232.1
                               Air Force General Fund                                     $ 873.9
                               Army Working Capital Fund                                  $ (168.6)
                               Navy Working Capital Fund                                  $ 303.2
                               Air Force Working Capital Fund                             $(1,702.5)
                               US Army Corps of Engineers                                 $ (27.8)
                               Other Defense Organizations General Funds                  $ 360.7
                               Other Defense Organizations Working Capital Funds          $ 582.5
                               Medicare-Eligible Retiree Health Care Fund                 $ 106.0
                               Total                                                      $ 3,681.4


The net increase in non-federal payables is attributable to the following factors:

•   Additional spending for Operations Enduring Freedom, Iraqi Freedom and Noble Eagle. The Department’s accounting systems
    cannot separate Iraqi-related accounts payable from peacetime accounts payable.
•   Establishment of Medicare-Eligible Retiree Health Care Fund on October 1, 2002.
•   Preparation of trading partner elimination journal vouchers at the consolidated activity group level, reducing the magnitude of the
    adjustment.
•   Reclassification of unsupported, undistributed collections from United States Standard General Ledger (USSGL) account 2120,
    Disbursements in Transit, to USSGL account 2400, Liability for Deposit Funds, Clearing Accounts and Undeposited Collections,
    which are reported as Other Liabilities.
•   Improved accounts payable reporting procedures implemented in FY 2003.



DoD Performance and Accountability Report        123                       Part 3: Financial Information
Other Information Related to Intra-Governmental Accounts Payable

Intra-governmental accounts payable of $101.3 million consists of:


                                                                                            Amount
                                                                                        ($ in millions)
                                US Army Corps of Engineers                                  $ 78.1
                                Other Defense Organizations General Fund                    $    0.5
                                Other Defense Organizations Working Capital Funds           $ 22.7
                                Total                                                       $ 101.3

Other Information Related to Non-Federal Accounts Payable

Non-federal accounts payable of $27,863.8 million consists of:

                                                                                            Amount
                                                                                        ($ in millions)
                                Army General Fund                                          $ 9,089.1
                                Navy General Fund                                          $ 1,742.5
                                Air Force General Fund                                     $ 7,080.9
                                Army Working Capital Fund                                  $ 342.4
                                Navy Working Capital Fund                                  $ 2,102.9
                                Air Force Working Capital Fund                             $    89.0
                                US Army Corps of Engineers                                 $ 568.1
                                Other Defense Organizations General Fund                   $ 2,648.0

                                Other Defense Organizations Working Capital Funds          $ 4,094.9
                                Medicare-Eligible Retiree Health Care Fund                 $ 106.0
                                Total                                                      $27,863.8



DoD Performance and Accountability Report       124                    Part 3: Financial Information
Undistributed disbursements

Undistributed disbursements represent the difference between disbursements and collections recorded at the transaction level to a
specific obligation, payable, or receivable in the activity field records as opposed to those reported by the U.S. Treasury via the
reconciled DD 1329 and DD 1400. These amounts should agree with the undistributed amounts reported on the departmental
accounting reports. Intransit payments are payments that have been made for other agencies or entities that have not been recorded
in their accounting records. These payments are applied to the entities’ outstanding accounts payable balance.

Allocation of Undistributed Disbursements

The Department of Defense policy is to allocate supported undistributed disbursements between federal and non-federal categories
based on the percentage of federal and non-federal accounts payable. The majority of the DoD Components reported following this
allocation procedure, however, Army General Fund and Army Working Capital Fund allocated supported undistributed disbursements
solely to non-federal accounts payable. Unsupported undistributed disbursements are recorded in United States Standard General
Ledger (USSGL) account 2120, Disbursements in Transit.

Intra-governmental Eliminations
For the majority of the intra-agency sales, the Department of Defense’s accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the reporting entities were unable to reconcile
intra-governmental accounts payable to the related intra-governmental accounts receivable that generated the payable.

The Department of Defense summary-level seller accounts receivable balances were compared to the Agencies’ accounts payable.
Adjustments were posted to the Agencies’ accounts payable based on the comparison with the accounts receivable of the DoD
Components providing goods and services to the Agencies. Positive differences were treated as unrecognized accounts payable.

Note Reference

See Note Disclosure 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
policies governing accounting for Intra-governmental Activities.




DoD Performance and Accountability Report        125                      Part 3: Financial Information
   Note 13.              Debt

 As of September 30
                                                                                 2003                                               2002
 (Amounts in millions)                               Beginning                 Net                           Ending                Ending
                                                      Balance                Borrowings                      Balance               Balance
1. Public Debt:
   A. Held by Government Accounts                        N/A                     N/A                           N/A                    N/A
   B. Held by the Public                                 N/A                     N/A                           N/A                    N/A
   C. Total Public Debt                                  N/A                     N/A                           N/A                    N/A

2. Agency Debt:
   A. Debt to the Treasury                       $                81.5   $                 (0.2)   $                    81.3   $              81.5
   B. Debt to the Federal Financing Bank                         792.8                   (175.9)                       616.9                 792.8
   C. Debt to Other Federal Agencies                               0.0                       0.0                         0.0                   0.0
   D. Total Agency Debt                          $               874.3   $              ( 176.1)   $                   698.2   $             874.3

3. Total Debt:                                   $               874.3   $              ( 176.1)   $                   698.2   $             874.3

4. Classification of Debt:
   A. Intra-governmental Debt                                                                      $                   698.2   $             874.3
   B. Non-Federal Debt                                                                                         N/A                    N/A
   C. Total Debt                                                                                   $                   698.2   $             874.3

5. Other Information:


     Debt to the Treasury

     Loan Subsidy Program Related to the Family Housing Improvement Fund’s Military Housing Privatization Initiative (MHPI)

     The outstanding amount consists of interest and principal payments due to the Treasury. Funds in this account are used to provide
     direct loans to borrowers to acquire housing previously maintained and operated by the military under the MHPI. The outstanding


     DoD Performance and Accountability Report        126                    Part 3: Financial Information
debt of $ 63.9 million reflects a $7.1 million increase from the September 30, 2002 net borrowings. This increase is primarily due to
Elmendorf AFB Alaska borrowing money from the US Treasury.

The U.S. Army Corps of Engineers Promissory Notes with the Treasury Fund Capital Improvements to the Washington Aqueduct

During FY 1997, 1998, and 1999, the U.S. Army Corps of Engineers executed three promissory notes totaling $75.0 million with the
Department of the Treasury. Funds provided were used for capital improvements to the Washington Aqueduct. Arlington County and
Falls Church, Virginia and the District of Columbia provide funding to repay the debt. During fiscal year 2003, actual drawdown of
funds from the Treasury total $1.5 million. Principal repayments during fiscal year 2003 total $8.7 million. The decrease from
FY 2002 represents principal repayments towards liquidating the debt.

Debt to the Federal Financing Bank (FFB)

Fluctuations and/or Abnormalities

Debt to the FFB decreased by $175.9 million from FY 2002 primarily as a result of FY 2003 reduction of the outstanding debt
principal amount for the Department of the Navy Transportation Activity Group ($135.1 million) and the U.S. Transportation
Command ($40.2 million).

The Department of Navy

As part of the Afloat Prepositioning Force (APF-N) program, the Department of the Navy makes loan repayments to the Treasury FFB
on behalf of ship owners and in lieu of capital lease payments to these same ship owners. The FFB is reporting a debt in the amount
of $615.6 million, which represents an outstanding principal balance of $606.2 million and accrued interest payable of $9.4 million,
for the Transportation Activity. See Notes 3 and 6 for additional disclosures.

The United States Transportation Command

The debt consists of the principal and accrued interest balances left on the Military Sealift Command’s (MSC) T-5 program that
provides ships for time charter to MSC to meet requirements not available in the marketplace. The ships were financed with
approximately 30 percent equity investments and 70 percent debt borrowings. The debt is in the form of loans from the FFB to the


DoD Performance and Accountability Report       127                     Part 3: Financial Information
vessel owners. In order to simplify the payments, the FFB cross-disburses the semi-annual principal payments directly from the
working capital fund. MSC records the equity payments upon receipt of invoices. Interest is paid by voucher rather than by non-
expenditure transfer. Information provided by MSC indicates the FY 2003 year-to-date interest expense and accrued interest is $1.3
million as of September 30, 2003. This balance is payable in July 2004. MSC purchased all but the “Darnell:” class T-5 ships.


                Balance September 30, 2002 (millions)                   41.4
                Payments made during FY 2003                          (40.2)
                Principal Balance September 30, 2003                     1.2
                Accrued Interest September 30, 2003                      0.1
                Total Outstanding Debt September 30, 2003                1.3



Note Reference
See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD
policies governing Accounting for Intragovernmental Activities, Public Debt.




DoD Performance and Accountability Report      128                     Part 3: Financial Information
   Note 14.           Environmental Liabilities and Disposal Liabilities
As of September 30                                                                                      2003                                           2002
                                                                       Current Liability          Noncurrent Liability          Total                  Total
(Amounts in millions)
1. Environmental Liabilities – Non Federal
  A. Accrued Environmental Restoration (DERP funded) Costs:
    1. Active Installations--Environmental Restoration (ER)        $                1,626.8   $                  10,207.0   $           11,833.8   $           13,033.7
    2. Active Installations--ER for Closed Ranges                                      37.4                       4,324.7                4,362.1                1,705.1
    3. Formerly Used Defense Sites (FUDS) -- ER                                       265.0                       3,974.4                4,239.4                4,304.8
    4. FUDS--ER for Transferred Ranges                                                128.2                      13,496.2               13,624.4               11,220.3

 B. Other Accrued Environmental Costs (Non-DERP funds)
   1. Active Installations--Environmental Corrective Action                            74.7                         486.3                 561.0                  456.3
   2. Active Installations--Environmental Closure Requirements                          9.4                          94.2                 103.6                  109.7
   3. Active Installations--Environ.Response at Active Ranges                          60.5                         215.8                 276.3                  292.2
   4. Other                                                                             0.4                          49.6                  50.0                   31.7

 C. Base Realignment and Closure (BRAC)
  1. BRAC Installations--Environmental Restoration (ER)                               730.4                       2,886.2                3,616.6                4,015.0
  2. BRAC Installations--ER for Transferring Ranges                                    14.3                         497.3                  511.6                  397.4
  3. BRAC Installations--Environmental Corrective Action                                7.2                         180.7                  187.9                  208.6
  4. Other                                                                            190.4                           0.0                  190.4                  269.7

 D. Environmental Disposal for Weapons Systems Programs
  1. Nuclear Powered Aircraft Carriers                                                  0.0                       5,565.0                5,565.0                4,890.0
  2. Nuclear Powered Submarines                                                         0.0                       4,888.9                4,888.9                4,888.9
  3. Other Nuclear Powered Ships                                                        0.0                         269.1                  269.1                  269.1
  4. Other National Defense Weapons Systems                                             4.7                         292.4                  297.1                  278.3
  5. Chemical Weapons Disposal Program                                              1,387.8                       9,422.5               10,810.3               12,817.3
  6. Other                                                                            103.0                           0.1                  103.1                  165.1

2. Total Environmental Liabilities:                                $                4,640.2   $                  56,850.4   $           61,490.6   $           59,353.2
3. Other Information Related to Environmental Liabilities:




          DoD Performance and Accountability Report          129                           Part 3: Financial Information
The Department of Defense (DoD) is required to clean up contamination resulting from past waste disposal practices, leaks, spills and
other past activity, which has created a public health or environmental risk. The DoD does this in coordination with regulatory
agencies, and if applicable, with other responsible parties, and current property owners. The Department is also required to recognize
closure and post closure costs for its General Plant Property and Equipment and environmental corrective action costs for current
operations. Each of the Department’s major reporting entities is responsible for tracking and reporting all required environmental
information related to environmental restoration costs, other accrued environmental costs, disposal of costs including weapons
systems, and environmental costs related to the base realignment closures that have taken place in prior years.


Methodology Used to Estimate Environmental Liabilities

The Department is currently using two independently validated estimating models in addition to engineering estimates. The validation
was performed in accordance with DoD Instruction 5000.61. The models are the Remedial Action Cost Engineering Requirements
(RACER) model and the Department of Navy Cost-to-Complete (CTC) module of the Navy Normalization of Data System (NORM).
Additionally, cost estimates are based on the following: (1) historic comparable project, (2) a specific bid or independent government
cost estimate for the project, (3) site level data, and (4) annual cost-to-complete estimate. The cost-to-complete estimate is prepared in
the Defense Environmental Restoration Program (DERP) in accordance with the Management Guidance for the DERP and the DoD
FMR 7000.14.

General Disclosures

Sources of Cleanup Requirements

The DoD has cleanup requirements for the Defense Environmental Restoration Program (DERP) sites at active and BRAC
installations and Formerly Used Defense Sights (FUDS), non-DERP at active installations, weapon systems programs, and chemical
weapons disposal programs. The DoD follows the Comprehensive Environment Response, Compensation Liability Act (CERCLA)
and the Superfund Amendment and Reauthorization Act (SARA) to clean up DERP-eligible contamination. Non-DERP eligible
contamination cleanup is performed in accordance with the Resource Conservation and Recovery Act (RCRA). The Army is DoD
Executive Agent for cleaning up contamination at sites formerly used by DoD. The CERCLA and RCRA require DoD to clean up
contamination in coordination with regulatory agencies, other responsible parties, and current property owners. Failure to comply
with agreements and legal mandates can put DoD at risk of fines and penalties.


DoD Performance and Accountability Report        130                      Part 3: Financial Information
The Chemical Weapons Disposal Program is based on the fiscal year 1986 National Defense Authorization Act (PL 99-145, as
amended by subsequent acts) that directed the DoD to destroy the unitary chemical stockpile by April 29, 2004. The Army, as
Executive Agent within the DoD, provides policy, direction, and oversight for both the Chemical Stockpile Program and the Non-
Stockpile Chemical Materiel Project. As such, the Army is responsible for the safe and economical disposal of the U.S. stockpile of
lethal and incapacitating chemical warfare agents and munitions. The program objective is to destroy the U.S. Stockpile of unitary
chemical agents and munitions in accordance with the public law and the schedules approved by the Defense Acquisition Decision
Memorandum dated September 26, 2001, and updated in the April 2003 Acquisition Program Baseline.

The nuclear powered aircraft carriers, submarines, and other nuclear ships clean-up requirements are based on the following
significant laws, which affect the Department’s conduct of environmental policy and regulations. The Atomic Energy Act of 1954, as
amended, assures the proper management of source, special nuclear, and byproduct material. As in all cases with nuclear power, the
Department coordinates all actions with the Department of Energy. The Nuclear Waste Policy Act of 1982 required all owners and
generators of high-level nuclear waste and spent nuclear fuel, to pay their respective shares of the full cost of the program. Finally, the
Low Level Radioactive Waste Policy Amendments Act of 1986 provides for the safe and efficient management of low-level
radioactive waste.


Method for Assigning Estimated Total Cleanup Costs (DERP & BRAC Funded)

The estimated total cleanup cost for the current operating period is assigned based on the amount of the current year appropriation.
The total cleanup cost is the cost to complete cleanup and unliquidate obligations that will be expended within 12 months from the
Balance Sheet date.


Unamortized Portion of Estimated Total Cleanup Costs

The DoD has not identified any unamortized portion of the estimated total cleanup cost associated with General Property, Plant and
Equipment (PP&E). The Department’s Financial Management Regulation requires the unamortized clean-up cost associated with
PP&E to be recognized. Air Force is currently booking the entire environmental disposal cost associated with PP&E. The
Department is working with the Military Departments to ensure the regulation is properly implemented.


DoD Performance and Accountability Report        131                       Part 3: Financial Information
Material Changes in Total Estimated Liability Costs Due to Changes in Laws, Technology, or Plans

The Department of Army has no material changes in the total estimated liability due to changes in laws, technology, or plans. The
major change in technology affecting the liability estimate was standardizing the use of the estimating tools consistently across the
Army programs.

Survey data of the Department of the Navy Environmental Restoration Program cost estimate changes for sites that had over
10 percent change or $.5 million indicates diverse reasons for change in estimates. Multiple reasons may apply both as increases or
decreases at any site. The reasons for changes are estimation changes (26 percent), regulatory changes (60 percent), and technical
changes (15 percent). Reasons for changes in estimation are as follows: cost to complete (CTC) overlooked or previously unknown
contaminants, better site characterization with sampling, cost avoidance rerun CTC, re-estimation based on different assumptions
and/or escalation, and re-estimation of costs based on lessons learned. Reasons for changes in the regulatory area are as follows:
addition of range rule/munitions requirements, additional or extended long-term monitoring requirements or 5 year reviews, no further
action agreement with regulator, and risk-based corrective action. Reasons for changes in the area of technology are as follows:
additional contamination level sampling, additional or extended remedial action operation, additional sites and incomplete site data,
and technical solution changed.

The Department of the Air Force has no material changes in the total estimated liability due to changes in laws, technology, or plans.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation, Technology, or
Applicable Laws and Regulations

The Department of Army estimates used for environmental liability calculations are estimates of the cost to complete at all activities at
a site of environmental concern. The cost estimates are calculated at the site-level using a validated cost-estimating model or an
engineered cost and entered into a database. There were no changes to the total liability cost due to inflation, deflation, technology, or
applicable laws and regulations.




DoD Performance and Accountability Report        132                      Part 3: Financial Information
Changes in the Liability Estimate from FY 2002


Accrued Environmental Restoration (DERP-funded) Costs

The Active Installations - Environmental Restoration liability decreased by $1,199.9 million (9 percent). The majority of the change
is attributed to the following. The Department of Army liability decreased $472.4 million due to disbursements of unliquidated
current obligations and the award of several performance-based contracts. The Department of Air Force decrease of $335.4 million is
the result of aggressive work by the Air Force Environmental Restoration Tiger Team to establish a new policy relative to Areas of
Concern (AOCs)/Not Evaluated (NE) Sites. Also, additional guidance provided to the field has improved cost estimating and
reporting in the Air Force Restoration Information Management System (AFRIMS) and improved data fidelity. The Department of
the Navy decrease of $388.7 million is the result of adjusted projections using more conservative estimates that approximate the
expected rate of execution.

The Active Installations - Environmental Restoration for Closed Ranges category had a net increase of $2,657.0 million
(156 percent). The majority of the change is the result of changes in the Department of the Army's environmental liability for closed
ranges. Department of the Army had a substantial increase ($2,533.3 million) due to an additional 39 percent of site level data
collected through the Army range inventory, which is 52 percent complete.

For the Formerly Used Defense Sites - Environmental Restoration for Transferred Ranges, the Department of the Army was the sole
contributor to the 21 percent liability increase. In addition to over 50 new projects, the Army's estimated cost for clearance of total
range acreage increased almost 40 percent due to better data quality from newly prepared range characterization reports and changes
in the DoD’s database definitions for land use restrictions. Faced with 14 million or more acres of ranges that may require response
action, no cleanup goals or standards, technology shortfalls, and changing interpretations of what constitutes a range, it is expected
that cost-to-complete will fluctuate during the next several years.

Other Accrued Environmental Costs (Non-DERP Funds)

Active Installations - Environmental Corrective Action increased $104.7 million or 23 percent mainly because of changes in the
Defense Logistics Agency and the Department of Air Force liabilities. The Department of the Air Force liability increased by



DoD Performance and Accountability Report        133                      Part 3: Financial Information
$29.3 million due to an error in reporting liability amounts in FY 2002. A Defense Logistics Agency activity, Defense Energy
Support Center (DESC), recorded $68.8 million for environmental cleanup costs for the first time. No liability was shown for
FY 2002 because the accrual amount was not available until after the financial statements were finalized. It is noted that FY 2002 was
the first year such data was gathered and complete figures were not available at the time of the annual statement. (The additional
liability amounts were reported during the audit to DLA's auditing firm.)

Active Installations - Environmental Response at Active Ranges liability had a net decrease of $15.9 million. The Department of the
Army liability decreased by $27.9 million, and the major factors contributing to the changes are improved cost estimates and revised
estimated cleanup levels. The DoD Component reporting entity reported an increase of $12.0 million, which is a result of clean up
efforts at installation training range facilities. In FY 2002 the amount was reported in the total for the Environmental Disposal for
Weapons System Program.

The Other Accrued Environmental Costs - Other category had a net increase of $18.3 million (57 percent). The net increase is due to
the Department of the Army removing liability amounts ($15.2 million) for the Low Level Radioactive Waste (LLRW) Disposal
Program. This program facilitates the process of identifying, investigating, and remediating sites contaminated by low-level
radioactive waste through RCRA corrective actions or Comprehensive Environmental Response, Compensation, and Liability Act
response actions. The program liabilities were classified as possible and remote for year-end FY 2003 financial reporting.
Additionally, the DoD Component reporting entity environmental liabilities increased by $33.5 million and is the result of the liability
amount being erroneously moved between programs. Corrections were made to properly categorize these costs in FY 2003.

Base Realignment and Closure (BRAC)

The BRAC Installations - Environmental Restoration had a net decrease of $398.4 million. The Military Services accounted for the
majority of the decrease. The Department of the Army accounted for $56.5 million, which is due to re-characterization of sites. The
Department of Navy accounted for $137.4 million, which is the result of using more conservative estimates that approximate the
expected rate of execution. The Department of Air Force accounted for $174.7 million of the decrease. The Air Force decrease is
primarily because of focused management oversight of the Air Force Restoration Information Management System (AFRIMS) data
and the critical review of restoration costs and schedule maintained in AFRIMS.

The BRAC Installations - Environmental Restoration for Transferring Ranges had a net increase of $114.2 million (29 percent). The
Department of the Army and the Department of the Navy attributed to the net increase in transferring ranges liability. The Department


DoD Performance and Accountability Report       134                      Part 3: Financial Information
of Army increase of $128.5 million is due to the addition of new sites with the completion of the range inventory. The Department of
the Navy liability decreased by $14.3 million and is the result of adjusted predictions using more conservative estimates that
approximate the expected rate of execution.

The BRAC Installations - Environmental Corrective Action liability net decrease is mainly due to the Department of Army's liability
decreasing by $24.3 million. The major factor contributing to the Army's decrease is current estimates that support regulatory closure.

For the BRAC Realignment and Closure - Other the Department of the Army was the sole contributor to the decrease of $79.3 million
or 29 percent. The major factor contributing to the change is disbursements of current liability unliquidated obligations.

Environmental Disposal for Weapons Systems Programs

The Nuclear Powered Aircraft Carriers environmental liability increased by $675.0 million or 14 percent. The increase is the result of
adding the environmental liability of an aircraft carrier, the Ronald Reagan, and an adjustment for inflation.

The Chemical Weapons Disposal Program total of $10,810.3 million for year-end FY 2003 is based on the probable costs for the
Program Manager for Elimination of Chemical Weapons (PMECW), the Chemical Stockpile Emergency Preparedness Project, and
the Project Manager for the Assembled Chemical Weapons Alternatives (PMACWA). The liability estimate decreased by
$2,007.0 million or 16 percent from the FY 2002 total and is due primarily to the use of a new Acquisition Program Baseline to
formulate the PMECW estimate. As designs mature for the disposal technologies to be used by the PMACWA at Army facilities,
future liabilities reported may change materially.

The Environmental Disposal for Weapons Systems Programs - Other category has a net decrease of $62.0 million or 38 percent. This
net decrease is due to the DoD Component reporting entity environmental liabilities being erroneously moved between programs.
Corrections were made to properly categorize these costs in FY 2003.

Ranges

The Department of Army estimated its environmental liability for closed, transferred and transferring ranges at $17,303.1 million.
The Army has completed 100 percent of the inventory of transferred ranges at 1,701 formerly used properties and transferring ranges
at 63 sites. The Army continues to inventory closed ranges at 443 sites and is 52 percent complete.


DoD Performance and Accountability Report       135                      Part 3: Financial Information
Beginning in FY 2001, the Department of the Navy began an inventory of closed and transferring ranges under the Munitions
Response Program and the Unexploded Ordnance Program. The inventory was completed September 2002 and contains 196 closed
ranges and 16 transferring ranges.

The Department of Air Force environmental liabilities on ranges refer only to munitions related activities. Other actions are captured
under the DERP, BRAC and non-DERP non-BRAC environmental cleanup categories. The environmental liability is reported only
for closed ranges that number 260 as of September 30, 2003.

•   Closed Ranges

    The Department of Army and the Department of Navy must expend $3,182.7 million and $341.3 million, respectively, to
    characterize, investigate and cleanup closed ranges. Until such characterization is completed, total environmental liabilities cannot
    be estimated. Closed ranges have been taken out of service as a range and put to new use (incompatible with range activities) or
    are not considered by the military to be a potential range area. A closed range is still under the control of a DoD Component. For
    FY 2003, the Navy determined that it owns 196 closed ranges.

    The Department of Air Force identified 260 closed ranges that resulted in an estimated environmental cleanup liability of
    $838.1 million. The total liability is expected to increase significantly over the coming years as the Air Force continues to refine
    the inventory and expand investigations of other closed ranges.

•   Transferring Ranges

    The Department of Army has completed 100 percent of the inventory of transferring ranges. The current liability estimate is
    $496.0 million. Additionally, the Department of the Navy estimated and reported $15.6 million for transferring ranges, which
    includes military munitions, chemical residues, and munitions scrap. Transferring ranges are proposed for transfer or will be
    returned from DoD to another entity, including other federal entities.




DoD Performance and Accountability Report        136                     Part 3: Financial Information
•   Transferred Ranges

    The Department of Army has completed the inventory of transferred ranges with site level cost data collected from 1701
    properties. Currently, the estimated liability for those ranges is $13,624.4 million. Transferred ranges are properties formerly
    used as a military ranges that are no longer under military control or lease and have been transferred, or returned from the DoD to
    another entity, including federal entities.

•   Active Ranges

    At this time, the Department of Army is conducting only one active range investigation and characterization, that being the
    Massachusetts Military Reservation. The cost of the characterization and investigation is $264.3 million. This amount pays for
    sampling and analysis, groundwater monitoring, feasibility studies, soil and groundwater cleanup, and Unexploded Ordinance
    (UXO) investigation and response. Currently, the active ranges include military ranges that are being regularly used, but are
    considered by the cognizant Military Service to be a potential range area.




DoD Performance and Accountability Report       137                      Part 3: Financial Information
  Service Component – Environmental Restoration (Cleanup) Liabilities and                  Army                   Navy             Air Force              ODO
            Environmental Disposal Liabilities (Amounts in millions)
1. Environmental Liabilities:
B. Non-Federal:
 1. Accrued Environmental Restoration (Defense Environmental Restoration Program
        (DERP) funded) Costs:
   a. Active Installations-Environmental Restoration (ER)                              $      3,696.1         $      3,132.1       $    4,902.0       $         103.6
   b. Active Installations--ER for Closed Ranges                                              3,182.7                  341.3              838.1
   c. Formerly Used Defense Sites (FUDS) –ER                                                  4,239.4
   d. FUDS--ER for Transferred Ranges                                                        13,624.4

 2. Other Accrued Environmental Costs (Non-DERP funds)
   a. Active Installations--Environmental Corrective Action                                       287.9                                   204.3                  68.8
   b. Active Installations--Environmental Closure Requirements                                     37.2                                    66.4
   c. Active Installations--Environ. Response at Active Ranges                                    264.3                                                          12.0
   d. Other                                                                                                                                                      50.0

 3. Base Realignment and Closure (BRAC)
   a. BRAC Installations--Environmental Restoration (ER)                                          518.7              1,155.9            1,909.0                  33.0
   b. BRAC Installations--ER for Transferring Ranges                                              496.0                 15.6
   c. BRAC Installations--Environmental Corrective Action                                          48.0                                   139.9
   d. Other                                                                                       190.4

 4. Environmental Disposal for Weapon Systems Programs
   a. Nuclear Powered Aircraft Carriers                                                                              5,565.0
   b. Nuclear Powered Submarines                                                                                     4,888.9
    c. Other Nuclear Powered Ships                                                                                     269.1
   d. Other National Defense Weapon Systems                                                                            246.5               50.6
    e. Chemical Weapons Disposal Program                                                     10,810.3
   f. Other                                                                                                                                                     103.1

 5. Total Non-Federal Environmental Liabilities:                                   $         37,395.4     $         15,614.4   $        8,110.3   $             370.5




DoD Performance and Accountability Report                    138                       Part 3: Financial Information
Other Information


Others Category Disclosure Comparative Table


                                                                        September 30, 2003
                                    Types                                   ($ in Millions)
     Other Accrued Environmental Costs (Non-DERP funds) - Other
        Defense Threat Reduction Agency Estimated Clean up Cost-ODO                          1.5
        DoD Component Level Estimated Clean up Cost-ODO                                     35.1
        Defense Commissary Agency-ODO                                                       13.4
        Total                                                                        $      50.0



     BRAC – Other
       Army's Prior Year BRAC ULOs That Cannot Be Identified To A                    $     190.4
       Specific Program

     Environmental Disposal for Weapons Systems Programs-Other
       National Defense Stockpile -ODO
          Thorium Nitrate Disposal or Upgrade                                        $      58.0
          Long Term Storage or Repackaging Mercury                                          19.2
          Cleanup Costs                                                                     19.9
          Badalite Ore Disposal                                                              6.0
       Total                                                                         $     103.1




DoD Performance and Accountability Report      139               Part 3: Financial Information
Note 15.A.            Other Liabilities
 As of September 30                                                                      2003                                           2002
                                                         Current                      Noncurrent
                                                         Liability                     Liability                  Total                 Total
    (Amounts in millions)
1. Intra-governmental:
  A. Advances from Others                            $                272.5    $                        0.0   $            272.5    $            331.2
  B. Deferred Credits                                                   0.0                             0.0                  0.0                   0.0
  C. Deposit Funds and Suspense Account
       Liabilities                                                     372.3                            0.0                 372.3                 318.5
  D. Resources Payable to Treasury                                       0.0                            0.0                   0.0               1,053.4
  E. Disbursing Officer Cash                                         1,509.4                            0.0               1,509.4                 696.9
  F. Nonenvironmental Disposal Liabilities:
      (1) National Defense PP&E (Nonnuclear)                             0.0                           0.0                    0.0                   0.0
      (2) Excess/Obsolete Structures                                     0.0                           0.0                    0.0                   0.0
      (3) Conventional Munitions Disposal                                0.0                           0.0                    0.0                   0.0
      (4) Other                                                          0.0                           0.0                    0.0                   0.0
 G. Accounts Payable-- Cancelled Appropriations                          7.0                           0.0                    7.0                   0.0
 H . Judgement Fund Liabilities                                        344.1                         247.3                  591.4                 638.2
  I. FECA Reimbursement to the Department of Labor                     594.5                         826.3                1,420.8               1,415.0
  J. Capital Lease Liability                                             0.0                           0.0                    0.0                   0.0
  K. Other Liabilities                                               3,795.5                       1,770.2                5,565.7               3,760.4
  L. Total Intra-governmental Other Liabilities      $               6,895.3   $                   2,843.8    $           9,739.1   $           8,213.6




DoD Performance and Accountability Report      140                      Part 3: Financial Information
As of September 30                                                                                 2003                                            2002
                                                                  Current                        Noncurrent
(Amounts in millions)                                             Liability                       Liability                 Total                  Total
2. Non-Federal:
  A. Accrued Funded Payroll and Benefits                      $                9,118.0   $                        0.0   $            9,118.0   $            9,138.6
  B. Advances from Others                                                      1,167.3                            0.0                1,167.3                1,194.0
  C. Deferred Credits                                                              9.7                            0.0                    9.7                    6.4
  D. Loan Guarantee Liability                                                      0.0                            0.0                    0.0                    0.0
  E. Liability for Subsidy Related to Undisbursed Loans                            0.0                            0.0                    0.0                    0.0
  F. Deposit Funds and Suspense Accounts                                         272.4                        (167.1)                  105.3                   50.1
  G. Temporary Early Retirement Authority                                          5.2                            3.3                    8.5                   29.1
  H. Nonenvironmental Disposal Liabilities:
      (1) National Defense PP&E (Nonnuclear)                                       0.0                         574.9                  574.9                  566.1
      (2) Excess/Obsolete Structures                                              93.2                          301.7                  394.9                  395.1
      (3) Conventional Munitions Disposal                                          0.0                        1,198.8                1,198.8                1,424.3
      (4) Other                                                                    0.0                            0.0                    0.0                   27.0
  I. Accounts Payable--Cancelled Appropriations                                  426.7                          175.6                  602.3                  679.6
  J. Accrued Unfunded Annual Leave                                             7,644.9                            0.4                7,645.3                6,959.3
  K. Accrued Entitlement Benefits for Military Retirees and
                            Survivors                                              0.0                            0.0                    0.0                    0.0
  L. Capital Lease Liability                                                      44.7                          291.7                  336.4                  367.2
  M. Other Liabilities                                                         6,347.9                        1,600.0                7,947.9                8,958.5
  N. Total Non-Federal Other Liabilities                      $               25,130.0   $                    3,979.3   $           29,109.3   $           29,795.3
3. Total Other Liabilities:                                   $               32,025.3   $                    6,823.1   $           38,848.4   $           38,010.4

4. Other Information Pertaining to Other Liabilities:

Fluctuations and/or Abnormalities- Intra-governmental Other Liabilities:

Total Intra-governmental Other Liabilities Fluctuation Analysis
Total Intra-governmental Other Liabilities increased $1,525.5 million (19 percent) from year-end FY 2002 through year-end FY2003. The following
item(s) contributed to the majority of the overall change:

Advances from Others (Line 1.A.):
Advances from Others decreased $58.7 million (18 percent) from year-end FY 2002 through year-end FY 2003. The following item(s) contributed to
the majority of the overall change:

DoD Performance and Accountability Report           141                       Part 3: Financial Information
•   Air Force General Fund (GF) decreased $79.0 million (45 percent). The decrease is due to the timing of the receipt and execution of orders
    which causes variations in its year-end balances.
•   Navy Working Capital Fund (WCF) increased $33.8 million (45 percent). The increase occurred in Depot Maintenance Shipyards and the Naval
    Air Warfare Center (NAWC), a Research and Development activity. The increase is associated with the conversion from the DoD Industrial
    Financial Management System to SIGMA, an Enterprise Resource Planning System. The conversion of funding produced a reclassification
    between intra-governmental and public, which now ensures the proper posting of this account. Additionally, there were program problems
    encountered in the billing area that have hampered the ability to bill certain customers. Once the bills are produced, the appropriate customer
    advances will be liquidated.
•   Army GF decreased $8.2 million (13 percent). The decrease is attributable to the Drug Enforcement Training Program that purchases equipment
    and training materials for state and local law enforcement officials. A large dollar amount was obligated on these contracts in FY 2003 and the
    majority was executed.
•   United States Army Corps of Engineers (USACE) decreased $7.1 million (40 percent) as a result of work completion and advances being earned.
•   Air Force WCF increased $1.5 million. With the implementation of DIFMS in FY 2003, DMAG changed its procedures on revenue recognition
    from the incremental revenue recognition (IRR) to the percentage of completion method, resulting in advances being recorded versus progress
    billings.

Deposit Funds and Suspense Account Liabilities (Line 1.C):
Deposit Funds and Suspense Account Liabilities increased by $53.8 million (17 percent) from year-end FY 2002 through year-end FY 2003. The
following item(s) contributed to the majority of the overall change:

•   Army GF increased $69.0 million. The majority of this increase is attributable to the Army member Savings Deposit-Desert Shield/Desert Storm
    Savings program and the Servicemen’s Group Life Insurance Funds, Suspense, Department of Army. The Savings Deposit Program increased
    primarily due to cash contributions and allotment deductions from service members stationed in the Southwest Asia/Persian Gulf Region who are
    drawing imminent danger pay. Also included are interest deposits from the military appropriation. Army Servicemen's Group Life Insurance
    Funds, Suspense, Department of Army increased primarily due to more servicemen and women supporting the contingency missions in the war
    zones around the globe.
•   ODO GF increased $17.6 million (44 percent). The fluctuation relates to the accounting treatment for deposit funds and clearing accounts
    throughout the fiscal year. At fiscal year-end, all receipt accounts are considered withdrawn to the Treasury, and certain clearing accounts are
    closed or transferred to the Treasury. At the beginning of each fiscal year, these fund accounts are re-established and accounted for until closed
    or transferred at year-end.
•   Navy GF decreased $26.9 million (11 percent). A $26.9 million reduction in the nonentity fund balance with Treasury occurred primarily as a
    result of a $47 million decrease in withheld state and local taxes, and a $28 million decrease of defense military receipts not other classified. The
    decrease is offset by an increase of $55 million in recoveries under Foreign Military Sales.
•   USACE decreased $13.9 million (96 percent). Deposit funds and suspense account liabilities were reduced with the disposition of a disputed
    collection related to a water storage contract.

DoD Performance and Accountability Report        142                      Part 3: Financial Information
•   Air Force GF increased $7.9 million (51 percent). The increase is related to intra-governmental paying and collection (IPAC) transactions and
    the Uniformed Services Thrift Savings Plan (TSP) deductions, which are posted to suspense accounts. IPAC transactions are aged and monitored
    to ensure they are cleared timely. The Uniformed Services TSP represents a timing difference between the posting of the TSP deductions by the
    National Finance Center and the posting of these amounts in the military accounting systems in the following month.

Resources Payable to Treasury (Line 1.D.):
Resources Payable to Treasury decreased $1,053.4 million (100 percent) from year-end FY 2002 through year-end FY 2003. The following item(s)
contributed to the majority of the overall change:

•   Air Force GF decreased $1,006.9 million (100 percent). The decrease is due to the reclassification of cancelled authority for recording accounts
    receivable.
•   Navy GF decreased $.9 million (100 percent). The decrease is due to the reduction in interest payable to Treasury for Marine Corps.
•   U.S. Army Corps of Engineers decreased $33.6 million (100 percent). Resources payable to Treasury were used in FY 2002 to record the offset
    to accounts receivable in receipt accounts. The receipts are collected into Treasury receipt accounts. In accordance with an audit
    recommendation, these liabilities are now reported in line 1K, Other Liabilities.
•   ODO GF decreased $11.6 million. The decrease is based on efforts associated with the tri-annual review of outstanding accounts receivable
    accounts. Accounting offices were directed to review and validate their open accounts receivable amounts. As a result of this initiative, there
    were no outstanding resources payable to the Treasury reported for FY 2003.

Disbursing Officer Cash (Line 1.E):
Disbursing Officer Cash increased $812.4 million (117 percent) from year-end FY 2002 through year-end FY 2002. The following item(s)
contributed to the majority of the overall change:

•   Army GF increased $651.7 million (217 percent) in support of contingency missions for Operation Iraqi Freedom and Operation Enduring
    Freedom.
•   Navy GF increased $152.3 million (117 percent) in support of contingency missions for Operation Iraqi Freedom and Operation Enduring
    Freedom.

Accounts Payable – Cancelled Appropriations (Line 1.G):
ODO GF increased $7.0 million from year-end FY 2002 through year-end FY 2003. The increase is attributed to the Missile Defense Agency
(MDA). The accounts payable cancelled appropriation is based on unliquidated cancelled appropriation unearned revenue which requires a refund.
This $6.9 million account will remain recorded until the refund is completely executed.

Other Liabilities (Line 1.K.):
Other Liabilities increased $1,805.3 million (48 percent) from year-end FY 2002 through year-end FY 2003. The following item(s) contributed to
the majority of the overall change:

DoD Performance and Accountability Report       143                     Part 3: Financial Information
•   Air Force GF increased $556.6 million. The increase is primarily due to the reclassification of resources payable to Treasury to other liabilities,
    which resulted in an increase of $449.2 million. The increase in other liabilities also represents $33.0 million in government contributions for
    employee benefits and $27.4 million in other unfunded unemployment compensation liabilities.
•   U.S. Army Corps of Engineers increased $999.8 million (112 percent). The increase is due to the reporting of the offset for long-term interest
    receivables. Interest receivables and the corresponding liability were not reported in FY 2002 and prior periods because the interest had not been
    earned yet. In accordance with an audit recommendation, the Corps is now including the offset for interest receivable in the amount of
    $881.9 million. The remaining increase is due to changes in reporting resources payable to the Treasury.
•   Navy GF increased $306.5 million (13 percent). The majority of the change occurred in nonentity public account receivable, which increased
    based upon improved efforts in identifying receivables and interest on these receivables. All receivables are payables to the Treasury.
•   ODO GF decreased $76.2 million (64 percent). The decrease is due to the disbursement of all liabilities for subsidies related to undisbursed
    loans, which were reported in FY 2002 for $86.6 million. The disbursement of these loans decreased the total amount of other liabilities reported
    for FY 2003. The remainder of the difference from FY 2003 to FY 2002 is attributable to multiple entities, which individually do not comprise
    10 percent of the total change.

Judgement Fund Liabilities (Line 1.H.):
Judgement Fund Liabilities decreased $46.8 million (7 percent) from year-end FY 2002 through year-end FY 2003. The following item(s)
contributed to the majority of the overall change:

•   Navy GF decreased $56.6 million (54 percent) due to the aggressive effort by the Navy to reconcile and resolve claims under the Contract
    Dispute Act.
•   Air Force GF decreased $51.5 million (17 percent). The decrease is due to the Air Force paying approximately $52.5 million more to the
    Treasury on debts owed than Treasury billed to the Air Force in new debts.
•   Army GF increased $68.9 million (92 percent) due to a litigation settlement.


Fluctuations and/or Abnormalities- Non-Federal:

Total Non-Federal Fluctuation Analysis
Total Non-Federal Other Liabilities decreased $686.0 million (2 percent) from year-end FY 2002 through year-end FY 2003. The following item(s)
contributed to the majority of the overall change:

Other Liabilities (Line 2.M.):
Other Liabilities decreased $1,010.6 million (11 percent) from year-end FY 2002 through year-end FY 2003. The following item(s) contributed to
the majority of the overall change:


DoD Performance and Accountability Report       144                      Part 3: Financial Information
•   Air Force WCF decreased $1,277.1 million (43 percent). This decrease is attributable to the following factors:
    • Progress billings of $915 million are no longer recorded due to the change in revenue recognition by Depot Maintenance Activity Group
        (DMAG). Under the new method, advances are lower than the FY 2002 progress billings due to a $386 million decrease attributable to
        Contract DMAG being removed from the Air Force WCF, and $209.7 million in eliminations with the Supply Management Activity Group
        (SMAG).
    • Work in process for DMAG decreased $342.2 million, which is attributable to contract DMAG being removed from the Air Force WCF. The
        reduction in contracts has resulted in a decline in material, labor and overhead costs and accruals.
    • Future purchases from Foreign Military Sales in SMAG has decreased $19 million.
•   Army GF increased $382.9 million (18 percent). This increase is primarily attributed due to the reporting of $283 million of contingent
    liabilities, $278.1 million of custodial liability for seized Iraqi cash, and $57.7 million of employer contributions. The total contingent liabilities
    increase is due to the capturing and reporting of information for the first time from the U.S. Army Legal Services Agency’s Environmental Law
    Division and Contract Appeals Division. Contract holdbacks decreased $246.3 million from a change implemented at DFAS in the computation
    of contract holdbacks.


Nonenvironmental Disposal Liabilities, Conventional Munitions Disposal (Line 2.H.3):
Nonenvironmental Disposal Liabilities, Conventional Munitions Disposal decreased $225.5 million (16 percent) from year-end FY 2002 through
year-end FY 2003. The following item(s) contributed to the majority of the overall change:

•   Army GF decreased $231.3 million (16 percent). Of this amount, $69.5 million is due to a stockpile reduction, while the remaining
    $161.9 million decrease is the result of a new weighted average cost per ton.
•   Air Force GF increased $5.8 million. Previously, this liability was only disclosed in the notes, but for FY2003 it is included in the audited
    financial statements.

Nonenvironmental Disposal Liabilities, Other (Line 2.H.4):
Nonenvironmental Disposal Liabilities, Other, decreased $27.0 million (100 percent) from year-end FY 2002 through year-end FY 2003.
This amount ($26.9 million) was erroneously recorded to nonenvironmental disposal liabilities - other. The error was identified and corrected for
FY 2003 resulting in a zero balance.


Accrued Unfunded Annual Leave (Line 2.J.):
Accrued Unfunded Annual Leave increased $686.0 million (10 percent) from year-end FY 2002 through year-end FY 2003. The following item(s)
contributed to the majority of the overall change:

•   Air Force GF increased $478.3 million (29 percent). This is a result of increases in military and civilian leave balances. The increase in military
    leave is impacted by the activation of military personnel in support of the war in Iraq, because the use of leave is restricted during a war.

DoD Performance and Accountability Report         145                      Part 3: Financial Information
•   Navy GF increased $237.2 million (12 percent). This amount includes Navy personnel involved in the war effort. The majority of the increase is
    in Military personnel appropriations.
•   Army GF decreased $77.7 million (3 percent). The liability for civilian leave decreased $260 million as the liability for military leave increased
    $183.2 million.




DoD Performance and Accountability Report       146                      Part 3: Financial Information
Other Information Related to Other Liabilities:

Intra-governmental Other Liabilities (Line 1.K.) increased by $1,805.3 million (48 percent). The table below depicts approximately 99 percent of the
Intra-governmental Other Liabilities by Entity:

Intra-governmental Other Liabilities (Line 1.K) for 2003
(millions)
      Entity     Current Liability        Non Current          Total Liability
                                            Liability
Navy GF                     2,740.1                     .09               2,740.2
Navy WCF                        49.6                                         49.6
Air Force GF                  621.4                                         621.4
Air Force WCF                     6.1                                         6.1
Army GF                       169.0                                         169.0
Army WCF                        11.3                                         11.3
USACE                         135.7                 1,759.7               1,895.4
ODO GF                          42.7                      .8                 43.5
ODO WCF                         18.6                    9.4                  28.0
MRF                                .7                                          .7
                                                      Total               5,565.2

Non-Federal Other Liabilities (Line 2.M.) decreased by $1,010.6 million (11 percent). The table below depicts approximately 99 percent of the Non-
Federal Other Liabilities by Entity:
Non-Federal Other Liabilities (Line 2.M.) for 2003
(millions)
      Entity     Current Liability         Non Current         Total Liability
                                            Liability
Navy GF                         124.9                  71.6                 196.5
Navy WCF                     1,956.3                                      1,956.3
Air Force GF                       .8                 189.2                 190.0
Air Force WCF                1,725.2                                      1,725.2
Army GF                      1,171.4                1,335.1               2,506.5
Army WCF                         39.6                                        39.6
USACE                           144.6                                       144.6
ODO GF                       1,019.4                     .4               1,019.8
ODO WCF                         165.1                   3.7                 168.8
MRF                                .2                                          .2
                                                      Total               7,947.5

DoD Performance and Accountability Report          147                      Part 3: Financial Information
The Department may incur additional liabilities in FY 2004 due to legislation making TRICARE, the military’s health care program available to
members of the National Guard and the reserves when they are not on active duty.




DoD Performance and Accountability Report      148                     Part 3: Financial Information
    Note 15.B.                  Capital Lease Liability


                                                                            2003                                                        2002
As of September 30                                                      Asset Category
                                  Land and
(Amounts in millions)                                       Equipment                    Other                  Total                   Total
                                  Buildings
1. Future Payments
      Due:
    A. 2004                 $                  66.5   $                   0.9   $                     0.0   $            67.4   $                   69.6
    B. 2005                                    66.4                       0.0                         0.0                66.4                       67.9
    C. 2006                                    66.1                       0.0                         0.0                66.1                       67.1
    D. 2007                                    60.2                       0.0                         0.0                60.2                       66.1
    E. 2008                                    47.5                       0.0                         0.0                47.5                       60.2
   F. After 5 Years                           184.4                       0.0                         0.0               184.4                      220.5
    G. Total Future Lease
        Payments Due        $                 491.1   $                   0.9   $                     0.0   $           492.0   $                  551.4
    H. Less: Imputed
      Interest
        Executory Costs                       155.6                       0.0                         0.0               155.6                      184.2
    I.Net Capital Lease
      Liability             $                 335.5   $                   0.9   $                     0.0   $           336.4   $                  367.2

2. Capital Lease Liabilities Covered by Budgetary Resources:                                                $           326.1   $                  336.5

3. Capital Lease Liabilities Not Covered by Budgetary Resources:                                            $           127.2   $                  165.2
4. Other Information:


 Fluctuations and/or Abnormalities:

 The liabilities associated with capital leases are often not recorded in legacy systems. The proper breakout of future payments to appropriate years
 will be done when a process for capturing lease liabilities is implemented. The decrease between year-end FY 2002 and year-end FY 2003 was
 caused by a classified program within the Department Component Level Accounts.

 Capital Lease Liabilities Not Covered by Budgetary Resources

 For the Department of Defense, all leases prior to FY 1992 are funded on a FY basis causing the non-current amounts to be shown as Not Covered by
 Budgetary Resources. All capital leases and lease purchases entered into after FY 1992 are funded in the first year of the lease.

 DoD Performance and Accountability Report            149                       Part 3: Financial Information
Capital Lease Liabilities Covered by Budgetary Resources

The leases that originated after FY 1992 are required to be fully funded in the year of their inception. Therefore, Budgetary Resources show the
present value of those lease payments as Covered.

The following table compares Capital Leases at year-end FY 2002 to year-end FY 2003.

Comparison of Capital Leases between Year-end FY 2002 and Year-end FY 2003
                   (amounts in millions)
Future Payments Due                                       YE 2002 YE 2003 Increase/Decrease % Change
   A. 2004                                                  $69.6   $67.4        ($2.2)        -3%
   B. 2005                                                  $67.9   $66.4        ($1.5)        -2%
   C. 2006                                                  $67.1   $66.1        ($1.0)        -1%
   D. 2007                                                  $66.1   $60.2        ($5.9)        -9%
   E. 2008                                                  $60.2    $47.5      ($12.7)       -21%
   F. 2009 +                                               $220.5 $184.4        ($36.1)       -16%
   G. Total                                                $551.4 $492.0        ($59.4)       -11%
   H. Less Imputed Interest Executory Costs               ($184.2) ($155.6)      $28.6        -16%
   I. Net                                                  $367.2 $336.4        ($30.8)        -8%

Capital Lease Liability Covered by Budgetary Resources       $336.5   $326.1        ($10.4)               -3%
Capital Lease Liability Not Covered by Budgetary Resources   $165.2   $127.2        ($38.0)              -23%


Note Reference

•   See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies
    governing Leases.

•   For regulatory discussion on “Capital Lease Liability,” see Department of Defense Financial Management Regulation, Volume 6B, Chapter 10,
    paragraph 1017.




DoD Performance and Accountability Report         150                    Part 3: Financial Information
    Note 16. Commitments and Contingencies


Disclosures Related to Commitments and Contingencies:

Nature of Contingency

The Department is subject to various claims that represent contingent liabilities for the
United States Government. While no opinion has been expressed regarding the likely
outcome or possible loss associated with specific claims, experience indicates that many
claims are settled for less than sought or dismissed altogether. In some cases the
possibility of loss is remote. Liabilities are not accrued in the Department's financial
statements.

In addition, the Department has other contingent liabilities that are considered reasonably
possible. These liabilities are not accrued in the Department's financial statements.
As of September 30, 2003, the Department has approximately $13,684.6 million in
claims that are considered reasonably possible. The estimates for the Components are
included in the table below:

Estimate of the Possible Liability by Major Component

   Contingent Liabilities (Amounts in millions)
                                                   Army         Navy       Air     ODO WCF      Total
                                                                          Force     (DLA)
Chemical Demilitarization Non-Stockpile Disposal    8,970.0                                      8,970.0
Chemical Demilitarization Emergency
Preparedness Program
Contractual Actions                                               103.9     21.0                   124.9
Contractual Commitments                                             9.9                              9.9
Employee Related Actions                                  0.2      26.3                             26.5
Other (foreign country tax)                                        70.0                             70.0
Environmental Claims                                  10.0                                          10.0
Judgement Fund Liabilities                            10.0                                          10.0
Claims & Litigation from Civil Law                   222.3          5.5    244.7      2,940.0    3,412.5
Site Closure Costs                                                  4.0                              4.0
Environment Cleanup Costs
Army Contract Appeals Division                         46.0                                         46.0
Army Environmental Law Division                      107.0
                                                                                                   107.0
Network Enterprise Technology Command                   0.9                                          0.9
Low-Level Radioactive Waste Disposal                   36.0                                         36.0
Environmental Restoration                             856.9                                        856.9
TOTAL                                              10,259.3       219.6    265.7          2.9   13,684.6




DoD Performance and Accountability Report                   151                          Part 3: Financial Information
See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on
financial reporting requirements and Department of Defense policies governing
Contingencies and Other Liabilities.

For regulatory discussion on “Commitments and Contingencies,” see Department of
Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1018.




DoD Performance and Accountability Report       152                      Part 3: Financial Information
    Note 17.        Military Retirement Benefits and Other Employment Related Actuarial Liabilities



                                                                                                 2003                                                            2002
As of September 30
                                                  Actuarial Present Value     Assumed      (Less: Assets Available to          Unfunded Actuarial          Unfunded Actuarial
                                                     of Projected Plan         Interest          Pay Benefits)                      Liability                   Liability
                                                          Benefits            Rate (%)
 (Amounts in millions)
1. Pension and Health Benefits:
   A. Military Retirement Pensions                $              736,061.6     6.25%       $                (176,028.9)    $               560,032.7   $             557,646.2
   B. Military Retirement Health Benefits
                                                                 206,839.4     6.25%                                0.0                    206,839.4                 592,046.0
   C. Medicare-Eligible Retiree Benefits                          476,170.2    6.25%                         (18,182.4)                    457,987.8                        0.0
   D. Total Pension and Health Benefits           $             1,419,071.2                $                (194,211.3)    $             1,224,859.9   $            1,149,692.2

2. Other:
   A. FECA                                        $                7,596.1                 $                         0.0   $                 7,596.1   $                7,183.2
   B. Voluntary Separation Incentive Programs                      1,690.1       4.0%                            (760.0)                       930.1                      763.3
   C. DoD Education Benefits Fund                                  1,208.1       4.4%                          (1,036.9)                       171.2                      134.8
                                                                       0.0                                           0.0                         0.0                        0.0
   D. Total Other                                 $               10,494.3                 $                   (1,796.9)   $                 8,697.4   $                8,081.3

3. Total Military Retirement Benefits and
    Other Employment Related Actuarial
    Liabilities:                                  $             1,429,565.5                $                (196,008.2)    $             1,233,557.3   $            1,157,773.5




      DoD Performance and Accountability Report           153                           Part 3: Financial Information
4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:
   Actuarial Cost Method Used: See narrative below.
   Assumptions: See narrative below.
   Market Value of Investments in Market-based and Marketable Securities: See narrative below.




      Fluctuations and Abnormalities

  The unfunded actuarial liability for the Military Retirement Pensions increased $2,386.5 million, or .4 percent, from year-end FY 2002 to year-
  end FY 2003. Additional information about Military Retirement Pensions and the net pension expense is disclosed in the paragraph below
  entitled “Military Retirement.”

  The unfunded actuarial liability for the Military Retirement Health Benefits decreased $385,206.6 million, or 65.1 percent, from year-end FY
  2002 to year-end FY 2003. This net decrease was caused by the creation of the Medicare-Eligible Health Care Fund (MERHCF) on
  October 1, 2002. The establishment of this new fund required the subsequent transfer of a $405,553.0 million actuarial liability from the
  Defense Health Program (DHP) to the MERHCF. In addition, there was an increase of $20,346.0 million in the overall liability for the DHP
  (after the $405,553.0 million transfer to the MERHCF) because of FY 2003 interest costs and normal costs, plus the gains in the actuarial
  liability due to changes in trend assumptions. Additional information is contained in the Military Retirement Health Benefits Actuarial Liability
  paragraph.

  The unfunded actuarial liability for the Medicare-Eligible Retiree Benefits increased from zero to $457,987.8 million from year-end FY 2002 to
  FY 2003. Since the DoD MERHCF was established at the beginning of FY 2003 (October 1, 2002), this fund was not included in the FY 2002
  financial statements. Additional details about this fund and the change in the actuarial liability are provided in the Military Retirement Health
  Benefits Actuarial Liability paragraph.

  The unfunded actuarial liability for the Federal Employees Compensation Act increased $412.9 million, or 5.7 percent. Additional information
  about this program is provided in the FECA paragraph.




      DoD Performance and Accountability Report        154                     Part 3: Financial Information
The unfunded actuarial liability for the Voluntary Separation Incentive Programs increased $166.8 million, or 21.9 percent. The increase is the
combined result of an increase in the actuarial present value of the plan benefits and a decrease in the value of the assets available to pay
benefits. Additional information is provided in the Voluntary Separation Incentive Programs paragraph.


The unfunded actuarial liability for the DoD Education Benefits Fund increased $36.4 million, or 27.0 percent. The increase is the combined
result of an increase in the actuarial present value of the plan benefits and an increase in the value of the assets available to pay benefits.
Additional information is discussed in the DoD Education Benefits Fund paragraph.


Military Retirement Health Benefits (MRHB) Actuarial Liability

For the fiscal year ending September 30, 2002, the unfunded actuarial liability for the Military Retiree Health Care program was $592,046.0
million. Chapter 56 of Title 10, United States Code created the Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund
(MERHCF) effective October 1, 2002. The purpose of the MERHCF is to accumulate funds to finance, on an actuarially sound basis, liabilities
of the DoD under Uniformed Services Retiree Health Care Programs for Medicare-eligible beneficiaries.

Chapter 56 also created the DoD Medicare-Eligible Retiree Health Care Board of Actuaries with a charter to set methods and assumptions to be
used for determining MERHCF’s original unfunded liability and normal cost contributions. The Board determined the original unfunded
liability of MERHCF and set a schedule over which to amortize the liability. Using approved methods, the DoD Office of the Actuary
determined that the original unfunded liability of MERHCF, as of October 1, 2002, was $405,553.0 million. This amount includes the liability
for Medicare-eligible members and former members of the DoD Uniformed Services who are entitled to retired or retainer pay, and their
eligible dependents who are Medicare-eligible. The DoD Office of the Actuary did not include the liability for beneficiaries of the non-DoD
Uniformed Services.

Creation of the MERHCF necessitated the transfer of the $405,553.0 million Medicare-Eligible Health Care actuarial liability to the MERHCF. The
balance remaining represents the Defense Health Program (DHP) portion of the liability. The basis of the revised FY 2003 beginning balance of the
MRHB actuarial liability is as follows:




   DoD Performance and Accountability Report        155                      Part 3: Financial Information
                                                                                                             (Amounts in millions)


   FY 2002 ending balance of the total MRHB Actuarial Liability                                                  $592,046.0
   FY 2003 transfer of Medicare-Eligible Health Care liability to the MERHCF                                      405,553.0
   Defense Health Program portion of the MRHB Liability FY 2003 beginning balance                                $186,493.0



Change in Defense Health Program MHRB Actuarial Liability

                                                                                                             (Amount in millions)

  Actuarial Liability as of 9/30/02 (DoD pre-Medicare + DoD Medicare cost basis effect)                          $ 186,493.0
  Expected Normal Cost for FY03                                                                                       6,457.6
  Expected Benefit Payments for FY03                                                                                ( 6,185.3)
  Interest Cost for FY03                                                                                            11,664.2
  Actuarial (gains)/losses due to changes in trend assumptions                                                        1,435.8
  Actuarial (gains)/losses due to other factors                                                                       6,974.1
  Actuarial Liability as of 9/30/03 (DoD pre-Medicare + all uniformed services Medicare cost-basis effect)       $ 206,839.4

   Actuarial Cost Method Used for DHP Actuarial Liability. Aggregate Entry-Age Normal


   Assumptions in Calculation of DHP Liability:


   Interest Rate:          6.25%




   DoD Performance and Accountability Report      156                     Part 3: Financial Information
Medical Trend

                Medicare Inpatient:                           4.0% from FY02 to FY03, ultimate rate of 6.25% in 2027
                Medicare Outpatient:                          5.5% from FY02 to FY03, ultimate rate of 6.25% in 2027
                Medicare Prescriptions (Direct Care):         10.08% from FY02 to FY03, ultimate rate of 6.25% in 2027
                Medicare Prescriptions (Purchased Care):      15.54% from FY02 to FY03, ultimate rate of 6.25% in 2027
                Non-Medicare Inpatient:                       4.5% from FY02 to FY03, ultimate rate of 6.25% in 2027
                Non-Medicare Outpatient:                      9.7% from FY02 to FY03, ultimate rate of 6.25% in 2027
                Non-Medicare Prescriptions:                   13.9% from FY02 to FY03, ultimate rate of 6.25% in 2027


Other Information

The DHP liability includes pre-Medicare liabilities for the DoD, plus a cost-basis effect related to the direct care portion of Medicare
liabilities for all Uniformed Services. The approximate breakout of the September 30, 2003, liability is:

                                                                                       (Amount in millions)

                                DoD                                                          $ 206,409.2
                                U.S. Coast Guard                                             $     381.1
                                Public Health Service                                        $      45.8
                                National Oceanic and Atmospheric Administration              $       3.1

Liabilities in the MRHB liability are valued at a higher cost basis for direct care than they are in the corresponding liabilities reported for the
MERHCF. Thus, the DHP liability, reflecting the difference between the MRHB and the MERHCF liabilities, includes both pre-Medicare
liabilities for the DoD, plus a cost-basis effect related to Medicare liabilities for all Uniformed Services.

Actuarial gains/losses due to other factors include new population data, other actuarial experience being different from assumed, the cost
basis effect for non-DoD Uniformed Services Medicare liabilities, and actuarial assumption changes other than the change in trend
assumptions.



DoD Performance and Accountability Report         157                       Part 3: Financial Information
       Change in MERHCF Actuarial Liability                                                                           (Amount in millions)

                                                                 Actuarial Liability as of 9/30/02 (DoD Medicare)             $405,553.0
                           Transferred Actuarial Liability as of 9/30/02 (non-DoD uniformed services Medicare)                   $6,645.8
                                             Actuarial Liability as of 9/30/02 (all uniformed services Medicare)              $412,198.8
                                                                                  Expected Normal Cost for FY03                  $7,923.2
                                                                             Expected Benefit Payments for FY03                ($5,584.1)
                                                                                             Interest Cost for FY03             $25,834.4
                                    Estimated actuarial (gains)/losses on non-DoD uniformed services liabilities                 $2,347.3
                                                                      Actuarial (gains)/losses due to other factors            $25,680.4
                                                    Actuarial (gains)/losses due to changes in trend assumptions                 $7,770.2
                                             Actuarial Liability as of 9/30/03 (all uniformed services Medicare)              $476,170.2


    Actuarial Cost Method Used for MERHCF Liability: Aggregate Entry-Age Normal


Assumptions in Calculation of MERHCF Liability

       Interest Rate:           6.25%

       Medical Trend:
       Medicare Inpatient:                              4.0% from FY02 to FY03, ultimate rate of 6.25% in 2027.
       Medicare Outpatient:                             5.5% from FY02 to FY03, ultimate rate of 6.25% in 2027.
       Medicare Prescriptions (Direct Care):            10.08% from FY02 to FY03, ultimate rate of 6.25% in 2027.
       Medicare Prescriptions (Purchased Care):         15.54% from FY02 to FY03, ultimate rate of 6.25% in 2027.




DoD Performance and Accountability Report         158                      Part 3: Financial Information
 The MERHCF liability includes Medicare liabilities for all Uniformed Services. The approximate breakout of the September 30, 2003,
 liability ($ millions) is:

                                                           DoD                                            $466,537.4
                                                           Coast Guard                                      $8,613.2
                                                           Public Health Service                              $954.2
                                                           NOAA                                                $65.5


        FY 2003 Service contributions to the MERHCF ($ millions) were:

                                                          DoD                                                $8,001.6
                                                          Coast Guard                                         $172.7
                                                          Public Health Service                                 $25.2
                                                          NOAA                                                   $1.2

MERHCF liabilities are valued at a lower cost basis for direct care than they are in the corresponding liabilities reported for the Military
Retirement Health Benefits liability. Thus, the MERHCF liability is approximately $19.5 billion lower than the Medicare portion of the
Military Retirement Health Benefits liability.

Estimated actuarial gains/losses on the non-DoD uniformed services liabilities reflect new assumptions in the calculation of their liabilities.
Actuarial gains/losses due to other factors include new population data, other actuarial experience being different from assumed, and
actuarial assumption changes other than the change in trend assumptions.

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual experience. Claims cost
assumptions for direct care were based on actual experience; assumptions for purchased care were developed from industry-based cost
estimates adjusted to approximate the military retired population.

Projected revenues into the Medicare Eligible Retiree Health Care Fund, authorized by Chapter 56 of Title 10, United States Code, come
from three sources: interest earnings on Fund assets, monthly Uniformed Services contributions, and annual contributions from the Treasury
Department. The monthly contributions are determined as a per-capita amount (approved by the DoD Medicare Eligible Retiree Health



DoD Performance and Accountability Report        159                      Part 3: Financial Information
Care Board of Actuaries) times end strength. The contribution from Treasury is paid into the Fund at the beginning of each fiscal year, and
represents the amortization of the unfunded liability for service performed prior to October 1, 2002, as well as the amortization of actuarial
gains and losses that have arisen since then. The Board determines Treasury’s contribution, and the Secretary of Defense directs the
Secretary of Treasury to make the payment.

Because of reporting deadlines, the current year actuarial present value of projected plan benefits is rolled forward, using accepted actuarial
methods, from the prior year's results. For purposes of the Fund's financial reporting, this process is applied annually.

Military Retirement

The net pension expense for the actuarial accrued liability is developed in the table below:

                Net Pension Expense for the Years Ended September 30


                                                                                (Amounts in millions)

                                                            2003                        2002

A. Beginning of Year Accrued Liability                          $726,915.4                  $705,248.9
B. Normal Cost Liability                                           13,719.4                    12,935.3
C. Plan Amendment Liability                                           880.3                     5,563.5
D. Assumption Change Liability                                    (4,626.3)                   (2,334.4)
E. Benefit Outlays                                               (35,716.8)                  (35,187.8)
F. Interest on Pension Liability                                   44,755.2                    43,393.2
G. Actuarial Loss (Gain)                                          (9,865.7)                   (2,703.4)
H. End of Year Accrued Liability
    (A+B+C+D+E+F+G)                                             $736,061.5                  $726,915.3
I. Net Change in Actuarial Liabilities
   (B+C+D+E+F+G)                                                   $9,146.1                   $21,666.4



DoD Performance and Accountability Report        160                      Part 3: Financial Information
Other Information

Each year the accrued liability is expected to increase with the normal cost, decrease with benefit outlays, and increase with the interest cost.
In the absence of (1) actuarial gains and losses, (2) plan benefit changes, and (3) assumption changes, an increase of $22.758 billion in the
accrued liability was expected during FY 2003.

The September 30, 2003, accrued liability includes changes due to (1) assumptions, (2) benefit changes, and (3) experience. The new
assumptions include (a) permanent disability retiree death and other loss rates, (b) updates and enhancements to the survivor valuation
model , (c) first-year retiree offset factors, and (d) a new long-term salary increase assumption of 3.75 percent.

The combined effect of the actuarial assumption changes is a decrease in the September 30, 2003, accrued liability of $4.626 billion shown
on Line D. The change in retirement benefits for FY 2003 includes the reform of basic pay rates mandated by the FY 2003 DoD
Authorization Act. The effect of the benefit change is an increase in the September 30, 2003, Accrued Liability of $0.880 billion, shown on
Line C. The decrease in accrued liability due to the net experience gain of $9.866 billion, shown on line G, reflects the new population on
which the September 30, 2002, roll-forward is based, as well as other economic experience being different than assumed.


Actuarial Cost Method Used: Aggregate entry-age normal method.


The Military Retirement System is a single-employer, defined benefit plan. Administrative costs of the Fund are not ascertainable.
Projected revenues into the Fund, authorized by Public Law (PL) 98-94, come from three sources: monthly DoD contributions, annual
unfunded liability payment from the U.S. Treasury, and interest earnings on Fund assets. The monthly DoD contributions are determined as
a percentage (approved by the DoD Retirement Board of Actuaries) of basic pay. The unfunded liability payment from the U.S. Treasury is
paid into the Fund at the beginning of each fiscal year, and represents the amortization of the unfunded liability for service performed prior
to October 1, 1984, as well as the amortization of actuarial gains and losses that have arisen since then. The DoD Retirement Board of
Actuaries determines U.S. Treasury’s unfunded liability payment, and the Secretary of Defense directs the Secretary of Treasury to make the
payment.




DoD Performance and Accountability Report        161                       Part 3: Financial Information
The long-term economic assumptions for the FY 2002 valuation were 6.25 percent interest, 3.0 percent Consumer Price Index, and
3.5 percent salary increase. At its annual meeting in September, 2003, the DoD Retirement Board of Actuaries decided to increase the long-
term annual salary increase assumption to 3.75 percent for the September 30, 2003, valuation. For fiscal years 2003 and 2004, the inflation
rates of 1.4 percent (actual) and 2.0 percent (estimated), and the salary increases of 4.1 percent (actual) and 3.7 percent (estimated) were
used. Other assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual experience.

Because of reporting deadlines, the current year actuarial present value of projected plan benefits is rolled forward, using accepted actuarial
methods, from the prior year's valuation results as reported in the DoD Office of the Actuary's Valuation of the Military Retirement System.
For purposes of the Fund's financial reporting, this process is applied annually.


Market Value of Investments in Market-Based and Marketable Securities: $198,003.7 million


Federal Employees Compensation Act (FECA)


Fluctuations and Abnormalities

The unfunded liability for FECA increased 5.7 percent from year-end FY 2002 to year-end FY 2003.


Assumptions

The actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to the DoD at the end of
each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved
compensation cases. The liability is determined by using historical benefit payment patterns to predict the future payments. Cost-of-living
adjustments and medical inflation factors are also included in the calculation of projected future benefits. Consistent with past practices,
these projected annual benefit payments are then discounted to present value using the Office of Management and Budget’s economic
assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:


DoD Performance and Accountability Report        162                      Part 3: Financial Information
                Year 1                        5.21%
                Year 2                        5.21%
                Year 3 and thereafter         5.21%

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation factors
(cost-of-living adjustments or COLAs) and medical inflation factors (consumer price index-medical, or CPIMs) were applied to the
calculation of projected future benefits. These factors were also used in adjusting the methodology’s historical payments to current year
constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:
             CBY         COLA          CPIM
             2001        3.33%         4.44%
             2002        3.00%         4.15%
             2003        2.56%         4.09%
             2004        2.50%         4.09%
             2005+       2.50%         4.09%

The model’s resulting projections were critically analyzed to insure that the estimates were reliable. The analysis was primarily based on
two tests: (1) a comparison of the percentage change in the liability amount by agency, to the percentage change in the actual payments, and
(2) a comparison of the ratio of the estimated liability, to the actual payment of the beginning year, as calculated for the current projection to
the liability-payment ratio calculated for the prior projection.


Voluntary Separation Incentive Programs (VSI)

Actuarial Cost Method Used: See narrative on fluctuations.




DoD Performance and Accountability Report         163                      Part 3: Financial Information
Assumptions

The VSI Fund (recorded on the books of the U. S. Treasury) is used to accumulate funds to finance, on an actuarially sound basis, the
liabilities of the DoD incurred under this program. The VSI benefit is an annual annuity paid to a member who has separated under this
program and is paid for a period of time equal to twice the member's years of service. These benefits are paid by the VSI Fund, which
receives contributions from the Military Services’ military personnel accounts. Contribution amounts are determined by the DoD Office of
the Actuary in conjunction with the Under Secretary of Defense (Comptroller) (USD(C)), based on a comparison of liabilities to assets.
Future contribution amounts for current VSI recipients will be determined by the Board of Actuaries. No future military personnel are
scheduled to separate under this option.


Market Value of Investments in Market-Based and Marketable Securities: $804.6 million

Fluctuations and Abnormalities

The 22 percent increase in the VSI unfunded actuarial liability is the combined result of an increase in the actuarial present value of the plan
benefits, and a decrease in the value of the assets available to pay benefits. Since the VSI program is discontinued as far as new applicants,
each year the actuarial liability is expected to decrease with benefit outlays, and increase with the interest cost. In the absence of
(1) actuarial gains and losses, and (2) assumption changes, a decrease of $68.1 million in the actuarial liability was expected during FY
2003. However, the September 30, 2003, actuarial liability includes changes due to (1) assumptions, and (2) experience. The new
assumption is a new long-term rate of return on investments of 4 percent. The effect of the actuarial assumption change is an increase in the
September 30, 2003, actuarial liability of $215.0 million. The decrease in actuarial liability due to the net experience gain of $2.5 million
reflects the new population data on which the September 30, 2003, actuarial liability is based, as well as other economic experience being
different than assumed.


DoD Education Benefits Fund

Actuarial Cost Method Used: See narrative on fluctuations.


DoD Performance and Accountability Report        164                      Part 3: Financial Information
Assumptions

      The Education Benefits Fund was established by Public Law 98-525. The fund is designed to accumulate resources for the
Educational Assistance programs promoting the recruitment and retention of members for the All-Volunteer Forces and the Total Force
Concept of the Armed Forces. The fund is also designed to aid in the readjustment of Armed Forces service members to civilian life after
they separate from military service.


Market Value of Investments in Market-Based and Marketable Securities: $1,077.5 million


Fluctuations and Abnormalities

The 27 percent increase in the DoD Education Benefits unfunded actuarial liability is the combined result of an increase in the actuarial
present value of the plan benefits, and an increase in the value of the assets available to pay benefits. The modified estimate of the present
value of benefits (PVB) for the DoD Education Benefits Fund in FY 2003 relative to what was reported in FY 2002 includes more complete
experience and includes for the first time an estimate of $17.0 million for Category 3 benefits paid from the Fund. The PVB also went up
because of a lower interest rate assumption (4.4 percent vs. 5.5 percent) and a benefit change whereby Chapter 1606 eligible personnel have
14 years (previously 10 years) to use the benefit. The resulting increases in the PVB were offset somewhat due to other changes in the rates
and methodology. For the number reported as of September 30, 2003, there is an additional effect of approximately $15.0 (net) million due
to an additional year of new entrants and calculating the present value of the stream of projected future benefits as of a year later.


Note Reference

For regulatory discussion on “Military Retirement Benefits and Other Employment Related Actuarial Liabilities,” see Department of
Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.




DoD Performance and Accountability Report       165                      Part 3: Financial Information
   Note 18. Unexpended Appropriations

As of September 30
                                                         2003                       2002
(Amounts in millions)
1. Unexpended Appropriations:
   A. Unobligated, Available                     $               30,851.1   $               30,115.5
   B. Unobligated, Unavailable                                    5,069.9                    4,551.8
   C. Unexpended Obligations                                    157,034.8                  142,615.3
   D. Total Unexpended Appropriations            $              192,955.8   $              177,282.6



2. Other Information Pertaining to Unexpended Appropriations:


          Definitions

          Unexpended appropriations are the amount of budget authority remaining for
          disbursement against current or future obligations.

          Unobligated balances represent the cumulative amount of budgetary authority that has
          not been set aside to cover outstanding commitments and obligations. Unobligated
          balances are classified as available or unavailable. Unobligated balances associated with
          appropriations expiring at fiscal year end remain available only for obligation
          adjustments until the account is closed.

          Unexpended obligations represent funds that have been committed for goods that have
          not been received or services that have not been performed.

          Relevant Information for Comprehension:

          Unexpended Obligations

          Unexpended Obligations reported as a component of Unexpended Appropriations include
          both Undelivered Orders-Unpaid and Undelivered Orders-Paid only for direct
          appropriated funds. This amount is distinct from line 12, Change in Budgetary Resources
          Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided, on the
          Statement of Financing. This line on the Statement of Financing includes the change
          during the fiscal year in Unexpended Obligations against budget authority from all
          Military Services.




          DoD Performance and Accountability Report      166                     Part 3: Financial Information
Note 19.A           General Disclosures Related to the Statement of Net Cost

Disclosures Related to the Statement of Net Cost


     Fluctuations

     On the Department of Defense (DoD) Consolidated Statement of Net Cost (SoNC), intra-governmental earned revenue decreased by
     $2,347.8 million or 15.1 percent between year-end FY2002 and year-end FY2003, which was primarily due to amount of interest
     earned by the Military Retirement Trust. Interest on investments for this fund decreased from $12,398 million in FY 2002 to
     $9,998 million in FY 2003. Securities that were purchased with higher coupon rates were invested at lower coupon rates in FY 2003
     resulting in less interest earned.

     Gross Costs with the Public increased by $127,331.6 million between year-end FY 2002 and year-end FY2003. Affecting this
     increase was the implementation of the new accounting standard SFFAS No. 23 “Eliminating the Category of National Defense
     Property, Plant, and Equipment.” The standard requires the capitalization and depreciation of the cost of military equipment,
     including the cost of modifications and upgrades.



     Information Related to the Statement of Net Cost

     Statement of Net Cost

     The Consolidated SoNC in the federal government is unique because its principles are driven on understanding the net cost of
     programs and/or organizations that the federal government supports through appropriations or other means. This statement provides
     gross and net cost information that can be related to the amount of output or outcome for a given program and/or organization
     administered by a responsible reporting entity.




     DoD Performance and Accountability Report      167                     Part 3: Financial Information
Reporting Entities

For General Funds, the amounts presented in the SoNC are based on obligations and disbursements and therefore may not in all cases
report actual accrued costs. The Department of Defense generally records transactions on a cash basis and not an accrual basis as is
required by generally accepted accounting principles. Therefore, the Department’s systems do not capture actual costs. As such,
information presented in the SoNC is based on budgetary obligations, disbursements, and collection transactions, as well as non-
financial feeder systems, then adjusted to record known accruals for major items such as payroll expenses, accounts payable, and
environmental liabilities.

For Working Capital Funds, while the Department’s Working Capital Funds (WCFs) generally record transactions on an accrual basis
as is required by generally accepted accounting principles, the systems do not always capture actual costs. Information presented on
the SoNC is primarily based on budgetary obligation, disbursements, or collection transactions, as well as information from non-
financial feeder systems.

The Statement of Net Costs restates the fiscal year 2002 balances for the Special Operations Command and the U.S. Army Corps of
Engineers using prior period adjustments. See note 20 for further details.




DoD Performance and Accountability Report      168                     Part 3: Financial Information
Note 19.B. Gross Cost and Earned Revenue by Budget Functional Classification
As of September 30
                                                                                2003                                               2002
(Amounts in millions)                                                          (Less:
   Budget Functional Classification              Gross Cost               Earned Revenue)               Net Cost                  Net Cost

1. Department of Defense Military (051)    $            415,556.5     $            (14,527.6)     $               401,028.9   $           329,179.1
2. Water Resources by U.S. Army Corps                    10,087.7                     (779.7)                       9,308.0                 6,167.2
   of Engineers (301)
3. Pollution Control and Abatement by                         140.2                         0.0                      140.2                   149.0
   US. Army Corps of Engineers (304)
4. Federal Employees Retirement and                      44,545.9                   (9,998.4)                      34,547.5                44,458.1
   Disability, Department of Defense
   Military Retirement Fund (602)
5. Veterans Education, Training, and                          330.7                    (45.3)                        285.4                   254.0
   Rehabilitation by Department of
   Defense Education Benefits
   Trust Fund (702)
6. Medicare Eligible Retiree Health Care                 67,375.7                     (395.1)                      66,980.6                     0.0
   Fund (551)
7. Total                                   $            538,036.7     $            (25,746.1)     $               512,290.6   $           380,207.4
8. Other Information




     DoD Performance and Accountability Report         169                        Part 3: Financial Information
Note 19.C.              Gross Cost to Generate Intra-governmental Revenue and Earned Revenue
                        (Transactions with Other Federal—Non-DoD—Entities) by Budget Functional
                        Classification


     The Department’s accounting systems do not capture cost data in a manner that enables the Department to determine if the cost was
     incurred to generate intragovernmental revenue. Therefore, the Department was unable to complete this note. The Department is in
     the process of upgrading its financial and feeder systems and will be addressing this issue. Additionally, the identification of
     intragovernmental revenue and expenses is a government-wide problem. The OMB and the Department of the Treasury have efforts
     underway to develop government-wide guidance to enable accurate reporting of intragovernmental transactions.




     DoD Performance and Accountability Report     170                     Part 3: Financial Information
     Note 19.D.           Imputed Expenses
As of September 30
(Amounts in millions)                                 2003                         2002

1.   Civilian (e.g.,CSRS/FERS) Retirement   $                1,717.2   $                          1,340.0
2.   Civilian Health                                         1,948.4                              1,864.7
3.   Civilian Life Insurance                                    20.9                                 20.6
4.   Military Retirement Pension                                 0.0                                  0.0
5.   Military Retirement Health                                  0.0                                  0.0
6.   Judgment Fund                                             180.4                                294.7
7.   Total Imputed Expenses                 $                3,866.9   $                          3,520.0

8. Other Information




DoD Performance and Accountability Report       171               Part 3: Financial Information
     Note 19.E.          Benefit Program Expenses
As of September 30                                      September 30,
(Amounts in millions)                                       2003                          2002

1. Service Cost                               $                     28,100.2   $                     13,128.0
2. Period Interest on the Benefit Liability                         82,253.8                         34,747.0
3. Prior (or past) Service Cost                                        880.3                       (36,477.0)
4. Period Actuarial Gains or (Losses)                               20,509.8                          8,148.0
5. Gains/Losses Due to Changes in Medical                            9,206.0                          2,080.0
    Inflation Rate Assumption
6. Total Benefit Program Expense              $                    140,950.1   $                    21,626.0

7. Other Information




DoD Performance and Accountability Report         172                     Part 3: Financial Information
    Note 19. F.        Exchange Revenue


Disclosures Related to the Exchange Revenue:

Definition:

Exchange Revenue arises when a Government entity provides goods and services to the public or to another Government entity for a
price - “earned revenue.” Exchange revenue includes most user charges other than taxes, i.e., regulatory user charges.

Note Reference

For regulatory discussion on Exchange Revenue, see Department of Defense Financial Management Regulation, Volume 6B, Chapter
10, paragraph 102120.




DoD Performance and Accountability Report      173                   Part 3: Financial Information
    Note 19.G. Amounts for Foreign Military Sales (FMS) Program
               Procurements from Contractors

Disclosures Related to Amounts for FMS Program Procurements from Contractors:



The cost of items purchased by foreign governments under the Foreign Military Sales (FMS) Program and provided directly to the
foreign governments by contractors are not reported in the Statement of Net Cost. As of September 30, 2003, we estimate the
amounts purchased by foreign governments under the FMS Program to be $13.0 billion.




DoD Performance and Accountability Report       174                      Part 3: Financial Information
    Note 19.H.              Stewardship Assets

Disclosures Related to Stewardship Assets:

    Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, and Investments in Research and
    Development. The current-year cost of acquiring, constructing, improving, reconstructing, or renovating stewardship assets are
    included in the SoNC. Material yearly investment amounts related to stewardship assets are provided in the Required Supplemental
    Stewardship Information section of this financial statement.




    DoD Performance and Accountability Report     175                     Part 3: Financial Information
   Note 19.I.            Intra-governmental Revenue and Expense

Disclosures Related to Intra-governmental Revenue and Expense:

    Intragovernmental Revenue and Expenses.

    The Department’s accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading
    partner aggregations. Therefore, the Department was unable to reconcile intragovernmental revenue balances with its trading partners.
    The Department intends to develop long-term systems improvements that will include sufficient up-front edits and controls to
    eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that after-the-fact
    reconciliation cannot be accomplished with the existing or foreseeable resources.




    DoD Performance and Accountability Report        176                   Part 3: Financial Information
    Note 19.J.            Suborganization Program Costs
As of September 30
                                                                      22003                                                 2002
(Amounts in millions)in                   Subentity A              Subentity BB                 Subentity C


1. Program A Costs:
   A. Intra-governmental Costs        $                  0.0   $                    0.0   $                       0.0   $          0.0
   B. Non-Federal Costs:
     1. Transfer Payments                                0.0                        0.0                           0.0              0.0
     2. Administrative Costs                             0.0                        0.0                           0.0              0.0
     3. Other Costs                                      0.0                        0.0                           0.0              0.0
     4. Program A Non-federal Costs   $                  0.0   $                    0.0   $                       0.0   $          0.0
   C. Total Program A Costs           $                  0.0   $                    0.0   $                       0.0   $          0.0

2. Program B Costs:
   A. Intra-governmental Costs        $                  0.0   $                    0.0   $                       0.0   $          0.0
   B. Non-Federal Costs:
     1. Transfer Payments                                0.0                        0.0                           0.0              0.0
     2. Administrative Costs                             0.0                        0.0                           0.0              0.0
     3. Other Costs                                      0.0                        0.0                           0.0              0.0
     4. Program B Nonfederal          $                  0.0   $                    0.0   $                       0.0   $          0.0
       Costs
   C. Total Program B Costs           $                  0.0   $                    0.0   $                       0.0   $          0.0

3. Program C Costs:
   A. Intra-governmental Costs        $                  0.0   $                    0.0   $                       0.0   $          0.0
   B. Non-Federal Costs:
     1. Transfer Payments                                0.0                        0.0                           0.0              0.0
     2. Administrative Costs                             0.0                        0.0                           0.0              0.0
     3. Other Costs                                      0.0                        0.0                           0.0              0.0
     4. Program C Nonfederal          $                  0.0   $                    0.0   $                       0.0   $          0.0
    Costs
   C. Total Program C Costs           $                  0.0   $                    0.0   $                       0.0   $          0.0




    DoD Performance and Accountability Report           177                       Part 3: Financial Information
4. Program D Costs:
   A. Intra-governmental Costs        $                0.0   $                 0.0   $                       0.0   $          0.0
   B. Non-Federal Costs:
     1. Transfer Payments                              0.0                     0.0                           0.0              0.0
     2. Administrative Costs                           0.0                     0.0                           0.0              0.0
     3.Other Costs                                     0.0                     0.0                           0.0              0.0
     4.Program D Non-federal Costs    $                0.0   $                 0.0   $                       0.0   $          0.0

   C. Total Program D Costs           $                0.0   $                 0.0   $                       0.0   $          0.0



5. Other Information:
    Programs and Major Appropriation Groups

    The Department of Defense (DoD) identifies programs based on the nine major appropriation groups provided by the Congress. The
    Department is in the process of reviewing available data and attempting to develop a cost reporting methodology that fulfills the need
    for cost information required by SFFAS No. 4 to keep the financial statements from becoming overly voluminous.

    Until cost-allocating processes and expanded intra-DoD eliminating capabilities are incorporated into the accounting processes, the
    usefulness of further sub-organization-reported (major command) net costs is limited. This limitation is the reason that no additional
    statements of sub-organization cost at lower levels are presented with these statements.

    The DoD is unable to accumulate costs for major programs based on performance measures identified under requirements of the
    Government Performance and Results Act because current financial processes and systems do not capture and report this type of cost
    information. Until the processes and systems are upgraded, the DoD as a whole will break out programs by major appropriation
    groupings.

    The SoNC format requires reporting program costs by costs incurred with intragovernmental and public entities. Although overall
    program costs are believed to be fairly stated, the cost allocations between intragovernmental and public entities that were based on
    available vendor type data may not be totally accurate.




    DoD Performance and Accountability Report       178                      Part 3: Financial Information
Note Reference

For regulatory discussion on Sub-organization Program Costs, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10, paragraph 102128.




DoD Performance and Accountability Report    179                    Part 3: Financial Information
    Note 20. Disclosures Related to the Statement of Changes in Net Position



                                                    Cumulative                                              Cumulative
                                                    Results of                Unexpended                    Results of                  Unexpended
                                                    Operations               Appropriations                 Operations                 Appropriations
As of September 30                                    2003                       2003                         2002                         2002
(Amounts in millions)
1. Prior Period Adjustments Increases
   (Decreases) to Net Position
Beginning Balance:

    A.     Changes in Accounting               $           383,129.9     $                     0.0   $                     (0.0)   $                    0.0
Standards
    B. Errors and Omissions in Prior Year
       Accounting Reports                                        153.9                         0.0                 (63,388.8)                      1,553.3
    C. Other Prior Period Adjustments                            0.0                           0.0                    1,628.8                          0.0
    D. Total Prior Period Adjustments          $           383,283.8     $                     0.0   $             (61,760.0)      $               1,553.3

2. Imputed Financing:
   A.      Civilian CSRS/FERS Retirement       $               1,717.2   $                     0.0   $                   1,340.1   $                    0.0
   B.      Civilian Health                                     1,948.4                         0.0                       1,864.7                        0.0
   C.      Civilian Life Insurance                                20.9                         0.0                          20.6                        0.0
   D. Military Retirement Pension                                  0.0                         0.0                           0.0                        0.0
   E. Military Retirement Health                                   0.0                         0.0                           0.0                        0.0
   F. Judgment Fund                                              180.4                         0.0                         294.6                        0.0
   G. Total Imputed Financing                  $               3,866.9   $                     0.0   $                   3,520.0   $                    0.0

3. Other Information:




        DoD Performance and Accountability Report        180                       Part 3: Financial Information
Prior-Period Restatement of Balances

The US Special Operations Command (USSOCOM) reported a prior-period adjustment totaling $2.9 billion. This adjustment restated
the General PP&E account for items not reported in previous fiscal years 1999 through 2002 and was made in accordance with
Federal Accounting Standards Advisory Board SFFAS Number 21 and SFFAS Number 7. This adjustment is considered as an error
and omission in prior year accounting reports.

The United States Army Corps of Engineers made a prior-period adjustment to eliminate $2.7 billion of construction in progress (CIP)
for the portion related to cost-share projects. This adjustment restated the CIP account and the related allowance account based on a
recommendation from the DoD Inspector General’s Office. This adjustment is considered as an error and omission in prior year
accounting reports.

The Balance Sheet, Statement of Net Costs, and Statement of Changes in Net Position reflect restated balances for these adjustments.

Prior-Period Adjustments

The Department of Defense recorded $383.3 billion in prior-period adjustments in FY 2003. These adjustments consist of the
following:

An adjustment of $383.1 billion is related to changes in the Statement of Federal Financial Accounting Standards (SFFAS)
Number 23. Effective October 1, 2002, the SFFAS Number 23, “Eliminating The Category National Defense Property, Plant, and
Equipment," revised the accounting principles for reporting military equipment (previously referred to as National Defense Property,
Plant, and Equipment (NDPP&E)). The standard renames NDPP&E to military equipment and classifies military equipment as
general property, plant, and equipment (GPP&E). The standard also requires the capitalization and depreciation of the cost of military
equipment, including the cost of modifications and upgrades. Implementation of the new accounting principles requires the
adjustment of the October 1, 2002, General Property, Plant, and Equipment balance to recognize the investment, accumulated
depreciation, and net book value of military equipment that previously had been expensed. The adjustment was based on data
provided by the Bureau of Economic Analysis, Department of Commerce.




DoD Performance and Accountability Report      181                      Part 3: Financial Information
The Defense Finance and Accounting Service made a $5.5 million prior period adjustment to record a fiscal year 2002 audit
adjustment that had been made to the DFAS statements after publishing the DoD-wide statements. A prior period adjustment was
recorded in fiscal year 2003 to include this change in the DoD-wide statements.

Air Force Working Capital Fund has a prior period adjustment of $55.1 million. This is an auditor directed adjustment.

Other Disclosures

Imputed Financing

The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by Civil Service Retirement
System (CSRS), Federal Employees' Retirement System (FERS), Federal Employees' Health Benefits Program (FEHB) and the
Federal Employees' Group Life Insurance Program (FEGLI) do not fully cover the Government's cost to provide these benefits. An
imputed cost is recognized as the difference between the Government's cost of providing these benefits to the employees and
contributions made by and for them. OPM provides the cost factors to the Defense Finance and Accounting Service (DFAS) for
computation of imputed financing cost. The DFAS provides the costs to the Office of the Under Secretary of Defense (Personnel and
Readiness) (OUSD(P&R)) for validation. Approved imputed costs are provided to the reporting components for inclusion in their
financial statements.

In FY 2003, the imputed financing increased by $347.0 million or 10 percent. The majority of the change is attributed to increases in
the employee benefits service cost factors with little or no increase in the employee and employer contribution cost factors.
Additionally, DoD recognized FERS imputed financing costs for the first time. Prior to FY 2003, DoD paid 100 percent of FERS
employees' benefits. However, in FY 2003, the service cost for FERS increased but the employee and employer contributions did not
change. Therefore, DoD is recognizing the difference between the service cost factor for FERS and the employee and employer cost
factors for FERS as imputed financing costs. Also, changes occurred in the annual gross base pay, which is used to calculate imputed
financing costs.

Appropriations for Iraqi Freedom

Appropriations used (Line 4.D.) increased $96.0 billion.
Appropriation received (Line 4.A.) increased $111.0 billion.


DoD Performance and Accountability Report      182                     Part 3: Financial Information
    Note 21.A.          Disclosures Related to the Statement of Budgetary Resources

As of September 30                                               2003                           2002
(Amounts in millions)
1. Net Amount of Budgetary Resources Obligated
   for Undelivered Orders at the End of the Period     $                 215,000.2   $                   183,920.1
2. Available Borrowing and Contract Authority at the
    End of the Period                                                     21,150.6                        21,098.5


3. Other Information:



       Table Fluctuations

       Line 1, Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period, in the table above, increased
       $31,080.1 million, or 16.9 percent.

       In general, many line items on the Statement of Budgetary Resources changed substantially due to the increased appropriations for
       Iraqi Freedom. Obligations incurred increased $121 billion. Other reasons for this fluctuation include increased funding to support
       Operations Enduring Freedom and Noble Eagle; war-fighting readiness; force protection; procurement of helicopters; development of
       future combat systems; and war reserves.

       The Other Defense Organizations – General Fund reported that differences exist between the SBR and the year-end SF-133 (line 2A
       and line 12). These differences are primarily attributable to inconsistencies in the ending balances on the FY 2002 FACTS-II data file
       and the beginning balances on the FY 2003 FACTS-II data file. This data file is used to create the SBR. Adjustments to the
       budgetary trial balance input as part of the FY 2003 audited financial statements process also caused differences between the two
       reports.




       DoD Performance and Accountability Report           183                 Part 3: Financial Information
Other Information Related to the Statement of Budgetary Resources


Accounting Standard: U.S. Standard General Ledger

The Department of Defense has not fully implemented the U.S. Government Standard General Ledger in all operational accounting
systems. Guidance from the Treasury Financial Manual, Part 2, Chapter 4000, FACTS-II, is used to populate the Department’s
Statement of Budgetary Resources. However, some of the Department’s entities still use proprietary accounts to produce their
budgetary accounting data. The Department’s accounting systems neither provide nor capture data needed for obligations incurred
and recoveries of prior-year obligations in accordance with OMB Circular A-11, “Preparation, Submission, and Execution of the
Budget,” requirements. Although the Department of Defense developed an alternative methodology to calculate these items, the
amount of distortion cannot be reliably determined and may or may not be material.

Foreign Military Sales Trust Funds

Beginning in FY 2002, the Department of Defense treated Foreign Military Sales (FMS) Trust Funds as nonfederal and presented
these amounts in the Balance Sheet and the Statement of Net Cost. Accounts receivables and collections related to FMS are
recognized on the Statement of Budgetary Resources (SBR). Therefore, reconciling differences exist between the SBR and the
Balance Sheet. The Office of the Under Secretary of Defense (Comptroller) is currently researching the issue to determine the proper
treatment of FMS Trust Fund transactions to ensure proper reporting.

Intra-entity Transactions

The SBR does not include intra-entity transactions because the statements are presented as combined and combining.

•   Pursuant to section 303(2) of Public Law (PL) 107-296, functions of the National Bio-Weapons Defense Analysis Center of DoD,
    including related functions of the Secretary of Defense were transferred to the Department of Homeland Security (DHS). As a
    result, budgetary resources totaling $1,022.8 million were transferred from several DoD organizations to the DHS as of September
    2003.




DoD Performance and Accountability Report      184                     Part 3: Financial Information
                                    Schedule of Transfers to the Department of Homeland Security
                                                              ($Millions)


                                                             Type of Budget                       $ Amount
                Transferred From                             Resource
                Chemical Biological Defense Program –                                                  416.5
                Defense Threat Reduction Agency          Budget Authority
                (DTRA
                Defense Emergency Response Fund          Unobligated Balance                            75.6
                Iraqi Freedom Fund                       Budget Authority                              400.0
                Defense Information Systems Agency       Budget Authority                              62.5
                (DISA)
                DISA                                      Unobligated Balance                            44.3
                DISA                                      Unliquidated Obligations                       23.9
                Total Budgetary Resources                                                              1,022.8



    •   In August 2003, the Department of the Army transferred $23.0 million in funds to DTRA in support of DHS, Directorate of
        Science and Technology. The transfer was authorized pursuant to Title III of the Homeland Security Act of 2002, PL 107-296.
        The funds transferred from the Army to DTRA support the BioNet Defense Initiative (previously called the Biological Defense
        Initiative (BDI)). Obligations incurred for these funds as of September 30, 2003, totaled $1.2 million.




DoD Performance and Accountability Report       185                    Part 3: Financial Information
Apportionment Categories

OMB Bulletin No. 01-09, section 9.27, specifically requires disclosure of the amount of direct and reimbursable obligations incurred
against amounts apportioned under categories A, B, and exempt from apportionment. This disclosure should agree with the aggregate
of the related information as included in each reporting entity’s SF 133, Report on Budget Execution and Budgetary Resources, and
lines 8A and 8B in the SBR. Two reporting entities disclosed differences among four lines (8A, 8B, 9A, and 9B) on the SF 133 and
SBR.

The Army General Fund reported that, for FY 2002 and 2003, its direct and reimbursable delivered orders on the SBR do not agree
with lines 8A and 8B on the SF 133. Also, lines 9A and 9B on the SBR do not agree with the SF 133 because of the incorrect
reporting by FACTS II of the status of funds for Basic Symbols 1096, Iraqi Relief and Restoration Fund; 5095, Wildlife Conservation;
5098, Restoration of Rocky Mountain Arsenal; 5286, National Science Center; 8063, Trust Fund for Walter Reed Army Medical
Center; and 8927, Trust Fund for Army General Fund Gift Funds FACTS-II uses the Allotments - Realized Resources status for
these basic symbols rather than the Unobligated Funds Not Subject to Apportionment status.

The specific direct and reimbursable obligations apportioned under the three required categories are displayed in the tables below:




DoD Performance and Accountability Report       186                      Part 3: Financial Information
                                            Direct Obligations – Apportionment Categories

           Reporting Entity                                Category A          Category B   Exempt from Apportionment
                                                           ($Millions)         ($Millions)          ($Millions)
       Army General Fund                                       124,340                3,672
       Navy General Fund – see disclosure                      124,498
       Air Force General Fund                                   73,188               50,177                        11
       Army Working Capital Fund                                   249
       Navy Working Capital Fund                                     0
       Air Force Working Capital Fund                                                      24
       US Corps of Engineers                                     5,516                                             30
       Military Retirement Fund                                                      35,396
       Medicare Eligible Healthcare Fund                         4,583
       Other Defense Organizations – Working                     1,076
       Capital Funds
       Other Defense Organizations – General Fund               99,266                   280                     423




DoD Performance and Accountability Report       187                      Part 3: Financial Information
                                            Reimbursable Obligations – Apportionment Categories
                         Reporting Entity                 Category A       Category B         Exempt from Apportionment
                                                          ($Millions)      ($Millions)                ($Millions)
              Army General Fund                                  18,430
              Navy General Fund – see disclosure                  8,080
              Air Force General Fund                              5,244              2,976                           11
              Army Working Capital Fund                          12,322
              Navy Working Capital Fund                          27,264
              Air Force Working Capital Fund                                       16,976
              US Corps of Engineers                               5,034
              Other Defense Organizations –                      46,893
              Working Capital Fund
              Other Defense Organizations –                       3,917
              General Fund – see disclosure


Disclosures Relating to Apportionment Categories
The Navy General Fund reported that, due to system limitations, both types of its obligations cannot be categorized. Therefore,
Navy’s direct and reimbursable obligations are all reported in the above table as “category A.” The Other Defense Organizations –
General Fund reported that its systems cannot determine the different categories of reimbursable obligations. Therefore, these
obligations are reported in the above table as “category A.”

Spending Authority from Offsetting Collections
Adjustments in funds that are temporarily not available pursuant to Public Law as well as those funds that are permanently not
available are neither included on the "Spending Authority from Offsetting Collections" line on the Statement of Budgetary Resources
nor included on the "Spending Authority for Offsetting Collections and Recoveries" line on the Statement of Financing.

Undelivered Orders
Undelivered Orders presented in the Statement of Budgetary Resources include Undelivered Orders-Unpaid for both direct and
reimbursable funds.



DoD Performance and Accountability Report          188                    Part 3: Financial Information
    Note 21.B. Disclosures Related to Problem Disbursements, In-transit Disbursements and
               Suspense/Budget Clearing Accounts


                                                                                                                                  (Decrease)/Increase
As of September 30                               September 2001          September 2002                September 2003              from 2002 to 2003

(Amounts in millions)
1. Total Problem Disbursements
  A. Absolute Unmatched Disbursements      $               1,041.0   $                   858.0   $                   854.0    $                   ( 4.0)
 B. Negative Unliquidated Obligations                        205.0                       122.0                       125.0                          3.0

2. Total In-transit Disbursements, Net     $               6,240.0   $                 4,550.0   $                  4,675.0   $                  125.0

3. Other Information Related to Problem Disbursements and In-transit Disbursement

     The amounts disclosed in the above table do not represent the total DoD problem disbursement amounts. The Department has
     fiduciary responsibility for the Foreign Military Sales program (Treasury Index 11), but is not required to include this program in its
     Agency-wide statements and notes. In addition, there are other issues that are causing a variance between the amounts reported on the
     table above and those amounts included in DoD’s monthly Problem Disbursement and In-transit Report. These variances are
     currently under investigation. The discussion below addresses the Department’s total problem disbursement amounts.

     For year-end FY 2003, the Department of Defense reported $854 million (absolute value) in Unmatched Disbursements (UMD),
     which is a decrease of $4 million since fourth quarter of FY 2002. A UMD occurs when a payment is not matched to a corresponding
     obligation in the accounting system. Absolute value is the sum of the positive values of debit and credit transactions without regard to
     the sign (plus or minus).

     For year-end FY 2003, the Department reported $125 million (absolute value) in Negative Unliquidated Obligations (NULOs), which
     is an increase of $3 million since year-end FY 2002. A NULO occurs when a payment is made against a valid obligation but the
     payment is greater than the amount of the obligation recorded in the official accounting system. These problem disbursements



     DoD Performance and Accountability Report         189                          Part 3: Financial Information
    represent the absolute value of disbursements of Department of Defense funds that have been reported by a disbursing station to the
    Department of the Treasury, but have not yet been precisely matched against the specific source obligation that gave rise to the
    disbursements. These payments have been made using available funds and are based on valid receiving reports for goods and services
    delivered under valid contracts.

    For year-end FY 2003, the Department of Defense reported $4,675 million (net) for In-Transits, which is an increase of $125 million
    since year-end FY 2002. The In-Transits represent the net value of disbursements and collections made by a DoD disbursing activity
    on behalf of an accountable activity and have not been posted to the accounting system.

    The elimination of both problem disbursements and aged in-transits is one of the highest financial management priorities of the Under
    Secretary of Defense (Comptroller). The Defense Finance and Accounting Service has efforts underway to improve the systems and
    to resolve all previous problem disbursements and to process all in-transit disbursements.


4. Suspense/Budget Clearing Accounts,Net

       Account                         September 2001                September 2002              September 2003                (Decrease)/Increase


       F3875                    $                       92.5   $                  525.0      $                  (628.8)    $                (1,153.8)

       F3880                                             0.3                           2.5                         (6.0)                      ( 8.5)

       F3882                                             0.0                          23.2                        (21.6)                     ( 44.8)

       F3885                                         350.5                        258.7                         (399.5)                      ( 658.2)

       F3886                                             5.2                           6.3                          0.2                       ( 6.1)

       Total                    $                    448.5     $                  815.7      $                 (1,055.7)   $                (1,871.4)

5. Other Information Related to Suspense/Budget Clearing Accounts:




    DoD Performance and Accountability Report         190                      Part 3: Financial Information
The Department of Defense has made a concerted effort to reduce balances in the suspense and budget clearing accounts disclosed
on line 4 above. A description of the suspense and budget clearing accounts and their respective balances follows:

•   The F3875, F3885, and F3886 suspense accounts represent the source of the transaction. Account F3875, which reported a
    negative balance of $103.5 million, represents the Disbursing Officer’s (DO) suspense. Account F3885, which represents the
    Interfund/IPAC suspenses, reported a balance of $425.2 million Account F3886, with a balance of $0.2 million, represents the
    (payroll) Thrift Savings Plan suspense. These three suspense accounts temporarily hold collections or disbursements until they
    can be assigned or identified to a valid appropriation.

•   The F3880 suspense account, which reported a negative balance of $6.0 million, represents the balance of Treasury checks that
    (1) have either been lost by the payee and need to be reissued, (2) have never cashed by the payee, or (3) have been cancelled by
    the Treasury and need to be transferred to the original appropriation.

•   The F3882 suspense account, which reported a negative balance of $13.3 million, was established for the Uniformed Services
    Thrift Savings Plan in FY 2002. The amounts in this account represent a timing difference between the posting of the Thrift
    Savings Plan deductions by the National Finance Center and the posting of these same amounts in the military accounting systems
    in the following month.

On September 30 of each fiscal year, most of the uncleared suspense/budget clearing account balances are reduced to zero (as required
by the Department of the Treasury) by transferring the balances to the proper appropriation accounts. On October 1 of the following
fiscal year, the uncleared suspense/clearing account balances are reestablished.


Note Reference

See Note 2 – Nonentity and Entity Assets for further explanation on deposits, suspense, and budget clearing accounts.
See Note 3 – Fund Balance with Treasury for additional disclosures on deposits, suspense, and budget clearing accounts.




DoD Performance and Accountability Report       191                      Part 3: Financial Information
    Note 22.           Disclosures Related to the Statement of Financing



Disclosures Related to the Statement of Financing:

Fluctuations and/or Abnormalities

Transfers In/out Without Reimbursement decreased by $6.7 billion due to the transfer of a
$6.6 billion liability from Other Defense Organizations to the Medicare-Eligible Retiree
Health Care Fund, which was established in FY 2003. In addition, $56.7 million in assets
were transferred to the Department of Interior from the U.S. Army Corps of Engineers.

Resources That Fund Expenses Recognized in Prior Periods increased (negative decrease)
primarily due to a change in environmental liabilities. In FY 2002, the Army modified its cost
estimating tool for transferred ranges and increased quality control of program requirements
for closed ranges. This resulted in a $5.6 billion decrease in environmental liabilities in FY
2002. There was no comparative decrease in FY 2003.

Resources That Finance the Acquisition of Assets decreased by $63.9 billion from FY 2002
due to an increase in acquisitions. Increases in acquisitions appear as a negative amount on
the Statement of Financing because budgetary expenditures for assets that are capitalized on
the Balance Sheet are subtracted from total obligations in order to reconcile budgetary
obligations with the net cost of operations. Increases in acquisitions were a result of support
for Operating Enduring Freedom/Operation Iraqi Freedom. The acquisitions increased by
$25.1 billion for the Army General Fund, $19.0 billion for Navy General Fund, $8.3 billion
for the Air Force General Fund, and $1.0 billion for the Under Secretary of Defense for
Acquisition, Technology and Logistics Working Capital Funds.

Other Resources or Adjustments to Net Obligated Resources That Do Not Affect Net Cost of
Operations increased by $6.6 billion from FY 2002. The increase was caused by the transfer
of a $6.6 billion liability from Other Defense Organizations to the Medicare-Eligible Retiree
Health Care Fund, which was established in FY 2003. Other Resources or Adjustments to Net
Obligated Resources That Do Not Affect Net Cost of Operations is primarily an offset to
Transfers In/out Without Reimbursement.

Components of Net Cost of Operations That Will Require or Generate Resources in Future
Periods reports unfunded expenses that were incurred during FY 2003. The cumulative total
of unfunded expenses from all fiscal years is reported as “Liabilities Not Covered by
Budgetary Resources” in Note 11.

Other Components of the Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period consist primarily of actuarial future funded expenses.
Actuarial future funded expenses, increased by $61.1 billion from year-end FY 2002 to



    DoD Performance and Accountability Report         192                      Part 3: Financial Information
FY 2003. The increase resulted primarily from increased actuarial expenses for the DoD
Medicare-Eligible Retiree Health Care Fund.

Depreciation and Amortization Expense increased by $48.0 billion from year-end FY 2002 to
year-end FY 2003. The increase is due primarily to the reestablishment of Military Equipment
as a capital asset.

Revaluation of Assets or Liabilities increased by $6.7 billion, primarily due to the correction
of a mapping error of $3.4 billion for “Loss on Dispositions of Assets” for the Navy General
Fund, and $1.6 billion in Navy OM&S consumed. Navy displays this as Revaluation of
Assets or Liabilities, while Air Force and Army display consumption (correctly) as Other
Components of Net Cost That Will Not Require or Generate Resources in Future Periods. In
addition, Army posted a $1.5 billion adjustment as Revaluation of Assets or Liabilities to
balance its Statement of Financing in FY 2002, and did not do so this year.

The $17.3 billion decrease in Other Components of Net Cost That Will Not Require or
Generate Resources in Future Periods is primarily attributable to the reporting of trust fund
undistributed revenue from Offsetting Receipts to Other Components of Net Cost That Will
Not Require or Generate Resources in Future Periods ($23.7 billion) and the U.S. Army Corps
of Engineers (USACE) $2.6 billion restatement of FY 2002 Net Cost. Trust fund
undistributed revenue was correctly reported as part of Offsetting Receipts in FY 2002 and the
Treasury Department changed the formatting of the Statement of Financing for FY 2003. The
USACE made an adjustment to remove Construction In Process for cost share projects from
the its books per audit recommendation. The decrease was partly offset by increases in
Operating Materials and Supplies consumed by Air Force and Army due to support for
Operation Enduring Freedom and Operation Iraqi Freedom.

Other Disclosures

The objective of the Statement of Financing is to reconcile the difference between budgetary
obligations and the net cost of operations reported. The OMB Bulletin 01-09 requires the
SOF to be presented on a consolidated basis. The Department is unable to perform the
required intragovernmental eliminations to report the line items on a consolidated basis.
Accordingly, the Statement of Financing is presented as combined statement.

Due to the Department’s financial system limitations, budgetary data is not in agreement with
proprietary expenses and assets capitalized. Differences between budgetary and proprietary
data are a previously identified deficiency. To bring the Statement of Financing into balance
with the Statement of Net Cost, the following adjustments were made:

    •   Resources That Finance the Acquisition of Assets                 $10,629.5 million
    •   Other Components Not Requiring of Generating Resources            $1,839.4 million
    •   Statement of Net Cost *                                              $89.7 million

* The Army General Fund adjusted the Statement of Net Cost instead of the Statement of
Financing.


    DoD Performance and Accountability Report         193                      Part 3: Financial Information
    Note 23. Disclosures Related to the Statement of Custodial
             Activity



Disclosures Related to the Statement of Custodial Activity:

A Statement of Custodial Activity is prepared by reporting entities whose primary
mission is collecting taxes or other revenues, particularly sovereign revenues that are
intended to finance the entire government’s operations, or at least the programs of other
entities, rather than their own activities.

Fluctuations and/or Abnormalities

Iraqi Seized Assets were first reported in FY 2003 attributing to the Statement of
Custodial Activity’s variances between FY 2002 and FY 2003.

Other Information Related to the Statement of Custodial Activity

During Operation Iraqi Freedom, the U.S. Government seized assets from the former
Iraqi State or regime which is being used to assist the Iraqi people and support the
reconstruction of Iraq. As of September 30, 2003, the following table depicts the
custodial activity the Army has conducted pertaining to these seized assets (cash).

SOURCE OF COLLECTIONS                                             (Amounts in millions)
 Seized Iraqi Cash                                                         $     808.9

DISPOSITION OF COLLECTIONS
 Iraqi Salaries                                                              $        30.2
 Repair/Reconstruction/Humanitarian Assistance                               $       170.6
 Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)              $       254.6
 Fuel/Supplies                                                               $        75.4
 Total Disbursed on behalf of the Iraqi People                               $       530.8
 Retained for Future Support of the Iraqi People                             $       278.1
     Total Disposition of Collections                                        $       808.9

NET CUSTODIAL COLLECTION ACTIVITY                                        $              0


Foreign Military Sales Trust Fund

Under authority of the Arms Export and Control Act, the Foreign Military Sales Trust
Fund (FMSTF) receives collections from foreign governments that are dedicated
specifically to FMS purchases. Funds collected into the Trust Fund are in advance of the
performance of services or sale of articles. These advance collections constitute a

DoD Performance and Accountability Report            194                 Part 3: Financial Information
fiduciary relationship with the countries and are outside of the Federal budget. Current-
year collections into the FMSTF for FY 2003 equal $9,971.6 million and disbursed on the
behalf of foreign governments and international organizations equals
$10,118.7 million.

In accordance with the DoD Acting Chief Financial Officer’s memorandum of
August 31, 1992, the FMSTF does not recognize nor report revenue, with the exception
of cost clearing accounts which are reflected in all other components of the Audited
Financial Statements except the Statement of Custodial Activity. Since various DoD
components actually perform the services and sell the articles, recognition of revenue and
expense occurs in the financial statements of the applicable DoD components.

Other Disclosures

For Regulatory Disclosure related to the Statement of Custodial Activity see, Department
of Defense Financial Management Regulations, Volume 6B, Chapter 10, Paragraph 1025.




DoD Performance and Accountability Report       195                      Part 3: Financial Information
Note 24.A.         Other Disclosures
1. ENTITY AS LESSEE-Operating Leases

As of September 30
                                                                                 2003                                                     2002
(Amounts in millions)

    B. Future Payments Due:                 Land and              Equipment                    Other
          Fiscal Year                       Buildings                                                               Total                   Total
       2004                        $                    94.1 $                 1.3 $                     1.2 $              96.6 $                   71.6
       2005                                             94.7                   0.7                       0.1                95.5                     68.1
       2006                                             96.9                   0.6                       0.0                97.5                     67.7
       2007                                             98.3                   0.2                       0.0                98.5                     67.7
       2008                                             97.2                   0.2                       0.0                97.4                     62.7
       After 5 Years                                    73.5                   0.0                       0.0                73.5                     77.6
       Total Future Lease Payments
       Due                         $                    554.7 $                3.0 $                     1.3 $              559.0 $                 415.4




Fluctuations and Abnormalities:

There was an increase of $143.5 million in Total Future Lease Payments Due from year-end FY 2002 to year-end FY 2003. The majority of this
variance is due to a new operating lease of $124.8 million for office facilities for the Defense Contract Management Agency.




Definitions

   Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or equipment) from a lessor in exchange for a
    payment of funds.
   Operating Lease - A lease which does not transfer substantially all the benefits and risk of ownership. Payments should be charged to expense
    over the lease term as it becomes payable.

DoD Performance and Accountability Report        196                     Part 3: Financial Information
Land and Buildings Leases

•   “Office Space” is the largest component. These costs were gathered from existing leases, General Service Administration (GSA) bills, and Inter-
    service Support Agreements. Future year projections used the Consumer Price Index, rather than the DoD inflation factor. The CPI impacts
    increases to the leases, especially those at commercial lease sites.

Equipment Leases

•   The majority of these leases are for equipment with a variety of lease Terms. Renewal of the leases is not expected upon expiration.

Other Leases

•   Other Information – This includes any other operating leases. Leases are generally 1-year leases. The Department expects to continue to reduce
    the level of owned assets while increasing the number of operational leases. The Department will strive to displace commercial leases in favor of
    GSA leases because GSA leases are typically more economical.




DoD Performance and Accountability Report       197                     Part 3: Financial Information
     Note 24.B.         Other Disclosures



Other Disclosures:

    N/A




DoD Performance and Accountability Report   198   Part 3: Financial Information
Consolidating and Combining
   Financial Statements




DoD Performance and Accountability Report
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                              Army General Fund             Navy General Fund             Air Force General Fund


1. ASSETS (Note 2)

    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
          a. Entity                                      $               54,695.9      $               78,191.7      $                  59,714.0
          b. Non-Entity Seized Iraqi Cash                                   278.1                              0.0                           0.0
          c. Non-Entity-Other                                                61.4                         223.2                             52.5
        2. Investments (Note 4)                                                  1.2                           9.8                           0.7
        3. Accounts Receivable (Note 5)                                     523.4                         496.9                            541.5
        4. Other Assets (Note 6)                                             83.5                         187.9                            339.1
        5. Total Intragovernmental Assets                $               55,643.5      $               79,109.5      $                  60,647.8

    B. Cash and Other Monetary Assets (Note 7)           $                  954.4      $                  283.0      $                     147.9
    C. Accounts Receivable (Note 5)                                         514.6                       3,382.1                            772.5
    D. Loans Receivable (Note 8)                                                 0.0                           0.0                           0.0
    E. Inventory and Related Property (Note 9)                           32,676.7                      53,611.6                         51,815.8
    F. General Property, Plant and Equipment (Note 10)                  115,337.9                     158,407.4                        112,786.1
    G. Investments (Note 4)                                                      0.0                           0.0                           0.0
    H. Other Assets (Note 6)                                              3,569.0                       6,180.6                          9,912.2
2. TOTAL ASSETS                                          $              208,696.1      $              300,974.2      $                 236,082.3




             DoD Performance and Accountability Report           199                                       Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                              Army Working Capital         Navy Working Capital        Air Force Working Capital
                                                                   Fund                         Fund                            Fund

1. ASSETS (Note 2)

    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
          a. Entity                                      $                  1,548.5   $                  1,827.6      $                     732.8
          b. Non-Entity Seized Iraqi Cash                                       0.0                          0.0                              0.0
          c. Non-Entity-Other                                                   0.0                          0.0                              0.0
        2. Investments (Note 4)                                                 0.0                          0.0                              0.0
        3. Accounts Receivable (Note 5)                                       411.2                        582.8                            605.1
        4. Other Assets (Note 6)                                                0.3                         10.4                              0.0
        5. Total Intragovernmental Assets                $                  1,960.0   $                  2,420.8      $                 1,337.9

    B. Cash and Other Monetary Assets (Note 7)           $                      0.0   $                      0.0      $                       0.0
    C. Accounts Receivable (Note 5)                                            31.2                        111.8                            167.8
    D. Loans Receivable (Note 8)                                                0.0                          0.0                              0.0
    E. Inventory and Related Property (Note 9)                             12,131.8                     18,256.1                       11,154.5
    F. General Property, Plant and Equipment (Note 10)                        926.8                      4,323.9                        1,329.6
    G. Investments (Note 4)                                                     0.0                          0.0                              0.0
    H. Other Assets (Note 6)                                                  269.9                        868.8                            380.4
2. TOTAL ASSETS                                          $                 15,319.7   $                 25,981.4      $                14,370.2




             DoD Performance and Accountability Report             200                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                          Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                            Engineers                     Organizations General
                                                                                                                                 Funds
1. ASSETS (Note 2)

    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
          a. Entity                                      $                    25.2   $                2,588.9         $                  48,841.3
          b. Non-Entity Seized Iraqi Cash                                      0.0                           0.0                               0.0
          c. Non-Entity-Other                                                  0.0                           6.9                            (104.2)
        2. Investments (Note 4)                                         182,568.8                     2,478.5                             1,872.0
        3. Accounts Receivable (Note 5)                                        0.1                      423.6                                486.2
        4. Other Assets (Note 6)                                               0.0                           0.0                             217.2
        5. Total Intragovernmental Assets                $              182,594.1    $                5,497.9         $                  51,312.5

    B. Cash and Other Monetary Assets (Note 7)           $                     0.0   $                       1.3      $                       26.6
    C. Accounts Receivable (Note 5)                                           14.7                    1,935.6                                  7.0
    D. Loans Receivable (Note 8)                                               0.0                           0.0                              64.0
    E. Inventory and Related Property (Note 9)                                 0.0                          62.6                          1,913.3
    F. General Property, Plant and Equipment (Note 10)                         0.0                   30,909.1                            18,226.5
    G. Investments (Note 4)                                                    0.0                           0.0                             217.8
    H. Other Assets (Note 6)                                                   0.0                           0.0                             310.6
2. TOTAL ASSETS                                          $              182,608.8    $               38,406.5         $                  72,078.3




             DoD Performance and Accountability Report          201                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                                 Other Defense           DoD Medicare-Eligible             Combined Total
                                                             Organizations Working     Retiree Health Care Fund
                                                                 Capital Funds
1. ASSETS (Note 2)

    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
          a. Entity                                      $                   3,373.2   $                    5.0       $               251,544.1
          b. Non-Entity Seized Iraqi Cash                                        0.0                        0.0                             278.1
          c. Non-Entity-Other                                                    0.0                        0.0                             239.8
        2. Investments (Note 4)                                                  0.0                   18,445.2                       205,376.2
        3. Accounts Receivable (Note 5)                                      2,793.7                        0.0                         6,864.5
        4. Other Assets (Note 6)                                                 0.7                        0.0                             839.1
        5. Total Intragovernmental Assets                $                   6,167.6   $               18,450.2       $               465,141.8

    B. Cash and Other Monetary Assets (Note 7)           $                    121.7    $                    0.0       $                 1,534.9
    C. Accounts Receivable (Note 5)                                           362.6                         0.0                         7,299.9
    D. Loans Receivable (Note 8)                                                 0.0                        0.0                              64.0
    E. Inventory and Related Property (Note 9)                             12,551.7                         0.0                       194,174.1
    F. General Property, Plant and Equipment (Note 10)                       4,061.6                        0.0                       446,308.9
    G. Investments (Note 4)                                                      0.0                        0.0                             217.8
    H. Other Assets (Note 6)                                                  238.1                         0.0                        21,729.6
2. TOTAL ASSETS                                          $                 23,503.3    $               18,450.2       $             1,136,471.0




             DoD Performance and Accountability Report             202                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                              Elimination                 2003 Consolidated                 2002 Consolidated


1. ASSETS (Note 2)

    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
          a. Entity                                      $                     0.0   $              251,544.1          $               205,278.8
          b. Non-Entity Seized Iraqi Cash                                      0.0                      278.1                                  0.0
          c. Non-Entity-Other                                                  0.0                      239.8                                537.4
        2. Investments (Note 4)                                                0.2                  205,376.0                          180,804.5
        3. Accounts Receivable (Note 5)                                    5,797.9                     1,066.6                           1,121.9
        4. Other Assets (Note 6)                                            734.1                       105.0                                  0.1
        5. Total Intragovernmental Assets                $                 6,532.2   $              458,609.6          $               387,742.7

    B. Cash and Other Monetary Assets (Note 7)           $                     0.0   $                 1,534.9         $                     742.7
    C. Accounts Receivable (Note 5)                                            0.0                     7,299.9                           6,341.9
    D. Loans Receivable (Note 8)                                               0.0                       64.0                                 44.2
    E. Inventory and Related Property (Note 9)                                 0.0                  194,174.1                          146,198.6
    F. General Property, Plant and Equipment (Note 10)                         0.0                  446,308.9                          122,569.7
    G. Investments (Note 4)                                                    0.0                      217.8                                  0.0
    H. Other Assets (Note 6)                                                   0.0                   21,729.6                           18,245.8
2. TOTAL ASSETS                                          $                 6,532.2   $             1,129,938.8         $               681,885.6




             DoD Performance and Accountability Report        203                                            Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                                        Army General Fund             Navy General Fund             Air Force General Fund


3. LIABILITIES (Note 11)

    A. Intragovernmental:
        1. Accounts Payable (Note 12)                              $                1,085.1      $                1,035.0      $                   1,413.9
        2. Debt (Note 13)                                                                  0.0                           0.0                           0.0
        3. Environmental Liabilities (Note 14)                                             0.0                           0.0                           0.0
        4. Other Liabilities (Note 15 & Note 16)                                    1,670.3                       3,859.9                          1,623.9
        5. Total Intragovernmental Liabilities                     $                2,755.4      $                4,894.9      $                   3,037.8

    B. Accounts Payable (Note 12)                                  $                9,089.1      $                1,742.5      $                   7,080.9
    C. Military Retirement Benefits and Other Employment-Related                    1,761.3                       1,590.0                          1,262.3
        Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                         37,395.4                      15,614.4                          8,110.4
    E. Loan Guarantee Liability (Note 8)                                                   1.3                           0.0                           0.0
    F. Other Liabilities (Note 15 & Note 16)                                        9,387.3                       3,786.0                          4,520.9
   G. Debt Held by Public (Note 13)                                                        0.0                           0.0                           0.0
4. TOTAL LIABILITIES                                               $               60,389.8      $               27,627.8      $                  24,012.3

5. NET POSITION

    A. Unexpended Appropriations (Note 18)                         $               47,674.7      $               50,781.2      $                  50,742.3
    B. Cumulative Results of Operations                                           100,631.6                     222,565.2                        161,327.7
6. TOTAL NET POSITION                                              $              148,306.3      $              273,346.4      $                 212,070.0

7. TOTAL LIABILITIES AND NET POSITION                              $              208,696.1      $              300,974.2      $                 236,082.3




              DoD Performance and Accountability Report                    204                                       Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                                        Army Working Capital         Navy Working Capital        Air Force Working Capital
                                                                             Fund                         Fund                            Fund

3. LIABILITIES (Note 11)

    A. Intragovernmental:
        1. Accounts Payable (Note 12)                              $                    435.4   $                    313.7      $                     231.7
        2. Debt (Note 13)                                                                 0.0                        615.6                              0.0
        3. Environmental Liabilities (Note 14)                                            0.0                          0.0                              0.0
        4. Other Liabilities (Note 15 & Note 16)                                         94.5                        289.3                            345.4
        5. Total Intragovernmental Liabilities                     $                    529.9   $                  1,218.6      $                     577.1

    B. Accounts Payable (Note 12)                                  $                    342.4   $                  2,102.9      $                      89.0
    C. Military Retirement Benefits and Other Employment-Related                        320.7                      1,409.9                            275.1
        Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                                0.0                          0.0                              0.0
    E. Loan Guarantee Liability (Note 8)                                                  0.0                          0.0                              0.0
    F. Other Liabilities (Note 15 & Note 16)                                            231.0                      3,113.2                        1,891.9
   G. Debt Held by Public (Note 13)                                                       0.0                          0.0                              0.0
4. TOTAL LIABILITIES                                               $                  1,424.0   $                  7,844.6      $                 2,833.1

5. NET POSITION

    A. Unexpended Appropriations (Note 18)                         $                     12.0   $                      0.0      $                       0.0
    B. Cumulative Results of Operations                                              13,883.7                     18,136.8                       11,537.1
6. TOTAL NET POSITION                                              $                 13,895.7   $                 18,136.8      $                11,537.1

7. TOTAL LIABILITIES AND NET POSITION                              $                 15,319.7   $                 25,981.4      $                14,370.2




              DoD Performance and Accountability Report                      205                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                                    Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                                      Engineers                     Organizations General
                                                                                                                                           Funds
3. LIABILITIES (Note 11)

    A. Intragovernmental:
        1. Accounts Payable (Note 12)                              $                     0.0   $                      92.8      $                     894.9
        2. Debt (Note 13)                                                                0.0                          17.4                             63.9
        3. Environmental Liabilities (Note 14)                                           0.0                           0.0                              0.0
        4. Other Liabilities (Note 15 & Note 16)                                         0.7                    2,096.5                               184.4
        5. Total Intragovernmental Liabilities                     $                     0.7   $                2,206.7         $                   1,143.2

    B. Accounts Payable (Note 12)                                  $                     0.0   $                  568.1         $                   2,648.0
    C. Military Retirement Benefits and Other Employment-Related                  736,061.6                            0.0                       210,116.2
        Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                               0.0                           0.0                            301.6
    E. Loan Guarantee Liability (Note 8)                                                 0.0                           0.0                             24.6
    F. Other Liabilities (Note 15 & Note 16)                                        2,963.2                       705.4                             1,576.2
   G. Debt Held by Public (Note 13)                                                      0.0                           0.0                              0.0
4. TOTAL LIABILITIES                                               $              739,025.5    $                3,480.2         $                215,809.8

5. NET POSITION

    A. Unexpended Appropriations (Note 18)                         $                     0.0   $                  636.8         $                  43,245.7
    B. Cumulative Results of Operations                                          (556,416.7)                   34,289.5                         (186,977.2)
6. TOTAL NET POSITION                                              $             (556,416.7)   $               34,926.3         $               (143,731.5)

7. TOTAL LIABILITIES AND NET POSITION                              $              182,608.8    $               38,406.5         $                  72,078.3




              DoD Performance and Accountability Report                   206                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                                           Other Defense           DoD Medicare-Eligible             Combined Total
                                                                       Organizations Working     Retiree Health Care Fund
                                                                           Capital Funds
3. LIABILITIES (Note 11)

    A. Intragovernmental:
        1. Accounts Payable (Note 12)                              $                    387.9    $                   (0.1)      $                 5,890.3
        2. Debt (Note 13)                                                                  1.3                        0.0                             698.2
        3. Environmental Liabilities (Note 14)                                             0.0                        0.0                               0.0
        4. Other Liabilities (Note 15 & Note 16)                                        317.4                         0.0                        10,482.3
        5. Total Intragovernmental Liabilities                     $                    706.6    $                   (0.1)      $                17,070.8

    B. Accounts Payable (Note 12)                                  $                   4,094.9   $                  106.0       $                27,863.8
    C. Military Retirement Benefits and Other Employment-Related                        598.1                   476,170.3                     1,429,565.5
        Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                                68.8                        0.0                        61,490.6
    E. Loan Guarantee Liability (Note 8)                                                   0.0                        0.0                              25.9
    F. Other Liabilities (Note 15 & Note 16)                                            679.3                       254.9                        29,109.3
   G. Debt Held by Public (Note 13)                                                        0.0                        0.0                               0.0
4. TOTAL LIABILITIES                                               $                   6,147.7   $              476,531.1       $             1,565,125.9

5. NET POSITION

    A. Unexpended Appropriations (Note 18)                         $                   (136.9)   $                    0.0       $               192,955.8
    B. Cumulative Results of Operations                                              17,492.5                 (458,080.9)                     (621,610.7)
6. TOTAL NET POSITION                                              $                 17,355.6    $            (458,080.9)       $             (428,654.9)

7. TOTAL LIABILITIES AND NET POSITION                              $                 23,503.3    $               18,450.2       $             1,136,471.0




              DoD Performance and Accountability Report                      207                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in Millions)                                                        Elimination                 2003 Consolidated                 2002 Consolidated


3. LIABILITIES (Note 11)

    A. Intragovernmental:
        1. Accounts Payable (Note 12)                              $                 5,789.0   $                  101.3          $                      85.8
        2. Debt (Note 13)                                                                0.0                      698.2                                874.3
        3. Environmental Liabilities (Note 14)                                           0.0                           0.0                               0.0
        4. Other Liabilities (Note 15 & Note 16)                                      743.2                      9,739.1                           8,213.6
        5. Total Intragovernmental Liabilities                     $                 6,532.2   $               10,538.6          $                 9,173.7

    B. Accounts Payable (Note 12)                                  $                     0.0   $               27,863.8          $                24,182.4
    C. Military Retirement Benefits and Other Employment-Related                         0.0                 1,429,565.5                       1,328,826.5
        Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                               0.0                   61,490.6                           59,353.1
    E. Loan Guarantee Liability (Note 8)                                                 0.0                       25.9                                 10.8
    F. Other Liabilities (Note 15 & Note 16)                                             0.0                   29,109.3                           29,795.3
   G. Debt Held by Public (Note 13)                                                      0.0                           0.0                               0.0
4. TOTAL LIABILITIES                                               $                 6,532.2   $             1,558,593.7         $             1,451,341.8

5. NET POSITION

    A. Unexpended Appropriations (Note 18)                         $                     0.0   $              192,955.8          $               177,282.6
    B. Cumulative Results of Operations                                                  0.0                 (621,610.7)                       (946,738.8)
6. TOTAL NET POSITION                                              $                     0.0   $             (428,654.9)         $             (769,456.2)

7. TOTAL LIABILITIES AND NET POSITION                              $                 6,532.2   $             1,129,938.8         $               681,885.6




              DoD Performance and Accountability Report                 208                                            Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                               Army General Fund           Navy General Fund              Air Force General Fund


 Program Costs
A. Military Personnel

       Intragovernmental Gross Costs                      $                9,294.7    $               12,135.6       $                      720.4
       (Less: Intragovernmental Earned Revenue)                             (641.6)                      (69.1)                            (342.4)
       Intragovernmental Net Costs                        $                8,653.1    $               12,066.5       $                      378.0

       Gross Costs With the Public                                        35,425.7                    24,509.8                          28,348.9
       (Less: Earned Revenue From the Public)                                (25.5)                     (281.5)                            (147.3)
       Net Costs With the Public                          $               35,400.2    $               24,228.3       $                  28,201.6
       Total Net Cost                                     $               44,053.3    $               36,294.8       $                  28,579.6

B. Operation and Maintenance

       Intragovernmental Gross Costs                      $                6,231.1    $               16,783.9       $                  15,259.7
       (Less: Intragovernmental Earned Revenue)                           (7,248.0)                   (2,605.0)                         (3,731.0)
       Intragovernmental Net Costs                        $               (1,016.9)   $               14,178.9       $                  11,528.7

       Gross Costs With the Public                                        48,460.4                    28,690.5                          27,571.6
       (Less: Earned Revenue From the Public)                               (600.1)                   (1,036.7)                            (525.2)
       Net Costs With the Public                          $               47,860.3    $               27,653.8       $                  27,046.4
       Total Net Cost                                     $               46,843.4    $               41,832.7       $                  38,575.1

C. Procurement

       Intragovernmental Gross Costs                      $               (1,424.4)   $                3,966.8       $                        2.7
       (Less: Intragovernmental Earned Revenue)                             (661.9)                     (886.6)                            (214.8)
       Intragovernmental Net Costs                        $               (2,086.3)   $                3,080.2       $                     (212.1)

       Gross Costs With the Public                                         7,133.2                    14,507.1                          35,414.0
       (Less: Earned Revenue From the Public)                                (57.5)                     (310.7)                             (13.2)
       Net Costs With the Public                          $                7,075.7    $               14,196.4       $                  35,400.8
       Total Net Cost                                     $                4,989.4    $               17,276.6       $                  35,188.7



              DoD Performance and Accountability Report           209                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                  Other Defense              Combined Total                    Elimination
                                                              Organizations General
                                                                     Funds
 Program Costs
A. Military Personnel

       Intragovernmental Gross Costs                                                    $              22,150.7        $                        0.0
       (Less: Intragovernmental Earned Revenue)                                                        (1,053.1)                                0.0
       Intragovernmental Net Costs                                                      $              21,097.6        $                        0.0

       Gross Costs With the Public                                                                     88,284.4                                 0.0
       (Less: Earned Revenue From the Public)                                                           (454.3)                                 0.0
       Net Costs With the Public                                                        $              87,830.1        $                        0.0
       Total Net Cost                                                                   $             108,927.7        $                        0.0

B. Operation and Maintenance

       Intragovernmental Gross Costs                      $                  12,627.8   $              50,902.5        $                    4,705.2
       (Less: Intragovernmental Earned Revenue)                             (2,037.1)                (15,621.1)                         (1,052.6)
       Intragovernmental Net Costs                        $                  10,590.7   $              35,281.4        $                    3,652.6

       Gross Costs With the Public                                           38,627.0                 143,349.5                                 0.0
       (Less: Earned Revenue From the Public)                                 (288.4)                  (2,450.4)                                0.0
       Net Costs With the Public                          $                  38,338.6   $             140,899.1        $                        0.0
       Total Net Cost                                     $                  48,929.3   $             176,180.5        $                    3,652.6

C. Procurement

       Intragovernmental Gross Costs                      $                    561.3    $               3,106.4        $                        0.0
       (Less: Intragovernmental Earned Revenue)                                (12.3)                  (1,775.6)                                0.0
       Intragovernmental Net Costs                        $                    549.0    $               1,330.8        $                        0.0

       Gross Costs With the Public                                            1,980.5                  59,034.8                                 0.0
       (Less: Earned Revenue From the Public)                                     1.1                   (380.3)                                 0.0
       Net Costs With the Public                          $                   1,981.6   $              58,654.5        $                        0.0
       Total Net Cost                                     $                   2,530.6   $              59,985.3        $                        0.0



              DoD Performance and Accountability Report             210                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                               2003 Consolidated           2002 Consolidated


 Program Costs
A. Military Personnel

       Intragovernmental Gross Costs                      $               22,150.7    $                   (0.2)
       (Less: Intragovernmental Earned Revenue)                           (1,053.1)                     (208.0)
       Intragovernmental Net Costs                        $               21,097.6    $                 (208.2)

       Gross Costs With the Public                                        88,284.4                    72,484.4
       (Less: Earned Revenue From the Public)                               (454.3)                     (155.6)
       Net Costs With the Public                          $               87,830.1    $               72,328.8
       Total Net Cost                                     $              108,927.7    $               72,120.6

B. Operation and Maintenance

       Intragovernmental Gross Costs                      $               46,197.3    $                 6,851.3
       (Less: Intragovernmental Earned Revenue)                          (14,568.5)                     (855.2)
       Intragovernmental Net Costs                        $               31,628.8    $                 5,996.2

       Gross Costs With the Public                                       143,349.5                    88,730.0
       (Less: Earned Revenue From the Public)                             (2,450.4)                   (2,971.2)
       Net Costs With the Public                          $              140,899.1    $               85,758.8
       Total Net Cost                                     $              172,527.9    $               91,755.0

C. Procurement

       Intragovernmental Gross Costs                      $                 3,106.4   $                       0.7
       (Less: Intragovernmental Earned Revenue)                           (1,775.6)                      (37.1)
       Intragovernmental Net Costs                        $                 1,330.8   $                  (36.5)

       Gross Costs With the Public                                        59,034.8                    50,736.1
       (Less: Earned Revenue From the Public)                               (380.3)                     (557.1)
       Net Costs With the Public                          $               58,654.5    $               50,179.0
       Total Net Cost                                     $               59,985.3    $               50,142.5



              DoD Performance and Accountability Report           211                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                               Army General Fund           Navy General Fund              Air Force General Fund


D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                      $                2,076.6    $                  993.9       $                      976.1
       (Less: Intragovernmental Earned Revenue)                           (2,524.6)                     (237.5)                         (2,356.1)
       Intragovernmental Net Costs                        $                 (448.0)   $                  756.4       $                  (1,380.0)

       Gross Costs With the Public                                         7,737.9                    11,418.6                          19,274.0
       (Less: Earned Revenue From the Public)                                (76.9)                       (4.1)                            (138.2)
       Net Costs With the Public                          $                7,661.0    $               11,414.5       $                  19,135.8
       Total Net Cost                                     $                7,213.0    $               12,170.9       $                  17,755.8

E. Military Construction/Family Housing

       Intragovernmental Gross Costs                      $                3,527.8    $                  204.4       $                      146.5
       (Less: Intragovernmental Earned Revenue)                           (2,117.7)                     (124.4)                               0.0
       Intragovernmental Net Costs                        $                1,410.1    $                   80.0       $                      146.5

       Gross Costs With the Public                                           301.5                     1,370.5                           1,240.9
       (Less: Earned Revenue From the Public)                               (181.7)                     (369.9)                               0.0
       Net Costs With the Public                          $                  119.8    $                1,000.6       $                   1,240.9
       Total Net Cost                                     $                1,529.9    $                1,080.6       $                   1,387.4

F. Military Retirement Fund

       Intragovernmental Gross Costs
       (Less: Intragovernmental Earned Revenue)
       Intragovernmental Net Costs

       Gross Costs With the Public
       (Less: Earned Revenue From the Public)
       Net Costs With the Public
       Total Net Cost




              DoD Performance and Accountability Report           212                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                           Military Retirement Fund           Other Defense              DoD Medicare-Eligible
                                                                                          Organizations General        Retiree Health Care Fund
                                                                                                 Funds
D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                                                  $                   2,766.5
       (Less: Intragovernmental Earned Revenue)                                                           (489.6)
       Intragovernmental Net Costs                                                    $                   2,276.9

       Gross Costs With the Public                                                                       11,645.6
       (Less: Earned Revenue From the Public)                                                                38.6
       Net Costs With the Public                                                      $                  11,684.2
       Total Net Cost                                                                 $                  13,961.1

E. Military Construction/Family Housing

       Intragovernmental Gross Costs                                                  $                    191.0
       (Less: Intragovernmental Earned Revenue)                                                             (0.2)
       Intragovernmental Net Costs                                                    $                    190.8

       Gross Costs With the Public                                                                         810.9
       (Less: Earned Revenue From the Public)                                                                 0.0
       Net Costs With the Public                                                      $                    810.9
       Total Net Cost                                                                 $                   1,001.7

F. Military Retirement Fund

       Intragovernmental Gross Costs                      $                     0.0                                    $                 1,272.1
       (Less: Intragovernmental Earned Revenue)                          (41,645.9)                                                    (22,765.6)
       Intragovernmental Net Costs                        $              (41,645.9)                                    $               (21,493.5)

       Gross Costs With the Public                                        44,545.9                                                      67,375.7
       (Less: Earned Revenue From the Public)                                   0.0                                                          0.0
       Net Costs With the Public                          $               44,545.9                                     $                67,375.7
       Total Net Cost                                     $                2,900.0                                     $                45,882.2




              DoD Performance and Accountability Report          213                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                               Combined Total             Elimination                    2003 Consolidated


D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                      $               6,813.1    $                     0.0      $                 6,813.1
       (Less: Intragovernmental Earned Revenue)                          (5,607.8)                         0.0                       (5,607.8)
       Intragovernmental Net Costs                        $               1,205.3    $                     0.0      $                 1,205.3

       Gross Costs With the Public                                       50,076.1                          0.0                       50,076.1
       (Less: Earned Revenue From the Public)                             (180.6)                          0.0                            (180.6)
       Net Costs With the Public                          $              49,895.5    $                     0.0      $                49,895.5
       Total Net Cost                                     $              51,100.8    $                     0.0      $                51,100.8

E. Military Construction/Family Housing

       Intragovernmental Gross Costs                      $               4,069.7    $                     0.0      $                 4,069.7
       (Less: Intragovernmental Earned Revenue)                          (2,242.3)                         0.0                       (2,242.3)
       Intragovernmental Net Costs                        $               1,827.4    $                     0.0      $                 1,827.4

       Gross Costs With the Public                                        3,723.8                          0.0                        3,723.8
       (Less: Earned Revenue From the Public)                             (551.6)                          0.0                            (551.6)
       Net Costs With the Public                          $               3,172.2    $                     0.0      $                 3,172.2
       Total Net Cost                                     $               4,999.6    $                     0.0      $                 4,999.6

F. Military Retirement Fund

       Intragovernmental Gross Costs                      $               1,272.1    $                 1,272.1      $                        0.0
       (Less: Intragovernmental Earned Revenue)                        (64,411.5)                (54,018.0)                         (10,393.5)
       Intragovernmental Net Costs                        $            (63,139.4)    $           (52,745.9)         $               (10,393.5)

       Gross Costs With the Public                                      111,921.6                          0.0                      111,921.6
       (Less: Earned Revenue From the Public)                                  0.0                         0.0                               0.0
       Net Costs With the Public                          $             111,921.6    $                     0.0      $               111,921.6
       Total Net Cost                                     $              48,782.2    $           (52,745.9)         $               101,528.1




              DoD Performance and Accountability Report          214                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                               2002 Consolidated


D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                      $                 (172.1)
       (Less: Intragovernmental Earned Revenue)                             (213.7)
       Intragovernmental Net Costs                        $                 (385.8)

       Gross Costs With the Public                                        44,051.7
       (Less: Earned Revenue From the Public)                               (531.1)
       Net Costs With the Public                          $               43,520.6
       Total Net Cost                                     $               43,134.8

E. Military Construction/Family Housing

       Intragovernmental Gross Costs                      $                       0.2
       (Less: Intragovernmental Earned Revenue)                              (15.1)
       Intragovernmental Net Costs                        $                  (14.9)

       Gross Costs With the Public                                          4,659.5
       (Less: Earned Revenue From the Public)                               (245.1)
       Net Costs With the Public                          $                 4,414.4
       Total Net Cost                                     $                 4,399.5

F. Military Retirement Fund

       Intragovernmental Gross Costs                      $                       0.0
       (Less: Intragovernmental Earned Revenue)                          (12,397.8)
       Intragovernmental Net Costs                        $              (12,397.8)

       Gross Costs With the Public                                        56,855.8
       (Less: Earned Revenue From the Public)                                     0.0
       Net Costs With the Public                          $               56,855.8
       Total Net Cost                                     $               44,458.0




              DoD Performance and Accountability Report           215                   Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army General Fund           Navy General Fund             Air Force General Fund


G. Civil Works

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost

H. Working Capital Funds

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost

I. Other

           Intragovernmental Gross Costs                    $               10,395.1    $                1,058.0      $                   9,741.4
           (Less: Intragovernmental Earned Revenue)                          6,674.8                       735.7                          2,657.8
           Intragovernmental Net Costs                      $               17,069.9    $                1,793.7      $                  12,399.2

           Gross Costs With the Public                                     (14,289.9)                      672.2                        (12,046.1)
           (Less: Earned Revenue From the Public)                               22.5                        83.2                            (12.2)
           Net Costs With the Public                        $              (14,267.4)   $                  755.4      $                 (12,058.3)
           Total Net Cost                                   $                2,802.5    $                2,549.1      $                     340.9




                DoD Performance and Accountability Report           216                                     Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army Working Capital          Navy Working Capital         Air Force Working Capital
                                                                      Fund                          Fund                             Fund

G. Civil Works

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost

H. Working Capital Funds

           Intragovernmental Gross Costs                    $                  2,651.5    $                  5,422.2       $                 5,448.3
           (Less: Intragovernmental Earned Revenue)                          (10,283.9)                    (21,871.9)                      (13,317.8)
           Intragovernmental Net Costs                      $                 (7,632.4)   $                (16,449.7)      $                (7,869.5)

           Gross Costs With the Public                                         7,334.0                      17,656.3                         8,224.8
           (Less: Earned Revenue From the Public)                               (222.1)                       (766.7)                            (393.9)
           Net Costs With the Public                        $                  7,111.9    $                 16,889.6       $                 7,830.9
           Total Net Cost                                   $                   (520.5)   $                    439.9       $                      (38.6)

I. Other

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost




                DoD Performance and Accountability Report             217                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 US Army Corps of               Other Defense                    Other Defense
                                                                   Engineers                Organizations General            Organizations Working
                                                                                                   Funds                         Capital Funds
G. Civil Works

           Intragovernmental Gross Costs                    $                  819.2
           (Less: Intragovernmental Earned Revenue)                         (1,011.8)
           Intragovernmental Net Costs                      $                (192.6)

           Gross Costs With the Public                                       9,467.0
           (Less: Earned Revenue From the Public)                            (298.6)
           Net Costs With the Public                        $                9,168.4
           Total Net Cost                                   $                8,975.8

H. Working Capital Funds

           Intragovernmental Gross Costs                                                                                 $                   3,475.1
           (Less: Intragovernmental Earned Revenue)                                                                                       (33,975.9)
           Intragovernmental Net Costs                                                                                   $                (30,500.8)

           Gross Costs With the Public                                                                                                     37,990.8
           (Less: Earned Revenue From the Public)                                                                                          (6,249.9)
           Net Costs With the Public                                                                                     $                 31,740.9
           Total Net Cost                                                                                                $                   1,240.1

I. Other

           Intragovernmental Gross Costs                                                $                  32,148.6
           (Less: Intragovernmental Earned Revenue)                                                          139.8
           Intragovernmental Net Costs                                                  $                  32,288.4

           Gross Costs With the Public                                                                     14,889.1
           (Less: Earned Revenue From the Public)                                                           (652.2)
           Net Costs With the Public                                                    $                  14,236.9
           Total Net Cost                                                               $                  46,525.3




                DoD Performance and Accountability Report           218                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Combined Total               Elimination                    2003 Consolidated


G. Civil Works

           Intragovernmental Gross Costs                    $                    819.2   $                   58.3       $                      760.9
           (Less: Intragovernmental Earned Revenue)                        (1,011.8)                       (530.7)                            (481.1)
           Intragovernmental Net Costs                      $               (192.6)      $                 (472.4)      $                      279.8

           Gross Costs With the Public                                      9,467.0                           0.0                         9,467.0
           (Less: Earned Revenue From the Public)                           (298.6)                           0.0                             (298.6)
           Net Costs With the Public                        $               9,168.4      $                    0.0       $                 9,168.4
           Total Net Cost                                   $               8,975.8      $                 (472.4)      $                 9,448.2

H. Working Capital Funds

           Intragovernmental Gross Costs                    $              16,997.1      $             13,836.7         $                 3,160.4
           (Less: Intragovernmental Earned Revenue)                      (79,449.5)                  (78,373.9)                          (1,075.6)
           Intragovernmental Net Costs                      $            (62,452.4)      $           (64,537.1)         $                 2,084.7

           Gross Costs With the Public                                     71,205.9                           0.0                        71,205.9
           (Less: Earned Revenue From the Public)                          (7,632.6)                          0.0                        (7,632.6)
           Net Costs With the Public                        $              63,573.3      $                    0.0       $                63,573.3
           Total Net Cost                                   $               1,120.9      $           (64,537.1)         $                65,658.0

I. Other

           Intragovernmental Gross Costs                    $              53,343.1      $            127,853.4         $               (74,510.3)
           (Less: Intragovernmental Earned Revenue)                        10,208.1                  (13,750.5)                          23,958.6
           Intragovernmental Net Costs                      $              63,551.2      $            114,102.9         $               (50,551.7)

           Gross Costs With the Public                                   (10,774.7)                           0.0                       (10,774.7)
           (Less: Earned Revenue From the Public)                           (558.7)                           0.0                             (558.7)
           Net Costs With the Public                        $            (11,333.4)      $                    0.0       $               (11,333.4)
           Total Net Cost                                   $              52,217.8      $            114,102.9         $               (61,885.1)




                DoD Performance and Accountability Report          219                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 2002 Consolidated


G. Civil Works

           Intragovernmental Gross Costs                    $                  731.3
           (Less: Intragovernmental Earned Revenue)                           (608.2)
           Intragovernmental Net Costs                      $                  123.1

           Gross Costs With the Public                                        6,314.8
           (Less: Earned Revenue From the Public)                             (121.7)
           Net Costs With the Public                        $                 6,193.1
           Total Net Cost                                   $                 6,316.2

H. Working Capital Funds

           Intragovernmental Gross Costs                    $                 3,054.6
           (Less: Intragovernmental Earned Revenue)                         (1,136.8)
           Intragovernmental Net Costs                      $                 1,917.8

           Gross Costs With the Public                                      61,919.2
           (Less: Earned Revenue From the Public)                           (8,004.6)
           Net Costs With the Public                        $               53,914.6
           Total Net Cost                                   $               55,832.4

I. Other

           Intragovernmental Gross Costs                    $                  248.2
           (Less: Intragovernmental Earned Revenue)                           (114.9)
           Intragovernmental Net Costs                      $                  133.3

           Gross Costs With the Public                                      13,205.3
           (Less: Earned Revenue From the Public)                           (1,290.3)
           Net Costs With the Public                        $               11,915.0
           Total Net Cost                                   $               12,048.3




                DoD Performance and Accountability Report           220                 Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                              Army General Fund             Navy General Fund              Air Force General Fund


J. Total Program Costs

       Intragovernmental Gross Costs                     $               30,100.9      $               35,142.6       $                  26,846.8
       (Less: Intragovernmental Earned Revenue)                          (6,519.0)                     (3,186.9)                         (3,986.5)
       Intragovernmental Net Costs                       $               23,581.9      $               31,955.7       $                  22,860.3

       Gross Costs With the Public                                       84,768.8                      81,168.7                          99,803.3
       (Less: Earned Revenue From the Public)                              (919.2)                     (1,919.7)                            (836.1)
       Net Costs With the Public                         $               83,849.6      $               79,249.0       $                  98,967.2
       Total Net Cost                                    $              107,431.5      $              111,204.7       $                 121,827.5

 Cost Not Assigned to Programs                                                   0.0                           0.0                             0.0
 (Less:Earned Revenue Not Attributable to Programs)                              0.0                           0.0                             0.0
 Net Cost of Operations                                  $              107,431.5      $              111,204.7       $                 121,827.5




             DoD Performance and Accountability Report           221                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                              Army Working Capital          Navy Working Capital         Air Force Working Capital
                                                                   Fund                          Fund                             Fund

J. Total Program Costs

       Intragovernmental Gross Costs                     $                  2,651.5    $                  5,422.2       $                 5,448.3
       (Less: Intragovernmental Earned Revenue)                           (10,283.9)                    (21,871.9)                      (13,317.8)
       Intragovernmental Net Costs                       $                 (7,632.4)   $                (16,449.7)      $                (7,869.5)

       Gross Costs With the Public                                          7,334.0                      17,656.3                         8,224.8
       (Less: Earned Revenue From the Public)                                (222.1)                       (766.7)                            (393.9)
       Net Costs With the Public                         $                  7,111.9    $                 16,889.6       $                 7,830.9
       Total Net Cost                                    $                   (520.5)   $                    439.9       $                      (38.6)

 Cost Not Assigned to Programs                                                  0.0                           0.0                                0.0
 (Less:Earned Revenue Not Attributable to Programs)                             0.0                           0.0                                0.0
 Net Cost of Operations                                  $                   (520.5)   $                    439.9       $                      (38.6)




             DoD Performance and Accountability Report             222                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                          Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                            Engineers                     Organizations General
                                                                                                                                 Funds
J. Total Program Costs

       Intragovernmental Gross Costs                     $                     0.0   $                  819.2         $                  48,295.2
       (Less: Intragovernmental Earned Revenue)                         (41,645.9)                   (1,011.8)                          (2,399.4)
       Intragovernmental Net Costs                       $              (41,645.9)   $                (192.6)         $                  45,895.8

       Gross Costs With the Public                                       44,545.9                     9,467.0                            67,953.1
       (Less: Earned Revenue From the Public)                                  0.0                    (298.6)                               (900.9)
       Net Costs With the Public                         $               44,545.9    $                9,168.4         $                  67,052.2
       Total Net Cost                                    $                2,900.0    $                8,975.8         $                112,948.0

 Cost Not Assigned to Programs                                                 0.0                          0.0                                0.0
 (Less:Earned Revenue Not Attributable to Programs)                            0.0                          0.0                                0.0
 Net Cost of Operations                                  $                2,900.0    $                8,975.8         $                112,948.0




             DoD Performance and Accountability Report          223                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Other Defense           DoD Medicare-Eligible             Combined Total
                                                             Organizations Working     Retiree Health Care Fund
                                                                 Capital Funds
J. Total Program Costs

       Intragovernmental Gross Costs                     $                   3,475.1   $                1,272.1       $               159,473.9
       (Less: Intragovernmental Earned Revenue)                           (33,975.9)                  (22,765.6)                    (160,964.6)
       Intragovernmental Net Costs                       $                (30,500.8)   $              (21,493.5)      $                (1,490.7)

       Gross Costs With the Public                                         37,990.8                    67,375.7                       526,288.4
       (Less: Earned Revenue From the Public)                              (6,249.9)                        0.0                       (12,507.1)
       Net Costs With the Public                         $                 31,740.9    $               67,375.7       $               513,781.3
       Total Net Cost                                    $                   1,240.1   $               45,882.2       $               512,290.6

 Cost Not Assigned to Programs                                                   0.0                        0.0                             0.0
 (Less:Earned Revenue Not Attributable to Programs)                              0.0                        0.0                             0.0
 Net Cost of Operations                                  $                   1,240.1   $               45,882.2       $               512,290.6




             DoD Performance and Accountability Report             224                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2003 and 2002
($ in Millions)                                              Elimination              2003 Consolidated                 2002 Consolidated


J. Total Program Costs

       Intragovernmental Gross Costs                     $            147,725.6   $               11,748.3          $                10,714.1
       (Less: Intragovernmental Earned Revenue)                     (147,725.6)                  (13,239.0)                         (15,586.8)
       Intragovernmental Net Costs                       $                  0.0   $               (1,490.7)         $                (4,872.7)

       Gross Costs With the Public                                          0.0                  526,288.4                          398,956.8
       (Less: Earned Revenue From the Public)                               0.0                  (12,507.1)                         (13,876.7)
       Net Costs With the Public                         $                  0.0   $              513,781.3          $               385,080.1
       Total Net Cost                                    $                  0.0   $              512,290.6          $               380,207.4

 Cost Not Assigned to Programs                                              0.0                           0.0                               0.0
 (Less:Earned Revenue Not Attributable to Programs)                         0.0                           0.0                               0.0
 Net Cost of Operations                                  $                  0.0   $              512,290.6          $               380,207.4




             DoD Performance and Accountability Report        225                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                         Army General Fund             Navy General Fund             Air Force General Fund


CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                               $                5,790.8      $               44,169.7      $                  47,443.2
2. Prior period adjustments (+/-)                                                   97,897.6                     152,557.3                        122,475.1
3. Beginning Balances, as adjusted                                                 103,688.4                     196,727.0                        169,918.3

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                          0.0                           0.0                            0.0
      4.B. Appropriations transferred-in/out (+/-)                                          0.0                           0.0                            0.0
      4.C. Other adjustments (rescissions, etc) (+/-)                                       0.0                           0.0                            0.0
      4.D. Appropriations used                                                     106,904.9                     136,481.5                        113,384.1
      4.E. Nonexchange revenue                                                              0.1                           0.0                            0.0
      4.F. Donations and forfeitures of cash and cash equivalents                       15.0                              0.0                            9.1
     4.G. Transfers-in/out without reimbursement (+/-)                                 479.2                              0.0                            0.0
     4.H. Other budgetary financing sources (+/-)                                   (3,636.6)                             0.0                         (678.8)

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                            0.0                           0.0                            0.0
      5.B. Transfers-in/out without reimbursement (+/-)                               (321.4)                         51.8                            (110.7)
      5.C. Imputed financing from costs absorbed by others                             818.5                         509.7                             633.0
      5.D. Other (+/-)                                                                 115.1                              0.0                            0.0
6.   Total Financing Sources                                                       104,374.8                     137,043.0                        113,236.7

7.   Net Cost of Operations (+/-)                                                  107,431.5                     111,204.7                        121,827.5

8.   Ending Balances                                                $              100,631.7      $              222,565.3      $                 161,327.5




               DoD Performance and Accountability Report                    226                                       Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                         Army Working Capital          Navy Working Capital        Air Force Working Capital
                                                                              Fund                          Fund                            Fund

CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                               $                 11,913.1    $                 18,006.7      $                11,593.9
2. Prior period adjustments (+/-)                                                          0.0                           0.0                             (55.1)
3. Beginning Balances, as adjusted                                                    11,913.1                      18,006.7                       11,538.8

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                         0.0                           0.0                               0.0
      4.B. Appropriations transferred-in/out (+/-)                                         0.0                           0.0                               0.0
      4.C. Other adjustments (rescissions, etc) (+/-)                                      0.0                           0.0                               0.0
      4.D. Appropriations used                                                           267.1                          40.2                              24.0
      4.E. Nonexchange revenue                                                             0.0                           0.0                               0.0
      4.F. Donations and forfeitures of cash and cash equivalents                          0.0                           0.0                               0.0
     4.G. Transfers-in/out without reimbursement (+/-)                                     0.0                           0.0                               0.0
     4.H. Other budgetary financing sources (+/-)                                        (63.9)                          0.0                               0.0

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                           0.0                           0.0                               0.0
      5.B. Transfers-in/out without reimbursement (+/-)                                  908.6                         (13.5)                           (209.3)
      5.C. Imputed financing from costs absorbed by others                               121.3                         543.4                             145.2
      5.D. Other (+/-)                                                                   217.1                           0.0                               0.0
6.   Total Financing Sources                                                           1,450.2                         570.1                             (40.1)

7.   Net Cost of Operations (+/-)                                                      (520.5)                         439.9                             (38.6)

8.   Ending Balances                                                $                 13,883.8    $                 18,136.9      $                11,537.3




               DoD Performance and Accountability Report                      227                                       Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                     Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                                       Engineers                     Organizations General
                                                                                                                                            Funds
CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                               $             (553,516.7)   $               39,695.1         $               (587,812.2)
2. Prior period adjustments (+/-)                                                         0.0                   (2,669.5)                           13,072.9
3. Beginning Balances, as adjusted                                                (553,516.7)                   37,025.6                         (574,739.3)

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                        0.0                          0.0                               0.0
      4.B. Appropriations transferred-in/out (+/-)                                        0.0                          0.0                               0.0
      4.C. Other adjustments (rescissions, etc) (+/-)                                     0.0                          0.0                             (13.0)
      4.D. Appropriations used                                                            0.0                    4,323.7                            93,770.9
      4.E. Nonexchange revenue                                                            0.0                      931.2                                (0.1)
      4.F. Donations and forfeitures of cash and cash equivalents                         0.0                          0.0                               0.3
     4.G. Transfers-in/out without reimbursement (+/-)                                    0.0                      863.2                                (7.2)
     4.H. Other budgetary financing sources (+/-)                                         0.0                      (32.5)                            1,382.7

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                          0.0                          4.6                               0.0
      5.B. Transfers-in/out without reimbursement (+/-)                                   0.0                      (56.3)                         405,020.7
      5.C. Imputed financing from costs absorbed by others                                0.0                      225.1                               560.3
      5.D. Other (+/-)                                                                    0.0                      (19.4)                               (4.7)
6.   Total Financing Sources                                                              0.0                    6,239.6                          500,709.9

7.   Net Cost of Operations (+/-)                                                    2,900.0                     8,975.8                          112,948.0

8.   Ending Balances                                                $             (556,416.7)   $               34,289.4         $               (186,977.4)




               DoD Performance and Accountability Report                   228                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                            Other Defense           DoD Medicare-Eligible             Combined Total
                                                                        Organizations Working     Retiree Health Care Fund
                                                                            Capital Funds
CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                               $                 15,768.7    $                    0.0       $             (946,947.7)
2. Prior period adjustments (+/-)                                                           5.5                        0.0                       383,283.8
3. Beginning Balances, as adjusted                                                    15,774.2                         0.0                     (563,663.9)

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                          0.0                        0.0                               0.0
      4.B. Appropriations transferred-in/out (+/-)                                          0.0                        0.0                               0.0
      4.C. Other adjustments (rescissions, etc) (+/-)                                       0.0                        0.0                             (13.0)
      4.D. Appropriations used                                                          2,265.4                        0.0                       457,461.9
      4.E. Nonexchange revenue                                                              0.0                        0.0                             931.2
      4.F. Donations and forfeitures of cash and cash equivalents                           0.0                        0.0                              24.4
     4.G. Transfers-in/out without reimbursement (+/-)                                    (6.0)                        0.0                         1,329.2
     4.H. Other budgetary financing sources (+/-)                                        161.7                         0.0                        (2,867.4)

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                            0.0                        0.0                               4.6
      5.B. Transfers-in/out without reimbursement (+/-)                                  226.8                 (412,198.8)                        (6,702.1)
      5.C. Imputed financing from costs absorbed by others                               310.4                         0.0                         3,866.9
      5.D. Other (+/-)                                                                      0.0                        0.0                             308.1
6.   Total Financing Sources                                                            2,958.3                (412,198.8)                       454,343.8

7.   Net Cost of Operations (+/-)                                                       1,240.1                   45,882.2                       512,290.6

8.   Ending Balances                                                $                 17,492.4    $            (458,081.0)       $             (621,610.7)




               DoD Performance and Accountability Report                      229                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                         Elimination             2003 Consolidated                 2002 Consolidated


CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                               $                 0.0   $             (946,947.7)         $             (874,049.9)
2. Prior period adjustments (+/-)                                                     0.0                  383,283.8                          (61,760.0)
3. Beginning Balances, as adjusted                                                    0.0                 (563,663.9)                       (935,809.9)

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                    0.0                           0.0                                0.0
      4.B. Appropriations transferred-in/out (+/-)                                    0.0                           0.0                                0.0
      4.C. Other adjustments (rescissions, etc) (+/-)                                 0.0                      (13.0)                                  0.0
      4.D. Appropriations used                                                        0.0                  457,461.9                          361,217.8
      4.E. Nonexchange revenue                                                        0.0                      931.2                            1,236.5
      4.F. Donations and forfeitures of cash and cash equivalents                     0.0                       24.4                                  24.1
     4.G. Transfers-in/out without reimbursement (+/-)                                0.0                     1,329.2                               (706.7)
     4.H. Other budgetary financing sources (+/-)                                     0.0                   (2,867.4)                           3,225.5

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                      0.0                           4.6                                0.3
      5.B. Transfers-in/out without reimbursement (+/-)                               0.0                   (6,702.1)                                744.3
      5.C. Imputed financing from costs absorbed by others                            0.0                     3,866.9                           3,520.0
      5.D. Other (+/-)                                                                0.0                      308.1                                  16.7
6.   Total Financing Sources                                                          0.0                  454,343.8                          369,278.5

7.   Net Cost of Operations (+/-)                                                     0.0                  512,290.6                          380,207.4

8.   Ending Balances                                                $                 0.0   $             (621,610.7)         $             (946,738.8)




               DoD Performance and Accountability Report                 230                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                         Army General Fund             Navy General Fund              Air Force General Fund


UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                               $               31,468.7      $               64,774.3       $                  39,543.8
2. Prior period adjustments (+/-)                                                           0.0                           0.0                            0.0
3. Beginning Balances, as adjusted                                                  31,468.7                      64,774.3                          39,543.8

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                 117,668.0                     122,132.7                         124,225.9
      4.B. Appropriations transferred-in/out (+/-)                                   6,042.7                       1,810.3                           2,179.8
      4.C. Other adjustments (rescissions, etc) (+/-)                                 (599.8)                     (1,454.6)                         (1,823.1)
      4.D. Appropriations used                                                    (106,904.9)                   (136,481.5)                      (113,384.1)
      4.E. Nonexchange revenue                                                              0.0                           0.0                            0.0
      4.F. Donations and forfeitures of cash and cash equivalents                           0.0                           0.0                            0.0
     4.G. Transfers-in/out without reimbursement (+/-)                                      0.0                           0.0                            0.0
     4.H. Other budgetary financing sources (+/-)                                           0.0                           0.0                            0.0

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                            0.0                           0.0                            0.0
      5.B. Transfers-in/out without reimbursement (+/-)                                     0.0                           0.0                            0.0
      5.C. Imputed financing from costs absorbed by others                                  0.0                           0.0                            0.0
      5.D. Other (+/-)                                                                      0.0                           0.0                            0.0
6.   Total Financing Sources                                                        16,206.0                     (13,993.1)                         11,198.5

7.   Net Cost of Operations (+/-)                                                           0.0                           0.0                            0.0

8.   Ending Balances                                                $               47,674.7      $               50,781.2       $                  50,742.3




               DoD Performance and Accountability Report                    231                                        Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                         Army Working Capital          Navy Working Capital        Air Force Working Capital
                                                                              Fund                          Fund                            Fund

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                               $                     30.0    $                      0.0      $                       0.0
2. Prior period adjustments (+/-)                                                          0.0                           0.0                              0.0
3. Beginning Balances, as adjusted                                                        30.0                           0.0                              0.0

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                       249.0                          40.2                             24.0
      4.B. Appropriations transferred-in/out (+/-)                                         0.0                           0.0                              0.0
      4.C. Other adjustments (rescissions, etc) (+/-)                                      0.0                           0.0                              0.0
      4.D. Appropriations used                                                         (267.1)                         (40.2)                           (24.0)
      4.E. Nonexchange revenue                                                             0.0                           0.0                              0.0
      4.F. Donations and forfeitures of cash and cash equivalents                          0.0                           0.0                              0.0
     4.G. Transfers-in/out without reimbursement (+/-)                                     0.0                           0.0                              0.0
     4.H. Other budgetary financing sources (+/-)                                          0.0                           0.0                              0.0

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                           0.0                           0.0                              0.0
      5.B. Transfers-in/out without reimbursement (+/-)                                    0.0                           0.0                              0.0
      5.C. Imputed financing from costs absorbed by others                                 0.0                           0.0                              0.0
      5.D. Other (+/-)                                                                     0.0                           0.0                              0.0
6.   Total Financing Sources                                                             (18.1)                          0.0                              0.0

7.   Net Cost of Operations (+/-)                                                          0.0                           0.0                              0.0

8.   Ending Balances                                                $                     11.9    $                      0.0      $                       0.0




               DoD Performance and Accountability Report                      232                                       Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                     Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                                       Engineers                     Organizations General
                                                                                                                                            Funds
UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                               $                     0.0   $                1,064.9         $                  40,441.2
2. Prior period adjustments (+/-)                                                         0.0                          0.0                                0.0
3. Beginning Balances, as adjusted                                                        0.0                    1,064.9                            40,441.2

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                        0.0                    4,027.1                          107,346.6
      4.B. Appropriations transferred-in/out (+/-)                                        0.0                      196.1                           (9,856.0)
      4.C. Other adjustments (rescissions, etc) (+/-)                                     0.0                    (344.4)                               (915.2)
      4.D. Appropriations used                                                            0.0                   (4,306.8)                         (93,770.9)
      4.E. Nonexchange revenue                                                            0.0                          0.0                                0.0
      4.F. Donations and forfeitures of cash and cash equivalents                         0.0                          0.0                                0.0
     4.G. Transfers-in/out without reimbursement (+/-)                                    0.0                          0.0                                0.0
     4.H. Other budgetary financing sources (+/-)                                         0.0                          0.0                                0.0

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                          0.0                          0.0                                0.0
      5.B. Transfers-in/out without reimbursement (+/-)                                   0.0                          0.0                                0.0
      5.C. Imputed financing from costs absorbed by others                                0.0                          0.0                                0.0
      5.D. Other (+/-)                                                                    0.0                          0.0                                0.0
6.   Total Financing Sources                                                              0.0                    (428.0)                             2,804.5

7.   Net Cost of Operations (+/-)                                                         0.0                          0.0                                0.0

8.   Ending Balances                                                $                     0.0   $                  636.9         $                  43,245.7




               DoD Performance and Accountability Report                   233                                         Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                            Other Defense           DoD Medicare-Eligible             Combined Total
                                                                        Organizations Working     Retiree Health Care Fund
                                                                            Capital Funds
UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                               $                    (40.3)   $                    0.0       $               177,282.6
2. Prior period adjustments (+/-)                                                           0.0                        0.0                             0.0
3. Beginning Balances, as adjusted                                                       (40.3)                        0.0                       177,282.6

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                      1,323.2                        0.0                       477,036.7
      4.B. Appropriations transferred-in/out (+/-)                                       844.9                         0.0                         1,217.8
      4.C. Other adjustments (rescissions, etc) (+/-)                                       0.0                        0.0                        (5,137.1)
      4.D. Appropriations used                                                        (2,264.7)                        0.0                     (457,444.2)
      4.E. Nonexchange revenue                                                              0.0                        0.0                             0.0
      4.F. Donations and forfeitures of cash and cash equivalents                           0.0                        0.0                             0.0
     4.G. Transfers-in/out without reimbursement (+/-)                                      0.0                        0.0                             0.0
     4.H. Other budgetary financing sources (+/-)                                           0.0                        0.0                             0.0

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                            0.0                        0.0                             0.0
      5.B. Transfers-in/out without reimbursement (+/-)                                     0.0                        0.0                             0.0
      5.C. Imputed financing from costs absorbed by others                                  0.0                        0.0                             0.0
      5.D. Other (+/-)                                                                      0.0                        0.0                             0.0
6.   Total Financing Sources                                                             (96.6)                        0.0                        15,673.2

7.   Net Cost of Operations (+/-)                                                           0.0                        0.0                             0.0

8.   Ending Balances                                                $                   (136.9)   $                    0.0       $               192,955.8




               DoD Performance and Accountability Report                      234                                      Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                         Elimination             2003 Consolidated                 2002 Consolidated


UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                               $                 0.0   $              177,282.6          $               163,190.6
2. Prior period adjustments (+/-)                                                     0.0                           0.0                         1,553.3
3. Beginning Balances, as adjusted                                                    0.0                  177,282.6                          164,743.9

4. Budgetary Financing Sources:

      4.A. Appropriations received                                                    0.0                  477,036.7                          365,636.4
      4.B. Appropriations transferred-in/out (+/-)                                    0.0                     1,217.8                           9,389.2
      4.C. Other adjustments (rescissions, etc) (+/-)                                 0.0                   (5,137.1)                          (2,707.4)
      4.D. Appropriations used                                                        0.0                 (457,444.2)                       (359,779.5)
      4.E. Nonexchange revenue                                                        0.0                           0.0                               0.0
      4.F. Donations and forfeitures of cash and cash equivalents                     0.0                           0.0                               0.0
     4.G. Transfers-in/out without reimbursement (+/-)                                0.0                           0.0                               0.0
     4.H. Other budgetary financing sources (+/-)                                     0.0                           0.0                               0.0

5. Other Financing Sources:

      5.A. Donations and forfeitures of property                                      0.0                           0.0                               0.0
      5.B. Transfers-in/out without reimbursement (+/-)                               0.0                           0.0                               0.0
      5.C. Imputed financing from costs absorbed by others                            0.0                           0.0                               0.0
      5.D. Other (+/-)                                                                0.0                           0.0                               0.0
6.   Total Financing Sources                                                          0.0                   15,673.2                           12,538.7

7.   Net Cost of Operations (+/-)                                                     0.0                           0.0                               0.0

8.   Ending Balances                                                $                 0.0   $              192,955.8          $               177,282.6




               DoD Performance and Accountability Report                 235                                        Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army General Fund             Navy General Fund              Air Force General Fund


BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $              117,695.5      $              122,169.4       $                 124,235.7
   1b. Borrowing authority                                                          0.0                           0.0                             0.0
   1c. Contract authority                                                           0.0                           0.7                             0.0
   1d. Net transfers (+/-)                                                   5,307.4                       1,662.1                           1,888.2
   1e. Other                                                                        0.0                           0.0                             0.0
2. Unobligated balance:

   2a. Beginning of period                                                   5,858.3                      11,909.1                           6,066.5
   2b. Net transfers, actual (+/-)                                           1,214.5                         145.5                              291.6
   2c. Anticipated Transfers balances                                               0.0                           0.0                             0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                       0.0                           0.0                             0.0
      1. Collected                                                          14,095.7                       6,792.6                           7,802.5
      2. Receivable from Federal sources                                        13.0                      (1,211.5)                            (322.9)
   3b. Change in unfilled customer orders                                           0.0                           0.0                             0.0
      1. Advance received                                                      119.3                         (59.8)                             213.5
      2. Without advance from Federal sources                                3,655.3                         308.3                              472.2
   3c. Anticipated for the rest of year, without advances                           0.0                           0.0                             0.0
   3d. Transfers from trust funds                                                   0.0                           0.0                             0.0
   3e. Subtotal                                                             17,883.3                       5,829.6                           8,165.3
4. Recoveries of prior year obligations                                      8,001.4                       7,009.3                           1,956.0
5. Temporarily not available pursuant to Public Law                                 0.0                           0.0                             0.0
6. Permanently not available                                                (1,304.6)                     (1,452.6)                         (1,806.4)
7. Total Budgetary Resources                                $              154,655.8      $              147,273.1       $                 140,796.9


               DoD Performance and Accountability Report            236                                        Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army Working Capital         Navy Working Capital         Air Force Working Capital
                                                                      Fund                         Fund                             Fund

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                    249.0   $                     40.2       $                       24.0
   1b. Borrowing authority                                                         0.0                          0.0                                0.0
   1c. Contract authority                                                         67.6                        558.1                              (35.6)
   1d. Net transfers (+/-)                                                         0.0                          0.0                                0.0
   1e. Other                                                                       0.0                          0.0                                0.0
2. Unobligated balance:

   2a. Beginning of period                                                     1,708.1                      4,117.3                              305.8
   2b. Net transfers, actual (+/-)                                                 0.0                        (30.2)                            (125.0)
   2c. Anticipated Transfers balances                                              0.0                          0.0                                0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                      0.0                          0.0                                0.0
      1. Collected                                                             9,644.3                     25,585.5                        17,643.3
      2. Receivable from Federal sources                                         236.2                       (432.2)                              83.8
   3b. Change in unfilled customer orders                                          0.0                          0.0                                0.0
      1. Advance received                                                      (179.2)                        178.2                             (371.9)
      2. Without advance from Federal sources                                  2,351.2                      1,964.2                              200.6
   3c. Anticipated for the rest of year, without advances                          0.0                          0.0                                0.0
   3d. Transfers from trust funds                                                  0.0                          0.0                                0.0
   3e. Subtotal                                                               12,052.5                     27,295.7                        17,555.8
4. Recoveries of prior year obligations                                          588.0                          0.0                                2.0
5. Temporarily not available pursuant to Public Law                                0.0                          0.0                                0.0
6. Permanently not available                                                       0.0                       (204.1)                            (119.5)
7. Total Budgetary Resources                                $                 14,665.2   $                 31,777.0       $                17,607.5


               DoD Performance and Accountability Report              237                                       Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                             Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                               Engineers                     Organizations General
                                                                                                                                    Funds
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $               42,155.4    $                7,652.9         $                108,450.5
   1b. Borrowing authority                                                        0.0                          0.0                                0.0
   1c. Contract authority                                                         0.0                          0.0                              482.3
   1d. Net transfers (+/-)                                                        0.0                      161.0                           (8,863.3)
   1e. Other                                                                      0.0                          0.0                                0.0
2. Unobligated balance:

   2a. Beginning of period                                                 169,269.2                     1,741.0                            13,020.3
   2b. Net transfers, actual (+/-)                                                0.0                          0.0                         (1,417.1)
   2c. Anticipated Transfers balances                                             0.0                          0.0                                0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                     0.0                          0.0                                0.0
      1. Collected                                                                0.0                    5,065.6                             5,029.1
      2. Receivable from Federal sources                                          0.0                     (74.8)                                133.8
   3b. Change in unfilled customer orders                                         0.0                          0.0                                0.0
      1. Advance received                                                         0.0                     (16.3)                                (62.4)
      2. Without advance from Federal sources                                     0.0                      262.1                                326.0
   3c. Anticipated for the rest of year, without advances                         0.0                          0.0                                0.0
   3d. Transfers from trust funds                                                 0.0                          0.0                                0.0
   3e. Subtotal                                                                   0.0                    5,236.6                             5,426.5
4. Recoveries of prior year obligations                                           0.0                          0.0                           5,263.3
5. Temporarily not available pursuant to Public Law                               0.0                          0.0                                0.0
6. Permanently not available                                                      0.0                      (8.7)                               (949.0)
7. Total Budgetary Resources                                $              211,424.6    $               14,782.8         $                121,413.5


               DoD Performance and Accountability Report           238                                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                    Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                Organizations Working     Retiree Health Care Fund
                                                                    Capital Funds
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                   1,323.2   $               22,765.6       $               546,761.4
   1b. Borrowing authority                                                          0.0                        0.0                                0.0
   1c. Contract authority                                                     27,035.9                         0.0                        28,109.0
   1d. Net transfers (+/-)                                                       844.9                         0.0                         1,000.3
   1e. Other                                                                        0.0                        0.0                                0.0
2. Unobligated balance:

   2a. Beginning of period                                                      3,726.7                        0.0                       217,722.3
   2b. Net transfers, actual (+/-)                                               125.0                         0.0                              204.3
   2c. Anticipated Transfers balances                                               0.0                        0.0                                0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                       0.0                        0.0                                0.0
      1. Collected                                                            43,928.6                         0.0                       135,587.2
      2. Receivable from Federal sources                                         860.0                         0.0                             (714.6)
   3b. Change in unfilled customer orders                                           0.0                        0.0                                0.0
      1. Advance received                                                        148.0                         0.0                              (30.6)
      2. Without advance from Federal sources                                   1,461.0                        0.0                        11,000.9
   3c. Anticipated for the rest of year, without advances                           0.0                        0.0                                0.0
   3d. Transfers from trust funds                                                   0.0                        0.0                                0.0
   3e. Subtotal                                                               46,397.6                         0.0                       145,842.9
4. Recoveries of prior year obligations                                            21.9                        0.0                        22,841.9
5. Temporarily not available pursuant to Public Law                                 0.0                        0.0                                0.0
6. Permanently not available                                                 (27,885.5)                        0.0                       (33,730.4)
7. Total Budgetary Resources                                $                 51,589.7    $               22,765.6       $               928,751.7


               DoD Performance and Accountability Report              239                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 2002 Combined


BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $            415,113.9
   1b. Borrowing authority                                                        0.0
   1c. Contract authority                                                  2,318.0
   1d. Net transfers (+/-)                                                      986.6
   1e. Other                                                                      0.0
2. Unobligated balance:

   2a. Beginning of period                                               210,128.9
   2b. Net transfers, actual (+/-)                                         9,107.7
   2c. Anticipated Transfers balances                                             0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                     0.0
      1. Collected                                                       117,942.4
      2. Receivable from Federal sources                                  (1,116.6)
   3b. Change in unfilled customer orders                                         0.0
      1. Advance received                                                       185.9
      2. Without advance from Federal sources                              3,576.2
   3c. Anticipated for the rest of year, without advances                         0.0
   3d. Transfers from trust funds                                                 0.0
   3e. Subtotal                                                          120,587.9
4. Recoveries of prior year obligations                                   15,293.1
5. Temporarily not available pursuant to Public Law                               0.0
6. Permanently not available                                              (7,954.7)
7. Total Budgetary Resources                                $            765,581.4


               DoD Performance and Accountability Report           240                  Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army General Fund             Navy General Fund              Air Force General Fund


STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $              128,012.4      $              124,497.9       $                 123,375.6
   8b. Reimbursable                                                         18,430.4                       8,079.9                           8,231.4
   8c. Subtotal                                                            146,442.8                     132,577.8                         131,607.0
9. Unobligated balance:
   9a. Apportioned                                                           6,947.1                      13,697.0                           8,320.6
   9b. Exempt from apportionment                                                25.7                              0.0                             2.6
   9c. Other available                                                              0.0                           0.1                            (0.1)
10. Unobligated Balances Not Available                                       1,240.2                         998.2                              866.8
11. Total, Status of Budgetary Resources                    $              154,655.8      $              147,273.1       $                 140,796.9

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

12. Obligated Balance, Net - beginning of period            $               33,662.3      $               56,100.2       $                  41,822.2
13. Obligated Balance transferred, net (+/-)                                        0.0                           0.0                             0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                 (1,480.7)                       (897.8)                         (1,159.0)
   14b. Unfilled customer order from Federal sources                       (10,816.3)                     (2,335.5)                            (937.4)
   14c. Undelivered orders                                                  44,735.9                      63,419.0                          42,168.6
   14d. Accounts payable                                                    14,044.0                       3,335.2                          10,469.4
15. Outlays:
   15a. Disbursements                                                      121,952.5                     119,051.0                         120,782.4
   15b. Collections                                                        (14,215.1)                     (6,732.7)                         (8,016.0)
   15c. Subtotal                                                           107,737.4                     112,318.3                         112,766.4
16. Less: Offsetting receipts                                                  (95.6)                       (246.8)                            (156.7)
17. Net Outlays                                             $              107,641.8      $              112,071.5       $                 112,609.7




                DoD Performance and Accountability Report           241                                        Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army Working Capital          Navy Working Capital         Air Force Working Capital
                                                                      Fund                          Fund                             Fund

STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                    249.0    $                      0.0       $                       24.0
   8b. Reimbursable                                                           12,322.5                      27,263.6                        16,976.4
   8c. Subtotal                                                               12,571.5                      27,263.6                        17,000.4
9. Unobligated balance:
   9a. Apportioned                                                             2,093.7                       4,632.1                              607.1
   9b. Exempt from apportionment                                                   0.0                           0.0                                0.0
   9c. Other available                                                             0.0                           0.1                                0.0
10. Unobligated Balances Not Available                                             0.0                        (118.8)                               0.0
11. Total, Status of Budgetary Resources                    $                 14,665.2    $                 31,777.0       $                17,607.5

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

12. Obligated Balance, Net - beginning of period            $                    918.7    $                  2,985.8       $                 3,504.2
13. Obligated Balance transferred, net (+/-)                                       0.0                           0.0                                0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                    (516.4)                        (341.1)                       (1,145.2)
   14b. Unfilled customer order from Federal sources                          (4,651.6)                     (8,756.1)                       (3,999.4)
   14c. Undelivered orders                                                     6,085.1                       7,998.4                         6,166.7
   14d. Accounts payable                                                         981.3                       4,372.9                         2,295.2
15. Outlays:
   15a. Disbursements                                                          8,416.6                      25,443.3                        16,900.8
   15b. Collections                                                           (9,465.1)                    (25,763.8)                      (17,271.4)
   15c. Subtotal                                                              (1,048.5)                       (320.5)                            (370.6)
16. Less: Offsetting receipts                                                      0.0                           0.0                                0.0
17. Net Outlays                                             $                 (1,048.5)   $                   (320.5)      $                     (370.6)




                DoD Performance and Accountability Report             242                                        Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                             Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                               Engineers                     Organizations General
                                                                                                                                    Funds
STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $               35,395.7    $                5,516.4         $                  99,832.8
   8b. Reimbursable                                                               0.0                    5,033.7                             3,916.7
   8c. Subtotal                                                             35,395.7                    10,550.1                          103,749.5
9. Unobligated balance:
   9a. Apportioned                                                                0.0                    1,387.8                            13,936.9
   9b. Exempt from apportionment                                           176,028.9                     2,844.9                             1,802.2
   9c. Other available                                                            0.0                          0.0                               (0.2)
10. Unobligated Balances Not Available                                            0.0                          0.0                           1,925.1
11. Total, Status of Budgetary Resources                    $              211,424.6    $               14,782.8         $                121,413.5

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

12. Obligated Balance, Net - beginning of period            $                3,135.1    $                1,047.3         $                  30,417.7
13. Obligated Balance transferred, net (+/-)                                      0.0                          0.0                              (23.9)
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                       0.0                    (160.6)                               (833.1)
   14b. Unfilled customer order from Federal sources                              0.0                   (1,635.3)                              (962.7)
   14c. Undelivered orders                                                        0.0                    1,628.9                            30,086.2
   14d. Accounts payable                                                     2,963.0                     1,174.6                             4,011.6
15. Outlays:
   15a. Disbursements                                                       35,567.8                    10,402.5                            96,118.3
   15b. Collections                                                               0.0                   (5,049.3)                          (4,966.7)
   15c. Subtotal                                                            35,567.8                     5,353.2                            91,151.6
16. Less: Offsetting receipts                                              (17,928.0)                    (904.2)                           (1,197.1)
17. Net Outlays                                             $               17,639.8    $                4,449.0         $                  89,954.5




                DoD Performance and Accountability Report          243                                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                    Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                Organizations Working     Retiree Health Care Fund
                                                                    Capital Funds
STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                   1,075.4   $                4,583.2       $               522,562.4
   8b. Reimbursable                                                           46,893.2                         0.0                       147,147.8
   8c. Subtotal                                                               47,968.6                     4,583.2                       669,710.2
9. Unobligated balance:
   9a. Apportioned                                                              3,398.0                       31.7                        55,052.0
   9b. Exempt from apportionment                                                    0.0                        0.0                       180,704.3
   9c. Other available                                                              0.1                       (0.1)                             (0.1)
10. Unobligated Balances Not Available                                           223.0                    18,150.8                        23,285.3
11. Total, Status of Budgetary Resources                    $                 51,589.7    $               22,765.6       $               928,751.7

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

12. Obligated Balance, Net - beginning of period            $                   8,325.9   $                    0.0       $               181,919.4
13. Obligated Balance transferred, net (+/-)                                        0.0                        0.0                             (23.9)
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                   (3,682.5)                        0.0                       (10,216.4)
   14b. Unfilled customer order from Federal sources                          (4,327.8)                        0.0                       (38,422.1)
   14c. Undelivered orders                                                    11,147.2                       161.8                       213,597.8
   14d. Accounts payable                                                        5,659.4                      106.0                        49,412.6
15. Outlays:
   15a. Disbursements                                                         45,155.2                     4,315.4                       604,105.8
   15b. Collections                                                          (44,076.7)                        0.0                     (135,556.8)
   15c. Subtotal                                                                1,078.5                    4,315.4                       468,549.0
16. Less: Offsetting receipts                                                       0.0                  (22,765.6)                      (43,294.0)
17. Net Outlays                                             $                   1,078.5   $              (18,450.2)      $               425,255.0




                DoD Performance and Accountability Report             244                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 2002 Combined


STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $             420,239.6
   8b. Reimbursable                                                       128,030.3
   8c. Subtotal                                                           548,269.9
9. Unobligated balance:
   9a. Apportioned                                                         40,917.6
   9b. Exempt from apportionment                                          171,560.5
   9c. Other available                                                          (0.1)
10. Unobligated Balances Not Available                                      4,833.5
11. Total, Status of Budgetary Resources                    $             765,581.4

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

12. Obligated Balance, Net - beginning of period            $             162,829.3
13. Obligated Balance transferred, net (+/-)                                     0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                               (10,929.3)
   14b. Unfilled customer order from Federal sources                      (27,421.1)
   14c. Undelivered orders                                                176,183.8
   14d. Accounts payable                                                   45,789.1
15. Outlays:
   15a. Disbursements                                                     509,723.7
   15b. Collections                                                      (118,128.2)
   15c. Subtotal                                                          391,595.5
16. Less: Offsetting receipts                                             (45,593.8)
17. Net Outlays                                             $             346,001.7




                DoD Performance and Accountability Report          245                  Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army General Fund             Navy General Fund             Air Force General Fund


NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                       0.0   $                       0.0   $                       0.0
   1b. Borrowing authority                                                          0.0                           0.0                           0.0
   1c. Contract authority                                                           0.0                           0.0                           0.0
   1d. Net transfers (+/-)                                                          0.0                           0.0                           0.0
   1e. Other                                                                        0.0                           0.0                           0.0
2. Unobligated balance:

   2a. Beginning of period                                                          0.8                           0.0                           0.0
   2b. Net transfers, actual (+/-)                                                  0.0                           0.0                           0.0
   2c. Anticipated Transfers balances                                               0.0                           0.0                           0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                       0.0                           0.0                           0.0
      1. Collected                                                                  0.5                           0.0                           0.0
      2. Receivable from Federal sources                                            0.0                           0.0                           0.0
   3b. Change in unfilled customer orders                                           0.0                           0.0                           0.0
      1. Advance received                                                           0.0                           0.0                           0.0
      2. Without advance from Federal sources                                       0.0                           0.0                           0.0
   3c. Anticipated for the rest of year, without advances                           0.0                           0.0                           0.0
   3d. Transfers from trust funds                                                   0.0                           0.0                           0.0
   3e. Subtotal                                                                     0.5                           0.0                           0.0
4. Recoveries of prior year obligations                                             0.0                           0.0                           0.0
5. Temporarily not available pursuant to Public Law                                 0.0                           0.0                           0.0
6. Permanently not available                                                        0.0                           0.0                           0.0
7. Total Budgetary Resources                                $                       1.3   $                       0.0   $                       0.0


               DoD Performance and Accountability Report            246                                       Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army Working Capital         Navy Working Capital        Air Force Working Capital
                                                                      Fund                         Fund                            Fund

NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                      0.0   $                      0.0      $                     0.0
   1b. Borrowing authority                                                         0.0                          0.0                            0.0
   1c. Contract authority                                                          0.0                          0.0                            0.0
   1d. Net transfers (+/-)                                                         0.0                          0.0                            0.0
   1e. Other                                                                       0.0                          0.0                            0.0
2. Unobligated balance:

   2a. Beginning of period                                                         0.0                          0.0                            0.0
   2b. Net transfers, actual (+/-)                                                 0.0                          0.0                            0.0
   2c. Anticipated Transfers balances                                              0.0                          0.0                            0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                      0.0                          0.0                            0.0
      1. Collected                                                                 0.0                          0.0                            0.0
      2. Receivable from Federal sources                                           0.0                          0.0                            0.0
   3b. Change in unfilled customer orders                                          0.0                          0.0                            0.0
      1. Advance received                                                          0.0                          0.0                            0.0
      2. Without advance from Federal sources                                      0.0                          0.0                            0.0
   3c. Anticipated for the rest of year, without advances                          0.0                          0.0                            0.0
   3d. Transfers from trust funds                                                  0.0                          0.0                            0.0
   3e. Subtotal                                                                    0.0                          0.0                            0.0
4. Recoveries of prior year obligations                                            0.0                          0.0                            0.0
5. Temporarily not available pursuant to Public Law                                0.0                          0.0                            0.0
6. Permanently not available                                                       0.0                          0.0                            0.0
7. Total Budgetary Resources                                $                      0.0   $                      0.0      $                     0.0


               DoD Performance and Accountability Report              247                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                             Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                               Engineers                     Organizations General
                                                                                                                                    Funds
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                     0.0   $                      0.0       $                       0.0
   1b. Borrowing authority                                                        0.0                          0.0                              50.5
   1c. Contract authority                                                         0.0                          0.0                               0.0
   1d. Net transfers (+/-)                                                        0.0                          0.0                               0.0
   1e. Other                                                                      0.0                          0.0                               0.0
2. Unobligated balance:

   2a. Beginning of period                                                        0.0                          0.0                             103.2
   2b. Net transfers, actual (+/-)                                                0.0                          0.0                               0.0
   2c. Anticipated Transfers balances                                             0.0                          0.0                               0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                     0.0                          0.0                               0.0
      1. Collected                                                                0.0                          0.0                              55.7
      2. Receivable from Federal sources                                          0.0                          0.0                             (90.0)
   3b. Change in unfilled customer orders                                         0.0                          0.0                               0.0
      1. Advance received                                                         0.0                          0.0                               0.0
      2. Without advance from Federal sources                                     0.0                          0.0                              35.8
   3c. Anticipated for the rest of year, without advances                         0.0                          0.0                               0.0
   3d. Transfers from trust funds                                                 0.0                          0.0                               0.0
   3e. Subtotal                                                                   0.0                          0.0                               1.5
4. Recoveries of prior year obligations                                           0.0                          0.0                               1.9
5. Temporarily not available pursuant to Public Law                               0.0                          0.0                               0.0
6. Permanently not available                                                      0.0                          0.0                              (0.2)
7. Total Budgetary Resources                                $                     0.0   $                      0.0       $                     156.9


               DoD Performance and Accountability Report           248                                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                    Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                Organizations Working     Retiree Health Care Fund
                                                                    Capital Funds
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                       0.0   $                    0.0       $                       0.0
   1b. Borrowing authority                                                          0.0                        0.0                              50.5
   1c. Contract authority                                                           0.0                        0.0                               0.0
   1d. Net transfers (+/-)                                                          0.0                        0.0                               0.0
   1e. Other                                                                        0.0                        0.0                               0.0
2. Unobligated balance:

   2a. Beginning of period                                                          0.0                        0.0                             104.0
   2b. Net transfers, actual (+/-)                                                  0.0                        0.0                               0.0
   2c. Anticipated Transfers balances                                               0.0                        0.0                               0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                       0.0                        0.0                               0.0
      1. Collected                                                                  0.0                        0.0                              56.2
      2. Receivable from Federal sources                                            0.0                        0.0                             (90.0)
   3b. Change in unfilled customer orders                                           0.0                        0.0                               0.0
      1. Advance received                                                           0.0                        0.0                               0.0
      2. Without advance from Federal sources                                       0.0                        0.0                              35.8
   3c. Anticipated for the rest of year, without advances                           0.0                        0.0                               0.0
   3d. Transfers from trust funds                                                   0.0                        0.0                               0.0
   3e. Subtotal                                                                     0.0                        0.0                               2.0
4. Recoveries of prior year obligations                                             0.0                        0.0                               1.9
5. Temporarily not available pursuant to Public Law                                 0.0                        0.0                               0.0
6. Permanently not available                                                        0.0                        0.0                              (0.2)
7. Total Budgetary Resources                                $                       0.0   $                    0.0       $                     158.2


               DoD Performance and Accountability Report              249                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 2002 Combined


NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

1. Budget Authority:
   1a. Appropriations received                              $                     0.0
   1b. Borrowing authority                                                       44.2
   1c. Contract authority                                                         0.0
   1d. Net transfers (+/-)                                                        0.0
   1e. Other                                                                      0.0
2. Unobligated balance:

   2a. Beginning of period                                                        6.0
   2b. Net transfers, actual (+/-)                                                0.0
   2c. Anticipated Transfers balances                                             0.0
3. Spending authority from offsetting collections:
   3a. Earned                                                                     0.0
      1. Collected                                                               22.3
      2. Receivable from Federal sources                                         90.6
   3b. Change in unfilled customer orders                                         0.0
      1. Advance received                                                         0.0
      2. Without advance from Federal sources                                     0.0
   3c. Anticipated for the rest of year, without advances                         0.0
   3d. Transfers from trust funds                                                 0.0
   3e. Subtotal                                                                 112.9
4. Recoveries of prior year obligations                                           0.0
5. Temporarily not available pursuant to Public Law                               0.0
6. Permanently not available                                                      0.0
7. Total Budgetary Resources                                $                   163.1


               DoD Performance and Accountability Report           250                  Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army General Fund             Navy General Fund             Air Force General Fund


STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                       0.0   $                       0.0   $                       0.0
   8b. Reimbursable                                                                 0.0                           0.0                           0.0
   8c. Subtotal                                                                     0.0                           0.0                           0.0
9. Unobligated balance:
   9a. Apportioned                                                                  1.3                           0.0                           0.0
   9b. Exempt from apportionment                                                    0.0                           0.0                           0.0
   9c. Other available                                                              0.0                           0.0                           0.0
10. Unobligated Balances Not Available                                              0.0                           0.0                           0.0
11. Total, Status of Budgetary Resources                    $                       1.3   $                       0.0   $                       0.0

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period            $                       0.0   $                       0.0   $                       0.0
13. Obligated Balance transferred, net (+/-)                                        0.0                           0.0                           0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                         0.0                           0.0                           0.0
   14b. Unfilled customer order from Federal sources                                0.0                           0.0                           0.0
   14c. Undelivered orders                                                          0.0                           0.0                           0.0
   14d. Accounts payable                                                            0.0                           0.0                           0.0
15. Outlays:
   15a. Disbursements                                                               0.0                           0.0                           0.0
   15b. Collections                                                             (0.5)                             0.0                           0.0
   15c. Subtotal                                                                (0.5)                             0.0                           0.0
16. Less: Offsetting receipts                                                       0.0                           0.0                           0.0
17. Net Outlays                                             $                   (0.5)     $                       0.0   $                       0.0




                DoD Performance and Accountability Report           251                                       Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Army Working Capital         Navy Working Capital        Air Force Working Capital
                                                                      Fund                         Fund                            Fund

STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                      0.0   $                      0.0      $                     0.0
   8b. Reimbursable                                                                0.0                          0.0                            0.0
   8c. Subtotal                                                                    0.0                          0.0                            0.0
9. Unobligated balance:
   9a. Apportioned                                                                 0.0                          0.0                            0.0
   9b. Exempt from apportionment                                                   0.0                          0.0                            0.0
   9c. Other available                                                             0.0                          0.0                            0.0
10. Unobligated Balances Not Available                                             0.0                          0.0                            0.0
11. Total, Status of Budgetary Resources                    $                      0.0   $                      0.0      $                     0.0

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period            $                      0.0   $                      0.0      $                     0.0
13. Obligated Balance transferred, net (+/-)                                       0.0                          0.0                            0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                        0.0                          0.0                            0.0
   14b. Unfilled customer order from Federal sources                               0.0                          0.0                            0.0
   14c. Undelivered orders                                                         0.0                          0.0                            0.0
   14d. Accounts payable                                                           0.0                          0.0                            0.0
15. Outlays:
   15a. Disbursements                                                              0.0                          0.0                            0.0
   15b. Collections                                                                0.0                          0.0                            0.0
   15c. Subtotal                                                                   0.0                          0.0                            0.0
16. Less: Offsetting receipts                                                      0.0                          0.0                            0.0
17. Net Outlays                                             $                      0.0   $                      0.0      $                     0.0




                DoD Performance and Accountability Report             252                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                             Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                               Engineers                     Organizations General
                                                                                                                                    Funds
STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                     0.0   $                      0.0       $                     136.4
   8b. Reimbursable                                                               0.0                          0.0                               0.0
   8c. Subtotal                                                                   0.0                          0.0                             136.4
9. Unobligated balance:
   9a. Apportioned                                                                0.0                          0.0                               0.0
   9b. Exempt from apportionment                                                  0.0                          0.0                               0.0
   9c. Other available                                                            0.0                          0.0                              (0.1)
10. Unobligated Balances Not Available                                            0.0                          0.0                              20.6
11. Total, Status of Budgetary Resources                    $                     0.0   $                      0.0       $                     156.9

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period            $                     0.0   $                      0.0       $                     (95.1)
13. Obligated Balance transferred, net (+/-)                                      0.0                          0.0                               0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                       0.0                          0.0                              (0.6)
   14b. Unfilled customer order from Federal sources                              0.0                          0.0                             (35.8)
   14c. Undelivered orders                                                        0.0                          0.0                              66.3
   14d. Accounts payable                                                          0.0                          0.0                               0.0
15. Outlays:
   15a. Disbursements                                                             0.0                          0.0                              63.6
   15b. Collections                                                               0.0                          0.0                             (55.7)
   15c. Subtotal                                                                  0.0                          0.0                               7.9
16. Less: Offsetting receipts                                                     0.0                          0.0                               0.0
17. Net Outlays                                             $                     0.0   $                      0.0       $                       7.9




                DoD Performance and Accountability Report          253                                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                    Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                Organizations Working     Retiree Health Care Fund
                                                                    Capital Funds
STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                       0.0   $                    0.0       $                     136.4
   8b. Reimbursable                                                                 0.0                        0.0                               0.0
   8c. Subtotal                                                                     0.0                        0.0                             136.4
9. Unobligated balance:
   9a. Apportioned                                                                  0.0                        0.0                               1.3
   9b. Exempt from apportionment                                                    0.0                        0.0                               0.0
   9c. Other available                                                              0.0                        0.0                              (0.1)
10. Unobligated Balances Not Available                                              0.0                        0.0                              20.6
11. Total, Status of Budgetary Resources                    $                       0.0   $                    0.0       $                     158.2

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period            $                       0.0   $                    0.0       $                     (95.1)
13. Obligated Balance transferred, net (+/-)                                        0.0                        0.0                               0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                         0.0                        0.0                              (0.6)
   14b. Unfilled customer order from Federal sources                                0.0                        0.0                             (35.8)
   14c. Undelivered orders                                                          0.0                        0.0                              66.3
   14d. Accounts payable                                                            0.0                        0.0                               0.0
15. Outlays:
   15a. Disbursements                                                               0.0                        0.0                              63.6
   15b. Collections                                                                 0.0                        0.0                             (56.2)
   15c. Subtotal                                                                    0.0                        0.0                               7.4
16. Less: Offsetting receipts                                                       0.0                        0.0                               0.0
17. Net Outlays                                             $                       0.0   $                    0.0       $                       7.4




                DoD Performance and Accountability Report             254                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 2002 Combined


STATUS OF BUDGETARY RESOURCES

8. Obligations incurred:
   8a. Direct                                               $                   142.4
   8b. Reimbursable                                                               0.0
   8c. Subtotal                                                                 142.4
9. Unobligated balance:
   9a. Apportioned                                                                0.7
   9b. Exempt from apportionment                                                  0.0
   9c. Other available                                                            0.0
10. Unobligated Balances Not Available                                           20.0
11. Total, Status of Budgetary Resources                    $                   163.1

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
12. Obligated Balance, Net - beginning of period            $                     0.0
13. Obligated Balance transferred, net (+/-)                                      0.0
14. Obligated Balance, Net - end of period:
   14a. Accounts receivable                                                 (90.6)
   14b. Unfilled customer order from Federal sources                              0.0
   14c. Undelivered orders                                                       89.6
   14d. Accounts payable                                                          0.7
15. Outlays:
   15a. Disbursements                                                            52.0
   15b. Collections                                                         (22.3)
   15c. Subtotal                                                                 29.7
16. Less: Offsetting receipts                                                     0.0
17. Net Outlays                                             $                    29.7




                DoD Performance and Accountability Report          255                  Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                   Army General Fund             Navy General Fund              Air Force General Fund


Resources Used to Finance Activities:

Budgetary Resources Obligated
1. Obligations incurred                                       $              146,442.8      $              132,577.8       $                 131,607.0
2. Less: Spending authority from offsetting collections                      (25,885.3)                    (12,838.8)                        (10,121.2)
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                  120,557.5                     119,739.0                         121,485.8

4. Less: Offsetting receipts (-)                                                 (95.6)                       (246.8)                            (156.7)
5. Net obligations                                                           120,461.9                     119,492.2                         121,329.1

Other Resources
6. Donations and forfeitures of property                                              0.0                           0.0                             0.0
7. Transfers in/out without reimbursement (+/-)                                 (321.4)                         51.8                             (110.7)
8. Imputed financing from costs absorbed by others                               818.5                         509.7                              633.0
9. Other (+/-)                                                                   115.1                              0.0                             0.0
10. Net other resources used to finance activities                               612.2                         561.5                              522.3

11. Total resources used to finance activities                               121,074.1                     120,053.7                         121,851.4




              DoD Performance and Accountability Report               256                                        Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                   Army Working Capital          Navy Working Capital         Air Force Working Capital
                                                                        Fund                          Fund                             Fund

Resources Used to Finance Activities:

Budgetary Resources Obligated
1. Obligations incurred                                       $                 12,571.5    $                 27,263.6       $                17,000.3
2. Less: Spending authority from offsetting collections                        (12,640.3)                    (27,295.7)                      (17,557.8)
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                        (68.8)                        (32.1)                            (557.5)

4. Less: Offsetting receipts (-)                                                     0.0                           0.0                                0.0
5. Net obligations                                                                 (68.8)                        (32.1)                            (557.5)

Other Resources
6. Donations and forfeitures of property                                             0.0                           0.0                                0.0
7. Transfers in/out without reimbursement (+/-)                                    908.6                         (13.5)                            (209.3)
8. Imputed financing from costs absorbed by others                                 121.3                         543.4                              145.2
9. Other (+/-)                                                                     217.1                           0.0                                0.0
10. Net other resources used to finance activities                               1,247.0                         529.9                              (64.1)

11. Total resources used to finance activities                                   1,178.2                         497.8                             (621.6)




              DoD Performance and Accountability Report                 257                                        Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                               Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                                 Engineers                     Organizations General
                                                                                                                                      Funds
Resources Used to Finance Activities:

Budgetary Resources Obligated
1. Obligations incurred                                       $               35,395.7    $               10,550.1         $                103,886.0
2. Less: Spending authority from offsetting collections                             0.0                   (5,236.5)                         (10,693.5)
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                   35,395.7                     5,313.6                            93,192.5

4. Less: Offsetting receipts (-)                                             (17,928.0)                    (904.2)                           (1,197.1)
5. Net obligations                                                            17,467.7                     4,409.4                            91,995.4

Other Resources
6. Donations and forfeitures of property                                            0.0                          4.6                               0.0
7. Transfers in/out without reimbursement (+/-)                                     0.0                      (56.3)                         405,020.7
8. Imputed financing from costs absorbed by others                                  0.0                      225.1                               560.3
9. Other (+/-)                                                                      0.0                      (19.4)                              (4.7)
10. Net other resources used to finance activities                                  0.0                      154.0                          405,576.3

11. Total resources used to finance activities                                17,467.7                     4,563.4                          497,571.7




              DoD Performance and Accountability Report              258                                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                      Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                  Organizations Working     Retiree Health Care Fund
                                                                      Capital Funds
Resources Used to Finance Activities:

Budgetary Resources Obligated
1. Obligations incurred                                       $                 47,968.6    $                4,583.2       $               669,846.6
2. Less: Spending authority from offsetting collections                        (46,419.6)                        0.0                     (168,688.7)
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                       1,549.0                    4,583.2                       501,157.9

4. Less: Offsetting receipts (-)                                                      0.0                  (22,765.6)                      (43,294.0)
5. Net obligations                                                                1,549.0                  (18,182.4)                      457,863.9

Other Resources
6. Donations and forfeitures of property                                              0.0                        0.0                               4.6
7. Transfers in/out without reimbursement (+/-)                                    226.8                 (412,198.8)                        (6,702.1)
8. Imputed financing from costs absorbed by others                                 310.4                         0.0                         3,866.9
9. Other (+/-)                                                                        0.0                        0.0                             308.1
10. Net other resources used to finance activities                                 537.2                 (412,198.8)                        (2,522.5)

11. Total resources used to finance activities                                    2,086.2                (430,381.2)                       455,341.4




              DoD Performance and Accountability Report                 259                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                   2002 Combined


Resources Used to Finance Activities:

Budgetary Resources Obligated
1. Obligations incurred                                       $             548,412.3
2. Less: Spending authority from offsetting collections                    (135,993.9)
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                 412,418.4

4. Less: Offsetting receipts (-)                                            (45,593.8)
5. Net obligations                                                          366,824.6

Other Resources
6. Donations and forfeitures of property                                           0.3
7. Transfers in/out without reimbursement (+/-)                                   24.1
8. Imputed financing from costs absorbed by others                            3,520.0
9. Other (+/-)                                                                 (475.5)
10. Net other resources used to finance activities                            3,068.9

11. Total resources used to finance activities                              369,893.5




              DoD Performance and Accountability Report              260                 Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                           Army General Fund         Navy General Fund           Air Force General Fund


Resources Used to Finance Items not Part
of the Net Cost of Operations

12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                      (16,480.2)                 (3,213.4)                       (8,331.1)
    12b. Unfilled Customer Orders                                                      3,774.7                     248.4                             685.6
13. Resources that fund expenses recognized in prior periods                            (282.7)                    (31.3)                              0.0
14. Budgetary offsetting collections and receipts that                                    15.1                          0.0                            9.1
   do not affect net cost of operations
15. Resources that finance the acquisition of assets                                 (25,214.8)                (26,444.2)                      (19,120.7)
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
   16a. Less: Trust or Special Fund Receipts Related to Exchange in the                       0.0                       0.0                            0.0
  Entity's Budget (-)
   16b. Other (+/-)                                                                           0.0                       0.0                          110.7

17. Total resources used to finance items not                                        (38,187.9)                (29,440.5)                      (26,646.4)

    part of the net cost of operations

18. Total resources used to finance the net cost of operations                        82,886.2                  90,613.2                        95,205.0




              DoD Performance and Accountability Report                       261                                    Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                           Army Working Capital      Navy Working Capital         Air Force Working Capital
                                                                                Fund                      Fund                             Fund

Resources Used to Finance Items not Part
of the Net Cost of Operations

12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                         (3,301.4)                   (703.5)                            (468.1)
    12b. Unfilled Customer Orders                                                        2,171.9                   2,142.4                             (171.3)
13. Resources that fund expenses recognized in prior periods                                (2.8)                      0.0                                0.0
14. Budgetary offsetting collections and receipts that                                       0.0                       0.0                                0.0
   do not affect net cost of operations
15. Resources that finance the acquisition of assets                                     (324.2)                  (1,899.6)                        1,006.8
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
   16a. Less: Trust or Special Fund Receipts Related to Exchange in the                      0.0                       0.0                                0.0
  Entity's Budget (-)
   16b. Other (+/-)                                                                          0.0                       0.0                                0.0

17. Total resources used to finance items not                                           (1,456.5)                   (460.7)                             367.4

    part of the net cost of operations

18. Total resources used to finance the net cost of operations                           (278.3)                      37.1                             (254.2)




              DoD Performance and Accountability Report                         262                                    Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                           Military Retirement Fund    US Army Corps of                 Other Defense
                                                                                                         Engineers                  Organizations General
                                                                                                                                           Funds
Resources Used to Finance Items not Part
of the Net Cost of Operations

12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                                 0.0                (154.3)                          (2,866.8)
    12b. Unfilled Customer Orders                                                               0.0                  245.8                                299.5
13. Resources that fund expenses recognized in prior periods                                    0.0                      0.0                             (350.6)
14. Budgetary offsetting collections and receipts that                                          0.0                  904.7                                  0.4
   do not affect net cost of operations
15. Resources that finance the acquisition of assets                                            0.0                1,399.9                               (386.0)
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
   16a. Less: Trust or Special Fund Receipts Related to Exchange in the                         0.0                      0.0                                6.0
  Entity's Budget (-)
   16b. Other (+/-)                                                                             0.0                      0.0                     (405,553.0)

17. Total resources used to finance items not                                                   0.0                2,396.1                       (408,850.5)

    part of the net cost of operations

18. Total resources used to finance the net cost of operations                            17,467.7                 6,959.5                          88,721.2




              DoD Performance and Accountability Report                          263                                     Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                              Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                          Organizations Working     Retiree Health Care Fund
                                                                              Capital Funds
Resources Used to Finance Items not Part
of the Net Cost of Operations

12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                         (1,754.5)                     (161.8)                      (37,435.1)
    12b. Unfilled Customer Orders                                                         1,609.1                        0.0                        11,006.1
13. Resources that fund expenses recognized in prior periods                               (18.9)                        0.0                             (686.3)
14. Budgetary offsetting collections and receipts that                                        0.0                        0.0                              929.3
   do not affect net cost of operations
15. Resources that finance the acquisition of assets                                    (2,002.1)                        0.0                       (72,984.9)
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
   16a. Less: Trust or Special Fund Receipts Related to Exchange in the                     (6.0)                        0.0                                0.0
  Entity's Budget (-)
   16b. Other (+/-)                                                                       (132.9)                  412,198.8                         6,623.6

17. Total resources used to finance items not                                           (2,305.3)                  412,037.0                       (92,547.3)

    part of the net cost of operations

18. Total resources used to finance the net cost of operations                            (219.1)                  (18,344.2)                      362,794.1




              DoD Performance and Accountability Report                         264                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                           2002 Combined


Resources Used to Finance Items not Part
of the Net Cost of Operations

12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                    (28,342.6)
    12b. Unfilled Customer Orders                                                    3,762.3
13. Resources that fund expenses recognized in prior periods                        (7,317.5)
14. Budgetary offsetting collections and receipts that                                    819.3
   do not affect net cost of operations
15. Resources that finance the acquisition of assets                                (9,075.6)
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
   16a. Less: Trust or Special Fund Receipts Related to Exchange in the                     0.0
  Entity's Budget (-)
   16b. Other (+/-)                                                                       (1.1)

17. Total resources used to finance items not                                      (40,155.2)

    part of the net cost of operations

18. Total resources used to finance the net cost of operations                     329,738.3




              DoD Performance and Accountability Report                      265                  Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                       Army General Fund         Navy General Fund          Air Force General Fund


Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
19. Increase in annual leave liability                                               291.5                          0.0                          478.3
20. Increase in environmental and disposal liability                               2,317.1                          0.0                         (344.2)
21. Upward/Downward reestimates of credit subsidy expense (+/-)                           0.0                       0.0                            0.0
22. Increase in exchange revenue receivable from the the public (-)                       0.0                       0.0                            0.0
23. Other (+/-)                                                                      409.3                     428.3                              14.8
24. Total components of Net Cost of Operations that                                3,017.9                     428.3                             148.9
    will require or generate resources in future periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                 21,363.9                  16,936.5                       13,282.9
26. Revaluation of assets or liabilities (+/-)                                       (10.7)                  3,203.7                        1,641.0
27. Other (+/-)                                                                      174.4                      22.9                       11,549.6
28. Total components of Net Cost of Operations that                               21,527.6                  20,163.1                       26,473.5
    will not require or generate resources

29. Total components of net cost of operations that                               24,545.5                  20,591.4                       26,622.4
    will not require or generate resources in the current period

30. Net Cost of Operations                                                       107,431.7                 111,204.6                      121,827.4




              DoD Performance and Accountability Report                   266                                   Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                       Army Working Capital      Navy Working Capital        Air Force Working Capital
                                                                            Fund                      Fund                            Fund

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
19. Increase in annual leave liability                                                   2.0                       0.0                              0.0
20. Increase in environmental and disposal liability                                     0.0                       0.0                              0.0
21. Upward/Downward reestimates of credit subsidy expense (+/-)                          0.0                       0.0                              0.0
22. Increase in exchange revenue receivable from the the public (-)                     (6.1)                      0.0                              0.0
23. Other (+/-)                                                                         16.5                      83.9                             27.4
24. Total components of Net Cost of Operations that                                     12.4                      83.9                             27.4
    will require or generate resources in future periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                      194.1                     243.8                            185.8
26. Revaluation of assets or liabilities (+/-)                                       (448.5)                      75.0                              2.5
27. Other (+/-)                                                                          0.0                       0.3                              0.0
28. Total components of Net Cost of Operations that                                  (254.4)                     319.1                            188.3
    will not require or generate resources

29. Total components of net cost of operations that                                  (242.0)                     403.0                            215.7
    will not require or generate resources in the current period

30. Net Cost of Operations                                                           (520.3)                     440.1                            (38.5)




              DoD Performance and Accountability Report                     267                                   Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                       Military Retirement Fund    US Army Corps of                 Other Defense
                                                                                                     Engineers                  Organizations General
                                                                                                                                       Funds
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
19. Increase in annual leave liability                                                      0.0                       0.0                              (7.9)
20. Increase in environmental and disposal liability                                        0.0                       0.0                              (8.0)
21. Upward/Downward reestimates of credit subsidy expense (+/-)                             0.0                       0.0                               0.0
22. Increase in exchange revenue receivable from the the public (-)                         0.0                       0.0                               1.2
23. Other (+/-)                                                                        9,146.2                       66.4                       20,821.1
24. Total components of Net Cost of Operations that                                    9,146.2                       66.4                       20,806.4
    will require or generate resources in future periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                           0.0                  447.7                           2,099.7
26. Revaluation of assets or liabilities (+/-)                                              0.0                1,477.6                               (451.9)
27. Other (+/-)                                                                      (23,713.9)                      24.7                        1,771.9
28. Total components of Net Cost of Operations that                                  (23,713.9)                1,950.0                           3,419.7
    will not require or generate resources

29. Total components of net cost of operations that                                  (14,567.7)                2,016.4                          24,226.1
    will not require or generate resources in the current period

30. Net Cost of Operations                                                             2,900.0                 8,975.9                         112,947.3




              DoD Performance and Accountability Report                      268                                     Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                          Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                      Organizations Working     Retiree Health Care Fund
                                                                          Capital Funds
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
19. Increase in annual leave liability                                                (101.2)                        0.0                             662.7
20. Increase in environmental and disposal liability                                     68.7                        0.0                         2,033.6
21. Upward/Downward reestimates of credit subsidy expense (+/-)                           0.0                        0.0                               0.0
22. Increase in exchange revenue receivable from the the public (-)                     (1.7)                        0.0                             (6.6)
23. Other (+/-)                                                                        162.9                    64,226.4                        95,403.2
24. Total components of Net Cost of Operations that                                    128.7                    64,226.4                        98,092.9
    will require or generate resources in future periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                      520.3                         0.0                        55,274.7
26. Revaluation of assets or liabilities (+/-)                                         810.7                         0.0                         6,299.4
27. Other (+/-)                                                                         (0.4)                        0.0                       (10,170.5)
28. Total components of Net Cost of Operations that                                   1,330.6                        0.0                        51,403.6
    will not require or generate resources

29. Total components of net cost of operations that                                   1,459.3                   64,226.4                       149,496.5
    will not require or generate resources in the current period

30. Net Cost of Operations                                                            1,240.2                   45,882.2                       512,290.6




              DoD Performance and Accountability Report                     269                                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF FINANCING
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                       2002 Combined


Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
19. Increase in annual leave liability                                                478.3
20. Increase in environmental and disposal liability                             1,712.9
21. Upward/Downward reestimates of credit subsidy expense (+/-)                         0.0
22. Increase in exchange revenue receivable from the the public (-)                   (3.3)
23. Other (+/-)                                                                 34,270.2
24. Total components of Net Cost of Operations that                             36,458.1
    will require or generate resources in future periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                7,229.5
26. Revaluation of assets or liabilities (+/-)                                   (377.4)
27. Other (+/-)                                                                  7,158.9
28. Total components of Net Cost of Operations that                             14,011.0
    will not require or generate resources

29. Total components of net cost of operations that                             50,469.1
    will not require or generate resources in the current period

30. Net Cost of Operations                                                     380,207.4




              DoD Performance and Accountability Report                  270                  Part 3: Financial Information
Department of Defense
Agency Wide
STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                     Army General Fund             Navy General Fund             Air Force General Fund


1.SOURCE OF COLLECTIONS

    A. Deposits by Foreign Governments                          $                       0.0   $                       0.0   $                       0.0
    B. Seized Iraqi Cash                                                           808.9                              0.0                           0.0
    C. Other Collections                                                                0.0                           0.0                           0.0
    D. Total Cash Collections                                   $                  808.9      $                       0.0   $                       0.0
    E. Accrual Adjustments (+/-)                                $                       0.0   $                       0.0   $                       0.0
    F. Total Custodial Collections                              $                  808.9      $                       0.0   $                       0.0
2.DISPOSITION OF COLLECTIONS

    A. Disbursed on Behalf of Foreign Governments and           $                       0.0   $                       0.0   $                       0.0
International Organizations
    B. Seized Assets Disbursed on behalf of Iraqi People                           530.8                              0.0                           0.0
    C. Increase (Decrease) in Amounts to be Transferred                                 0.0                           0.0                           0.0
    D. Collections Used for Refunds and Other Payments                                  0.0                           0.0                           0.0
    E. Retained by The Reporting Entity                                                 0.0                           0.0                           0.0
    F. Seized Assets Retained for Support of the Iraqi People                      278.1                              0.0                           0.0
    G. Total Disposition of Collections                         $                  808.9      $                       0.0   $                       0.0
3. NET CUSTODIAL COLLECTION ACTIVITY                            $                       0.0   $                       0.0   $                       0.0




             DoD Performance and Accountability Report                  271                                       Part 3: Financial Information
Department of Defense
Agency Wide
STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                     Army Working Capital         Navy Working Capital        Air Force Working Capital
                                                                          Fund                         Fund                            Fund

1.SOURCE OF COLLECTIONS

    A. Deposits by Foreign Governments                          $                      0.0   $                      0.0      $                     0.0
    B. Seized Iraqi Cash                                                               0.0                          0.0                            0.0
    C. Other Collections                                                               0.0                          0.0                            0.0
    D. Total Cash Collections                                   $                      0.0   $                      0.0      $                     0.0
    E. Accrual Adjustments (+/-)                                $                      0.0   $                      0.0      $                     0.0
    F. Total Custodial Collections                              $                      0.0   $                      0.0      $                     0.0
2.DISPOSITION OF COLLECTIONS

    A. Disbursed on Behalf of Foreign Governments and           $                      0.0   $                      0.0      $                     0.0
International Organizations
    B. Seized Assets Disbursed on behalf of Iraqi People                               0.0                          0.0                            0.0
    C. Increase (Decrease) in Amounts to be Transferred                                0.0                          0.0                            0.0
    D. Collections Used for Refunds and Other Payments                                 0.0                          0.0                            0.0
    E. Retained by The Reporting Entity                                                0.0                          0.0                            0.0
    F. Seized Assets Retained for Support of the Iraqi People                          0.0                          0.0                            0.0
    G. Total Disposition of Collections                         $                      0.0   $                      0.0      $                     0.0
3. NET CUSTODIAL COLLECTION ACTIVITY                            $                      0.0   $                      0.0      $                     0.0




             DoD Performance and Accountability Report                    272                                      Part 3: Financial Information
Department of Defense
Agency Wide
STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                 Military Retirement Fund        US Army Corps of                    Other Defense
                                                                                                   Engineers                     Organizations General
                                                                                                                                        Funds
1.SOURCE OF COLLECTIONS

    A. Deposits by Foreign Governments                          $                     0.0   $                      0.0       $                   9,971.6
    B. Seized Iraqi Cash                                                              0.0                          0.0                                0.0
    C. Other Collections                                                              0.0                          0.0                                0.0
    D. Total Cash Collections                                   $                     0.0   $                      0.0       $                   9,971.6
    E. Accrual Adjustments (+/-)                                $                     0.7   $                      0.0       $                        0.0
    F. Total Custodial Collections                              $                     0.7   $                      0.0       $                   9,971.6
2.DISPOSITION OF COLLECTIONS

    A. Disbursed on Behalf of Foreign Governments and           $                     0.0   $                      0.0       $                  10,118.8
International Organizations
    B. Seized Assets Disbursed on behalf of Iraqi People                              0.0                          0.0                                0.0
    C. Increase (Decrease) in Amounts to be Transferred                               0.7                          0.0                             (147.2)
    D. Collections Used for Refunds and Other Payments                                0.0                          0.0                                0.0
    E. Retained by The Reporting Entity                                               0.0                          0.0                                0.0
    F. Seized Assets Retained for Support of the Iraqi People                         0.0                          0.0                                0.0
    G. Total Disposition of Collections                         $                     0.7   $                      0.0       $                   9,971.6
3. NET CUSTODIAL COLLECTION ACTIVITY                            $                     0.0   $                      0.0       $                        0.0




             DoD Performance and Accountability Report                 273                                         Part 3: Financial Information
Department of Defense
Agency Wide
STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                        Other Defense           DoD Medicare-Eligible             2003 Combined
                                                                    Organizations Working     Retiree Health Care Fund
                                                                        Capital Funds
1.SOURCE OF COLLECTIONS

    A. Deposits by Foreign Governments                          $                       0.0   $                    0.0       $                 9,971.6
    B. Seized Iraqi Cash                                                                0.0                        0.0                              808.9
    C. Other Collections                                                                0.0                        0.0                                0.0
    D. Total Cash Collections                                   $                       0.0   $                    0.0       $                10,780.5
    E. Accrual Adjustments (+/-)                                $                       0.0   $                    0.0       $                        0.7
    F. Total Custodial Collections                              $                       0.0   $                    0.0       $                10,781.2
2.DISPOSITION OF COLLECTIONS

    A. Disbursed on Behalf of Foreign Governments and           $                       0.0   $                    0.0       $                10,118.8
International Organizations
    B. Seized Assets Disbursed on behalf of Iraqi People                                0.0                        0.0                              530.8
    C. Increase (Decrease) in Amounts to be Transferred                                 0.0                        0.0                             (146.5)
    D. Collections Used for Refunds and Other Payments                                  0.0                        0.0                                0.0
    E. Retained by The Reporting Entity                                                 0.0                        0.0                                0.0
    F. Seized Assets Retained for Support of the Iraqi People                           0.0                        0.0                              278.1
    G. Total Disposition of Collections                         $                       0.0   $                    0.0       $                10,781.2
3. NET CUSTODIAL COLLECTION ACTIVITY                            $                       0.0   $                    0.0       $                        0.0




             DoD Performance and Accountability Report                    274                                      Part 3: Financial Information
Department of Defense
Agency Wide
STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2003 and 2002
($ in Millions)                                                     2002 Combined


1.SOURCE OF COLLECTIONS

    A. Deposits by Foreign Governments                          $             10,732.3
    B. Seized Iraqi Cash                                                              0.0
    C. Other Collections                                                              0.0
    D. Total Cash Collections                                   $             10,732.3
    E. Accrual Adjustments (+/-)                                $                     0.2
    F. Total Custodial Collections                              $             10,732.5
2.DISPOSITION OF COLLECTIONS

    A. Disbursed on Behalf of Foreign Governments and           $             10,570.0
International Organizations
    B. Seized Assets Disbursed on behalf of Iraqi People                              0.0
    C. Increase (Decrease) in Amounts to be Transferred                             162.5
    D. Collections Used for Refunds and Other Payments                                0.0
    E. Retained by The Reporting Entity                                               0.0
    F. Seized Assets Retained for Support of the Iraqi People                         0.0
    G. Total Disposition of Collections                         $             10,732.5
3. NET CUSTODIAL COLLECTION ACTIVITY                            $                     0.0




             DoD Performance and Accountability Report                 275                  Part 3: Financial Information
        Required Supplementary
        Stewardship Information




DoD Performance and Accountability Report
 Heritage Assets


                        DEPARTMENT OF DEFENSE CONSOLIDATED
                                      HERITAGE ASSETS
                           For Fiscal Year Ended September 30, 2003

                                        Unit of      As of                                   As of
Categories                              Measure     10/01/02   Additions Deletions          9/30/03

Museums                                     Each        261                  105             156
Monuments & Memorials                       Each      1,464      79                        1,543
Cemeteries & Archeological Sites            Sites    25,592     110                       25,702
Buildings & Structures                      Each     18,929     320                       19,249
Major Collections                           Each         10       1                           11


Heritage Assets are real and personal property with “national” importance due to significant
historical (e.g., buildings on the National Registry of Historical Buildings), natural, cultural,
educational, artistic, or architectural (e.g. aesthetic) value. Heritage Assets can include museums
and/or their collections, art and other collections, archival records, cemeteries, monuments and
memorials, and archeological sites.
The FY 2003 categories are defined as follows:
Museums. Buildings that house collection-type items including artwork, archeological artifacts,
archival materials, and other historical artifacts. The primary use of such buildings is the
preservation, maintenance and display of collection-type Heritage Assets.

Monuments and Memorials. Sites and structures built to honor and preserve the memory of
significant individuals and/or events in history.

Cemeteries and Archeological Sites. Land on which gravesites of prominent historical figures
and/or items of archeological significance are located.

Buildings and Structures. Includes buildings and structures that are listed on, or are eligible for
listing on, the National Register of Historic Places, including Multi-Use Heritage Assets. These
buildings do not include museums.

Major Collections. Significant collections that are maintained outside of a museum.

The processes used to establish items as having heritage significance vary among categories and
types of assets. Subject matter experts, criteria such as listing on the National Register of
Historic Places, and Federal statutes, all play a significant role in characterizing these assets.


DoD Performance and Accountability Report           276                   Part 3: Financial Information
The condition assessment of Heritage Assets is based on whether the assets are being cared for
and safeguarded in accordance with relevant regulations. The Department’s Heritage Assets are
in acceptable or good condition and are appropriately safeguarded.

Heritage assets that are also used for general government operations, such as the Pentagon, are
classified as Multi-Use Heritage Assets and are reported as both Heritage Assets and Balance
Sheet items.

Supplemental information pertaining to Army, Navy and Air Force Heritage Assets follows.

Department of the Army

The Army museum system consists of 117 museums and museum activities worldwide. In
addition, historical property is displayed in numerous locations, e.g., regimental and trophy
rooms, officers clubs, visitor centers, and chapels. Also, the U.S. Army Corps of Engineers
manages one major collection of historical memorabilia, including artifacts and records.

Department of the Navy

The Navy-wide Heritage Asset Management System has been implemented, and has unified the
collections management process for Naval Heritage Assets, including historical artifacts, archival
items and artwork. The Department of the Navy is in the process of evaluating and cataloguing
each of its items.

Department of the Air Force

The United States Air Force Museum, located at Wright-Patterson Air Force Base, Ohio, houses
the main collection of historical artifacts that are registered as historical property in the Air Force
museum system. The other Air Force museums are considered Air Force Field Museums or
Heritage Centers. These entities also contain items of historical interest; some however, are
specific to the general locality.




DoD Performance and Accountability Report           277                     Part 3: Financial Information
Stewardship Land

                        DEPARTMENT OF DEFENSE CONSOLIDATED
                                    STEWARDSHIP LAND
                           For Fiscal Year Ended September 30, 2003
                                      (Acres in Thousands)

                                                   As of                                          As of
           Land Use                               10/01/02        Additions     Deletions        9/30/03

1. Mission                                          16,747          --               65         16,682
2. Parks and Historic Sites                              1          --              --               1

   Total                                            16,748                          65          16,683

Stewardship Land is land that is not acquired for, or in connection with, items of General
Property, Plant and Equipment. All land, regardless of its use, provided to the Department from
the Public Domain, or at no cost, is classified as Stewardship Land. Stewardship Land is
reported in physical units (acres) rather than cost or fair value.



Nonfederal Physical Property

                        DEPARTMENT OF DEFENSE CONSOLIDATED
                            NONFEDERAL PHYSICAL PROPERTY
                        Annual Investments in State and Local Governments
                               For Fiscal Years 1999 through 2003
                                     (In Millions of Dollars)


                                             FY           FY              FY           FY            FY
            Categories                      1999         2000            2001         2002          2003
Transferred Assets:
  National Defense Mission Related          $20              $5       $95              $7           $85

Funded Assets:
  National Defense Mission Related          $17              $7       $20             $21           $11


Total                                       $37          $12         $115             $28           $96




DoD Performance and Accountability Report          278                          Part 3: Financial Information
The Department incurs investments in Nonfederal Physical Property for the purchase,
construction, or major renovation of physical property owned by state and local governments,
including major additions, alterations, and replacements, and the purchase of major equipment;
and the purchase or improvement of other physical assets. In addition, Nonfederal Physical
Property Investments include federally-owned physical property transferred to state and local
governments.

Investment values included in this report are based on Nonfederal Physical Property outlays
(expenditures). Outlays are used because current DoD accounting systems are unable to capture
and summarize costs in accordance with Federal Accounting Standards Advisory Board
requirements.

Department of the Army

The total reported transferred asset values are for non-cash items that were transferred to state
and local governments by the Department of the Army. These properties are essential in
accomplishing the mission of the Army National Guard. The Army National Guard funds
maintenance costs for these nonfederal assets.

Department of the Air Force

The total reported funded asset values are Air National Guard investments in Military
Construction Cooperative Agreements. These agreements involve the transfer of funds and
allow joint participation with states, counties, and airport authorities for construction or repair of
airfield pavements and facilities required to support the flying mission assigned to civilian
airfields.




DoD Performance and Accountability Report          279                      Part 3: Financial Information
Investments in Research and Development

                       DEPARTMENT OF DEFENSE CONSOLIDATED
                    INVESTMENTS IN RESEARCH AND DEVELOPMENT
                       Annual Investments in Research and Development
                             For Fiscal Years 1999 through 2003
                                   (In Millions of Dollars)


             Categories                     FY 1999    FY 2000      FY 2001     FY 2002        FY 2003

1. Basic Research                            $1,115         $812     $1,311       $1,356        $1,444

2. Applied Research                           2,985         3,095     3,843         4,311         4,388

3. Development
   A. Advanced Technology
      Development                             4,444         3,753     4,383         4,604         5,080
   B. Demonstration and
      Validation                              6,564         6,557     8,166       10,525        11,928
   C. Engineering and
      Manufacturing Development               7,934         8,353     8,831         9,500       11,234
   D. Research, Development, Test
      & Evaluation Management
      Support                                 3,146         2,954     2,946         3,351         3,210
   E. Operational Systems
      Development                             9,801     10,124      11,000        11,804        12,289

4. Other                                      1,636         1,906     --             --            --

                                 Total      $37,625    $37,554      $40,480      $45,451      $49,573


DoD Research and Development programs are classified in the following categories:

Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or
products in mind.




DoD Performance and Accountability Report             280                     Part 3: Financial Information
Applied Research is the systematic study to understand the means to meet a recognized and
specific national security requirement. It is a systematic application of knowledge to develop
useful materials, devices, and system or methods.
Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development is comprised of five stages defined below:
       1.    Advanced Technology Development includes development of
   subsystems and components, and efforts to integrate subsystems and components
   into system prototypes for field experiments and/or tests in a simulated
   environment.
       2.     Advanced Component Development and Prototypes includes efforts
   necessary to evaluate integrated technologies, representative modes or prototype
   systems in a high fidelity and realistic operating environment.
       3.      System Development and Demonstration includes programs that have
   passed Milestone B approval and are conducting engineering and manufacturing
   development tasks aimed at meeting validated requirements prior to full-rate
   production.
       4.      RDT&E Management Support includes research, development, test and
   evaluation efforts and funds needed to sustain and/or modernize the installations or
   operations required for general research, development, test and evaluation.
       5.      Operational Systems Development includes development efforts to
    upgrade systems that have been fielded or have received approval for full rate
    production. The activities include hardware and software upgrades for major
    weapons systems, information and communications networks, and other major
    end-items.

Investment values included in this report are based on Research, Development, Test and
Evaluation (RDT&E) outlays (expenditures). Outlays are used because current DoD accounting
systems are unable to capture and summarize costs in accordance with the Federal Accounting
Standards Advisory Board requirements.

Representative program examples for each of the major Research and Development categories
are as follows:

Department of the Army

Basic Research:

Defense Research Sciences. This program sustains U.S. Army scientific and technological
superiority in land warfighting capability, provides new concepts and technologies for the
Army's Future Force, and provides the means to exploit scientific breakthroughs and avoid
technological surprises. It fosters innovation in Army niche areas and where the commercial


DoD Performance and Accountability Report          281                     Part 3: Financial Information
incentive to invest is lacking due to limited markets. It also focuses university single
investigators on research areas of Army interest. The in-house portion of the program capitalizes
on the Army's scientific talent and specialized facilities to expeditiously transition knowledge
and technology into the appropriate developmental activities. The extramural program leverages
the research efforts of other government agencies, academia, and industry, ultimately translating
into a coherent, well-integrated program that is executed by the five primary contributors: 1) the
Army Research Laboratory, which includes the Army Research Office; 2) the Research,
Development and Evaluation Command Research, Development and Engineering Centers; 3) the
Army Corps of Engineers Research and Development Center; 4) the Army Medical Research
and Materiel Command laboratories; and 5) the Army Research Institute.

The basic research program is coordinated with the other Military Services via the Joint
Directors of Laboratories panels, Project Reliance, and other interservice working groups. The
program responds to the scientific and technological requirements of the DoD Basic Research
Plan by enabling the technologies that can significantly improve joint war fighting capabilities.
Projects involve basic research efforts directed toward providing fundamental knowledge for the
solution of military problems related to long-term national security needs. The work is
consistent with Transformation Planning Guidance, the Army Science and Technology Master
Plan (ASTMP), the Army Modernization Plan, and the Defense Technology Area Plan (DTAP).

University and Industry Research Centers. This program leverages research in the private
sector through Collaborative Technology Alliances (CTA), Centers of Excellence, and the
University Affiliated Research Centers. A significant portion of the work performed within this
program directly supports Future Force requirements by providing the enabling technologies
which will make development of Future Force equipment possible. CTAs are innovative
alliances among government, industry and academic organizations to exploit scientific and
technological breakthroughs and to transition these breakthroughs to exploratory development
and applied research. This program includes the Army's Centers of Excellence, which couple
state-of-the-art research programs at academic institutions with broad-based graduate education
programs to increase the supply of scientists and engineers in materials science, electronics and
rotary wing technology. Also included is eCYBERMISSION, the Army national web-based
competition to stimulate interest in science, math and technology in middle and high school
students. This program also includes the Institute for Soldier Nanotechnologies (ISN) at the
Massachusetts Institute of Technology. The ISN will emphasize revolutionary materials research
for advanced soldier protection and survivability. A Biotechnology Center of Excellence was
established in 2003. The Institute for Collaborative Biotechnologies will broaden the Army's use
of biotechnology to non-medical areas such as the development of materials, sensors, and
information processing. The Army's Institute of Creative Technologies (ICT) is also included in
this program. The ICT is a partnership with academia and the entertainment and gaming
industries to leverage innovative research and concepts for training and design. Examples of
specific research of mutual interest to the entertainment industry and the Army are technologies
for realistic immersion in synthetic environments, networked simulation, standards for
interoperability, and tools for creating simulated environments. Historically Black Colleges and
Universities and Minority Institution Centers of Excellence also address critical research areas



DoD Performance and Accountability Report        282                     Part 3: Financial Information
for Army Transformation. Work is consistent with Transformation Planning Guidance, the
ASTMP, the Army Modernization Plan, and the DTAP.

Applied Research:

This program matures technologies for the Army Transformation as related to High Energy
Laser (HEL) weapon systems. Potential HEL weapon system missions in the areas of
Information Dominance and Force Protection include countering airborne electro-optical sensors
and defending against airborne threats, providing a new, low cost per shot, complement to
conventional offensive and defensive weapons. At weapon system power levels, solid-state laser
(SSL) technology has the potential to enhance Future Combat Systems survivability by defeating
Precision Guided Munitions.

A key project within this program is the development of a multi-hundred kilowatt (kW) SSL
laboratory demonstrator. This project will demonstrate a 15-25 kW diode-pumped SSL
breadboard in 2004. By 2005, the Army will evaluate this concept against alternative SSL
technology approaches being supported by the High Energy Laser Joint Technology Office
High-Power Solid-State Laser program. The most promising technology will then be upgraded
to a 100kW SSL laboratory device, scheduled for completion in 2007. The project will continue
to mature the selected SSL technology into a multi-hundred kW laboratory device. The program
element contains no duplication with any effort within the Military Departments. The work is
consistent with Transformation Planning Guidance, the ASTMP, the Army Modernization Plan,
and the DTAP.

Combat Vehicle and Automotive Technology. This program researches, investigates and
applies combat vehicle and automotive technologies that will improve survivability, mobility,
sustainability, and maintainability of Army ground vehicles. As combat vehicle systems become
smaller and lighter to provide the necessary strategic deployability and tactical mobility, one of
the greatest technological and operational challenges is providing adequate protection without
reliance on heavy passive armor. This challenge will be met using a layered approach,
substituting long-range situational awareness, multi-spectral signature reduction, active
protection systems and advanced lightweight armor for conventional armor. This program also
advances technologies for critical power, propulsion and electric components, including energy
storage, power distribution and pulse forming networks. This program adheres to Tri-Service
Reliance Agreements on advanced materials, fuels and lubricants, and ground vehicles, with
oversight and coordination provided by the Joint Directors of Laboratories. This program is
coordinated with the Marine Corps through the Naval Surface Warfare Center and with other
ground vehicle developers within the Departments of Energy, Commerce, Transportation, and
the Defense Advanced Research Projects Agency (DARPA). Work is consistent with
Transformation Planning Guidance, the ASTMP, the Army Modernization Plan, and the DTAP.

Development

Combat Vehicle and Automotive Advanced Technology. The goal of this program is to
mature and demonstrate leap-ahead combat vehicle automotive technologies to realize the

DoD Performance and Accountability Report        283                     Part 3: Financial Information
Army’s vision and enable transformation to the Future Force. The Future Combat System, the
Army’s top priority Science and Technology program, is the primary effort funded here in
support of Army Transformation. A Memorandum of Agreement between the Army and
DARPA delineates the collaborative enabling technologies, cost-shared funding profile and
responsibilities associated with this partnership.

This program supports maturation and demonstration of enabling technologies in the areas of
survivability, mobility and intra-vehicular digital electronics, and funds efforts to integrate and
evaluate diverse vehicle technologies matured by the Army, other DoD agencies, and industry.
These advanced technologies are demonstrated in coordination with Army warfighter
organizations through vehicle component and system level technology demonstrations. The
program adheres to Tri-Service Reliance Agreements on advanced materials, fuels and
lubricants, and ground vehicles with oversight and coordination provided by the Joint Directors
of Laboratories. This program is coordinated with the Marine Corps through the Naval Surface
Warfare Center, the Naval Research Laboratory, Air Force Armaments Command, and other
ground vehicle developers within the Departments of Energy, Commerce, Transportation and
DARPA. Work is consistent with Transformation Planning Guidance, the ASTMP, the Army
Modernization Plan, and the DTAP.

Army Test Ranges and Facilities. This program provides the institutional funding required to
operate the developmental test activities required by Department of the Army weapons systems
developers and Research, Development, and Engineering Centers. This program provides
resources to operate Army’s Major Range and Test Facility Bases: White Sands Missile Range,
New Mexico; Aberdeen Test Center, Aberdeen Proving Ground, Maryland; and Yuma Proving
Ground, Arizona.

This program also provides the resources to operate the Army’s developmental test capability at:
Aviation Technical Test Center, Fort Rucker, Alabama; and Redstone Technical Test Center,
Redstone Arsenal, Alabama. It also provides the resources for test planning and safety
verification and confirmation. Developmental test capabilities at the test range have been
uniquely established, are in place to support test and evaluation requirements of funded weapons
programs, and are required to assure technical performance, adherence to safety requirements,
reliability, logistics supportability, and quality of materiel in development and in production.
This program sustains the developmental test and evaluation capability required to support all
elements of Army Transformation, as well as Joint Service or other Service systems, hardware,
and technologies.

Department of the Navy

Basic Research:

Light Emitting Devices. The first-generation display based on polymers that conduct electric
current and emit light is being produced and distributed for evaluation. These polymers called
“organic light-emitting diodes” (OLED) are self-emissive, by eliminating the need for
background lighting that is used in conventional liquid-crystal displays, yet producing a crisp,

DoD Performance and Accountability Report         284                     Part 3: Financial Information
sharp image. OLEDs also support moving images and offer wider viewing angles without image
inversion or loss of contract ratio. Products using this type of technology have the potential of
producing such items as computer displays, lighted faces of cell phones, and personal digital
assistants.

Designer Proteins. Proteins designed to follow marching orders are the latest in the new field of
“synthetic biology,” where scientists can create certain organisms to perform specific tasks. A
new technology that is being developed would enable plants to change color in the presence of
chemical and biological agents. A new computational method for designing sensor proteins is
the key. Plants that detect groundwater pollution around chemical facilities, for example, and
react by changing color, could be feasible in the near future. A variety of uses are possible from
this research such as a TNT-sensing protein to assist the U.S. Navy’s underwater robots with
locating and disarming explosion devices.

Applied Research:

Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting a recognized need.
This research points toward specific military needs with a view toward developing and
evaluating the feasibility and practicability of proposed solutions and determining their
parameters. Major outputs are scientific studies, investigations, and research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system to include
nonsystem specific development efforts.

The following are two representative program examples for the above major category.

Abrupt Wing Stall. For the past 50 years, all aircraft that can operate at velocities near the
speed of sound, and angles of attack near maximum lift, have experienced some form of
uncommanded lateral motion or abrupt wing stall. The aircraft undergoes a one-sided or side-to-
side upset from the intended direction of flight. At the very least, it causes loss of advantage. At
its worst, it could result in a loss of the aircraft. The question that this project researched was the
following: why did the F/A-018E/F jet fighters experience abrupt wing stall (AWS) when the
F/A-18C/D jet fighters did not? A team of scientists and engineers conducted high-speed wind
tunnel tests, performed hundreds of computational fluid dynamics calculations, and conducted
both piloted and un-piloted simulations of AWS models. An AWS simulation model was
developed and flown on a flight simulator. Both qualitative and quantitative simulation data
were compared with actual flight test results. The team successfully developed new tools and
procedures for an early assessment of an aircraft’s susceptibility to AWS. These tools and
procedures include experimental, computational, simulation, and flight test figures of merit that
can indicate if a new aircraft design will be vulnerable to AWS anywhere in its flight envelope.

Naval-Commercial Test Kit (NACTEK) Water Test Kits. The NACTEK water test kits to
improve the Department of the Navy’s water-quality program. This effort sets an example of
how the Operational Forces, Naval Research Science and Technology Action Team, Office of


DoD Performance and Accountability Report           285                      Part 3: Financial Information
Naval Research program staff, and research scientists can work together as a team to develop a
process that made use of commercial-off-the-shelf products rather than a Navy-developed system
that would require extended development.

Development

Submarine Acoustic Warfare Development. A Submarine Defensive Warfare System is being
developed to improve the effectiveness and survivability of all classes of naval submarines.
Acoustic Interception consist of developing a new acoustic sensor, the Sparsely Populated
Volumetric Array that will improve the performance of acoustic intercept systems. It will also
provide a ranging capability for submarines through Acoustic Rapid commercial-off-the-shelf
Insertion and Advanced Process build software improvements. Next Generation
Countermeasures are also part of this effort.

SSN-688 and Trident Modernization. In this program, the Department of the Navy scientists
continued the design and integration efforts of the Common Submarine Radio Room (CSRR) in
support of the OHIO class submarines. In addition, they began the CSRR conversion of the
TRIDENT Land-Based Evaluation Facility into a CSRR configuration, which will support all
classes of submarines. The scientists also completed environmental and qualification testing
consisting of airborne/structure borne noise, TEMPEST, humidity, overpressure, temperature,
shock, inclination, and drip in support of Multifunctional Crypto System.

Department of the Air Force

Basic Research:

The Air Force’s Basic Research program funded basic scientific disciplines that are core to
developing future warfighting capabilities. Funding was provided to twelve different scientific
project areas. These focused on atmospherics, biological sciences, chemistry, electronics, fluid
mechanics, human performance, materials, mathematical and computer sciences, physics,
propulsion, space sciences, and structures. One example is the development of technology that
could be the breakthrough for a new generation of computers (quantum computers). The Air
Force Research Lab (AFRL) demonstrated the ability to stop light and release it again without
losing any of its original characteristics. This development could lead to a breakthrough in
nonlinear optics with applications from telecommunications to imaging, which could be useful in
designing ultra-sensitive optical switches. In another example, AFRL researchers developed a
new mathematical theory that would result in a new radar wave that would aid in rapid and
accurate target identification through foliage and beneath soil, better than any radar currently in
use.

Applied Research:

The Air Force Applied Research program is developing technologies to support the air and space
force of the future. Technology developments are focused in those areas that are essential to
these warfighting capabilities. This investment strategy allows the Air Force to focus on those

DoD Performance and Accountability Report        286                     Part 3: Financial Information
military-relevant technologies that are not being developed by industry. (1) One example is the
F119 turbine engine case redesign using a new casting process, with a predicted lifecycle cost
savings of 35 percent. The redesign makes extensive use of thin-wall castings in place of the
existing complex, multi-walled, and diffusion-bonded sheet metal assemblies. The Air Force is
now looking at this technology for use on other aircraft engines. Example two, AFRL recently
achieved a milestone in wireless Internet communications with the first commercial installation
of the Space Communications Protocol Standards (SCPS) transport gateway over National
Aeronautics and Space Administration’s Advanced Communications Technology Satellite. The
SCPS transport gateway offers up to several times the bandwidth utilization efficiency of
ordinary internet protocols.

Advanced Technology Development

The Air Force Advanced Technology Development program demonstrates, in a realistic
operational environment, integrated sets of technology to prove military worth and utility. The
first example was the Air Force and DARPA accomplishing the first Unmanned Combat Air
Vehicle flight. This successful flight test demonstrated the command and control links between
the aircraft and a mission-oriented ground station. The AFRL then demonstrated a 330
Gigahertz detector that operates at frequencies billions of times faster than the blink of an eye.
This technology will be used to produce compact solid-state circuits operating at Terahertz
frequencies. Likely technology application would be to enable a new generation of sensors to
enhance homeland security.

Demonstration and Validation – The Air Force Advanced Component Development and
Prototypes programs are comprised of system specific advanced technology integration efforts
accomplished in an operational environment to help expedite transition from the laboratory to
operational use. One example of the AF’s Demonstration and Validation effort is: The
Command and Control System – Consolidated (CCS-C) program. The CCS-C will replace the
aging S-Band Command and Control Segment (CCS) that is currently used for the command and
control of Military Satellite Communications satellites (MILSATCOM) by the 50th Space Wing
(50SW) at Schriever Air Force Base. The CCS-C system selected will drastically reduce the
sustainment costs that would have been needed to maintain the aging CCS and offers tremendous
enhancements to ease our satellite operators’ workload, enabling accurate and efficient control of
MILSATCOM satellites. The system is scheduled to take over command and control of
MILSATCOM satellites at the end of fiscal year 2004. In FY03, the Air Force awarded
contracts for development of Transformational Communications Architecture and approved the
program acquisition strategy and architecture. The Transformational Satcom Program will
develop key technologies such as laser communications, internet-like communications protocols,
and methods of dynamically allocating communications among users. The ultimate goal is a
FY10 first launch of a transformational satellite.

Engineering and Manufacturing Development – The Air Force System Demonstration and
Engineering Development efforts are development projects which have not received approval for
full-production. Examples of such efforts are: (1) The Space Based Infrared System Increment
1 Mission Control Station (MCS) achieved initial operational capability on 18 December 2001.

DoD Performance and Accountability Report        287                     Part 3: Financial Information
The MCS consolidates Defense Support Program operations at Buckley Air Force Base,
Colorado, reducing manpower by 58 percent and operations and maintenance costs by 25
percent. Subsequent upgrades to the MCS throughout fiscal year 2002 resulted in closure of the
Air-Land Enhanced Reconnaissance and Targeting ALERT ground station on 25 September
2002, consolidating all space-based strategic and theater missile warning operations, realizing
additional manpower and Operations and Maintenance funds savings; (2) The Fighter/Attack
(F/A)-22 Program is developing the next generation air dominance fighter designed to penetrate
enemy airspace and achieve a first look, first kill capability against multiple targets. The F/A-
22’s combination of stealth, supercruise, maneuverability, and integrated avionics, coupled with
improved supportability, represents an exponential leap in warfighting capabilities and allows for
the full realization of operational concepts that are vital to the 21st century Air Force. The F/A-
22 will replace the F-15C as the frontline Air Force air superiority fighter with initial operational
capability planned for December 2005. The F/A-22 has been in Engineering and Manufacturing
Development since 1991 and is currently meeting or exceeding all Key Performance Parameters.
Significant program accomplishments in fiscal year 2002 include:

            •   Continued 2nd full-scale airframe lifetime fatigue test

            •   Initiated avionics software Block 3.1.2 FT-3 flight testing

            •   Completed multiple supersonic AMRAAM and AIM-9 missile shots

            •   Exceeded 2000 flight test missions, logging in over 4100 hours on the EMD
                aircraft fleet

The F-35 Joint Strike Fighter program is developing a family of strike fighter aircraft for the Air
Force, Navy, Marine Corps and our allies, with maximum commonality among the variants to
minimize life cycle costs. The Conventional Takeoff and Landing variant will be a multi-role,
primary air-to-ground aircraft to replace the F-16 and A-10 and complement the F/A-22. While
the F/A-22 will establish air dominance, the F-35-with its combination of stealth, large internal
payloads and multi-spectral avionics-will provide persistent stealth and precision engagement to
the future battlespace. The F-35 has been in System Development and Demonstration since 2001
and is currently meeting or exceeding all Key Performance Parameters. In fiscal year 2003, the
program completed the Air System Preliminary Design Review and the Pratt & Whitney F135
Engine Critical Design Review and continued General Electric’s development of a second,
interchangeable engine (F136) for competition in production. Additionally, the program
continued the International Commonality Effort to identify an Operational Requirements
Document compliant configuration for international partners that maximizes commonality with
the U.S. baseline program consistent with National Disclosure Policy.

The B-1B Defensive System Upgrade Program was canceled in December 2002 due to repeated
cost and schedule over-runs. However, the AF continued to improve the B-1B’s effectiveness
through integration of new computers and advanced conventional weapons. Combined
Developmental and Operational Testing (DT/OT) for the new computers completed in July, and
dedicated operational testing completed in December 2002. Testing showed the computers met

DoD Performance and Accountability Report          288                        Part 3: Financial Information
or exceeded all Key Performance Parameters and they were approved for full rate production in
April 2003. Combined DT/OT flight test for the integration of JSOW and JASSM onto the B-1
began in September 2003 and is scheduled to complete in April 2004.

Research, Development, Test and Evaluation Management Support

The Air Force’s Research, Development, Test and Evaluation (RDT&E) Management Support
efforts include projects directed toward support of installation or operations required for general
research and development use. Included would be test ranges, military construction,
maintenance support of laboratories, operation and maintenance of test aircraft and ships, and
studies and analysis in support of the research and development program. An example of an Air
Force RDT&E management support is: The Major Test and Evaluation Investment program,
which funds the planning, improvements and modernization for three national asset test centers
having over $10 billion of unique test facilities/capabilities operated and maintained by the Ai
Force DoD test and evaluation missions, and available to others having a requirement for their
unique capabilities. Many efforts are contained within this program, but two examples are the
Propulsion Wind Tunnel Upgrade at Arnold Engineering Development Center. This effort
replaces outdated data acquisition, processing, and control systems and drive motors. The
second is the Threat Simulator Development program, which supports many of the AF electronic
Warfare Test Processes. Current projects focus on improved Low Radar Cross Section threat
modeling and simulation, and enhanced infrared and radio frequency countermeasures testing.

Operational Systems Development

Operational system efforts include projects in support of development acquisition programs or
upgrades in System Demonstration and Development. Examples of operational systems
development are: (1) AIM9X Sidewinder project, which improves seeker performance, infrared
counter-countermeasures, and kinematics of the AIM-9M short range air-to-air missile. AIM-9X
regains short, within visual range first-shot, first-kill capability for the U.S. warfighter. Test and
Evaluation efforts have been positive, 18 of 19 successful guided launches with 10 direct hits to
target drones.

Other notable accomplishments include completion of flight test activities, such as,
Operations/Operational Evaluation and Developmental Test (DT) assist. A Low Rate Initial
Production contract was awarded November 2002. (2) Another example of Operational Systems
Development is the Airborne Warning and Control System Block 40/45 system upgrade. Block
40/45 replaces the 1970’s vintage mission computer system with an open system, LAN-based
architecture. It also incorporates Multi-Sensor Integration of on-board and off-board sensors into
a real-time database allowing for a “single target-single track” to be displayed to the operator and
transmitted to the shooter. Block 40/45 also incorporates an improved Data Link Infrastructure
that decreases the latency of data link transmissions for high priority targets, thus allowing
targets to be transmitted quickly to the shooter. This upgrade improves machine-to-machine
interfaces that ultimately compress the kill chain timeline and postures the system to more easily
integrate future modifications and support. These future modifications will support horizontal



DoD Performance and Accountability Report          289                      Part 3: Financial Information
integration and network centric operations. Initial System Development and Design began in
2003.

The first of a series of planned upgrades to the B-2 Spirit Bomber entered flight test in FY03.
This bundled package of capability includes the upgraded, or “Smart” Bomb Rack Assembly;
ability to drop the 500 lb Joint Direct Attack Munition Mark 82; ability to drop the Enhanced
Guided Bomb Unit-28 (EGBU-28) bunker buster; and addition of improved voice and data
communication via integration of a programmable UHF satellite communication terminal.
Incorporation of this upgraded package into the fleet will begin in FY04. Development of an
extended range variant of the Wind Corrected Munitions Dispenser (WCMD-ER) was initiated
in FY03. The project extends the range and improves the accuracy of WCMD by adding a wing
kit and integrating GPS into the tail kit for CBU-105 (anti-armor targets) and CBU-103 (soft and
area targets) dispensers.

The AF Space program achieved nine successful launches of military satellites, utilizing Titan
and Delta to launch Milstar-5 and –6, GPS IIR-8 and –9, DSCS A3 and B6, Coriolis, NOAA-M,
and NROL-19. AF launch ranges successfully supported 23 military, civil and commercial
launches, and the Evolved Expendable Launch Vehicle completed three successful Atlas V
launches and three successful Delta IV launches.

Defense Advanced Research Projects Agency (DARPA)

Basic Research:

Brain Machine Interface. The goal of the DARPA Brain Machine Interface effort is to create
new technologies for augmenting human performance by non-invasively accessing neural
patterns in the brain and integrating them directly into peripheral systems or devices. Recent
animal trials have demonstrated the power of the techniques. During 2003, monkeys were taught
to control a computer cursor using a brain-machine interface—a suite of tools that detect brain
activity and calculate the animal’s intentions with respect to arm and hand movement. The
monkeys initially used a joystick to move the cursor to designated positions and achieved
success approximately 89 percent of the time. Gradually, the monkeys learned to use the
interface and the joystick was removed. Using brain-derived signals only, without any
involvement if the joystick, the monkeys were able to move the cursor correctly 85 percent of the
time. In an expansion of the test, the monkeys’ brain signals were interpreted by computer, and
the monkey was able to remotely manipulate a robotic arm located in an adjacent room. Non-
invasive brain signal monitors are the next step on the road to true human computer interaction.

Terahertz Imaging of Shuttle Foam. DARPA’s work in Terahertz Imaging has shown
effectiveness in detecting defects in space shuttle foam insulation, a likely contributor to the
Columbia disaster in February. In tests conducted at Rensselaer Polytechnic Institute, fabricated
defects were detected in 49 out of 57 trials.




DoD Performance and Accountability Report        290                     Part 3: Financial Information
Applied Research:

Language Translation. Progress was made on all fronts of the DARPA computerized speech
and text translation programs. In tests administered by the National Institute of Standards and
Technology, the Text-to-Text translation program was declared the world’s best algorithm for
translating Arabic language news reports to English. Speech-to-Text efforts showed similar
progress, reducing word error rates down from the 50 percent level (where they have hovered for
over a decade) to 13 percent for broadcast news and 18 percent for telephone conversations. The
on-going speech-to-speech program has been successfully deployed to Iraq where the
“phraselator” has been used to translate the medical needs of Iraqi prisoners and for interrogation
purposes.

Fiber Lasers. The goal of the DARPA High Power Fiber Laser program is to develop and
demonstrate high efficiency single mode fiber lasers with output power approaching one kilowatt
from a single aperture. Once demonstrated, the focus will shift to combining multiple fibers
coherently to produce a compact and flexible 100+ kilowatt laser. Lasers of this type could
enable combat platform self-protection and be used to protect theaters or areas of interest against
such threats as cruise missiles, rockets, and unmanned reconnaissance vehicles. During the past
year, DARPA researchers set a world record by demonstrating one-kilowatt continuous wave
output power from a single fiber. This successful test demonstrated the viability of the fiber
laser concept and is an initial step in the ultimate goal of portable, and affordable, laser-based
platform self-protection.

Titanium Initiative. A novel approach to titanium alloy production is being explored by
DARPA. Using an electrolytic process similar to that used in aluminum manufacture, titanium
oxide and other mixed oxides powders are electrically reduced to directly produce high purity
titanium metal and alloys. This process eliminates a number of costly steps in the current
titanium production process, produces billet material without melting, and most intriguingly,
allows for production of new alloys that could not otherwise be synthesized. This low cost
production method opens the door for the expanded use of titanium, particularly for parts and
components in high corrosion environments where the advantages of titanium are clear, but
titanium’s current cost prohibits its use.

Development

Command Post of the Future. The objective of the Command Post of the Future program is to
improve the speed and quality of command decision-making, more effectively communicate
these decisions, and reduce the staff requirements of command posts. The key thrusts of the
program are to develop integrated displays that the commander and his subordinates can observe
simultaneously, to improve and simplify human-computer interactions and commands, to enable
collaborative communications through both voice and visual modes, and to package the
components in a modular, ruggedized package. Success has been achieved. The system, now
known as the BattleBoard, has been developed, tested and packaged for Service use and has been
evaluated by the Army’s Stryker Brigade Combat Team. In addition, prototype units are also
planned for deployment into Iraq in the fourth quarter of FY 2003.

DoD Performance and Accountability Report         291                     Part 3: Financial Information
Semi-Conductor Ultraviolet Laser Radar (LIDAR) Bio-Sensor. DARPA’s Semiconductor
Ultraviolet Optical Sources (SUVOS) program has demonstrated the world’s first ultraviolet
LIDAR biological agent sensor using a semiconductor ultraviolet laser diode as a source.
SUVOS components are miniaturized and operate effectively at room temperature, lending
themselves to hand-held and micro-air vehicle applications. The program holds the promise for
high confidence stand-off detection of biological weapons as demonstrated in a recent test where
the system was able to detect and distinguish an anthrax simulant intermixed with several
common interferents from a range of 20 meters.

Future Combat System. The joint DARPA/Army Future Combat System is developing a
rapidly deployable, mobile-networked force consisting of a command, control, communications
module, autonomous robotic systems, precision direct and indirect fires, airborne and ground
organic sensors, and adverse weather reconnaissance, surveillance, targeting and acquisition
capability. By leveraging advanced networking capability, these systems can be dispersed and
yet function as a cohesive whole, and by their modular nature, they can be recombined as needed
for specific missions. Substantial progress has been made to date. During FY 2003, the system
was approved to begin System Development and Demonstration, a lead system integrator was
chosen and spiral development plan finalized. At the component technology level, the Netfires
direct/indirect fires portion of the FCS, successfully conducted test flights of the Precision Attack
Missile. The test represented the nation’s first successful flight of a solid rocket motor with
variable thrust propulsion. It flew for two minutes, traveled 19 kilometers, and hit within one
meter of the target. In addition, FCS communications and networking technology was
successfully demonstrated. The test was particularly stressing since it required integration of a
number of dissimilar tactical radios of significantly varying capability.




DoD Performance and Accountability Report          292                     Part 3: Financial Information
        Required Supplementary
              Information




DoD Performance and Accountability Report
                        Disaggregated Statement of Budgetary Resources
                                Budgetary Financing Accounts

                                                                     Research,
            Department of Defense             Military              Development,              Operation
      Year Ending September 30, 2003         Retirement                Test &        Civil      and        Procure-
                ($ in millions)                 Fund      Other      Evaluation     Works Maintenance       ment
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $ 64,921.0 $ 62,469.2 $      55,915.9 $ 7,652.9 $ 163,102.7 $ 75,527.6
 Borrowing Authority
 Contract Authority                                           482.9
 Net Transfers (+/-)                                      (9,815.6)        (616.7)     161.0       7,155.5   2,669.1
 Other
Unobligated Balance
 Beginning Of Period                           169,269.3    6,758.3        5,992.0 1,741.0         4,879.1 15,192.7
 Net Transfers, Actual (+/-)                                (947.6)         (64.8)                   936.9      61.0
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
  Collected                                                 1,997.7        6,155.0 5,065.6        19,267.8   1,976.0
  Receivable From Federal Sources                             162.1        (297.2)    (74.8)     (1,413.1)     182.2
 Change In Unfilled Customer Orders
  Advance Received                                           (33.6)          152.0    (16.3)        (23.6)      13.4
  Without Advance From Federal Sources                         26.8          240.9     262.1       3,316.5     286.9
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
 Subtotal                                                   2,152.9        6,250.7 5,236.6        21,147.7   2,458.5
Recoveries Of Prior Year Obligations                        1,284.1        2,387.5                12,975.3   2,829.4
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available                                   (102.6)        (798.5)      (8.7)    (2,426.0) (1,397.1)
Total Budgetary Resources                      234,190.3   62,281.6       69,066.1 14,782.8     207,771.2 97,341.2
Status Of Budgetary Resources
Obligations Incurred
 Direct                                         39,978.9   48,754.5       55,572.5 5,516.4      180,437.0 74,001.0
 Reimbursable                                               1,654.1        6,678.0 5,033.7        23,009.5   2,091.3
 Subtotal                                       39,978.9   50,408.6       62,250.5 10,550.1     203,446.5 76,092.3
Unobligated Balance
 Apportioned                                        31.7    9,021.2        6,974.2 1,387.8         1,192.2 20,925.1
 Exempt From Apportionment                     176,028.9    1,830.4                  2,844.9
 Other Available
Unobligated Balances Not Available              18,150.8    1,021.4        (158.6)        0.0      3,132.5     323.8
Total, Status Of Budgetary Resources           234,190.3   62,281.6       69,066.1 14,782.8     207,771.2 97,341.2
Relationship Of Obligations To Outlays:
Obligated Balance, Net - Beginning Of Period     3,135.1   12,176.2       22,015.5 1,047.3        43,545.3 70,574.9
Obligated Balance Transferred, Net (+/-)                                      (4.4)                 (19.5)
Obligated Balance, Net - End Of Period
 Accounts Receivable                                        (156.6)        (644.5)   (160.6)     (2,280.3)   (583.7)
 Unfilled Customer Order From Federal                       (163.6)      (2,018.7) (1,635.3)     (7,646.3) (1,416.1)
 Sources

DoD Performance and Accountability Report            293                      Part 3: Financial Information
                        Disaggregated Statement of Budgetary Resources
                           Budgetary Financing Accounts (Continued)
                                                                       Research,
           Department of Defense             Military                 Development,              Operation
     Year Ending September 30, 2003         Retirement                   Test &      Civil        and      Procure-
                ($ in millions)               Fund         Other       Evaluation    Works     Maintenance  ment
BUDGETARY RESOURCES
 Undelivered Orders                               161.8     4,078.1       25,322.1   1,628.9        65,710.9    73,993.4
 Accounts Payable                               3,069.0     5,655.5        2,457.3   1,174.6        12,931.1     2,425.9
Outlays
 Disbursements                                 39,883.2     51,698.5       56,814.2 10,402.5      163,378.1      68,949.3
 Collections                                               (1,964.3)      (6,307.0) (5,049.3)     (19,244.2)    (1,989.4)
 Subtotal                                       39,883.2    49,734.2       50,507.2 5,353.2       144,133.9      66,959.9
Less: Offsetting Receipts                     (40,693.6)   (1,292.7)                  (904.2)        (246.8)
Net Outlays                                 $    (810.4) $ 48,441.5 $      50,507.2 $ 4,449.0 $   143,887.1 $   66,959.9




DoD Performance and Accountability Report            294                        Part 3: Financial Information
                         Disaggregated Statement of Budgetary Resources
                            Budgetary Financing Accounts (Continued)

         Department of Defense                                   Military        Working
     Year Ending September 30, 2003               Military     Construction/     Capital          2003           2002
             ($ in millions)                     Personnel       Family           Fund          Combined       Combined
                                                                 Housing
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $    108,471.1 $        7,064.6 $      1,636.4 $    546,761.4 $     415,113.9
 Borrowing Authority
 Contract Authority                                                                27,626.1       28,109.0         2,318.0
 Net Transfers (+/-)                                  590.9             11.2          844.9        1,000.3           986.6
 Other
Unobligated Balance
 Beginning Of Period                                  569.8          3,462.2        9,857.9      217,722.3       210,128.9
 Net Transfers, Actual (+/-)                          328.0           (79.0)         (30.2)          204.3         9,107.7
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
  Collected                                          1,485.4         2,838.0       96,801.7      135,587.2       117,942.4
  Receivable From Federal Sources                       21.9          (43.4)          747.7        (714.6)        (1,116.6)
 Change In Unfilled Customer Orders
  Advance Received                                                     102.3        (224.8)         (30.6)           185.9
  Without Advance From Federal Sources                (55.9)           946.6        5,977.0       11,000.9         3,576.2
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
 Subtotal                                            1,451.4         3,843.5      103,301.6      145,842.9       120,587.9
Recoveries Of Prior Year Obligations                 2,259.7           494.0          611.9       22,841.9        15,293.1
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available                           (653.2)          (135.1)     (28,209.2)      (33,730.4)       (7,954.7)
Total Budgetary Resources                         113,017.7         14,661.4     115,639.4       928,751.7       765,581.4
Status Of Budgetary Resources
Obligations Incurred
 Direct                                           110,582.0          6,371.7        1,348.4      522,562.4       420,239.6
 Reimbursable                                       1,469.5          3,756.0      103,455.7      147,147.8       128,030.3
 Subtotal                                         112,051.5         10,127.7      104,804.1      669,710.2       548,269.9
Unobligated Balance
 Apportioned                                          329.1          4,459.7       10,731.0       55,052.0        40,917.6
 Exempt From Apportionment                                                                       180,704.3       171,560.5
 Other Available                                                                                      (0.1)           (0.1)
Unobligated Balances Not Available                    637.1             74.0          104.3       23,285.3         4,833.5
Total, Status Of Budgetary Resources              113,017.7         14,661.4      115,639.4      928,751.7       765,581.4
Relationship Of Obligations To Outlays:
Obligated Balance, Net - Beginning Of Period         6,230.9         7,459.7       15,734.5      181,919.4       162,829.3
Obligated Balance Transferred, Net (+/-)                                                            (23.9)
Obligated Balance, Net - End Of Period
 Accounts Receivable                                 (591.0)          (114.6)     (5,685.1)      (10,216.4)     (10,929.3)
 Unfilled Customer Order From Federal                    1.0        (3,808.2)    (21,734.9)      (38,422.1)     (27,421.1)
 Sources

DoD Performance and Accountability Report                295                          Part 3: Financial Information
                        Disaggregated Statement of Budgetary Resources
                           Budgetary Financing Accounts (Continued)

           Department of Defense                         Military         Working
     Year Ending September 30, 2003          Military  Construction/      Capital        2003          2002
                ($ in millions)             Personnel Family Housing       Fund        Combined      Combined
BUDGETARY RESOURCES
 Undelivered Orders                               617.6     10,687.5        31,397.5    213,597.8       176,183.8
 Accounts Payable                               7,798.2        592.3        13,308.7     49,412.6        45,789.1
Outlays
 Disbursements                                108,231.0       8,833.1       95,915.9    604,105.8    509,723.7
 Collections                                   (1,485.4)    (2,940.3)     (96,576.9)  (135,556.8)  (118,128.2)
 Subtotal                                     106,745.6       5,892.8        (661.0)    468,549.0    391,595.5
Less: Offsetting Receipts                        (156.7)                               (43,294.0)   (45,593.8)
Net Outlays                                 $ 106,588.9 $     5,892.8 $      (661.0) $ 425,255.0 $ 346,001.7




DoD Performance and Accountability Report            296                       Part 3: Financial Information
                        Disaggregated Statement of Budgetary Resources
                              Non-Budgetary Financing Accounts

                                                                      Research,
            Department of Defense              Military             Development,           Operation
      Year Ending September 30, 2003         Retirement                Test &      Civil     and     Procure-
                ($ in millions)                 Fund      Other       Evaluation   Works Maintenance   ment
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $          $           $            $       $           $
 Borrowing Authority                                           50.5
 Contract Authority
 Net Transfers (+/-)
 Other
Unobligated Balance
 Beginning Of Period                                         103.9
 Net Transfers, Actual (+/-)
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
  Collected                                                    56.3
  Receivable From Federal Sources                            (90.0)
 Change In Unfilled Customer Orders
  Advance Received
  Without Advance From Federal Sources                         35.8
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
 Subtotal                                                       2.1
Recoveries Of Prior Year Obligations                            1.9
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available                                     (0.2)
Total Budgetary Resources                                    158.2
Status Of Budgetary Resources
Obligations Incurred
 Direct                                                      136.4
 Reimbursable
 Subtotal                                                    136.4
Unobligated Balance
 Apportioned                                                    1.3
 Exempt From Apportionment
 Other Available
Unobligated Balances Not Available                             20.6
Total, Status Of Budgetary Resources                         158.3
Relationship Of Obligations To Outlays:
Obligated Balance, Net - Beginning Of Period                 (95.1)
Obligated Balance Transferred, Net (+/-)
Obligated Balance, Net ? End Of Period
 Accounts Receivable                                          (0.6)
 Unfilled Customer Order From Federal                        (35.8)
 Sources

DoD Performance and Accountability Report         297                      Part 3: Financial Information
                        Disaggregated Statement of Budgetary Resources
                        Non-Budgetary Financing Accounts (Continued)
                                                                         Research,
           Department of Defense             Military                   Development,                Operation
     Year Ending September 30, 2003         Retirement                     Test &          Civil      and      Procure-
                ($ in millions)               Fund           Other       Evaluation        Works   Maintenance  ment
BUDGETARY RESOURCES
 Undelivered Orders                                              66.3
 Accounts Payable
Outlays
 Disbursements                                                   63.6
 Collections                                                   (56.3)
 Subtotal                                                         7.3
Less: Offsetting Receipts
Net Outlays                                 $            $           7.3 $             $           $              $




DoD Performance and Accountability Report            298                          Part 3: Financial Information
                        Disaggregated Statement of Budgetary Resources
                        Non-Budgetary Financing Accounts (Continued)

            Department of Defense                           Military      Working
      Year Ending September 30, 2003           Military   Construction/   Capital         2003             2002
                ($ in millions)               Personnel Family Housing     Fund         Combined         Combined
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $          $               $           $                $
 Borrowing Authority                                                                         50.5              44.2
 Contract Authority
 Net Transfers (+/-)
 Other
Unobligated Balance
 Beginning Of Period                                                                        103.9               5.9
 Net Transfers, Actual (+/-)
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
  Collected                                                                                   56.3             22.4
  Receivable From Federal Sources                                                           (90.0)             90.6
 Change In Unfilled Customer Orders
  Advance Received
  Without Advance From Federal Sources                                                       35.8
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
 Subtotal                                                                                     2.1             113.0
Recoveries Of Prior Year Obligations                                                          1.9
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available                                                                    (0.2)
Total Budgetary Resources                                                                   158.2             163.1
Status Of Budgetary Resources
Obligations Incurred
 Direct                                                                                     136.4             142.4
 Reimbursable
 Subtotal                                                                                   136.4             142.4
Unobligated Balance
 Apportioned                                                                                  1.3                   .7
 Exempt From Apportionment
 Other Available
Unobligated Balances Not Available                                                           20.6              20.0
Total, Status Of Budgetary Resources                                                        158.3             163.1
Relationship Of Obligations To Outlays:
Obligated Balance, Net - Beginning Of Period                                                (95.1)
Obligated Balance Transferred, Net (+/-)
Obligated Balance, Net ? End Of Period
 Accounts Receivable                                                                         (0.6)            (90.6)
 Unfilled Customer Order From Federal                                                       (35.8)
 Sources



DoD Performance and Accountability Report           299                       Part 3: Financial Information
                        Disaggregated Statement of Budgetary Resources
                        Non-Budgetary Financing Accounts (Continued)

           Department of Defense                         Military          Working
     Year Ending September 30, 2002          Military  Construction/       Capital      2003             2002
                ($ in millions)             Personnel Family Housing        Fund      Combined         Combined
BUDGETARY RESOURCES
 Undelivered Orders                                                                           66.3              89.6
 Accounts Payable                                                                                                 .7
Outlays
 Disbursements                                                                                63.6               52.0
 Collections                                                                                (56.3)             (22.4)
 Subtotal                                                                                      7.3               29.6
Less: Offsetting Receipts
Net Outlays                                 $         $                $               $       7.3 $            29.6




DoD Performance and Accountability Report           300                        Part 3: Financial Information
                             General Property Plant and Equipment
                          Real Property Deferred Sustainment Tables
                        As of September 30, 2003 (Amount in Thousands)

Fiscal Year 2003 Annual Sustainment

The sustainment requirements are based on the Department of Defense Facilities Sustainment
Model, version 3.0. The buildings, structures, and utilities include projects funded from multiple
funding sources (general operations and maintenance funds, family housing operations, and working
capital funds.) Additional details on the methodologies used can be found in the individual financial
statements prepared by the Army (to include the Army Corps of Engineers), Navy, and Air Force.
The Department continues to refine its methods for determining sustainment and restoration &
modernization requirements.

                                                                          Restoration      Restoration
      Property Type             Required      Actual       Difference       Prior (1)       Ending (1)
Buildings & Structures (2)     $7,307,000   $5,752,000    ($1,555,000)    $41,200,000      $54,900,000

Annual Deferred Sustainment Trend ($K)
                         (Army Only)
     Property Type         FY 2000                FY 2001               FY 2002                  FY 2003
Buildings and Structures  ($629,000)            ($2,036,000)          ($1,762,000)             ($1,555,000)

    (1) Restoration requirements are reported only for the Army and Air Force (Navy, Marine
        Corps, and Defense Agencies cannot be reported at this time).
    (2) Buildings and structures include facilities funded from multiple funding sources (general
        operations and maintenance funds, family housing operations and maintenance funds, and
        working capital funds, for example). See the individual statements from the Military
        Departments regarding coverage.

As previously reported, the Department is transitioning to new methods for tracking deferred
annual sustainment as well as unfunded restoration and modernization requirements. In the
deferred sustainment trend table, this report adjusts earlier DoD estimates using data provided by
the military departments. These estimates will be adjusted in the future as the Department
implements common condition reporting standards and restoration cost estimation
methodologies. Detail sustainment by reporting entities can be found below:

The Army Corps of Engineers Civil Works reported an Operation and Maintenance Backlog of
$772,000,000. This amount was not included in the tables above since the DoD Facilities
Sustainment Model is not applicable to a significant portion of the type of projects undertaken by
the Army Corps of Engineers (e.g., navigation and flood damage reduction). Deferred
maintenance at Civil Works water resources projects, operated and maintained by the U.S. Army
Corps of Engineers, was determined through the budget development process whereby
operations managers identify the operation and maintenance (O&M) needs at each project in the
Civil Works inventory. O&M needs are based on inspections of project features, engineering
analyses and historical experience.


DoD Performance and Accountability Report        301                     Part 3: Financial Information
Army Corps of Engineers Civil Works Operation & Maintenance backlog trend:

(Dollars in Millions)
     FY 1998      FY 1999        FY 2000    FY 2001    FY 2002      FY 2003       FY 2004
        171           399          329        415        702          772          1,011

       FY2003 Annual Sustainment                   Annual Deferred Sustainment Trend
Department Required Actual Difference           Department    FY 00     FY 01    FY02                    FY03
Army          $3,046 $2,254      ($792)        Army           ($629) ($1,167) ($913)                    ($792)
Navy/MC        1,857   1,511      (346)        Navy/MC          NR       (501)     (40)                  (346)
Air Force      2,404   1,987      (417)        Air Force        NR       (368)    (809)                  (417)
Total         $7,307 $5,752 ($1,555)           Total          ($629) ($2,036) ($1,762)                 ($1,555)

                       Restoration & Modernization Requirements
                       Department      FY02      FY03    Change
                      Army            $20,200   $26,500 ($6,300)
                      Navy/MC           NR           NR       NR
                      Air Force       21,000      28,400  (7,400)
                      Total           $41,200   $54,900 ($13,700)
                      NR = Not Reported

                            General Property Plant and Equipment
                       Deferred Maintenance Military Equipment Tables
                       As of September 30, 2003 (Amount in Thousands)

                                   Major Type           Amounts
                            Aircraft                  $   221,454
                            Ships                          49,533
                            Missiles                      116,625
                            Combat Vehicles               122,226
                            Other Weapon Systems          434,037
                            Total                     $   943,875

Depot maintenance requirements for military equipment are developed during the annual budget
process. The depot maintenance requirements for individual items are determined by
considering numerous factors. Analysis factors include: changes in the fleet size or in-use
inventory; the date of last overhaul or operating hours since last overhaul; the current
maintenance engineering plan expressed as a time interval or as an operational factor; and the
planned operating tempo expressed in miles, flying hours, or steaming hours.

The depot maintenance cost for each major program is determined using costing models. Fiscal
constraints determine requirements that are funded. The deferred maintenance numbers reported
in the table above reflect the difference. The DoD Components’ financial statements contain
detailed information on each program.


DoD Performance and Accountability Report       302                    Part 3: Financial Information
                                         Defense     Defense    Joint           Defense     Defense      Defense       U.S.               Total
                                       Information Commissary Logistics         Security    Logistics   Finance & Transportation
     As of September 30, 2003            Systems     Agency    Systems          Service     Agency      Accounting  Command
           ($ in Millions)               Agency               Command                                    Services
              PART A.
1. Fund Balance                         $        0.0 $     104.5 $       0.0 $         0.0 $      0.0 $         0.0 $         1,742.2 $ 1,846.7
2. Accounts Receivable                         344.5        53.4         0.0           2.5    2,002.3          21.4           1,260.0    3,684.1
3. Property Plant and Equipment                294.7        22.3       118.9          36.4    1,519.7         898.8           1,140.0    4,030.8
4. Other Assets                                  1.6       445.4         0.0           0.2   12,384.3           0.0              80.8 12,912.3
5. TOTAL ASSETS                         $      640.8 $     625.6 $     118.9 $        39.1 $ 15,906.3 $       920.2 $         4,223.0 $ 22,473.9

6. Liabilities Due and Payable for      $      757.0 $     537.2 $          3.6 $     56.7 $   2,405.6 $      201.6 $         1,123.2 $    5,084.9
Goods and Services Received
7. Deferred Revenue                               0.0        0.0            0.0      179.2       119.0          0.0              21.1        319.3
8. Other Liabilities                            (4.7)      319.3            0.4       40.0       623.4        145.4             221.3      1,345.1
9. TOTAL LIABILITIES                    $      752.3 $     856.5 $          4.0 $    275.9 $   3,148.0 $      347.0 $         1,365.6 $    6,749.3

10. Unexpended Appropriations           $        0.0 $    (136.3) $      0.0 $          0.0 $      0.0 $        0.0 $             0.0 $ (136.3)
11. Cumulative Results of Operations         (111.5)       (94.6)      114.9        (236.8)   12,758.3        573.2           2,857.4 15,860.9
12. TOTAL NET POSITION                       (111.5)      (230.9)      114.9        (236.8)   12,758.3        573.2           2,857.4 15,724.6
13. TOTAL LIABILITIES & NET             $      640.8 $      625.6 $    118.9 $         39.1 $ 15,906.3 $      920.2 $         4,223.0 $ 22,473.9
    POSITION

              PART B.
1. The Full Cost of Goods and           $    2,627.4 $   6,150.8 $          0.0 $ 25,227.4 $     369.0 $    1,736.9 $         8,160.1 $ 44,271.6
Services Provides
2. The Related Exchange Revenue             (2,733.8)   (5,070.6)           0.0 (24,002.2)     (298.8)     (1,471.4)        (8,952.0) (42,528.8)
3. The Excess of Costs Over             $     (106.4) $   1,080.2 $         0.0 $ 1225.2 $       70.2 $       265.5 $         (791.9) $ 1,742.8
   Exchange Revenue

Amounts are net of Intra-segment eliminations.




DoD Performance and Accountability Report                             303                                       Part 3: Financial Information
Narrative Related to Segment Information

•   Defense Information Systems Agency

    The Defense Information Systems Agency (DISA) – Is a Defense Working Capital Fund
    (DWCF) entity. The Defense Megacenters and the Communications Information Services
    Activity provide data processing, telecommunication, and information systems service and
    support to the Department and other federal government customers under a revolving fund
    concept. These funds are represented by fund symbol 97X4930. DISA's major customers
    are Army, Navy, Air Force, DLA, and DFAS.

•   Defense Commissary Agency

    The Commissary Operations Fund finances the cost of operations for resale stores, command
    and region headquarters, and the operations support center. This fund also receives
    appropriated funds annually.

    The Commissary Resale Stock Fund finances the purchases of inventory for resale items to
    be sold to commissary patrons. Revenues from sales are used to replace inventory sold. The
    Defense Commissary Agency is one of four Department entities to get a clean audit opinion.

•   Joint Logistics Systems Center

    On August 18, 1997, the Acting Under Secretary of Defense (Comptroller) approved the
    decision to terminate Joint Logistics Systems Center. All of its programs and responsibilities
    were returned to the individual components. FY 2003 is the sixth year JLSC operated as a
    residual activity. There was minimal financial activity during fiscal year 2003.

•   Defense Security Service

    Effective October 1, 1998, Defense Security Service (DSS) was transferred from a direct
    appropriation to a separate activity group in the DWCF. This transfer also reflected a name
    change from the Defense Investigative Service to the DSS. Full implementation of the DSS
    as a DWCF began with FY 2000.

    The DSS was chartered to administer two major programs: Personnel Security Investigations
    (PSI) and National Industrial Security Programs (NISP). The mission of the PSI program is
    to conduct background investigations on individuals assigned to or affiliated with the
    Department. The purpose of the NISP is to ensure that private industry, while performing on
    government contracts, properly safeguards classified information in its possession. The DSS
    also administers the Key Asset Protection Program and the Arms, Ammunition, and
    Explosives Program.




DoD Performance and Accountability Report        304                     Part 3: Financial Information
•   Defense Logistics Agency

    The Defense Logistics Agency (DLA) is a combat support agency responsible for worldwide
    logistics support throughout the DoD. The primary focus of DLA is to provide logistics
    support to the war fighter. In addition, DLA provides support to relief efforts during times of
    national emergency. DLA's major DoD customers are the Army, Navy, and Air Force.
    Other major federal government customers include the Department of Agriculture, and the
    Department of Transportation. The DLA organization has five active entity sub-
    organizations funded through the DWCF. These sub-organizations are referred to as activity
    groups and are as follows:

    The Supply Management Activity Group (Supply), appropriation symbol 97X4930.5C, helps
    carry out its mission by procuring, managing and supplying over three billion consumable
    items to Military Departments, other DoD Components, federal agencies and selected foreign
    governments.

    The Distribution Depot Activity Group (Distribution), appropriation symbol 97X4930.5B,
    receives, stores and distributes commodities, principal end items, and depot level reparables
    for the Military Departments, other DoD Components, federal agencies, and selected foreign
    governments.

    The Defense Reutilization and Marketing Service Activity Group (DRMS), appropriation
    symbol 97X4930.5N, provides utilization services which include receiving, classifying,
    segregating, demilitarizing, accounting for and reporting excess material for screening,
    lotting, merchandising, and sale. They also have the mission of hazardous property disposal
    and the economic recovery of precious metals from excess and surplus precious metal-
    bearing material.

    The Information Services Activity Group, appropriation symbol 97X4930.5F50, provides
    information management support. The mission of this information services business is to
    provide integrated information management support by delivering products and services of
    increasing quality and decreasing cost, on time and within budget.

    The Defense Automated Printing Service Activity Group (DAPS), appropriation symbol
    97X4930.5G, is responsible for document automation and printing within the DoD,
    encompassing electronic conversion, retrieval, output, and distribution of digital and
    hardcopy.

•   Defense Finance and Accounting Service

    Defense Finance and Accounting Service (DFAS) was created in 1991. The mission of
    DFAS is to provide responsive, professional finance and accounting service to the
    Department. DFAS has prepared the annual financial statements as required by the CFO Act
    and the GMRA since 1994. The DFAS is one of four Department entities to get a clean audit
    opinion.


DoD Performance and Accountability Report         305                     Part 3: Financial Information
•   U.S. Transportation Command

    Secretary of Defense memorandum, dated February 14, 1992, prescribed the creation of a
    consolidated service transportation command. United States Transportation Command
    (USTRANSCOM) represents the single DoD financial manager for all common-user
    transportation. Its components include Headquarters, USTRANSCOM (HQTRANS);
    Military Traffic Management Command (MTMC); Military Sealift Command (MSC); Air
    Mobility Command (AMC); and, Defense Courier Service (DCS). The Army and Navy
    continue to manage their own service-unique transportation functions.




DoD Performance and Accountability Report      306                   Part 3: Financial Information
Intragovernmental Accounts

The intragovernmental amounts displayed in the following schedules, Part A, B, and C represent
transactions between the Department and other federal entities.

Schedule, Part A: DoD Intragovernmental Entity Assets as of September 30, 2003
Balances reflect amounts on the books of DoD Components in regard to transactions with other federal entities
                                     Treasury Fund Balance   Accounts
(Amounts in Millions)                                                                         Investments:      Other:
                                      Index   With Treasury Receivable
Government Printing Office              04                          0.2
General Accounting Office               05                          1.6
Executive Office of the President       11                         41.1
Department of Agriculture               12                         18.5
Department of Commerce                  13                          8.1
Department of the Interior              14                        344.3                                           105.0
Department of Justice                   15                         49.8
Department of Labor                     16                          7.3
United States Postal Service            18                          0.4
Department of State                     19                         90.3
Department of the Treasury              20         252,062.2       25.8                             205,376.0
Social Security Administration          28                          0.2
Federal trade Commission                29                          2.8
Nuclear Regulatory Commission           31                          0.1
Smithsonian Institution                 33                          1.8
Department of Veterans Affairs          36                         13.1
General Service Administration          47                         20.5
National Science Foundation             49                         26.5
Central Intelligence Agency             56                         10.0
Federal Emergency Management Agency     58                         21.6
Tennessee Valley Authority              64                          0.1
Environmental Protection Agency         68                         29.9
Department of Transportation            69                        165.2
Homeland Security                       70                         17.6
Agency for International Development    72                         10.6
Department of Health and Human          75                         35.1
Services
Independent Agencies                    76                          1.4
National Aeronautics and Space          80                         41.4
Administration
Armed Forces Retirement Home            84                          0.5
Department of Housing and Urban         86                         12.9
Development
Department of Energy                    89                         27.4
Selective Service System                90                          7.9
Department of Education                 91                          1.8
Independent Agencies                    95                         23.2
The General Fund of the Treasury        99                          7.4
Total                                             $252,062.2   $1,066.4                            $205,376.0    $105.0


DoD Performance and Accountability Report                   307                           Part 3: Financial Information
Schedule, Part B: DoD Intragovernmental Entity Liabilities as of September 30,
2003
Balances reflect amounts on the books of DoD Components in regard to transactions with other federal entities
                                                 Treasury       Accounts       Debts/Borrowings
(Amounts in Millions)                             Index         Payable:     From Other Agencies:
                                                                                                            Other:
Library of Congress                                 03                 $0.1
Government Printing Office                          04                   0.2
The Judiciary                                       10                   0.1
Executive Office of the President                    11                                                            $25.8
Department of Agriculture                            12                  1.3                                         3.8
Department of Commerce                               13                  4.0                                         3.4
Department of the Interior                           14                 17.5                                         3.6
Department of Justice                                15                  0.9                                        26.7
Department of Labor                                  16                                                          1,583.8
United States Postal Service                         18                  0.2                                        10.1
Department of State                                  19                  0.8                                         3.7
Department of the Treasury                           20                  1.3                   $698.2            3,053.4
Office of Personnel Management                       24                  5.8                                       302.6
Social Security Administration                       28                                                              0.3
Nuclear Regulatory Commission                        31                                                              0.1
Smithsonian Institution                              33                                                              1.4
Department of Veterans Affairs                       36                  0.8                                         0.3
General Service Administration                       47                 53.3                                         1.0
National Science Foundation                          49                  0.2                                        19.1
Federal Emergency Management Agency                  58                                                              0.3
National Foundation on the Arts and                  59                                                              0.2
Humanities
Tennessee Valley Authority                           64                  2.7
Environmental Protection Agency                      68                  0.5                                          1.7
Department of Transportation                         69                  0.7                                         11.1
Homeland Security                                    70                  0.2                                          8.9
Agency for International Development                 72                                                               0.3
Department of Health and Human Services              75                  0.8                                         25.5
National Aeronautics and Space                       80                  0.1                                         22.3
Administration
Department of Housing and Urban                      86                                                               3.0
Development
Department of Energy                                 89                  2.9                                        89.4
Department of Education                              91                                                              6.1
Independent Agencies                                 95                                                              0.4
The General Fund of the Treasury                     99                  7.4                                     4,530.6
Total                                                                 $101.8                   $698.2           $9,738.9




DoD Performance and Accountability Report                   308                           Part 3: Financial Information
Schedule, Part C: DoD Intragovernmental Revenues as of September 30, 2003
Balances reflect amounts on the books of DoD Components in regard to transactions with other federal entities
                                                                       Treasury                 Earned
(Amounts in Millions)                                                    Index                 Revenue
Government Printing Office                                                  04                                 $1.1
General Accounting Office                                                   05                                   0.9
Executive Office of the President                                           11                                142.1
Department of Agriculture                                                   12                                 99.1
Department of Commerce                                                      13                                 42.2
Department of the Interior                                                  14                                 67.8
Department of Justice                                                       15                                309.7
Department of Labor                                                         16                                 13.3
United States Postal Service                                                18                                   5.9
Department of State                                                         19                                148.7
Department of the Treasury                                                  20                             10,439.2
Office of Personnel Management                                              24                                   0.3
Social Security Administration                                              28                                   3.4
Nuclear Regulatory Commission                                               31                                   1.9
Smithsonian Institution                                                     33                                   5.0
International Trade Commission                                              34                                   0.1
Department of Veterans Affairs                                              36                                 48.9
General Service Administration                                              47                                 56.3
National Science Foundation                                                 49                                 93.6
Central Intelligence Agency                                                 56                                   1.8
Federal Emergency Management Agency                                         58                                 85.2
National Foundation on the Arts and Humanities                              59                                   0.2
Consumer Product Safety Commission                                          61                                   0.2
Tennessee Valley Authority                                                  64                                   0.2
United States Information Agency                                            67                                 (0.1)
Environmental Protection Agency                                             68                                130.7
Department of Transportation                                                69                                876.9
Homeland Security                                                           70                                132.7
Agency for International Development                                        72                                 36.8
Department of Health and Human Services                                     75                                152.3
Independent Agencies                                                        76                                 18.1
National Aeronautics and Space Administration                               80                                331.7
Armed Forces Retirement Home                                                84                                   1.7
Department of Housing and Urban Development                                 86                                   8.2
Department of Energy                                                        89                                110.6
Selective Service System                                                    90                                   3.6
Department of Education                                                     91                                   2.6
Independent Agencies                                                        95                                 69.3
The General Fund of the Treasury                                            99                               (11.7)
Total                                                                                                     $13,430.5




DoD Performance and Accountability Report                 309                         Part 3: Financial Information
Schedule, Part D: DoD Agency-wide Intragovernmental Gross as of
September 30, 2003
(Amounts in Millions)                      Budget
                                                        Function Code                 Gross Cost
Department of Defense Military                               051                                   $10,728.5
Water Resources by U.S. Army Corps of                        301                                       758.5
Pollution Control and Abatement by U.S. Army Corps
of Engineers                                                304                                          2.4
Veterans Education, Training, and Rehabilitation by
Department of Defense Education Benefits
                                                            702                                        258.8
Total                                                                                              $11,748.2



Schedule, Part E: DoD Intragovernmental Nonexchange Revenues as of
September 30, 2003
                                                       Treasury      Revenue               Revenue
(Amounts in Millions)                                   Index       Transfers-in         Transfers-out
Executive Office of the President                         11                $466.0
Department of the Interior                                14                   56.9                     56.6
Department of the Treasury                                20                  833.3                     10.0
General Service Administration                            47                                             0.3
Tennessee Valley Authority                                64                                             0.1
Department of Energy                                      89                    0.6
The General Fund of the Treasury                          99                  670.5                   687.4
Total                                                                      $2,027.3                  $754.4




DoD Performance and Accountability Report             310                    Part 3: Financial Information
               Other Accompanying
                   Information




DoD Performance and Accountability Report
                 Department of Defense – Appropriations, Funds, and Accounts

Department of the Army:

21*0390         Chemical Agents and Munitions Destruction, Army
21X0810         Environmental Restoration
21*7020         Family Housing, Army Construction
21*7025         Operation & Maintenance, Family Housing
21X1705         National Board for the Promotion of Rifle Practice, Army
21X1805         Salaries and Expenses, Cemeterial Expenses, Army
21*2010         Military Personnel, Army
21*2020         Operation and Maintenance, Army
21*2031         Aircraft Procurement, Army
21*2032         Missile Procurement, Army
21*2033         Procurement of Weapons and Tracked Combat Vehicles, Army
21*2034         Procurement of Ammunition, Army
21*2035         Other Procurement, Army
21*2040         Research, Development, Test, and Evaluation, Army
21*2050         Military Construction, Army
21*2060         National Guard Personnel, Army
21*2065         Operation and Maintenance, Army National Guard
21*2070         Reserve Personnel, Army
21*2080         Operation and Maintenance, Army Reserve
21*2085         Military Construction, Army National Guard
21*2086         Military Construction, Army Reserve
21X4275         Arms Initiative Guaranteed Loan Financing
21X4528         Working Capital Fund, Army Conventional Ammunition
21X5095         Wildlife Conservation, etc., Military Reservations, Army
21X5098         Restoration, Rocky Mountain Arsenal, Army
21X5194         Department of Defense (DoD), 50th Anniversary of World War II Commemoration
                Account, Army
21X5285         DoD, Forest Products Program, Army
21X5286         National Science Center, Army
21X8063         Bequest of Major General Fred C. Ainsworth Library, Walter Reed Army Medical
                Center
21X8927         Department of the Army General Gift Fund
21*6xxx         (Nonentity) Deposit Fund Accounts




DoD Performance and Accountability Report     311                  Part 3: Financial Information
Department of the Navy:

17X0380         Coastal Defense Augmentation, Navy
17*0703         Family Housing, Navy and Marine Corps
17X0810         Environmental Restoration, Navy
17*1105         Military Personnel, Marine Corps
17*1106         Operation and Maintenance, Marine Corps
17*1107         Operation and Maintenance, Marine Corps Reserve
17*1108         Reserve Personnel, Marine Corps
17*1109         Procurement, Marine Corps
17*1205         Military Construction, Navy
17*1235         Military Construction, Naval Reserve
17X1236         Payments to Kaho’Olawe Island Conveyance, Remediation, and Environmental
                Restoration Fund, Navy
17*1319         Research, Development, Test, and Evaluation, Navy
17*1405         Reserve Personnel, Navy
17*1453         Military Personnel, Navy
17*1506         Aircraft Procurement, Navy
17*1507         Weapons Procurement, Navy
17*1508         Procurement of Ammunition, Navy and Marine Corps
17*1611         Shipbuilding and Conversion, Navy
17*1804         Operation and Maintenance, Navy
17*1806         Operation and Maintenance, Navy Reserve
17*1810         Other Procurement, Navy
17 3041         Recoveries Under the Foreign Military Sales Program
17 3210         General Fund Proprietary Receipts , Defense Military, Not Otherwise Classified
17*4557         National Defense Sealift Fund, Navy
17X5095         Wildlife Conservation, etc., Military Reservations, Navy
17X5185         KahoOlawe Island Conveyance, Remediation and Environmental Restoration Fund,
                Navy
17X5429         Rossmoor Liquidating Trust Settlement Account
17X8423         Midshipmen’s Store, United States Naval Academy
17X8716         Department of the Navy General Gift Fund
17X8723         Ships Stores Profits, Navy
17X8733         United States Naval Academy General Gift Fund
17*6xxx         (Nonentity) Deposit Fund Accounts




DoD Performance and Accountability Report      312                  Part 3: Financial Information
Department of the Air Force:

57*0704         Family Housing, Air Force
57*0810         Environmental Restoration, Air Force
57X1999         Unclassified Receipts and Expenditures, Air Force
57*3010         Aircraft Procurement, Air Force
57*3011         Procurement of Ammunition, Air Force
57*3020         Missile Procurement, Air Force
57*3080         Other Procurement, Air Force
57*3300         Military Construction, Air Force
57*3400         Operation and Maintenance, Air Force
57*3500         Military Personnel, Air Force
57*3600         Research, Development, Test, and Evaluation, Air Force
57*3700         Reserve Personnel, Air Force
57*3730         Military Construction, Air Force Reserve
57*3740         Operation and Maintenance, Air Force Reserve
57*3830         Military Construction, Air National Guard
57*3840         Operation and Maintenance, Air National Guard
57*3850         National Guard Personnel, Air Force
57X5095         Wildlife Conservation, etc., Military Reservations, Air Force
57*6xxx         (Nonentity) Deposit Fund Accounts
57X8418         Air Force Cadet Fund
57X8928         Department of the Air Force General Gift Fund

Department of Defense Working Capital Funds:

97X8097                 DoD Military Retirement Fund
97X4930.001             Army Working Capital Fund (WCF)
97X4930.002             Navy WCF
97X4930.003             Air Force WCF
97X4930.005             U.S. Transportation Command (USTRANSCOM) WCF
97X4930.004             Defense Commissary Agency WCF
97X4930.005             Defense Logistics Agency WCF
97X4930.005             Defense Finance and Accounting Service WCF
97X4930.005             Joint Logistics Systems Center WCF
97X4930.005             Management Systems Support Office/Corporate Information Management
97X4930.005             Defense Information Systems Agency WCF
97X4930.005             Defense Technical Information Services Center
97X4930.005             Defense Security Services WCF
97X4930.005             Headquarters Account
97X4930.005             Component Level Adjustment

Note: The USTRANSCOM WCF is included in Other Defense Organizations WCF for
      financial statement purposes.




DoD Performance and Accountability Report         313                    Part 3: Financial Information
Other Defense Organizations:

11X8242         Foreign Military Sales Trust Fund (Cost clearing accounts only)
97*0040         Payments to Military Retirement Fund, Defense
97X0100         Operation and Maintenance, Defense-Wide
97*0100         Operation and Maintenance, Defense-Wide
97*0101         Contingencies, Defense
97*0102         Claims, Defense
97*0103         Base Realignment and Closure Account, Part I, Defense
97*0104         Court of Military Appeals, Defense
97*0105         Drug Interdiction and Counter-Drug Activities, Defense
97*0106         Goodwill Games, Defense
97*0107         Office of the Inspector General
97*0108         Emergency Expenses, Defense Account
97X0110         Persian Gulf Regional Defense Fund, Defense
97*0115         Corporate Information Management (Business Process Reengineering)
97*0116         Summer Olympics, Defense
97*0118         Overseas Contingency Operations Fund
97X0118         Overseas Contingency Operations Fund
97*0130         Defense Health Program, Defense
97*0131         Real Property Maintenance, Defense
97X0132         Claims, Mount Pinatubo, Defense
97*0132         Claims, Mount Pinatubo, Defense
97*0133         Payment to Coast Guard, Defense
97X0134         Former Soviet Union Threat Reduction, Defense
97*0135         Military Training, Equipment and Associated Support Transfer Fund, Defense
97*0136         Depot level Maintenance and Repair Transfer Fund, Defense
97*0137         Spares, Repairs and Associated Logistical Support Transfer Fund, Defense
97*0138         New Horizons Exercise Transfer Fund, Defense
97*0139         Operational Rapid Response Transfer Fund, Defense
97*0140         Military Construction Transfer Fund, Defense
97*0300         Procurement, Defense-Wide
97*0350         National Guard and Reserve Equipment, Defense
97X0360         Defense Production Act Purchases, Defense
97*0360         Defense Production Act Purchases, Defense
97*0370         North Atlantic Treaty Organization Cooperative Defense Fund
97X0390         Chemical Agents and Munitions Destruction, Defense
97*0390         Chemical Agents and Munitions Destruction, Defense
97X0400         Research, Development, Test, and Evaluation, Defense-Wide
97*0400         Research, Development, Test, and Evaluation, Defense-Wide
97*0450         Developmental Test and Evaluation, Defense
97*0460         Operational Test and Evaluation, Defense
97*0500         Military Construction, Defense-Wide
97X0510         Base Realignment and Closure Account, Part II, Defense
97*0706         Family Housing, Defense-Wide
97*0800         Special Foreign Currency Program, Defense


DoD Performance and Accountability Report       314                   Part 3: Financial Information
Other Defense Organizations (Continued):

97X0801         Foreign Currency Fluctuations, Defense
97X0803         Foreign Currency Fluctuation, Construction, Defense
97X0804         North Atlantic Treaty Organization Investment Programs Defense
97X0810         Environmental Restoration, Defense
97X0819         Humanitarian Assistance, Defense
97*0819         Humanitarian Assistance, Defense
97*0827         World University Games, Defense
97*0828         Defense Reinvestment for Economic Growth, Defense
97*0829         World Cup USA, Defense
97*0832         Special Olympics - World Games
97*0834         DoD Family Housing Improvement Fund
97X8035         Defense Export Loan Guarantee Program Account
97X8036         DoD Military Unaccompanied Housing Improvement Program
97X8038         Support for International Sporting Competitions, Defense
97*0839         Quality of Life Enhancement, Defense
97*0840         OPLAN 34A-35 P.O.W. Payment
97*3296         Pinatubo Disaster Relief Fund
97X3910         ADP Equipment Management Fund, Defense
97X4090         Homeowners Assistance Fund, Defense
97*4090         Homeowners Assistance Fund, Defense
97X4093         William Langer Jewel Bearing Plant Revolving Fund, Defense
97*4166         Family Housing Improvement Fund, Direct Loan Financing Account
97*4167         Family Housing Improvement Fund, Guaranteed Loan Financing Account
97*4168         Defense Expense Loan Guarantee Financing Program
97*4179         Reserve Mobilization Fund
97X4555         National Defense Stockpile Transaction Fund, Defense
97X4931         Buildings Maintenance Fund
97X4950         Pentagon Reservation Maintenance Revolving Fund
97X4965         Emergency Response Fund, Defense
97X5187         Defense Cooperation Account, Defense
97X5188         Disposal of Department of Defense Real Property
97X5189         Lease of DoD Real Property
97X5193         DoD Overseas Military Facility Investment Recovery Account
97X5195         Use of Proceeds from the Transfer or Disposition of Commissary Facilities, Defense
97X5196         Theater Missile Defense Cooperation Account, Defense
97X8098         DoD, Education Benefits Fund
97*8164         Surcharge Collections, Sales of Commissary Stores




DoD Performance and Accountability Report        315                    Part 3: Financial Information
Other Defense Organizations (Continued):

97X8165         Foreign National Employees Separation Pay Account, Defense
97X8168         National Security Education Trust Fund
97*8238         Kuwait Civil Reconstruction Trust Fund
97X8311         Uniformed Services University of the Health Sciences Gift Fund
97X8335         Voluntary Separation Incentive Trust Fund
97X8337         Host Nation Support for U.S. Relocation Activities, Defense
97*6xxx         (Nonentity) Deposit Fund Accounts

U.S. Army Corps of Engineers:

96*1039         Construction, National Parks Service
96*1105         State and Private Forestry, Forest Service
96*2020         Manu’a Islands, Department of Army
96*2050         Levee Restoration Program, Economic Development Administration
96X3112         Flood Control, Mississippi River and Tributaries, Corps of Engineers, Civil
96X3121         General Investigations, Corps of Engineers, Civil
96X3122         Construction, General, Corps of Engineers, Civil
96X3123         Operation and Maintenance, General, Corps of Engineers, Civil
96*3123         Operation and Maintenance, General, Corps of Engineers, Civil
96X3124         General Expenses, Corps of Engineers, Civil
96*3124         General Expenses, Corps of Engineers, Civil
96X3125         Flood Control and Coastal Emergencies, Corps of Engineers, Civil
96*3125         Flood Control and Coastal Emergencies, Corps of Engineers, Civil
96X3126         General Regulator Functions, Corps of Engineers, Civil
96X3128         Washington Aqueduct Capital Improvements, Corps of Engineers (Borrowing
                Authority)
96*3129         Payments to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X3130         Formerly Utilized Sites Remedial Action Program (FUSRAP)
96*4045         Bonneville Power Administration
96X4902         Revolving Fund, Corps of Engineers, Civil
96X5007         Special Recreation Use Fees, Corps of Engineers, Civil
96X5066         Hydraulic Mining in California, Debris Fund
96X5090         Payments to States, Flood Control Act of 1954
96X5125         Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5483         San Gabriel Basin Restoration Fund
96X8217         South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333         Coastal Wetlands Restoration Trust Fund
96X8861         Inland Waterways Trust Fund
96X8862         Rivers and Harbors Contributed and Advance Funds, Corps of Engineers, Civil
96X8863         Harbor Maintenance Trust Fund
96X8868         Oil Spill Research, Corps of Engineers, Civil Nonentity Funds:
96*6xxx         (Nonentity) Deposit Fund Accounts
96 12X1105      State and Private Forestry, Forest Service



DoD Performance and Accountability Report       316                    Part 3: Financial Information
U.S. Army Corps of Engineers (Continued):

96 13X2050      Economic Development Administration
96 14X1039      Construction National Park Service
96 21X2020      Operation and Maintenance, Army, American Samoa Projects
96 89X4045      Bonneville Power Administration
96 72*1021      Development Assistance, Agency for International Development
96 69X8083      Federal Aid Highways

        Note: The USACE is executive agency for the Inland Waterways Trust Fund and the
              Harbor Maintenance Trust Fund.


The following are applicable to multiple DoD Reporting Entities:

F3875           Budget Clearing Account (Suspense)
F3878           Budget Clearing Account (Deposits)
F3879           Undistributed Letter of Credit Differences
F3880           Unavailable Check Cancellations and Overpayments
F3885           Undistributed Intragovernmental Payments
F3886           Civilian Thrift Savings Plan

        NOTE: Appropriations shown with an asterisk (*) in the third position of the appropriation
               symbol indicates the appropriation may be single-year, multi-year or no-year.

        NOTE: Appropriations shown with an (X) in the third position of the appropriation symbol
              indicates the appropriation is a “no-year” appropriation.




DoD Performance and Accountability Report       317                    Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                              International          Foreign Military           Military Debt
        BALANCE SHEET                       Military Education          Financing                Reduction
      As of September 30, 2003                and Training           Program Grants              Financing
          ($ in Thousands)                       11*1081                11*1082                  11X4174

              ASSETS
Fund Balance With Treasury                  $         64,341     $         2,484,056        $               2,732
Accounts Receivable
Other Assets
Loans Receivable                                                                                      564,963
Inventory and Related Property, Net
Other Assets
Total Assets                                $         64,341     $         2,484,056        $         567,695

            LIABILITIES
Debt                                        $                    $                          $         221,650
Other Liabilities
Accounts Payable                                      22,607                     636
Other Liabilities

Total Liabilities                           $         22,607     $               636        $         221,650

          NET POSITION
Unexpended Appropriations                   $         41,734     $         2,487,492        $
Cumulative Results of Operations                                              (4,072)                 346,045
Total Net Position                          $         41,734     $         2,483,420        $         346,045

Total Liabilities and Net Position          $         64,341     $         2,484,056        $         567,695




DoD Performance and Accountability Report           318                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                  Special               Foreign                Foreign Mil
                                                 Defense             Military Loan             Financing,
       BALANCE SHEET                            Acquisition           Liquidating              Direct Loan
     As of September 30, 2003                      Fund                Account                  Financing
         ($ in Thousands)                        11X4116               11X4121                  11X4122

              ASSETS
Fund Balance With Treasury                  $          26,749    $                         $          45,085
Accounts Receivable
Other Assets
Loans Receivable                                                          3,569,964                1,685,291
Inventory and Related Property, Net
Other Assets                                         (139,714)
Total Assets                                $        (112,965)   $        3,569,964        $       1,730,376

          LIABILITIES
Debt                                        $                    $        4,116,219        $       1,345,679
Accounts Payable                                         1,296
Other Liabilities                                     (50,312)                                       266,790
Total Liabilities                           $         (49,016)   $        4,116,219        $       1,612,469

         NET POSITION
Unexpended Appropriations                   $                    $                         $
Cumulative Results of Operations                      (63,949)            (546,255)                  117,907
Total Net Position                          $         (63,949)   $        (546,255)        $         117,907

Total Liabilities and Net Position          $        (112,965)   $        3,569,964        $       1,730,376




DoD Performance and Accountability Report            319                   Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                      Foreign
                                                International         Military
                                                  Military           Financing           Military Debt
      STATEMENT OF NET COST                      Education            Program             Reduction
         As of September 30, 2003               and Training           Grants             Financing
             ($ in Thousands)                     11*1081            11*1082              11X4174
Program Costs:
 Intragovernmental Gross Cost               $                    $                   $           10,924
 Less: Intragovernmental Earned Revenue
 Intragovernmental Net Costs                                                                     10,294
 Gross Costs With the Public                            77,088       5,753,072
  Less: Earned Revenues From The Public                                                       (352,422)
Net Cost With the Public                    $           77,088   $ 5,753,072         $        (352,422)
Total Net Costs                             $           77,088   $ 5,753,072         $        (341,498)
Costs not Assigned to Programs
Less: Earned Revenues not Attributable to
      Programs
Net Cost of Operations                      $           77,088   $ 5,753,072         $        (341,498)

                                                  Special           Foreign           Foreign Military
                                                 Defense         Military Loan          Financing,
      STATEMENT OF NET COST                     Acquisition       Liquidating           Direct Loan
         As of September 30, 2003                  Fund            Account               Financing
             ($ in Thousands)                    11X4116           11X4121               11X4122
Program Costs
 Intragovernmental Gross Cost               $                    $     737,695       $          115,849
 Less: Intragovernmental Earned Revenue             (51,827)                                  (160,433)
 Intragovernmental Net Costs                $       (51,827)     $     737,695       $         (44,584)
 Gross Costs With the Public                          36,968                                  (292,681)
  Less: Earned Revenues From The Public     $                    $     (67,581)      $
Net Cost With the Public                    $         36,968     $     (67,581)      $        (292,681)
Total Net Costs                             $       (14,859)     $     670,114       $        (337,265)
Costs not Assigned to Programs
Less: Earned Revenues not Attributable to   $                    $                   $
      Programs
Net Cost of Operations                              (14,859)           670,114                (337,265)




DoD Performance and Accountability Report         320                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                         Foreign
                                                    International        Military
    STATEMENT OF CHANGES IN NET                       Military          Financing          Military Debt
                   POSITION                          Education           Program            Reduction
            As of September 30, 2003                And Training          Grants            Financing
                ($ in Thousands)                      11*1081           11*1082             11X4174
Cumulative Results of Operations
 Beginning Balance                                  $         0     $           666      $          4,546
 Prior Period Adjustments (+/-)
 Beginning Balance, as adjusted                     $         0     $           666      $          4,546
Budgetary Financing Sources
 Appropriation Received                             $         0     $               0    $              0
 Appropriations Transferred in/out (+/-)
 Other Adjustments (rescissions, etc) (+/-)
 Appropriations Used                                    77,088           5,748,334
 Nonexchanged Revenue
 Donations and Forfeitures of Cash and Cash
 Equivalents
 Transfers in/out Without Reimbursement (+/-)
 Other Budgetary Financing Sources (+/-)
Other Financing Sources:
 Donations and forfeitures of property              $         0     $               0    $              0
 Transfers-in/out without reimbursement (+/-)
 Imputed financing from costs absorbed by others
 Other (+/-)

Total Financing Sources                             $   77,088      $    5,748,334       $              0

Net Cost of Operations (+/-)                        $   77,088      $    5,753,072       $     (341,498)

Ending Balances                                     $         0     $     (4,072)        $       346,044




DoD Performance and Accountability Report     321                       Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                               Foreign
                                                       Special         Foreign                 Military
     STATEMENT OF CHANGES IN NET                      Defense       Military Loan            Financing,
                    POSITION                         Acquisition     Liquidating             Direct Loan
             As of September 30, 2003                   Fund          Account                 Financing
                 ($ in Thousands)                     11X4116         11X4121                 11X4122
Cumulative Results of Operations
 Beginning Balance                                   $   (68,808)   $              0     $        47,432
 Prior Period Adjustments (+/-)
 Beginning Balance, as adjusted                      $   (68,808)   $              0     $        47,432
Budgetary Financing Sources
 Appropriation Received                              $         0    $              0     $              0
 Appropriations Transferred in/out (+/-)
 Other Adjustments (rescissions, etc) (+/-)
 Appropriations Used
 Nonexchanged Revenue
 Donations and Forfeitures of Cash and Cash
 Equivalents
 Transfers in/out Without Reimbursement (+/-)                                                  (266,790)
 Other Budgetary Financing Sources (+/-)
Other Financing Sources:
 Donations and forfeitures of property               $          0   $              0     $              0
 Transfers-in/out without reimbursement (+/-)            (10,000)
 Imputed financing from costs absorbed by others
 Other (+/-)

Total Financing Sources                              $   (10,000)   $              0     $     (266,790)

Net Cost of Operations (+/-)                         $   (14,859)   $     670,114        $     (337,265)

Ending Balances                                      $   (63,949)   $ (670,114)          $       117,907




DoD Performance and Accountability Report      322                      Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                         Foreign
                                                    International        Military
    STATEMENT OF CHANGES IN NET                       Military          Financing          Military Debt
                   POSITION                          Education           Program            Reduction
            As of September 30, 2003                And Training          Grants            Financing
                ($ in Thousands)                      11*1081           11*1082             11X4174
Unexpended Appropriations
 Beginning Balance                                  $    46,606     $    4,833,594       $              0
 Prior Period Adjustments (+/-)
 Beginning Balance, as adjusted                     $    46,606     $    4,833,594       $              0
Budgetary Financing Sources
 Appropriation Received                             $    80,000     $    6,131,100       $              0
 Appropriations Transferred in/out (+/-)
 Other Adjustments (rescissions, etc) (+/-)              (7,784)           (23,851)
 Appropriations Used                                    (77,088)        (8,453,351)
 Nonexchanged Revenue
 Donations and Forfeitures of Cash and Cash
 Equivalents
 Transfers in/out Without Reimbursement (+/-)
 Other Budgetary Financing Sources (+/-)
Other Financing Sources:
 Donations and forfeitures of property              $         0     $               0    $              0
 Transfers-in/out without reimbursement (+/-)
 Imputed financing from costs absorbed by others
 Other (+/-)

Total Financing Sources                             $    (4,872)    $ (2,346,102)        $              0

Net Cost of Operations (+/-)                        $         0     $               0    $              0

Ending Balances                                     $    41,734     $    2,487,492       $              0




DoD Performance and Accountability Report     323                       Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                              Foreign
                                                       Special        Foreign                 Military
     STATEMENT OF CHANGES IN NET                      Defense      Military Loan            Financing,
                    POSITION                         Acquisition    Liquidating             Direct Loan
             As of September 30, 2003                   Fund         Account                 Financing
                 ($ in Thousands)                     11X4116        11X4121                 11X4122
Unexpended Appropriations
 Beginning Balance                                   $        0    $              0     $              0
 Prior Period Adjustments (+/-)
 Beginning Balance, as adjusted                      $        0    $              0     $              0
Budgetary Financing Sources
 Appropriation Received                              $        0    $              0     $              0
 Appropriations Transferred in/out (+/-)
 Other Adjustments (rescissions, etc) (+/-)
 Appropriations Used
 Nonexchanged Revenue
 Donations and Forfeitures of Cash and Cash
 Equivalents
 Transfers in/out Without Reimbursement (+/-)
 Other Budgetary Financing Sources (+/-)
Other Financing Sources:
 Donations and forfeitures of property               $        0    $              0     $              0
 Transfers-in/out without reimbursement (+/-)
 Imputed financing from costs absorbed by others
 Other (+/-)

Total Financing Sources                              $        0    $              0     $              0

Net Cost of Operations (+/-)                         $        0    $              0     $              0

Ending Balances                                      $        0    $              0     $              0
Less: Offsetting Receipts                                     0                   0                    0

Net Outlays                                                   0                   0                    0




DoD Performance and Accountability Report      324                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                    International                Foreign Military
    STATEMENT OF BUDGETARY            Military                      Financing                   Military Debt
               RESOURCES             Education                       Program                     Reduction
         As of September 30, 2003   and Training                      Grants                     Financing
             ($ in Thousands)         11*1081                       11*1082                      11X4174
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received          $         80,000               $        6,131,100         $
 Borrowing Authority                                                                                 212,636
 Contract Authority
 Net Transfers (+/-)                                      677             (113,000)
 Other
Unobligated Balance
 Beginning Of Period                                    4,968               308,060                         0
 Net Transfers, Actual (+/-)                            (677)
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned                                                     0                       0
   Collected                                                                                          14,760
   Receivable From Federal Sources
 Change In Unfilled Customer Orders
   Advance Received
   Without Advance From Federal Sources
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
 Subtotal                                    $              0    $                   0      $         14,760

Recoveries Of Prior Year Obligations                    9,716                     229
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available                              (5,028)              (26,657)                  (1,352)

Total Budgetary Resources                    $         89,656    $        6,299,732         $        226,044




DoD Performance and Accountability Report        325                 Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                 International     Foreign Military
    STATEMENT OF BUDGETARY                         Military           Financing                   Military Debt
               RESOURCES                          Education            Program                     Reduction
         As of September 30, 2003                and Training           Grants                     Financing
              ($ in Thousands)                     11*1081            11*1082                      11X4174
STATUS OF BUDGETARY
RESOURCES
Obligations Incurred
 Direct                                     $           84,907     $        6,299,293         $        223,315
 Reimbursable
 Subtotal                                   $           84,907     $        6,299,293         $        223,315
Unobligated Balance
 Apportioned                                               815                        2                   2,729
 Exempt From Apportionment
 Other Available                                                                    1
Unobligated Balances Not Available                       3,934                    436
Total, Status of Budgetary Resources        $           89,656 $            6,299,732         $        226,044

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning Of Period $           54,737    $        1,934,260         $             51
Obligated Balance Transferred, Net (+/-)
Obligated Balance, Net - End Of Period:
 Accounts Receivable
 Unfilled Customer Order From Federal
 Sources
 Undelivered Orders                                      36,985             2,482,982
 Accounts Payable                                        22,607                   636                         3

Outlays
 Disbursements                                          70,335              5,749,706                   223,363
 Collections                                                                                           (14,760)
 Subtotal                                   $           70,335     $        5,749,706         $        208,603
Less: Offsetting Receipts

Net Outlays                                 $           70,335     $        5,749,706         $        208,603




DoD Performance and Accountability Report        326                   Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                 International       Foreign Military
    STATEMENT OF BUDGETARY                         Military             Financing                   Military Debt
               RESOURCES                          Education              Program                     Reduction
         As of September 30, 2003                and Training             Grants                     Financing
             ($ in Thousands)                      11*1081              11*1082                      11X4174
NONBUDGETARY FINANCING
ACCOUNTS
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $                   0   $                  0       $               0
 Borrowing Authority
 Contract Authority
 Net Transfers (+/-)
 Other
Unobligated Balance
 Beginning Of Period
 Net Transfers, Actual (+/-)
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
   Collected
   Receivable From Federal Sources
 Change In Unfilled Customer Orders
   Advance Received
   Without Advance From Federal Sources
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
 Subtotal                                    $                   0   $                   0      $         0

Recoveries Of Prior Year Obligations
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available

Total Budgetary Resources                    $                   0   $                   0      $               0




DoD Performance and Accountability Report        327                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                 International         Foreign Military
    STATEMENT OF BUDGETARY                         Military               Financing                   Military Debt
               RESOURCES                          Education                Program                     Reduction
         As of September 30, 2003                and Training               Grants                     Financing
              ($ in Thousands)                     11*1081                11*1082                      11X4174
STATUS OF BUDGETARY
RESOURCES
Obligations Incurred
 Direct                                     $                    0     $                  0       $               0
 Reimbursable
 Subtotal                                   $                    0     $                  0       $               0
Unobligated Balance
 Apportioned                                $                    0     $                  0       $               0
 Exempt From Apportionment
 Other Available
Unobligated Balances Not Available
Total, Status of Budgetary Resources        $                    0 $                      0       $               0

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning Of Period $                   0     $                  0       $               0
Obligated Balance Transferred, Net (+/-)
Obligated Balance, Net - End Of Period:
 Accounts Receivable
 Unfilled Customer Order From Federal
 Sources
 Undelivered Orders
 Accounts Payable

Outlays
 Disbursements
 Collections
 Subtotal                                   $                    0     $                   0      $               0
Less: Offsetting Receipts

Net Outlays                                 $                    0     $                   0      $               0




DoD Performance and Accountability Report        328                       Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                                     Foreign
                                                    Special                Foreign                   Military
     STATEMENT OF BUDGETARY                        Defense              Military Loan              Financing,
               RESOURCES                          Acquisition            Liquidating               Direct Loan
         As of September 30, 2003                    Fund                 Account                   Financing
              ($ in Thousands)                     11X4116                11X4121                   11X4122
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $                  0   $           25,500         $
 Borrowing Authority                                                                                 3,258,451
 Contract Authority
 Net Transfers (+/-)
 Other
Unobligated Balance
 Beginning Of Period                         $           30,052     $                  0       $              0
Net Transfers, Actual (+/-)                            (10,000)
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
   Collected                                 $           (143)      $          650,380         $         758,396
   Receivable From Federal Sources                                                                      (25,238)
 Change In Unfilled Customer Orders
   Advance Received
   Without Advance From Federal Sources
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
Subtotal                                     $           (143)      $          650,380         $        733,158

Recoveries Of Prior Year Obligations                     3,966
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available                                                    (643,308)               (447,633)
Total Budgetary Resources                    $          23,785      $           32,571         $     4,439,242




DoD Performance and Accountability Report        329                    Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                             Foreign
                                                    Special         Foreign                  Military
    STATEMENT OF BUDGETARY                         Defense       Military Loan             Financing,
               RESOURCES                          Acquisition     Liquidating              Direct Loan
         As of September 30, 2003                    Fund          Account                  Financing
              ($ in Thousands)                     11X4116         11X4121                  11X4122
STATUS OF BUDGETARY
RESOURCES
Obligations Incurred
Direct                                      $              161   $          32,571        $ 4,394,157
Reimbursable
 Subtotal                                   $              161   $         32,571          $ 4,394,157
Unobligated Balance
 Apportioned                                $                    $                0       $          45,085
 Exempt From Apportionment
 Other Available
Unobligated Balances Not Available                      23,714
Total, Status of Budgetary Resources        $           23,875   $         32,571         $ 4,439,242

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning Of Period $           8,251   $                0       $          82,173
Obligated Balance Transferred, Net (+/-)
Obligated Balance, Net - End Of Period:
 Accounts Receivable
 Unfilled Customer Order From Federal
 Sources
 Undelivered Orders                                      3,035                                3,710,700
 Accounts Payable

Outlays
 Disbursements                              $            1,410   $         32,571         $   790,868
 Collections                                               143          (650,380)           (758,396)
 Subtotal                                   $            1,553   $      (617,809)         $ (32,472)
Less: Offsetting Receipts

Net Outlays                                 $            1,553   $      (617,809)         $     (32,472)




DoD Performance and Accountability Report        330                 Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                                Foreign
                                                                                                Military
     STATEMENT OF BUDGETARY                         Special                Foreign             Financing,
              RESOURCES                            Defense              Military Loan            Direct
        As of September 30, 2003                  Acquisition            Liquidating              Loan
            ($ in Thousands)                         Fund                 Account              Financing
                                                   11X4116                11X4121              11X4122
NONBUDGETARY FINANCING
ACCOUNTS
BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                     $                  0   $                  0       $        0
 Borrowing Authority
 Contract Authority
 Net Transfers (+/-)
 Other
Unobligated Balance
 Beginning Of Period                         $                  0   $                  0       $        0
Net Transfers, Actual (+/-)
 Anticipated Transfers Balances
Spending Authority From Offsetting
Collections
 Earned
   Collected                                 $                  0   $                  0       $        0
   Receivable From Federal Sources
 Change In Unfilled Customer Orders
   Advance Received
   Without Advance From Federal Sources
 Anticipated For The Rest Of Year, Without
 Advances
 Transfers From Trust Funds
Subtotal                                     $                  0   $                  0       $        0

Recoveries Of Prior Year Obligations
Temporarily Not Available Pursuant To
Public Law
Permanently Not Available
Total Budgetary Resources                    $                  0   $                  0       $        0




DoD Performance and Accountability Report        331                    Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                                 Foreign
                                                                                                 Military
     STATEMENT OF BUDGETARY                         Special                Foreign             Financing,
              RESOURCES                            Defense              Military Loan            Direct
        As of September 30, 2003                  Acquisition            Liquidating              Loan
            ($ in Thousands)                         Fund                 Account               Financing
                                                   11X4116                11X4121               11X4122
STATUS OF BUDGETARY
RESOURCES
Obligations Incurred
 Direct                                     $                   0   $                  0       $        0
 Reimbursable
 Subtotal                                   $                   0   $                  0       $        0
Unobligated Balance
 Apportioned                                $                   0   $                  0       $        0
 Exempt From Apportionment
 Other Available
Unobligated Balances Not Available
Total, Status of Budgetary Resources        $                   0   $                  0       $        0

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning Of Period $                  0   $                  0       $        0
Obligated Balance Transferred, Net (+/-)
Obligated Balance, Net - End Of Period:
 Accounts Receivable
 Unfilled Customer Order From Federal
 Sources
 Undelivered Orders
 Accounts Payable

Outlays
 Disbursements                              $                   0   $                  0       $        0
 Collections
 Subtotal                                   $                   0   $                  0       $        0
Less: Offsetting Receipts

Net Outlays                                 $                   0   $                  0       $        0




DoD Performance and Accountability Report        332                    Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense


                                                   International          Foreign
                                                     Military             Military
          STATEMENT OF FINANCING                    Education            Financing           Military Debt
            As of September 30, 2003                   And                Program             Reduction
                ($ in Thousands)
                                                     Training              Grants             Financing
                                                     11*1081             11*1082              11X4174
Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations Incurred                              $      84,907     $ 6,299,293         $         223,315
 Less: Spending Authority From Offsetting
  Collections And Recoveries (-)                         (9,716)              (229)                (14,760)
Obligations Net Of Offsetting Collections And
Recoveries                                         $      75,191     $ 6,299,064         $          208,555
Less: Offsetting Receipts (-)                                  0               0                          0
Net Obligations                                    $      75,191     $ 6,299,064         $          208,555
Other Resources
 Donations And Forfeitures Of Property             $                 $                   $
 Transfers In/Out Without Reimbursement (+/-)
 Imputed Financing From Costs Absorbed By Others
 Other (+/-)                                              (15,854)          2,730                  (550,105)
 Net Other Resources Used To Finance Activities          (15,854)          2,730                  (550,105)
Total Resources Used To Finance Activities         $       59,337    $ 6,301 ,794        $        (341,550)
Resources Used To Finance Items Not Part Of
The Net Cost Of Operations
Change In Budgetary Resources Obligated For
Goods, Services And Benefits Ordered But Not Yet
Provided
 Undelivered Orders (-)                            $       1,883     $      (548,992)    $                  51
 Unfilled Customer Orders
Resources That Fund Expenses Recognized In Prior
Periods
Budgetary Offsetting Collections And Receipts That
Do Not Affect Net Cost Of Operations
Resources That Finance The Acquisition Of Assets
Other Resources Or Adjustments To Net Obligated
Resources That Do Not Affect Net Cost Of
Operations
Less: Trust Or Special Fund Receipts Related To
Exchange In The Entity's Budget (-)
Other (+/-)
Total Resources Used To Finance Items Not Part
Of The Net Cost Of Operations                      $       1,883     $    (548,992)      $                  51

Total Resources Used To Finance The Net Cost
Of Operations                                      $      61,220     $ 5,752,802         $        (341,499)

DoD Performance and Accountability Report          333                      Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense



                                                  International        Foreign
        STATEMENT OF FINANCING                      Military           Military
          As of September 30, 2003                 Education          Financing           Military Debt
              ($ in Thousands)                        And              Program             Reduction
                                                    Training            Grants             Financing
                                                    11*1081           11*1082              11X4174
Components Of The Net Cost Of Operations
That Will Not Require Or Generate Resources
In The Current Period
Components Requiring Or Generating Resources In
Future Periods
 Increase In Annual Leave Liability               $          0    $             0     $                  0
 Increase In Environmental And Disposal Liability
 Upward/Downward Reestimates Of Credit
 Subsidy Expense (+/-)
 Increase In Exchange Revenue Receivable From
 The Public (-)
 Other (+/-)
Total Components Of Net Cost Of Operations
That Will Require Or Generate Resources In
Future Periods                                    $          0    $             0     $                  0

Components Not Requiring Or Generating
Resources
 Depreciation And Amortization                   $           0    $             0     $                  0
 Revaluation Of Assets Or Liabilities (+/-)
 Other (+/-)
Total Components Of Net Cost Of Operations
That Will Not Require Or Generate Resources      $           0    $             0     $                  0

Total Components Of Net Cost Of Operations
That Will Not Require Or Generate Resources
In The Current Period                            $           0    $             0     $                  0

Net Cost Of Operations                           $      61,220    $ 5,752,802         $        (341,499)




DoD Performance and Accountability Report        334                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                                                      Foreign
                                                                   Special           Military             Foreign Military
                                                                  Defense              Loan                 Financing,
         STATEMENT OF FINANCING                                  Acquisition        Liquidating             Direct Loan
             As of September 30, 2003                               Fund             Account                 Financing
                  ($ in Thousands)                                11X4116            11X4121                 11X4122
Resources Used to Finance Activities
Budgetary Resources Obligated
Obligations Incurred                                         $          161        $      32,571       $       4,394,157
 Less: Spending Authority From Offsetting
 Collections And Recoveries (-)                                     (3,823)           (650,380)                (733,158)
Obligations Net Of Offsetting Collections And Recoveries
                                                 $                  (3,662)        $ (617,809)         $       3,660,999
Less: Offsetting Receipts (-)                                             0                   0                        0
Net Obligations                                  $                  (3,662)        $ (617,809)         $       3,660,999
Other Resources
 Donations And Forfeitures Of Property           $
 Transfers In/Out Without Reimbursement (+/-)                      (10,000)                                    (266,790)
 Imputed Financing From Costs Absorbed By
 Others
 Other (+/-)                                                        (6,412)             617,122                (102,947)
 Net Other Resources Used To Finance Activities                    (16,412)             617,122                (369,737)
Total Resources Used To Finance Activities       $                 (20,074)        $      (687)        $       3,291,262
Resources Used To Finance Items Not Part Of
The Net Cost Of Operations
Change In Budgetary Resources Obligated For
Goods, Services And Benefits Ordered But Not
Yet Provided
 Undelivered Orders (-)                          $                    5,216        $             0     $     (3,636,130)
 Unfilled Customer Orders
Resources That Fund Expenses Recognized In
Prior Periods
Budgetary Offsetting Collections And Receipts
That Do Not Affect Net Cost Of Operations
Resources That Finance The Acquisition Of Assets                                        (32,571)
Other Resources Or Adjustments To Net Obligated
Resources Not Affecting Net Cost Of Operations
Less: Trust Or Special Fund Receipts Related To
Exchange In The Entity's Budget (-)
Other (+/-)
Total Resources Used To Finance Items Not       $                     5,216    $       (32,571)       $      (3,636,130)
Part Of The Net Cost Of Operations
Total Resources Used To Finance The Net
Cost Of Operations                              $                  (14,858)    $       (33,258)       $        (344,868)

DoD Performance and Accountability Report                  335                         Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense


                                                                          Foreign
        STATEMENT OF FINANCING                      Special              Military          Foreign Military
          As of September 30, 2003                 Defense                 Loan              Financing,
              ($ in Thousands)                    Acquisition           Liquidating          Direct Loan
                                                     Fund                Account              Financing
                                                   11X4116               11X4121              11X4122
Components Of The Net Cost Of Operations
That Will Not Require Or Generate Resources
In The Current Period
Components Requiring Or Generating Resources In
Future Periods
 Increase In Annual Leave Liability               $             0   $               0     $                  0
 Increase In Environmental And Disposal Liability
 Upward/Downward Reestimates Of Credit
 Subsidy Expense (+/-)
 Increase In Exchange Revenue Receivable From
 The Public (-)
 Other (+/-)
Total Components Of Net Cost Of Operations
That Will Require Or Generate Resources In
Future Periods                                    $             0   $               0     $                  0

Components Not Requiring Or Generating
Resources
 Depreciation And Amortization                   $              0   $             0       $                  0
 Revaluation Of Assets Or Liabilities (+/-)                                 579,513
 Other (+/-)
Total Components Of Net Cost Of Operations                                                                   0
That Will Not Require Or Generate Resources      $              0   $       573,513       $

Total Components Of Net Cost Of Operations
That Will Not Require Or Generate Resources      $              0   $       579,513       $                  0
In The Current Period

Net Cost Of Operations                           $     (14,858)     $       546,255       $           (344,868)




DoD Performance and Accountability Report        336                       Part 3: Financial Information
           Independent Auditors’
           Report on the Principal
                Statements




DoD Performance and Accountability Report
DoD Performance and Accountability Report   337   Part 3: Financial Information
DoD Performance and Accountability Report   338   Part 3: Financial Information
DoD Performance and Accountability Report   339   Part 3: Financial Information
DoD Performance and Accountability Report   340   Part 3: Financial Information
DoD Performance and Accountability Report   341   Part 3: Financial Information
DoD Performance and Accountability Report   342   Part 3: Financial Information
DoD Performance and Accountability Report   343   Part 3: Financial Information
DoD Performance and Accountability Report   344   Part 3: Financial Information
DoD Performance and Accountability Report   345   Part 3: Financial Information
             Part 4:
   Inspector General Summary
    of Management Challenges




DoD Performance and Accountability Report
Inspector General Summary of
Management Challenges
The Reports Consolidation Act of 2000,                  identified by the Office of the Inspector
Public Law 106-531, permits the Secretary               General attest to this complexity.
of Defense to submit a consolidated report
to the President, to the Director of the Office         Improving management and performance of
of Management and Budget, and to                        Defense programs has been a priority of the
Congress within 150 days of the end of the              Secretary of Defense. Last year the
fiscal year, which “shall include a statement           Department developed a legislative program
prepared by the agency’s inspector general              to modernize and transform DoD operations.
that summarizes what the inspector general
considers to be the most serious                        As Secretary Rumsfeld explained:
management and performance challenges
facing the agency, and briefly assesses the             “We are working to promote a culture in the
agency’s progress in addressing those                   Defense Department that rewards
challenges.” Based on audits,                           unconventional thinking - a climate where
investigations, and inspections, the Inspector          people have freedom and flexibility to take
General has identified nine major challenges            risks and try new things. We are working to
facing the Department of Defense. These                 instill a more entrepreneurial approach to
challenges remain unchanged from those                  developing military capabilities, one that
identified in the DoD Performance and                   encourages people to behave less like
Accountability Report for Fiscal Year 2002,             bureaucrats; one that does not wait for
and are discussed in more detail below,                 threats to emerge and be ‘validated,’ but
along with this Inspector General’s brief               rather anticipates them before they emerge-
assessment of the Department’s “progress in             and develops and deploys new capabilities
addressing those challenges.” The                       quickly, to dissuade and deter those
challenges are:                                         threats.”1

•   Joint Warfighting and Readiness,                    In furtherance of the transformation process,
•   Homeland Defense,                                   the Secretary of Defense has established the
•   Human Capital,                                      following legislative priorities for Fiscal
•   Information Technology Management,                  Year 2005:2
•   Streamlined Acquisition Processes,
•   Financial Management,                               •   Successfully Pursue the Global War on
•   Health Care,                                            Terrorism,
•   Logistics, and
•   Infrastructure and Environment.                     1
                                                         Remarks as Prepared for Delivery by Secretary of
                                                        Defense Donald H. Rumsfeld, For the House Armed
Due to its size and the diversity of its                Services Committee, Wednesday, February 5, 2003.
programs and activities, the Department of              2
                                                          September 24, 2003, Memorandum from the
Defense is the most complex organization in             Secretary of Defense, “Legislative Priorities for
government. The breadth of the challenges               Fiscal Year 2005”

DoD Performance and Accountability Report         346                 Part 4: Inspector General Summary of
                                                                        Management Challenges
•   Strengthen Combined/Joint Warfighting            Joint Warfighting and
    Capabilities,
•   Transform the Joint Force,                       Readiness
•   Optimize Intelligence Capabilities,
•   Counter the Proliferation of Weapons of          In order for U.S. forces to operate jointly in
    Mass Destruction,                                conflict, they must also train and operate
•   Improve Force Manning,                           together in peacetime. Ensuring that U.S.
•   Develop New Concepts of Global                   forces are ready to carry out assigned
    Engagement,                                      missions is the preeminent responsibility
                                                     and challenge of the DoD. A wide variety
•   Sustain Homeland Security,
                                                     of Defense functions, particularly in
•   Streamline DoD Processes, and
                                                     the personnel management, logistics, and
•   Reorganize DoD and the USG to Deal               acquisition areas, directly support and
    with Pre-War Opportunities and Post-
                                                     impact joint warfighting and military
    War Responsibilities.
                                                     readiness. Many of the other management
                                                     challenges encompass those functions that
The challenges identified by the Office of
                                                     support joint warfighting and readiness
the Inspector General parallel and support
                                                     issues.
the Secretary of Defense’s priorities. For
example, the priorities of “Strengthen Joint
                                                     Inspector General Assessment of Progress
Warfighting Capabilities,” and “Homeland
Security” are directly identified by the
                                                     In assessing progress by the Department in
Office of the Inspector General as
                                                     this area, as in many of the other
challenges, and the priority to “Streamline
                                                     management challenges, it must be
DoD Business Processes” is intrinsic in
                                                     recognized that improvement is an ongoing
many of the major challenges that face the
                                                     process. The establishment of the Joint
Department.                                          Forces Command will improve joint
                                                     warfighting and readiness. However, the
The President’s Management Agenda                    Command is only starting on initiatives to
includes five initiatives to help government         improve this capability. Likewise, DoD
work better. The five initiatives are                leadership has recognized the need to design
Management of Human Capital, Improved                and produce new systems with joint
Financial Management, Budget and                     warfighting requirements in mind. Joint
Performance Integration, Competitive                 Vision 2020 states that interoperability is a
Sourcing, and Expanded Electronic                    mandate for the future joint force especially
Government. The major challenges                     for communications, logistics, and
identified by the Office of the Inspector            information technology. To attain Joint
General in the areas of Human Capital,
                                                     Vision 2020 and reduce the risk of building
Information Technology Management,
                                                     stovepipe systems, the Defense Components
Streamlined Acquisition Processes,
                                                     are being required to develop and retrofit
Financial Management, and Logistics
                                                     DoD systems into common interoperable
encompass these initiatives.
                                                     and secure systems. While progress is being
                                                     made to promote jointness, greater attention
                                                     is needed in several areas.




DoD Performance and Accountability Report      347               Part 4: Inspector General Summary of
                                                                   Management Challenges
Discussion                                            assigned to them by the Secretary of
                                                      Defense.
An Office of the Inspector General report on
implementation of interoperability and                The proliferation of biological and chemical
information assurance policies for                    technology and material has provided
acquisition of DoD weapon systems pointed             potential adversaries with the means to
out the need for consistent guidance and a            challenge directly the safety and security of
process to measure and assess                         the United States and its military. The
interoperability. Otherwise, DoD is at risk           Chemical and Biological Defense Program
of developing systems that operate                    is an excellent example of a program
independently of other systems and of not             supporting joint warfighting to ensure that
fully realizing the benefits of interoperable         military personnel are the best equipped and
systems to satisfy the needs of the joint             best prepared forces in the world for
warfighter. The Director, Joint Staff agreed          operating in battle space that may feature
with the report and also commented that               chemically and biologically contaminated
there was a fundamental issue beyond the              environments. The program development of
audit “that DoD is not effectively structured         common masks, the Joint Service
to effect the organizing, training, and               Lightweight Integrated Suit Technology
equipping of joint capabilities. There is no          ensembles, and an integrated suite of
joint process responsible for developing and          chemical and biological detection equipment
acquiring joint command and control                   are noteworthy examples of eliminating
systems and integrating capabilities.”                service stovepipes and related overlapping
                                                      costs in order to promote jointness. The
Although readiness is frequently assessed in          Commander, U.S. Central Command
exercises and inspections, multiple                   exhibited a high degree of joint warfighting
independent reviews by the Office of the              expertise in its chemical and biological
Inspector General and by the Military                 defense program. The U.S. Naval Forces,
Department Audit Agencies indicate that the           Central Command, located in Bahrain
readiness reporting system is cumbersome,             enacted a vigorous and comprehensive
subjective, and not fully responsive to the           program, not only for naval personnel, but
needs of senior decision makers. In fiscal            also for the other services, DoD civilians,
year 2003 there were 21 reports on joint              and dependents as well.
warfighting and readiness. Office of the
Inspector General reports on Active,                  The Office of the Inspector General has
Reserve, and National Guard Components                continued its strong presence in ensuring
identified readiness issues related to the            adequate oversight of chemical and
accurate reporting of preparedness for                biological defense issues. Since we began
chemical and biological defense. The Naval            working on this issue in 1994, the
Audit Service also issued reports on the              Department has made significant strides in
need to improve readiness reporting for               improving the quality of chemical and
selected aircraft, submarine, and marine              biological defense equipment, the individual
forces. The Department is implementing a              and unit training, and equipping of military
new DoD Readiness Reporting System that               units. Although much progress was made,
will be the primary means by which the                additional program improvements were
DoD Components will measure and report                needed. The Office of the Inspector General
on their readiness to execute the missions            reported on issues with the logistics and


DoD Performance and Accountability Report       348              Part 4: Inspector General Summary of
                                                                   Management Challenges
maintenance of chemical and biological                 recovery operations found a lack of
protective equipment in the U.S. Pacific               oversight, guidance, and direction related to
Command, the acquisition of chemical                   the intelligence support to personnel
detection equipment, the management of the             recovery. The lack of oversight, guidance,
chemical demilitarization program, and the             and direction resulted in disjointed and
readiness of U.S. forces to operate in a               incomplete training, operations support, and
chemical and biological warfare                        intelligence production and collection. In
environment. The need for adequate                     view of the possibility of hostilities with
decontamination equipment and training for             Iraq, DoD immediately began implementing
its use in a chemical and biological                   our recommended corrective actions. A
contaminated environment was identified as             report on coalition intelligence disclosure
a key requirement to improve readiness of              policy for the Global War on Terrorism
the forces. The Army Audit Agency and                  identified the need for improved
Naval Audit Service reported on the need to            coordination and information sharing.
improve Army and Marine Corps unit-level               Approximately 80 DoD organizations or
training for chemical and biological defense           groups are involved in, or working on, some
and provide additional support for chemical            aspect of coalition information sharing
and biological defense to forward-stationed            resulting in a pattern of duplication that
DoD civilians and contractors. In reports,             adversely affects coalition information
the General Accounting Office has                      sharing. DoD is taking action to resolve
concluded that chemical and biological                 these issues. Another report on intelligence
defense equipment, training, and medical               support to in-transit force protection
problems persisted, and if not addressed,              identified a lack of coordination for
were likely to result in a degradation of U.S.         intelligence support to force protection
warfighting capabilities. The Department               activities among new organizations,
must significantly improve on the                      programs, and systems established to
availability of licensed medical chemical              provide intelligence support. Appropriate
and biological countermeasures for Force               actions have been taken by the responsible
Health Protection. Moreover, the                       organizations or are ongoing as a result of
technologies for medical products against              the final report.
endemic infectious diseases needs to be
leveraged with the technologies that support           The Office of the Inspector General also
biological warfare medical counter                     works to promote the readiness of our
measures.                                              nation’s warfighters through a sustained
                                                       emphasis on proactively identifying and
A primary challenge of the intelligence                prosecuting contractors engaged in
community is to refocus intelligence                   providing substandard and non-conforming
priorities to strengthen intelligence                  equipment and parts. The Defense Criminal
capabilities for the 21st century. Inherent in         Investigative Service continues to make
this refocusing is providing timely and                product substitution one of its top priorities.
actionable intelligence to the warfighter.             This mission has become more difficult over
During fiscal year 2003, the Office of the             the past several years due to a lack of direct
Inspector General issued seven reports that            Federal Government quality control at
were directly focused on improving                     contractor facilities, therefore requiring a
intelligence support to the warfighter. The            much greater reliance on the integrity of the
report on intelligence support to personnel            contractor.


DoD Performance and Accountability Report        349               Part 4: Inspector General Summary of
                                                                     Management Challenges
DoD lacks comprehensive policy, guidance                Defense for Homeland Defense, should
and training concerning roles, missions,                improve the coordination of policy and
functions, and relationships of Combatant               resources directed to protecting the United
Command Inspectors General. This                        States.
significantly inhibits the ability of these
Inspector Generals to perform their duties in           Inspector General Assessment of Progress
support of the Combatant Commands. The
DoD Office of the Inspector General is                  The Department is making progress on
acting in concert with the Joint Staff,                 improving Homeland security. The recent
Combatant Command, and Military                         establishment of the Assistant Secretary of
Department Inspectors General on three                  Defense for Homeland Defense and the
fronts to provide the guidance and training             U.S. Northern Command, with a mission of
required by these Joint Inspectors General.             homeland defense and civil support, are
The Office of the Inspector General will                laudatory actions. These new organizations
lead an effort to update DoD Directive                  are in the process of addressing the
5106.4, "Inspectors General of the Unified              multifaceted threats to the United States.
and Specified Combatant Commands" to                    Both the DoD audit community and the
improve its relevance to operations. In                 criminal investigative community have
conjunction with this initiative, the Office of         contributed to the Department’s efforts to
the Inspector General will document the                 enhance Homeland security. Reports issued
Joint Inspector General practices and                   by the Office of the Inspector General as
procedures and codify them in formal                    well as by the General Accounting Office
policy. Additionally, the Office of the                 have covered topics such as the need to
Inspector General will assess the needs of              strengthen efforts to improve information
the Combatant Command Inspectors                        sharing by Federal authorities to state and
General for joint Inspector General training            city governments, the need for taking action
and develop a joint Inspector General                   to improve the efficiency of mobilization for
training curriculum that leverages ongoing              Reserve Forces, and the need to enhance
efforts to respond to their specific                    transportation security efforts. For every
requirements.                                           report that identifies an issue needing
                                                        attention, the Department is taking positive
                                                        actions in order to better protect American
Homeland Defense                                        citizens.

                                                        Discussion
The start of Operation Iraqi Freedom has
heightened the level of threat from
                                                        One of the many issues addressed in
adversaries who may use nuclear, chemical,
                                                        Homeland security is the ability of the
and biological weapons, and weapons of
                                                        United States to ensure continuity of
mass disruption such as information warfare
                                                        government should such an attack occur.
attacks on the Defense information structure.
                                                        The Office Secretary of Defense Continuity
Homeland security has been a priority across
                                                        of Operations Plan is the cornerstone
the Federal government and significant
                                                        document detailing the procedures and
initiatives such as the establishment of the
                                                        responsibilities that would ensure that the
Department of Homeland Security and,
                                                        Secretary of Defense could maintain the
within the Department of Defense, the
                                                        essential functions of the Department of
creation of an Assistant Secretary of

DoD Performance and Accountability Report         350                Part 4: Inspector General Summary of
                                                                       Management Challenges
Defense during times of crisis. The Office             fiscal year 2002 review assessed the
of the Inspector General issued a report               accuracy of the data DoD used in fiscal year
concluding that the Office Secretary of                2001 to report the security status for 560
Defense continuity of operations plan, if              information technology systems. DoD
executed, would ensure Office Secretary of             reported invalid data on the security status
Defense continuity of operations, though               of systems for an estimated 370 systems.
improvements in communication and                      Further, although the requirement for
coordination processes would increase the              systems to obtain security certification and
effectiveness of the Office Secretary of               accreditation has existed since 1997, we
Defense continuity of operations plan.                 estimate that only 101 of 560 systems met
                                                       the requirement. Consequently, the Office
Information security is a cornerstone of               of Management and Budget and DoD
Homeland security. The information                     managers do not have dependable
security threat to DoD systems and to other            information to ascertain the degree to which
public and private sector systems on which             information security controls exist in
national security depends is greater than              systems.
ever. Its sources include foreign
governments, terrorist groups, disgruntled             In conjunction with the Inspectors General
government or contractor employees,                    of the Defense Intelligence Agency, the
vandals, criminals with financial motives,             National Geospatial-Intelligence Agency,
and mere curiosity seekers. The challenge              the National Reconnaissance Office and the
to DoD is to minimize vulnerabilities                  National Security Agency, the Office of the
without losing the advantages of open,                 Inspector General also assessed the
interconnected systems with large numbers              adequacy and effectiveness of the DoD
of users. Because of the constantly evolving           intelligence agencies’ information assurance
threat and the sheer size of DoD information           policies and procedures. We have made
operations, the Department needs to be both            numerous recommendations to improve the
highly flexible and systematic in its                  Defense agencies’ information assurance
approach to information security. Although             program. Each of the DoD intelligence
the DoD is a leader in resolving many                  agencies have taken aggressive steps to
aspects of this complex problem, we                    improve their information assurance posture,
continue to find a wide range of security              but more improvements are needed.
weaknesses.
                                                       The Chairman of the Joint Chiefs of Staff
Since fiscal year 2001, the Government                 stated that the paradigm driving the
Information Security Reform Act has                    maintenance of information has changed
required that each agency obtain an                    from the Cold War “need to know” to the
independent assessment of its security                 Global War on Terror “need to share.”
posture. In fiscal year 2001 and fiscal                While information security remains an
year 2002, the Office of the Inspector                 important issue, information sharing is now
General evaluated the security posture based           critical to our intelligence, counter-
on an independently selected subset of                 terrorism, and critical infrastructure
information systems, and a summary of the              protection efforts. The Department needs to
Office of the Inspector General review was             address the challenges associated with
provided to DoD for inclusion in its report to         information collection from sources of ever
the Office of Management and Budget. The               increasing diversity, as well as providing


DoD Performance and Accountability Report        351              Part 4: Inspector General Summary of
                                                                    Management Challenges
access to timely and useful sensitive                 weapons of mass destruction in the former
information to other Federal agencies, state          Soviet Union. Under the program, the
governments, and local law enforcement.               United States assists former Soviet Union
                                                      states in building facilities and operating
Two reports by the Office of the Inspector            programs to safeguard, transport, and
General on exporting technology                       ultimately destroy chemical, biological, and
underscored the need for continued                    nuclear weapons, delivery systems, and
emphasis in this area. In addition, the DoD           infrastructure. Adequate controls for the
continues to work with other agencies to              program are vital to ensuring that the limited
improve the controls over exports of                  program funds are used effectively. The
sensitive technology. In this regard, the             lack of adequate controls was clearly
Congress can help by reauthorizing the long-          demonstrated in an Office of the Inspector
expired Export Administration Act so that             General report. The review showed that
national policy objectives are clear and the          although DoD spent $99 million to design
controls are completely consistent with               and begin construction of a facility to
those objectives.                                     eliminate solid rocket motors, the facility
                                                      would not be constructed because of local
The Defense Criminal Investigative Service            opposition in the Russian Republic where
has partnered with the Bureau of                      the facility was to be built. Adequate
Immigration and Customs Enforcement,                  inspections and firm agreements were not in
Department of Homeland Security, in order             place. On the positive side, DoD has taken
to circumvent the illegal transfer of                 several steps to reduce risks in the execution
technology critical to the defense                    of ongoing and future projects. One
infrastructure. Defense Criminal                      initiative undertaken is the development of a
Investigative Service has expanded the use            Joint Requirements Implementation Plan.
of the undercover technique as a means to             DoD has implemented a phased approach to
identify and successfully prosecute those             project execution to further reduce DoD
involved in the area of technology transfer.          risks. DoD also shifted the risk to Russia by
A series of Office of the Inspector General           agreeing to reimburse Russia after the solid
reports identified the need to improve the            rocket motors are destroyed.
policy and security and export controls over
biological agents at Defense laboratories and         In September 2003, the Deputy Secretary of
medical facilities. A classified interagency          Defense realigned Critical Infrastructure
summary report issued by Office of the                Protection Oversight to the Assistant
Inspector General about controls over select          Secretary of Defense for Homeland Defense.
biological agents identified the following            The Assistant Secretary of Defense for
systemic issues: physical security,                   Homeland Defense will focus on the
personnel access controls, inventory                  planning and execution of DoD activities
accountability and controls, emergency                and the use of resources in preventing and
disaster plans, registration with the Centers         responding to threats to infrastructures and
for Disease Control and Prevention, import            assets critical to DoD missions.
and export of agents, training, management
oversight, and policies and procedures.               In response to concern expressed by the
                                                      Deputy Under Secretary of Defense
The Cooperative Threat Reduction Program              (Installations and Environment) that fire
was initiated to reduce the threat posed by           department and emergency services had not


DoD Performance and Accountability Report       352              Part 4: Inspector General Summary of
                                                                   Management Challenges
been reviewed to assess their ability to               Joint Task Force-Computer Network
respond to new and realistic threats, such as          Operations, and the Law Enforcement and
weapons of mass destruction, the Office of             Counterintelligence Center to coordinate and
the Inspector General conducted an                     deconflict computer intrusion information,
evaluation of the DoD Fire and Emergency               operations, and investigations has been a
Services Program. The evaluation identified            major step forward in this area. However,
that additional missions, increased                    this needs to be expanded beyond the
deployments, National Guard and Reserve                boundaries of computer network defense to
Component mobilizations, and inefficient               include all counterintelligence and law
hiring processes have adversely impacted               enforcement information, operations, and
fire department staffing. Additionally, the            investigations. The Counterintelligence
Office of the Inspector General found that             Field Activity is undertaking this
the Military Departments did not give                  tremendous effort, but this will require the
priority to fire fighting apparatus during the         total support of all of the DoD entities,
budget process resulting in apparatus being            without reservation. The DoD Computer
under funded by $550 million, over-age, and            Network Defense Regulation should be used
sometimes nonfunctional.                               as the boiler-plate to establish and mandate
                                                       the reporting and coordination of all law
To support the Department’s efforts to                 enforcement and counterintelligence
enhance homeland security and to wage the              information within DoD, and to establishing
global war on terrorism, the Defense                   one entity within the Department to serve as
Criminal Investigative Service is (1)                  the point of contact for this effort.
participating in the regional Federal Bureau
of Investigation Joint Terrorism Task Forces
and the National Joint Terrorism Task                  Human Capital
Forces; (2) placing investigative emphasis
on Terrorism, Homeland Security,
                                                       The challenge in the area of human capital is
Technology Protection, Industrial Espionage
                                                       to ensure that the DoD civilian and military
and Computer Network Defense issues; (3)
                                                       workforces are appropriately sized, well
committing nearly 30 percent of the agent
                                                       trained and motivated, held to high
corps directly to these high priority missions
                                                       standards of integrity, encouraged to engage
in support of the warfighter; and (4) rotating
                                                       in intelligent risk taking, and thus capable of
two agents every 90 days to an Iraq Detail,
                                                       handling the emerging technologies and
in direct support of the Coalition's
                                                       threats of the 21st century. The Department
Provisional Authority. The Department
                                                       has 2.6 million active duty and reserve men
needs to coordinate the law enforcement and
                                                       and women under arms and a civilian
counterintelligence efforts associated with
                                                       workforce of 680,000. The President’s
supporting the regional Joint Terrorism Task
                                                       fiscal year 2003 budget projects a civilian
Forces and the National Joint Terrorism
                                                       workforce of 615,000 by fiscal year 2007.
Task Force command center.
                                                       The size of DoD and the wide variety of
                                                       skills needed to meet this challenge are
DoD is lacking in the coordination of both
                                                       complicating factors, as are the constraints
counterintelligence and law enforcement
                                                       posed by Federal Government civilian
information from both within the
                                                       personnel management rules. Also, the
Department and in coordination with other
                                                       1990s were a period of downsizing and
Federal Agencies. The establishment of the
                                                       reduced hiring, which led to an aged

DoD Performance and Accountability Report        353               Part 4: Inspector General Summary of
                                                                     Management Challenges
workforce. The current average age in most               reported that despite considerable progress
civilian job series is late forties. In some job         over the past two years, today’s human
series, such as quality assurance specialists            capital strategies are not appropriately
and test range engineers, the average age is             constituted to meet the current and emerging
well over fifty. The aging workforce is                  challenges or to drive the needed
highlighted by the fact that 66 percent of the           transformation across the Federal
workforce will be eligible to retire by fiscal           Government. The problem is a set of
year 2006. The Department must identify                  policies and practices that are not strategic,
and maintain a balanced basic level of skills            and are viewed as outdated and over
to maintain in-house capabilities and meet               regulated. Wherever the General
the challenges of the 21st century. The                  Accounting Office and the audit community
continuing increase in the number of                     have identified a problem with Human
retirement-age employees could make it                   Capital, the Department has initiated
difficult for DoD to maintain an institutional           aggressive corrective actions.
memory and to infuse its workforce with
new and creative ideas and to develop the                Discussion
skilled civilian workers, managers, and
leaders it will need to meet future                      On June 17, 2003, the General Accounting
requirements.                                            Office announced that it was beginning a
                                                         review of the DoD Strategic Workforce
Inspector General Assessment of Progress                 Planning for Civilians. The review would
                                                         determine the extent to which DoD and the
Overall, the Department is making progress               Military Departments have developed and
on many fronts to improve human capital.                 implemented strategic workforce plans for
The Department’s legislative proposal for                civilians to meet future requirements; what
The National Security Personnel System is                actions DoD has taken to ensure the
strongly supported by the Office of the                  credibility of the workforce data and
Inspector General because it will create the             analysis used in these plans; and what best
flexibilities needed to manage the                       practices and challenges affect the
21st century workplace. Other positive                   development and implementation of the
initiatives the Department has undertaken to             plans.
transform its forces include adopting a
capabilities-based approach to planning                  During fiscal year 2003, the DoD audit
based on clear goals and to improve the                  community issued 20 reports addressing
linkage between strategy and investments.                human capital issues. Pursuant to a
The Department recognized the need for a                 requirement contained in the National
strategic plan for the civilian workforce by             Defense Authorization Act for Fiscal
publishing the Department’s first civilian               Year 2002 (Public Law 107-107), the Office
human resources strategic plan. The                      of the Inspector General issued a report on a
strategic plan imparts the Department’s                  review of DoD Compliance with the
direction with its vision, values, principles,           Uniformed and Overseas Citizens Absentee
critical success goals and objectives. The               Voting Act. The review found that the
General Accounting Office has done                       Federal Voting Assistance Program Office
considerable work in the area of Strategic               had developed guidance and resources
Human Capital Management. In its High-                   needed for effective and compliant DoD
Risk Series, the General Accounting Office               implementation of the Act; however, the


DoD Performance and Accountability Report          354                Part 4: Inspector General Summary of
                                                                        Management Challenges
effectiveness of the Military Departments'               ability to produce, collect, process, and
voting assistance programs varied at                     distribute information. Data must be
locations visited. Although each Military                accurate, timely, secure, and in usable form.
Department had a plan for implementing the               The huge scale, unavoidable complexity,
voting assistance program, the effectiveness             and dynamic nature of DoD activities make
of the Military Departments’ programs                    them heavily dependent on automated
varied for the November 2002 election at the             information technology. This dependence
10 locations visited.                                    has proven to be a major challenge because
                                                         DoD management techniques have not kept
The Military Department Audit Agencies                   pace with the continual growth in
issued reports concerning use of Marine                  information user requirements and the
Corps military personnel to perform non-                 shortened life spans of technologies before
military functions, time and attendance                  obsolescence. Much of the DoD success in
practices, Air Force personnel demographic               meeting the Secretary of Defense’s priorities
data, and unemployment compensation for                  and the major management challenges will
former Air Force civilian employees.                     depend on effective and efficient
                                                         information technology management.
DoD could have made better use of quality
assurance resources by assessing its use of              Inspector General Assessment of Progress
quality assurance specialists. The Defense
Contract Management Agency needs to                      Progress is positive in addressing the
evaluate how its quality assurance                       challenge of information technology
specialists are being used, considering the              management. The Business Management
following factors:                                       Modernization Program was established in
                                                         2003 in recognition of the need to manage
•   the Defense Contract Management                      information technology systems acquisitions
    Agency workforce is small and getting                and modernization from an enterprise
    smaller,                                             perspective. The new program should help
•   more contracts are being awarded to                  provide the oversight needed to instill
    smaller contractors,                                 discipline in the acquisition and
•   the number of contractors doing business             modernization process. Further, in response
    with DoD has nearly doubled in the last              to the President’s Management Agenda
    5 years,                                             initiative on Expanded Electronic
•   the average age of the Defense Contract              Government, the Department has also
    Management Agency quality workforce                  increased the quality of business cases and
    is 52.6 years, and                                   the visibility into its information technology
•   ratios of contracts to quality assurance             portfolio. The audit reports issued on
    specialists are increasing, resulting in too         Information Technology Management by the
    much work for each to accomplish.                    Office of the Inspector General were also
                                                         received in a positive manner by the
                                                         Department as areas deserving attention.
Information Technology
Management                                               Discussion

The key to success on the modern battlefield             During fiscal year 2003, 24 audit reports
and in internal business activities is the               continued to indicate a wide range of


DoD Performance and Accountability Report          355                Part 4: Inspector General Summary of
                                                                        Management Challenges
management problems in systems selected              do more work in better managing
for review. The important systems for                information technology investments using
which management improvements were                   the business enterprise architecture initiative
recommended included the U.S. Army                   as a foundation.
Corps of Engineers Management
Information System and the Army’s All                Challenges confronting the Department of
Source Analysis System. The acquisition              Defense in the area of information security
oversight of the All Source Analysis System          are discussed under the topic of Homeland
was insufficiently emphasized, with the              Security.
result that the Army deployed system
components that did not satisfy user
requirements.                                        Streamline Acquisition
One Office of the Inspector General report           Processes
on the Global Command and Control
System—Joint Operation Planning and                  No other organization in the world buys the
Execution System— found the fielding of              amount and variety of goods and services as
the most current version, Joint Operation            the DoD. In fiscal year 2002, the
Planning and Execution System 21, had                Department spent $200 billion on
fallen 46 months behind schedule because of          acquisitions. On average every working
insufficient project oversight. The Defense          day, the Department issues more than
Information Systems Agency, the Program              20,000 contract actions valued at
Manager for Joint Operation Planning and             $692 million and makes more than
Execution System 21, agreed to provide               5,000 purchase card transactions valued at
greater attention to integrated logistics            $26 million. There are about 1,600 weapon
support planning and increase use of                 acquisition programs valued at $2.1 trillion
baseline management and performance-                 over the collective lives of these programs.
based service contracting.                           The amount spent to procure services,
                                                     $77 billion in fiscal year 2001, grew to
In addition, auditors began reporting on             $93 billion in fiscal year 2002 as DoD
progress in developing the DoD business              Components continued to expand
enterprise architecture necessary to respond         outsourcing pursuant to the Federal
to Office of Management and Budget and               Activities Inventory Reform Act of 1998
congressional requirements, as well as to            and the President’s Management Agenda
support its transforming initiatives.                initiatives. The management challenge is,
Auditors found that DoD has neither a single         despite this huge scale, to provide materiel
DoD-wide definition of a business                    and services that are superior in
management information technology system             performance, high in quality, sufficient in
nor a systems inventory to support the               quantity, and reasonable in cost.
business enterprise architecture initiative.
This condition also makes the budgeting              Inspector General Assessment of Progress
process for DoD information technology
investment opaque to senior managers and             Overall the Department has made
impedes DoD responsiveness to Office of              continuous progress over the past decade in
Management and Budget data calls and                 streamlining the acquisition process. The
interdepartmental initiatives. DoD needs to          Office of the Inspector General has


DoD Performance and Accountability Report      356               Part 4: Inspector General Summary of
                                                                   Management Challenges
partnered with DoD on improving numerous               DoD managers, auditors, and investigators
acquisition processes. Despite progress, the           to develop automated techniques to detect
sheer volume of acquisitions and the                   purchase card fraud and misuse. In a review
numerous annual changes in regulations and             of 1,357 cardholders, the automated
processes for the acquisition professional             techniques helped to expose 182 cardholders
make this a long-term challenge.                       who had expended about $5 million in
                                                       questionable transactions.
Discussion
                                                       Problems continue to exist in the award and
The Department needs to be vigilant in                 administration of contracts for professional,
investigating procurement fraud to optimize            administrative, and management support
the financial resources appropriated for               services. Contracting officials continue to
national defense. During the course of                 award contracts for services without
investigations, Defense Criminal                       following prescribed procedures. Audit
Investigative Service needs to identify areas          reports found problems with either nonuse
of weakness uncovered within the                       of historical information for defining
procurement system that are vulnerable to              requirements, inadequate competition or
fraudulent activity, and ensure that they are          questionable sole-source awards, inadequate
adequately addressed.                                  contract surveillance, or noncompliance
During fiscal year 2003, the DoD internal              with Truth in Negotiations Act procedures.
audit community issued 116 reports that
addressed a range of continuing acquisition            To streamline the acquisition process and to
issues. The Defense Contract Audit Agency              comply with the Federal Acquisition
continued to assist contracting officers               Streamlining Act of 1994, DoD has
through contract audits that have identified           encouraged the use of performance-based
$3.2 billion of questioned costs and funds             payments as a means to finance fixed-price
put to better use for the first half of fiscal         contracts. Performance-based payments
year 2003. These monetary benefits reduce              offer incentives to contractors and the
program costs and the need for additional              Government. Contractors need only to meet
appropriations.                                        agreed-upon performance milestones to
                                                       receive payments (that include profit) up to
To streamline a portion of the enormous                90 percent of the contract price and the
process for buying goods and services, DoD             Government only has to ensure that the
participates in the Federal purchase card              agreed-upon performance occurred.
program for micro-purchases ($2,500 and                Performance-based payments provide the
less) and contract payments. Paperwork,                potential for quicker payments to the
time, and other administrative costs are               contractor and a reduction in administrative
reduced when the purchase card is used.                costs for DoD. Challenges, however, exist
However, a lack of controls over purchase              relating to the performance-based payments
card use diminished the benefits derived               initiative. An Office of the Inspector
from the program by allowing fraud and                 General report on “Administration of
misuse to occur unchecked. A fiscal                    Performance-Based Payments Made to
year 2003 Office of the Inspector General              Defense Contractors” showed instances in
“Summary Report on the Joint Review of                 which DoD did not have documentation to
Selected DoD Purchase Card Transactions”               support more than $4.1 billion in
detailed the collaborative efforts between             performance-based payments. DoD stated


DoD Performance and Accountability Report        357              Part 4: Inspector General Summary of
                                                                    Management Challenges
that corrective actions were underway and            Other Office of the Inspector General
that future performance-based payments               reports showed that management of the
would have adequate documentation to                 Aviation Into-Plane reimbursement card and
show that performance occurred.                      contracting procedures with small
                                                     businesses (Historically Underutilized
Competitive sourcing is one of the five              Business Zones) needed improvement.
Government-wide initiatives in the
President’s Management Agenda. The                   The Army Audit Agency issued reports on
President stated, “Government should be              service contracts, property accountability
market-based—we should not be afraid of              procedures, the Government Purchase Card
competition, innovation and choice. I will           Program, and the Risk Management
open government to the discipline of                 Program for the Stryker Vehicle System.
competition.” According to the President’s           The Naval Audit Service reviewed
Management Agenda, nearly half of all                acquisition issues on configuration
Federal employees perform tasks that are             management, Risk Assessments of Naval
readily available in the commercial                  Systems Acquisition and Acquisition
marketplace and, historically, the Federal           Logistics, the Navy Travel Card Program,
Government has realized savings in the               commercial activity studies, and other areas.
range of 20 to 50 percent when Federal               The Air Force Audit Agency also issued
Government and private sector service                reports on purchase cards, commercial
providers compete to perform those                   activity studies, and acquisitions such as
functions. Audits showed problems with the           weather observation services, controls over
contentious process of comparing the cost of         contractor access to Air Force installations,
in-house performance to private sector               and computer equipment.
performance.

A General Accounting Office report on                Financial Management
Space Systems Acquisition Management
Policy showed that although the new DoD
space acquisition policy may help provide            The President’s Management Agenda has
more consistent and robust information on            initiatives on Improved Financial
technologies, requirements, and cost; the            Performance and Budget and Performance
benefits might be limited. The General               Integration. These initiatives will help focus
Accounting Office reported that the new              the Department on the Financial
policy does not alter the DoD practice of            Management challenge. The Department’s
committing major investments before                  financial statements are among the largest
knowing what resources will be required to           and most complex and diverse financial
deliver promised capability. The General             statements in the world. The Department’s
Accounting Office stated that their work has         fiscal year 2003 financial statements include
repeatedly shown that the concurrency of             $1.1 trillion in assets and $1.6 trillion in
development of leading edge technology               liabilities. The Department has 1.4 million
within product development increases the             active duty military personnel, 680,000
risk that significant problems will be               civilian employees, 1.2 million military
discovered as the system is integrated and           personnel in the National Guard and
built.                                               Reserve, and 2.0 million retirees and
                                                     families receiving benefits. The Department
                                                     operates from more than 6,000 locations in

DoD Performance and Accountability Report      358              Part 4: Inspector General Summary of
                                                                  Management Challenges
more than 146 countries and includes more               business operations throughout the
than 600,000 buildings and structures. The              Department. These financial management
Defense Finance and Accounting Service                  problems have impeded the Department’s
processed 12.3 million invoices, recorded               ability to provide reliable, timely, and useful
121 million accounting entries, paid                    financial and managerial data to support
5.9 million people, and disbursed                       operating, budgeting, and policy decisions.
$416.1 billion in fiscal year 2003. The DoD             The problems have also prevented the
audit community issued 135 reports during               Department from receiving a clean opinion
fiscal year 2003 to improve financial                   on its financial statements. The Office of
management.                                             Management and Budget anticipates that the
                                                        Department will be the only agency covered
In addition to the Department-wide financial            under the Chief Financial Officer Act that
statements, the Department is responsible               will not receive a clean opinion in fiscal
for preparing and obtaining an audit opinion            year 2003.
for nine component financial statements.
The Department is also responsible for                  The General Accounting Office has
preparing financial statements for three                identified six high-risk areas within the
intelligence agencies.                                  Department. Three of the six high-risk areas
                                                        (financial management, systems
Inspector General Assessment of Progress                modernization, and inventory management)
                                                        directly impact the Department’s ability to
In fiscal year 2003, the Department made                get a clean audit opinion on its financial
greater progress in addressing the challenge            statements. Additionally, the Office of the
of improving financial management than in               Inspector General has identified 11 material
any other year since passage of the Chief               control weaknesses that directly impact the
Financial Officers Act. A senior level                  Department’s ability to get a clean opinion
partnership was forged among the Deputy                 on its financial statements including:
Director for Management, Office of                      financial management systems; fund balance
Management and Budget; the Comptroller                  with treasury; inventory; operating material
General, the Under Secretary of Defense                 and supplies; property, plant and equipment;
(Comptroller)/Chief Financial Officer; and              government furnished material and
the DoD Inspector General to address the                contractor acquired-material; military
financial management challenges in DoD.                 retirement health care liabilities;
The problems are being identified and the               environmental liabilities; intragovernmental
partnership is jointly bringing the resources           eliminations and other accounting entries;
to bear to identify solutions. Further, for the         statement of net cost; and statement of
first time, all the major financial statements          financing. The Department’s high-risk areas
identified the impediments to obtaining an              and material control weaknesses will
opinion and the costs and timeframes for                prevent the Federal Government from
overcoming the impediments.                             achieving a clean opinion on their
                                                        consolidated financial statements in fiscal
Discussion                                              year 2003.

The Department faces financial management               Of these high-risk areas and material control
problems that are complex, long-standing,               weaknesses, the most significant problem is
pervasive, and deeply rooted in virtually all           the Department’s financial management


DoD Performance and Accountability Report         359               Part 4: Inspector General Summary of
                                                                      Management Challenges
systems. The Department currently relies on              operating, budgeting, and policy decisions.
approximately 2,300 systems, including                   The initiatives to ensure reliability include
accounting, acquisition, logistics, and                  obtaining and sustaining clean audit
personnel systems, to perform its business               opinions for the Department and its
operations. Many of these financial                      components. Timeliness initiatives include
management systems do not comply                         re-engineering reporting processes,
substantially with Federal financial                     instituting quarterly financial statements,
management system requirements. In                       and accelerating end-of-year reporting.
addition, there is little standardization across         Initiatives for enhancing usefulness include
the Department. Multiple systems perform                 requiring comparative financial reporting,
the same task, identical data is stored in               and reporting specific financial performance
multiple systems, data is manually entered               measurements.
into multiple systems, and there are many
work-arounds and off-line records to                     The Office of the Inspector General is
translate data from one system to another.               working closely with the Department to
                                                         address the administration’s requirement for
To address this problem, Congress included               accelerated submission of audited financial
requirements in the National Defense                     statements. Recently, the Office of the
Authorization Act for fiscal year 2003,                  Inspector General, at the request of the
which required the Department to develop a               Office of the Under Secretary of Defense
business enterprise architecture and a                   (Comptroller)/ Chief Financial Officer,
transition plan for implementing the                     completed a study of the “size and scope” of
business enterprise architecture. The Act                requirements to audit the Department’s
requires the business enterprise architecture            financial statements, and established a
to describe an information infrastructure that           long-term audit strategy for auditing the
would enable the Department to achieve                   Department’s annual financial statements. If
certain capabilities, such as complying with             the recommendations from this study are
all Federal accounting, financial                        implemented by all parties concerned, the
management, and reporting requirements;                  Under Secretary of Defense
integrating accounting, budgeting, and                   (Comptroller)/Chief Financial Officer
information systems; and routinely                       anticipates a clean opinion for the fiscal
providing timely, accurate, and reliable                 year 2007 financial statements. We support
financial and management data for                        the high priority the Under Secretary of
management decision making. The                          Defense (Comptroller)/Chief Financial
Department has delivered the initial version             Officer and the Defense Finance and
of the business enterprise architecture and              Accounting Service are giving to providing
transition plan; however, much work                      accurate, timely, and reliable financial
remains.                                                 statements.

The President’s Management Agenda also
contains initiatives for improving the                   Health Care
Department’s financial performance. The
President’s Management Agenda directs the
                                                         The DoD military health system challenge is
Office of Management and Budget to work
                                                         to provide high quality health care in both
with the Department to provide reliable,
                                                         peacetime and wartime. The DoD military
timely, and useful information to support
                                                         health system must provide quality care for

DoD Performance and Accountability Report          360              Part 4: Inspector General Summary of
                                                                      Management Challenges
approximately 8.7 million eligible                     addition, TRICARE Management Activity
beneficiaries within fiscal constraints and in         received $1.8 million in administrative
the face of price growth pressure that has             recoupments. However, total fraud
made cost control difficult in both the public         judgment dollars declined in fiscal
and private sectors. The DoD military                  year 2002, primarily because of a shift in
health system was funded at $26.6 billion in           DoD investigative priorities to homeland
fiscal year 2003, including $16.2 billion in           security and anti-terrorist activities after the
the Defense Health Program appropriation,              September 11, 2001, attacks.
$5.6 billion in the Military Departments’
military personnel appropriations Defense              The primary peacetime challenges for the
Health Program personnel, $0.2 billion for             DoD military health system in 2004 will be
military construction, and $4.6 billion from           implementing the new TRICARE managed
the DoD Medicare-Eligible Retiree Health               care contracts, developing a fair and
Care Fund to cover the costs of health care            accurate process for making Base
for Medicare eligible retirees, retiree family         Realignment and Closure recommendations,
members and survivors.                                 and ensuring compliance with the Health
                                                       Insurance Portability and Accountability
Inspector General Assessment of Progress               Act. Three TRICARE managed care
                                                       contracts valued at $6.4 billion were
The DoD has been aggressively moving                   awarded on August 21, 2003. Those three
forward on improving health care while                 contracts will be phased in over a 14-month
attempting to control costs. New contracts             period beginning September 1, 2003,
for TRICARE, the Department’s military                 replacing the current seven contracts. Each
health system provider, and improved                   award requires transferring some of the
coordination and sharing of DoD and                    region to a new managed care contractor.
Department of Veterans Affairs health care             The results of the Base Realignment and
resources highlight actions to improve                 Closure initiative will impact the numbers
delivery of health care and control costs.             and types of medical facilities that will make
Further, the DoD has reacted positively to             up the DoD military health system. Office
initiate corrective actions whenever the audit         of the Assistant Secretary of Defense for
community identified problems in health                Health Affairs and Military Department
care management.                                       medical personnel have a major role in
                                                       determining the future of the DoD military
Discussion                                             health system through participation in the
                                                       Medical Joint Cross Service Group.
During fiscal year 2003, the DoD audit                 Compliance with the Health Insurance
community issued 12 reports addressing                 Portability and Accountability Act is to be
issues such as DoD and Department of                   done in three phases. The first phase,
Veterans Affairs resource sharing, franchise           protection of patient health information, was
business activity contracts, third party               required to be implemented by April 2003.
collections, and medical conference costs.             The second phase, standardized electronic
Fraud is also a factor in controlling health           transactions, is scheduled for
care costs. During fiscal year 2002,                   implementation in October 2003.
$2.3 million was identified for recovery to            Implementing the third phase, safeguarding
the TRICARE Management Activity as a                   patient health information, requires
result of criminal investigations. In                  completing tasks in fiscal year 2004 for the


DoD Performance and Accountability Report        361               Part 4: Inspector General Summary of
                                                                     Management Challenges
safeguards to be in place by spring of 2005.           sharing and coordination project.” We
                                                       believe the sharing requirement will benefit
The primary readiness challenges include               both agencies and reduce costs. We
the readiness of the forces and the readiness          addressed this initiative in a recently
of the medical staff and units. Readiness of           released audit. Other audits have identified
the forces means ensuring that all                     additional DoD and Department of Veterans
deployable forces are individually medically           Affairs sharing opportunities.
ready to perform their missions before
deploying, while deployed, and upon their
return. The Office of the Assistant Secretary          Logistics
of Defense for Health Affairs has developed
a new standard for individual and unit
                                                       The DoD logistics support operations for
medical readiness, and commanders should
                                                       supplies, transportation, and maintenance
be held responsible for ensuring their forces
                                                       costs more than $80 billion a year. This
meet this standard. Readiness of the
                                                       includes $40 billion, and nearly 700,000
medical staff and units includes ensuring
                                                       military and civilian personnel and several
that medical staff can perform at all
                                                       thousand private sector firms, involved in
echelons of operation and the units have the
                                                       the maintenance of more than 300 ships;
right mix of skills, equipment sets, logistics
                                                       15,000 aircraft and helicopters; 1,000
support, and evacuation capabilities.
                                                       strategic missiles; and 350,000 ground
Metrics will need to be developed to assess
                                                       combat and tactical vehicles, and hundreds
relative readiness levels.
                                                       of thousands of additional mission support
                                                       assets. In addition, DoD maintains an
In addition to the peacetime and readiness
                                                       inventory of items such as clothing, engines,
challenges, the President’s Management
                                                       and repair parts valued at an estimated
Agenda for fiscal year 2002 identified nine
                                                       $63 billion to support the warfighter. The
agency-specific initiatives. One of the
                                                       purpose of logistics is to reliably provide the
specific initiatives was the coordination of
                                                       warfighter with the right material at the right
the DoD and the Department of Veterans
                                                       time to support the continuous combat
Affairs medical programs and systems. This
                                                       effectiveness of the deployed force.
issue is further addressed in Section 721 of
the National Defense Authorization Act for
                                                       Inspector General Assessment of Progress
fiscal year 2003, which requires
coordination and sharing of DoD and the
                                                       The challenge of making DoD a world-class
Department of Veterans Affairs health care
                                                       logistics provider is vast, but valuable
resources. Effective October 1, 2003, DoD
                                                       progress is being made. The Department
and Veterans Affairs are each required to
                                                       has a strategic plan and numerous pilot
contribute $15 million to the DoD-Veterans
                                                       programs to help improve logistics. The
Affairs Health Care Sharing Incentive Fund
                                                       DoD audit community is assisting the
to finance future sharing initiatives. In
                                                       Department in evaluating new business
addition, Section 722 of the National
                                                       processes and in identifying additional
Defense Authorization Act for fiscal
                                                       processes needing reform.
year 2003 required DoD to contribute
$3 million in fiscal year 2003, $6 million in
                                                       Major logistics initiatives include
fiscal year 2004, and $9 million in later
                                                       Performance Based Logistics, Future
years to cover a “health care resources
                                                       Logistics Enterprise and Base Realignment

DoD Performance and Accountability Report        362               Part 4: Inspector General Summary of
                                                                     Management Challenges
and Closure. The September 2001                        and the implementation of the Future
Quadrennial Defense Review mandated                    Logistics Enterprise Condition Based
implementation of performance based                    Maintenance initiative.
logistics in support of weapon systems. The
objectives of the Performance Based                    One Office of the Inspector General report
Logistics initiative are to compress the               found that DoD had not made effective use
supply chain, eliminate non-value-added                of the North Atlantic Treaty Organization
steps, and improve readiness for major                 Maintenance and Supply Organization to
weapon systems and commodities. The                    obtain logistics support on weapon systems
Future Logistics Enterprise is a series of six         held in common by North Atlantic Treaty
initiatives that were launched in                      Organization nations. As a result, the
September 2001 by the Deputy Under                     Military Departments could incur surcharges
Secretary of Defense (Logistics and Materiel           when using existing weapon system
Readiness). The Future Logistics Enterprise            partnership agreements. For example, the
is the DoD strategic vision to accelerate              Army could incur about $1 million in
logistics improvement to enhance support to            additional costs for its projected fiscal
the warfighter. The primary objective of the           year 2004 helicopter component
Future Logistics Enterprise is to ensure               maintenance and repair workload. Also, the
consistent, reliable support that meets the            Navy could experience reduced readiness
warfighter requirements through enterprise             while it awaits high-demand, depot-level
integration and end-to-end customer service.           repairables for the P-3 Orion requisitioned
The objective of the Base Realignment and              from Navy sources. In addition, the Military
Closure initiative is to realign the DoD               Departments may not realize the additional
military base structure and examine and                potential benefits of consolidated
implement opportunities for greater joint              procurement of supplies, storage, and
activity. The Office of the Inspector                  services offered by using the North Atlantic
General is performing a series of audits in            Treaty Organization Maintenance and
support of the Performance Based Logistics             Supply Organization.
and Future Logistics Enterprise initiatives.
In addition, the Office of the Inspector               The term “performance-based logistics
General is providing assistance to DoD in              contract” means a contract in which the
support of its supply and storage and                  contractor shall meet reliability, availability,
industrial Base Realignment and Closure                and responsiveness requirements for
Joint Cross Service Groups that are                    logistical support, resulting in improved
analyzing common business-oriented                     product effectiveness while reducing total
support functions.                                     ownership costs. DoD policy is to
                                                       aggressively pursue Performance Based
Discussion                                             Logistics as the preferred method of
                                                       providing weapon system logistics support.
During fiscal year 2003, 69 DoD audit                  All new weapons should use Performance
community reports addressed a broad range              Based Logistics if justified by business case
of logistics issues. Topics included                   analysis and all legacy weapons should
maintenance depot materiel control                     transition to Performance Based Logistics
deficiencies, international DoD airfreight             by 2005 if justified by business case
tenders, transportation subsidies, inventory           analysis. Based on two Office of Inspector
management, contractor logistics support,              General audits of one military service, some


DoD Performance and Accountability Report        363               Part 4: Inspector General Summary of
                                                                     Management Challenges
business case analyses used to support                 resources from critical areas.
Performance Based Logistics decisions have
used unreliable and questionable data and              Inspector General Assessment of Progress
may have overstated the likely benefits of
Performance Based Logistics. Also, DoD                 The DoD has struggled with an aging and
management had not developed effective                 excess infrastructure for decades. However,
metrics to evaluate Performance Based                  the Department has been making progress
Logistics performance, both technical and              this year in defining all of the infrastructure
cost.                                                  problems as it begins the Base Realignment
                                                       and Closure process for 2005. The planned
                                                       oversight and breadth of Base Realignment
Infrastructure and                                     and Closure 2005 far exceeds prior Base
                                                       Realignment and Closure efforts in 1989,
Environment                                            1991, 1993 and 1995.

The challenge in managing the 638 major                Discussion
military installations and other DoD sites is
to provide reasonably modern, habitable,               Transformation through Base Realignment
and well-maintained facilities, which cover a          and Closure poses a significant challenge
wide spectrum from test ranges to housing.             and opportunity for DoD. Base
In the past year, the Army and the Navy                Realignment and Closure 2005 should
completely reorganized the way they                    eliminate excess physical capacity and
manage their installations. With the stand             convert DoD infrastructure into a more
up of the Army’s Installations Management              efficient structure that provides
Agency and the Navy’s Commander of                     opportunities for greater joint activity. As
Naval Installations, those two Military                part of the challenge, DoD must meet the
Departments shifted authority and                      timelines established in law and use certified
responsibility for installation sustainment            data that are accurate and complete to
and the associated funding. The Military               develop the recommendations. Another
Departments need to evaluate and measure               critical aspect of the Base Realignment and
the impacts on readiness, installation                 Closure challenge facing DoD is to have a
funding, and installation programs to judge            fair and accurate process that will withstand
the effectiveness of the organizations.                General Accounting Office and Base
                                                       Realignment and Closure Commission
This challenge is complicated by the need to           scrutiny.
minimize spending on infrastructure, so that
funds can be used instead on weapons                   The Defense Department is the world’s
modernization and other priorities.                    largest steward of properties, responsible for
Unfortunately, there is an obsolescence                more than 46,425 square miles in the United
crisis in the facilities area itself, and              States and abroad—nearly five and-a-half
environmental requirements are continually             times the size of the state of New Jersey—
growing. Further, The DoD maintains more               with a physical plant of some
facility infrastructure than needed to support         621,850 buildings and other structures
its forces. DoD estimates there is 20 to               valued at approximately $600 billion. These
25 percent more base capacity than needed.             installations and facilities are critical to
Maintaining those facilities diverts scarce            supporting our military forces, and they


DoD Performance and Accountability Report        364                Part 4: Inspector General Summary of
                                                                      Management Challenges
must be properly sustained and modernized              during fiscal year 2003. The reports
to be productive assets. The goal of the               addressed topics such as the DoD alternative
Department is a 67-year replacement cycle              fuel vehicle program, explosives safety
for facilities. The replacement cycle was              program oversight, privatization of family
reduced from a recapitalization rate of                housing, implementation of the Rural
192 years to 101 years in fiscal year 2002.            Development Act of 1972, and protection of
However, fiscal year 2003 funding levels               the European Theater’s Nuclear Command
will only allow recapitalization on a                  and Control System and capabilities against
149-year cycle.                                        radio frequency threats.

At the start of fiscal year 2001, the Military
Departments owned 1,612 electric, water,
wastewater, and natural gas systems
worldwide. The Department has
implemented an aggressive program to
privatize utility systems and set a milestone
of privatizing at least 65 percent of the
available utility systems by September 2004.
In addition, while installation commanders
must strive to operate more efficiently, they
must do so without sacrificing in areas that
enhance their ability to operate in the event
of a terrorist attack on our homeland.
Comprehensive plans for preventing
sabotage and responding to attacks on water
or power at military installations will be
complicated by civilian control of utilities.

The DoD has an estimated $55.7 billion in
environmental liabilities as of June 30, 2003.
This daunting task seems to be never ending,
and indeed, liabilities may be increased
when installations are selected for closure.
DoD continues to attempt to correct past
material control deficiencies in estimating
environmental liabilities, and in performing
a comprehensive inventory of unexploded
ordinance on inactive DoD ranges and
calculating the resulting environmental
liability. Accordingly, DoD continues to
need to improve documentation and
supervisory review of environmental
liability estimates.

The DoD audit agencies issued 39 reports on
infrastructure and environmental issues


DoD Performance and Accountability Report        365              Part 4: Inspector General Summary of
                                                                    Management Challenges
                                 Part 5:
                                Appendices




DoD Performance and Accountability Report
               Appendix A: Detailed Performance Metrics
Performance Metric: Active Component end strength no more than 2%
over the fiscal year authorization (at the end of each quarter)

   Active                FY 2000                   FY 2001                FY 2002                 FY 2003
 Component                Actual                    Actual                 Actual             Authorized/Actual*
Army                     482,170                   480,801                486,542             480,000/499,301
                         (+0.5%)                   (+0.2%)                (+1.4%)                 (+4.0%)
Navy                     373,193                   377,810                383,108             375,700/382,235
                         (+0.3%)                   (+1.4%)                (+1.9%)                 (+1.7%)
Marine Corps             173,321                   172,934                173,733             175,000/177,779
                         (+0.5%)                   (+0.2%)                (+0.7%)                 (+1.6%)
Air Force                355,654                   353,571                368,251             359,000/375,062
                         (-1.4%)                   (-1.0%)                (+2.6%)                 (+4.5%)
Note: Previous performance data reported authorized end strength, not actual end strength.
*Preliminary data as of October 31, 2003


                                         FY 2003 Quarterly Metric
         1st Qtr                     2nd Qtr                       3rd Qtr                      4th Qtr
     (<2% of Auth)                 (<2% of Auth)               (<2% of Auth)                 (< 2% of Auth)

                                         FY 2004 Quarterly Metric
         1st Qtr                     2nd Qtr                       3rd Qtr                      4th Qtr
     (<2% of Auth)                (< 2% of Auth)               (<2% of Auth)                 (<2% of Auth)

Metric Description. Service end-strength authorizations are set forth in the National Defense
Authorization Act for the fiscal year. Services are required to budget and execute to that end
strength by the end of the fiscal year. The Services’ actual end strength for each quarter will be
evaluated against the authorized strength for that fiscal year. By law, the Service Secretaries may
authorize operating up to 2% above the authorized end strength, and the Secretary of Defense
may authorize the Services be up to 3% above their authorized end strength for that fiscal year, if
determined to be in the national interest. FY 2003 is the first year that quarterly comparisons will
be made.

Verification &Validation Method. The Directorate for Information Operations and Reports of
the Washington Headquarters Service publishes the official end strength for the Services
monthly. Preliminary numbers are available 3 weeks after the end of the month, and final
numbers are available 5 weeks after the end of the month. The final numbers will be compared to
the authorized end strengths for each of the active Components; the difference of the actual from
the authorized end strengths will be calculated, as will the percentage delta from the authorized
end strength. The resultant percentage will then be checked against the metric. This review is
conducted at the directorate level. The results are provided to the leadership when a
Component’s actual end strength is not within 2% of the authorized end strength.

Performance Results for FY 2003. In his Declaration of National Emergency by Reason of
Certain Terrorist Threats, the President, among other things, waived the end-strength


DoD Performance and Accountability Report           366        Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
requirement during a national emergency. The Army and Air Force exceeded the 3% criterion;
however the Navy and Marine Corps stayed within the 2% limit. Service budget submissions for
FY 2004 indicate the Services will meet their authorized strengths.




DoD Performance and Accountability Report   367   Part 5: Appendix A – Detailed Performance Metrics
                Appendix A: Detailed Performance Metrics
Performance Metric: Reserve Component Selected Reserve end strength
within 2% of the fiscal year authorization (at the end of each quarter)

   Reserve                 FY 2000                 FY 2001                 FY 2002               FY 2003
  Component                 Actual                  Actual                  Actual           Authorized/Actual
Army National              353,045                 351,829                 351,078           350,000/351,089
Guard                      (+0.9%)                 (+0.4%)                 (+0.3%)               (+0.3%)
Army Reserve               206,892                 205,628                 206,682           205,000/211,890
                           (+0.9%)                 (+0.2%)                 (+0.8%)               (+3.4%)
Naval Reserve              86,933                  87,913                   87,958                87,800/88,156
                           (-3.7%)                 (-1.1%)                 (+1.1%)                   (+0.4%)
Marine Corps                39,667                  39,810                  39,905                39,558/41,046
Reserve                    (+0.1%)                 (+0.6%)                 (+0.9%)                   (+3.8%)
Air National               106,365                 108,485                 112,075           106,600/108,137
Guard                      (-0.3%)                 (+0.4%)                 (+3.4%)               (+1.4%)
Air Force                  72,340                   74,869                  76,632                75,600/74,754
Reserve                    (-1.9%)                 (+0.7%)                 (+2.6%)                   (-1.1%)
Coast Guard                 7,965                   7,976                   7,816                  9,000/7,720
Reserve                    (-0.4%)                 (-0.3%)                 (-2.3%)                   (-14.2%)
Note: Previous performance data reported authorized end strength, not actual end strength.


                                          FY 2003 Quarterly Metric
                      1st Qtr                 2nd Qtr                 3rd Qtr                4th Qtr
Army National         348,415 (-0.4%)         346,740 (-0.9%)         346,482 (-1.0%)        351,089 (+0.3%)
Guard
Army Reserve          205,317 (+0.2%)         207,988 (+1.5%)         210,679 (+2.8%)        211,890 (+3.4%)
Naval Reserve         88,441 (+0.7%)          86,683 (-1.3%)          87,382 (-0.5%)         88,156 (+0.4%)
Marine Corps          39,773 (0.5%)           40,583 (+2.6%)          41,768 (+5.6%)         41,046 (+3.8%)
Reserve
Air National          110,947 (+4.1%)         109,284 (+2.5%)         108,358 (+1.6%)        108,137 (+1.4%)
Guard
Air Force             75,769 (+0.2%)          74,730 (-1.1%)          74,069 (-2.0%)         74,754 (-1.1%)
Reserve
Coast Guard           7,865 (-12.6%)          7,707 (-14.4%)          7,810 (-13.3%)         7,720 (-14.2%)
Reserve

                                          FY 2004 Quarterly Metric
 1st Qtr                        2nd Qtr                    3rd Qtr                      4th Qtr
 (+/- 2% of Auth)               (+/- 2% of Auth)           (+/- 2% of Auth)             (+/- 2% of Auth)



Metric Description. Component end strength authorizations are set forth in the National
Defense Authorization Act for the fiscal year. Components are compelled to budget and execute
to that end strength by the end of the fiscal year. The Component actual end strength for each


DoD Performance and Accountability Report          368         Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
quarter will be evaluated against the authorized end strengths for that fiscal year. By law, the
Secretary of Defense may authorize the Components to vary, by no more than 2%, their
authorized end strength for that fiscal year, if determined to be in the national interest.

V&V Method. The Defense Manpower Data Center publishes the official end strength for the
Components monthly from data in the Reserve Component Common Personnel Data System
(RCCPDS). The data are developed from the input provided by the Components in their feeder
systems to RCCPDS. Preliminary numbers are available 4 weeks after the end of the month, and
final numbers are available 5 weeks after the end of the month. These numbers are compared to
the authorized end strengths. Component manual data may be accepted under extreme
circumstances.

Performance Results for FY 2003. In his Declaration of National Emergency by Reason of
Certain Terrorist Threats, the President, among other things, waived the end-strength
requirement during the time of national emergency. Components, however, have been directed to
attempt to meet the 2% criterion, though exceptions are authorized based on the operational
situation. Two Components (Army Reserve and the Marine Corps Reserve) exceeded the 2%
variance goal in FY 2003. The primary reason for those two components exceeding their
authorized levels is directly attributable to the ongoing mobilization. The Coast Guard Reserve
missed their authorized strength by 1,280 or 14.2%. However, the US Coast Guard comes under
the new Department of Homeland Security not the Department of Defense.




DoD Performance and Accountability Report   369       Part 5: Appendix A – Detailed Performance Metrics
                 Appendix A: Detailed Performance Metrics
Performance Metric: Enlisted recruiting quality

                                                                                                           FY 2003
                                     FY 2000                FY 2001               FY 2002                   Actual/
                                      Active/                Active/               Active/                 Reserve
          Category                 Reserve Actual         Reserve Actual       Reserve Actual a             Actual
Percentage of recruits                   93/90                 93/89                 94/89                  95/87
holding high school
diplomas (Education Tier 1)
Percentage of recruits in                66/65                 66/64                 70/66                  72/66
AFQT categories I–IIIA
Percentage of recruits in                0.9/1                  0.8/1                0.6/1.1               0.2/1.5
AFQT category IV
NOTE: AFQT = Armed Forces Qualification Test. The AFQT is a subset of the standard aptitude test administered to
all applicants for enlistment. It measures math and verbal aptitude and has proven to correlate closely with trainability
and on the job performance.
a
  Targets are the same for the Active and Reserve Components.


Metric Description. Quality benchmarks for recruiting were established in 1992 based on a
study conducted jointly by DoD and the National Academy of Sciences. The study produced a
model linking recruit quality and recruiting resources to the job performance of enlistees. As its
minimum acceptable quality thresholds, the Department has adopted the following recruiting
quality targets derived from the model: 90% in education tier 1 (primarily high school
graduates), 60% in AFQT categories I–IIIA (top 50 percentiles), and not more than 4% in AFQT
category IV. Adhering to these benchmarks reduces personnel and training costs, while ensuring
the force meets high performance standards.

V&V Method. Data collected as part of the enlistment process are routed, reviewed, and
managed using the same mechanisms employed for the performance metric concerning
recruiting quantity. The data systems and verification methods are discussed in the table below.

Data Flows for Enlisted Recruiting
  Service              Input                     Cross-Check            Aggregate                    V&V
Army          REQUEST                  Against manually                 HQDA          Army headquarters compared
              (Recruiter Quota         assembled reports that the       Decision      automated data and manually
              System) database         Army Recruiting Command          Support       compiled reports monthly
                                       provides to Army                 System
                                       headquarters
Navy          PRIDE               Recruit Training Center               PRIDE         Office of Navy Personnel
              (Personalized       databases                             database      reviews input monthly
              Recruiting for
              Immediate and
              Delayed Enlistment)
              database




DoD Performance and Accountability Report             370          Part 5: Appendix A – Detailed Performance Metrics
               Appendix A: Detailed Performance Metrics
Data Flows for Enlisted Recruiting
 Service             Input                 Cross-Check           Aggregate                 V&V
Air Force   AFRISS (Air Force       MILPDS (Military            MILPDS        Commanders of recruiting
            Recruiting              Personnel Data System)      and           stations review inputs daily;
            Information Support                                 AFRISS        Air Force Recruiting Service
            System) databases                                                 reviews data monthly and
                                                                              conducts periodic audits
Marine      MCRISS-RS (Marine Recruiting districts        MCRISS-             District and regional staff
Corps       Corps Recruiting    download information from RS                  review data monthly; Marine
            Information Support MCRISS-RS                                     Corps Recruiting Command
            System-Recruiting                                                 corrects any discrepancies in
            Station)                                                          Monthly Enlisted Quota
                                                                              Attainment Brief (MATBRF).

Performance Results for FY 2003. The Department largely met its goals for enlisted recruit
quality in FY 2003 as it did in FY 2002. Performance surpassed objectives in all but one area—
high school diploma graduate accessions in the Reserve Component. Shortfalls were within 6
percentage points and occurred in only two Components (Army National Guard and Naval
Reserve). In addition, the Air National Guard switched data systems, resulting in data quality
problems.

(From Reserve Input): The Reserve Components, in the aggregate, met their AFQT I-IIIA goal,
but not their Tier 1/HSDG (High School Diploma Graduate) goal for enlisted recruit quality in
FY 2003. However, the data above is drawn from personnel data systems that are incomplete or
know to contain errors. For example, a recent personnel data system conversion in the Air
National Guard resulted in lost or corrupted quality data. Historically, Air National Guard
quality is equal to that in the Air Force Reserve, and we believe that continues to be the case.
The Naval Reserve policy requires that all non-prior service recruits have at least a high school
diploma. Unfortunately, their personnel data system contains inaccurate data or vacant data
fields making accurate quality reporting problematic. The Department will work with both the
Air National Guard and the Naval Reserve to improve reporting capabilities. The Army National
Guard continues to struggle to meet the Department’s quality benchmark for high school
diploma graduates. We are committed to achieving recruiting quality in all components in FY
2004.
Enlisted Recruiting: FY 2003 Performance
Army, Active                      93% Tier 1 / 73% Cat I-IIIA / 0.3%Cat IV
Army, Reserve                     93% Tier 1 / 68% Cat I-IIIA / 0.3%Cat IV
Army, National Guard              84% Tier 1 / 60% Cat I-IIIA / 3.0%Cat IV
Navy, Active                      94% Tier 1 / 66% Cat I-IIIA / 0.0% Cat IV
Navy, Reserve                     84% Tier 1 / 70% Cat I-IIIA / 0.0% Cat IV
Air Force, Active                 99% Tier 1 / 81% Cat I-IIIA / 0.0% Cat IV
Air Force, Reserve                93% Tier 1 / 73% Cat I-IIIA / 0.0% Cat IV
Air Force, National Guard         68% Tier 1 / 70% Cat I-IIIA / 1.0% Cat IV
Marine Corps, Active              98% Tier 1 / 69% Cat I-IIIA / 0.4% Cat IV
Marine Corps, Reserve             97% Tier 1 / 80% Cat I-IIIA / 2.0% Cat IV



DoD Performance and Accountability Report        371        Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
Performance Metric: Enlisted recruiting quantity

                             FY 2000            FY 2001              FY 2002             FY 2003
       Category               Actual             Actual               Actual           Target/Actual
Number of enlisted           202,917            196,355              196,472          184,366/184,881
Active Component
accessions
Number of enlisted           152,702            141,023              147,129          136,297/133,075
Reserve Component
accessions

Metric Description. Department-wide targets for enlisted recruiting represents the projected
number of new Service members needed each year to maintain statutory military end strengths
and appropriate distributions by rank, allowing for discharges, promotions, and anticipated
retirements. As personnel trends change during the year, Active and Reserve Component
recruiting objectives may be adjusted.

V&V Method. Each Service maintains data on new enlistments in a dedicated computer system.
Automated reports, produced monthly, are used to track progress toward meeting recruiting
targets and to set new monthly targets. The data systems and verification methods are discussed
in the table below.

Data Flows for Enlisted Recruiting
 Service             Input              Cross-Check            Aggregate                V&V
Army        REQUEST               Against manually             HQDA        Army headquarters compared
            (Recruiter Quota      assembled reports that the   Decision    automated data and manually
            System) database      Army Recruiting Command      Support     compiled reports monthly
                                  provides to Army             System
                                  headquarters
Navy        PRIDE               Recruit Training Center        PRIDE       Office of Navy Personnel
            (Personalized       databases                      database    reviews input monthly
            Recruiting for
            Immediate and
            Delayed Enlistment)
            database
Air Force   AFRISS (Air Force     MILPDS (Military             MILPDS      Commanders of recruiting
            Recruiting            Personnel Data System)       and         stations review inputs daily;
            Information Support                                AFRISS      Air Force Recruiting Service
            System) databases                                              reviews data monthly and
                                                                           conducts periodic audits
Marine      MCRISS-RS (Marine Recruiting districts        MCRISS-          District and regional staff
Corps       Corps Recruiting    download information from RS               review data monthly; Marine
            Information Support MCRISS-RS                                  Corps Recruiting Command
            System-Recruiting                                              corrects any discrepancies in
            Station)                                                       Monthly Enlisted Quota
                                                                           Attainment Brief (MATBRF).




DoD Performance and Accountability Report     372         Part 5: Appendix A – Detailed Performance Metrics
               Appendix A: Detailed Performance Metrics
Performance Results for FY 2003. All Active Components met or exceeded their recruiting
quantity goal for FY 2003, and achieved Delayed Entry Program levels for FY 2004. Army
National Guard missed its FY 2003 quantity recruiting goal by 12.6 percent.

(From Reserve input) Five of six DoD Reserve Components met or exceeded their recruiting
quantity goal for FY 2003. Only the Army National Guard failed to achieve its FY 2003
recruiting objective. Although they finished the year with a strong fourth quarter recruiting
effort, their shortfall was 7,798 against a mission of 62,000 (13 percent). Almost half of this
shortfall was in prior service recruiting. This was due in a large part to the stop loss imposed in
the Active Army, resulting in fewer potential recruits in the prior service pool. It is important to
note that, their shortfall not withstanding, the Army National Guard achieved their authorized
end strength. Attrition was significantly lower than programmed. The Office of the Secretary of
Defense will work closely with the Army National Guard to full assess the causes and the
implications of their recruiting shortfall.

Enlisted Recruiting: FY 2003 Performance
Army, Active                   73,800 target/74,132 achieved
Army, Reserve                  40,900 target/41,851 achieved
Army, National Guard           62,000 target/54,202 achieved
Navy, Active                   41,065 target/41,076 achieved
Navy, Reserve                  12,000 target/12,772 achieved
Air Force, Active              37,000 target/37,144 achieved
Air Force, Reserve             7,512 target/7,557 achieved
Air Force, National Guard      5,712 target/8,471 achieved
Marine Corps, Active           32,501 target/32,530 achieved
Marine Corps, Reserve          8,173 target/8,222 achieved




DoD Performance and Accountability Report    373       Part 5: Appendix A – Detailed Performance Metrics
                 Appendix A: Detailed Performance Metrics
Performance Metric: Active enlisted retention goal

                          FY 2000                FY 2001a                FY 2002               FY 2003
     Service               Actual                 Actual                  Actual             Target/Actual
Army
   Initial                 21,402                 20,000                  19,433             19,821/21,838
   Mid-career              24,118                 23,727                  23,074             18,422/19,509
   Career                  25,791                 21,255                  15,700             12,757/12,804

Navy
  Initial                  29.6%                   56.9%                  58.7%               56%/61.8%
  Mid-career               46.5%                   68.2%                  74.5%               73%/76.7%
  Career                   56.6%                   85.0%                  87.4%               86%/87.9%
Marine Corps
  First term               26.6%c                 6,144b                  6,050                6,025/6001
  Subsequent               63.4%c                 5,900 b                 7,258                6,172/5815
Air Force
    First Term             53.1%                   56.1%                  72.1%               55%/60.5%
    Mid-career             69.7%                   68.9%                  78.3%               75%/72.9%
    Career                 90.8%                   90.2%                  94.6%               95%/95.2%
a
  Starting in FY 2001, Navy changed the way it calculates retention. The Navy no longer includes personnel who
are ineligible to reenlist in retention calculations, so the percentage better reflects the number of people who
choose to stay at a given reenlistment point.
b
  In FY 2001, the Marines established numeric goals for retention and established subsequent term goals for the
first time.
c
  FY 2000 rates are from a previous program showing achievements for 2nd term personnel.
Definitions:
           Army: Mid-career: 7 to 10 YOS; career: 10 to 20 YOS
           Navy: Mid-career: 6+ to 10 YOS; career 10+ to 14 YOS
           Air Force: Mid-career: 6 to 10 YOS; career 10 to 14 YOS
           YOS = Years of service


Metric Description. The Services determine, within the zone of eligibility, their annual retention
goals. Each Service is given latitude in how they establish their categories, establish goals, and
track attainment of those goals. For that reason, two metrics are used: number of people retained
(used by the Army and Marine Corps) and the percentage of eligible people retained (used by the
Air Force and Navy). The annual goals relative to either metric are dynamic and can change
during the year of execution.

V&V Method. Each month, the Services’ enlisted retention offices will be queried for their goal
and retention statistics for that month. Data normally are available two weeks after the end of the
month. The Office of the Under Secretary of Defense for Personnel and Readiness reviews
retention data obtained from the systems (identified in the following table) monthly. The
information is evaluated within the context of recruiting performance, attrition trends, and
retention of both officer and enlisted personnel in the Active and Reserve Components. The
results of these assessments guide decisions on resource allocations and associated force
management initiatives. The following table displays the data systems and data flow.



DoD Performance and Accountability Report          374          Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
Data Flow for Active Retention
                                                  Aggregate
Service              Input System                  System                    V&V Method
Army      Reenlistment, Reclassification, and    Active Army   Personnel commands report data
          Reserve Component Assignment           Military      weekly to the Deputy Chief of Staff, G-1.
          System (RETAIN)                        Management    Major commands process data via
          Standard Installation/Division         Program       RETAIN and report it to ODCS, G-1,
          Personnel System (SIDPERS)             (AAMMP)       quarterly.
                                                               RETAIN data and SIDPERS updates
                                                               are used to verify AAMMP assumptions
                                                               and revise policies as necessary.



Navy      Navy Enlisted System (NES)             NES/OPINS     Data for enlisted personnel are reported
          Officer Personnel Information                        monthly.
          System (OPINS)                                       Data for officers are gathered quarterly.
                                                               Functional managers, analysts, and
                                                               policymakers review the data to verify
                                                               accuracy and monitor trends.

Air       Personnel Data System (PDS)—           PDS           Air Force staff reviews retention
Force     maintained by Headquarters, Air                      programming codes and data
          Force Personnel Center (HQ                           aggregation methods annually.
          AFPC/DPS)
Marine    Total Force Retention System       MCTFS             TFRS cross-checks MCTFS. Written
Corps     (TFRS)—used by commanders to                         guidance for TFRS is provided to field
          request permission to reenlist                       units.
          individual Marines                                   Use of data elements in MCTFS is
          Marine Corps Total Force System                      standardized throughout the Marine
          (MCTFS)—transmits headquarters                       Corps.
          decisions on TFRS requests to the
          respective commands and, for those
          requests that are approved, relays
          reenlistment data back to
          headquarters


Performance Results for FY 2003. The success of our Armed Forces relies heavily on our
ability to retain experienced personnel. The retention successes realized are the result of the
effort and support of commanders and Congress and must continue beyond FY 2004. There was
an improved active duty retention trend in FY 2002 and FY 2003, but we review this with
caution, because the full effects of lifting a majority of the stop loss programs are yet to be felt.
For FY 2003, the Army, and Navy met or exceeded all of their goals; the Marine Corps barely
missed its first term goal. Effects of an improving economy and the waning emotional patriotic
high of decisive victory in IRAQI FREEDOM will combine to increase pressure on our retention
programs.




DoD Performance and Accountability Report       375     Part 5: Appendix A – Detailed Performance Metrics
                Appendix A: Detailed Performance Metrics
Performance Metric: Selected Reserve enlisted attrition ceiling

   Selected Reserve               FY 2000               FY 2001               FY 2002              FY 2003
      Component                    Actual                Actual                Actual            Target/Actual
Army National Guard                 18.0                  20.0                   20.6              18.0/18.1
Army Reserve                        29.4                  27.4                   24.6              28.6/22.1
Naval Reserve                       27.1                  27.6                   26.5              36.0/26.5
Marine Corps Reserve                28.4                  26.4                   26.0              30.0/21.4
Air National Guard                  11.0                   9.6                   7.3               12.0/12.7
Air Force Reserve                   13.9                  13.4                   8.7               18.0/17.0
Note: All numbers are percentages representing total losses divided by average strength.


Metric Description. In assessing retention trends in the Reserve Components, DoD uses attrition
rates rather than retention rates. Attrition is computed by dividing total losses from the Selected
Reserve Component for a fiscal year by average personnel strength of the Selected Reserve for
that year. This metric is preferable to retention rates because only a small portion of the Reserve
population is eligible for reenlistment during any given year. In addition to monitoring attrition,
the Department has established annual attrition targets for reserve personnel. These targets,
which took effect in FY 2000, represent the maximum number of losses deemed acceptable in a
given fiscal year—that is, they establish a ceiling for personnel departures. The attrition goal is
actually a ceiling, which is not to be exceeded.

V&V Method. Monthly updates of databases maintained by the individual Reserve Components
feed the Reserve Component Common Personnel Data System, operated by the Defense
Manpower Data Center (DMDC). DMDC is responsible for monitoring data quality. Quarterly
workshops, conducted by the Office of the Assistant Secretary of Defense for Reserve Affairs,
provide a forum for reviewing the data and recommending ways to improve attrition and meet
annual projections.

Performance Results for FY 2003. The Presidential proclamation for the Declaration of
National Emergency by Reason of Certain Terrorist Threats and accompanying Executive Order,
gave the Military Departments the authority to implement “stop loss” programs in varying
degrees: For example the Marine Corps stopped the separation of all of its personnel for a period
of time, then focused on certain specialties, while the Army, Navy, and Air Force focused on
certain skills or skill/grade mix for a period of time, and the Army then moved to a Reserve
component unit stop loss program for those units notified of a pending mobilization. Even
though by the year end all Services, except the Army, had cancelled their stop loss programs, the
Services established “transition” periods (generally 90 days) after demobilization to allow for the
members to take care of matters and get moved back into their civilian lives before they would
be allowed to be released from the military. This, coupled with Service members performing
duties in support of the war on terrorism, kept the enlisted attrition rates near or below the
ceilings across all Selected Reserve Components. Only the Army and Air National Guard
components exceeded their ceilings, but not by much. The overall Reserve component attrition
rate of 18.4% is the lowest since 1991, when a “stop loss” program was instituted for Operation
Desert Storm.


DoD Performance and Accountability Report           376          Part 5: Appendix A – Detailed Performance Metrics
               Appendix A: Detailed Performance Metrics
Performance Metric: Satisfaction with military health plan

                            FY 2000               FY 2001                FY 2002               FY 2003
      Metric                 Actuala               Actualb                Actualc            Targetd/Actual
Percentage                    39.6                   44.6                  46.5             ≥ Civ. Avg. 59%
satisfied with                                                                                  / 51.2%
military health plan
a
  Survey fielded in November 1999.
b
  Surveys fielded in January, April, and July 2001.
c
  Surveys fielded in October 2001 and January, April, and July 2002.
d
  The civilian average is based on a representative population from the national Consumer Assessment of Health
Plans Survey Database (CAHPSD) for the same time period and this will be the target for the Military Health
System. (Example: A July 2003 survey would be compared to July 2003 data from the CAHPSD.) Due to the nature
of the program, only a DoD-level goal is tracked.


Metric Description. A person’s satisfaction with his or her health plan is a key indicator of the
performance of the Military Health System (MHS) in meeting its mission to provide health care
to the 8 million eligible beneficiaries. For this metric, the following survey item is used:

        We want to know your rating of all your experience with your health plan. Use any
        number from 0 to 10 where 0 is the worst health plan possible, and 10 is the best health
        plan possible. How would you rate your health plan now?

Satisfaction is measured as the percentage of respondents (weighted by appropriate sampling
weights) who answer 8, 9, or 10.

The survey, fielded quarterly, asks respondents questions about the plan during the prior year.
Currently, the results for the year are based on the surveys fielded during the fiscal year, which
means the results are actually based on the respondent’s interactions with the health system
during the prior fiscal year.

The goals established for this metric in FY 2003 is considered a stretch goals that will drive the
organization forward, but will likely not be achieved during that years. For FY 2004, the goal
has been changed to reflect the desire to make the goal achievable during the current year, while
still closing the gap with the civilian sector in three years. These goals are established based on a
civilian survey, and will be updated on an annual basis.

V&V Method. A contractor prepares the data for analysis; data preparation includes editing,
cleaning, implementing the coding scheme, weighting the data, and constructing the analytic
variables. The contractor provides appropriate data cleaning and checking procedures to ensure a
high level of quality control each quarter. The contractor edits the data consistent with the skip
patterns in the questionnaire and includes the specifications of such recoding in the survey
documentation. The contractor removes problem records from the database. Problem records
include blank records, multiple records from the same respondent (the contractor keeps the
record with the greatest amount of information), and records from ineligible respondents.

Performance Results for FY 2003. During FY 2003, significant improvement was made in
closing the gap in satisfaction between the Military Health System and the civilian sector. The


DoD Performance and Accountability Report        377         Part 5: Appendix A – Detailed Performance Metrics
                      Appendix A: Detailed Performance Metrics
satisfaction level increased from 46.5% in FY 2002 to 51.2% in FY 2003. A significant reason
for the increase is related to improved performance in the area of claims processing, where 99%
of the claims are being processed with the standard of 30 days through the first 3 quarters of
FY 2003, compared to 97% for FY 2002. While this improvement in claims processing was
achieved in FY 2003, during the next couple of years, the next version of TRICARE support
contracts will be implemented, and claim processing performance will need to stay at current
levels to maintain overall satisfaction with the plan. This is a significant concern, because during
FY 2002, when TRICARE for Life was implemented, claims processing performance dropped
below 95% during the initial start-up before returning to original levels. In addition to claims
processing, Customer Service and Access improvements will be needed to achieve the ultimate
goal of meeting or exceeding the civilian average.


                                  Percent of Claims Processed in 30 Days

  100%
    98%
    96%
    94%
    92%
    90%
    88%
    86%
                      Nov




                                                                Jun




                                                                                  Sep



                                                                                                     Nov




                                                                                                                                                Jun
                                                                      Jul
                                  Jan

                                        Feb



                                                    Apr




                                                                            Aug




                                                                                                                 Jan

                                                                                                                        Feb



                                                                                                                                    Apr
           FY02 Oct




                                                                                          FY03 Oct
                            Dec




                                              Mar



                                                          May




                                                                                                           Dec




                                                                                                                              Mar



                                                                                                                                          May
                            Begin TRICARE
                                for Life
                                   Region 1                 Region 2/5                  Region 3/4                     Region 6
                                   Central Region           Region 9/10/12              Region 11




DoD Performance and Accountability Report                       378          Part 5: Appendix A – Detailed Performance Metrics
                  Appendix A: Detailed Performance Metrics
Performance Metric: Transforming DoD training (completed)

                             FY 2000                 FY 2001                 FY 2002                FY 2003
        Metric                Actual                  Actual                  Actual              Target/Actual
Training tasks                 N/Aa                    N/Aa                    N/Aa                3 tasksb/1b
completed
a
    This is a new initiative and no historical data are available.
b
    2003 tasks:
      Develop training transformation (T2) implementation plan by April 2003 (Complete).
      Complete near-term tasks in the T2 strategic plan by October 2003 (superceded by DEPSEC approved
      implementation plan June 10, 2003).
      Obtain joint certification and accreditation of National Training Center (NTC) by October 2003 (superceded by
      DEPSEC approved implementation plan June 10, 2003).


Metric Description. The Department’s vision for training transformation (T2) is to provide
dynamic, capabilities-based training for DoD in support of national security requirements across
the full spectrum of service, joint, interagency, intergovernmental, and multinational operations.
The Defense Program Guidance tasked the Under Secretary of Defense for Personnel and
Readiness—USD (P&R)—with coordinating requirements, developing plans, and overseeing T2.
For this initial metric, several critical tasks and milestone events are identified to track near-term
progress in achieving T2 goals. A new capability to develop and report T2 metrics has been
established in the Deputy Secretary of Defense approved Training Transformation
Implementation Plan, approved June 10, 2003. The Joint Assessment and Enabling Capability
(JAEC) will is providing an expanded framework for measuring the outcomes of T2 based upon
the requirements of the Balanced Score Card.

V&V Method. The USD (P&R) has responsibility for overseeing and reporting the status of the
T2 effort and has established several forums to assist in reviewing, coordinating, and approving
plans, programs, and resource decision documents. The joint Integrated Process Team (action
officer level), chaired by the Readiness and Training Office, will regularly review the status of
T2 tasks and provide input to the Deputy Under Secretary of Defense for Readiness.

Performance Results for FY 2003. The Department is actively engaged in executing the
requirements and resources approved by the Secretary of Defense in the Training Transformation
Implementation Plan and its associated Resource Program Plan. During FY 2003, the Congress
approved an Omnibus Reprogramming Action to provide the additional resources considered
critical to implement T2 tasks and support the initial establishment of the Joint National Training
Capability. The FY 2004 President’s Budget request reflects $179.7 million in FY 2004 for the
Department to continue to implement the approved goals and milestones for this important
initiative.

The resources that have been reprogrammed in FY 2003 and budgeted for in FY 2004 for
transforming DoD training have given the program an excellent start. Steps to achieve Initial
Operating Capability (IOC) for the Joint National Training Capability in October 2004 are well
underway.




DoD Performance and Accountability Report             379         Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
Performance Metric: Monitor the Status of Defense Technology Objectives
(DTOs)

                                     FY 2000           FY 2001             FY 2002             FY 2003
            Metric                    Actual            Actual              Actual           Target/Actual
Percentage of DTOs evaluated            97                96                  97                >70/96
as progressing satisfactorily
toward goalsa
DTO evaluated in                        166               180                163                 149
biannual reviewb
Total number of DTOsb,c                 347               326                401                 386
a
  “Progressing satisfactorily” includes DTO rated as “green” or “yellow.”
b
  The number of DTOs evaluated and the total number of DTOs are provided for information only and no
targets are established.
c
  The total number of DTOs is the sum of all DTOs contained in the Defense Technology Objectives for the
Joint Warfighting Science and Technology Plan and the Defense Technology Area Plan, dated February of
the Calendar Year prior to the Fiscal Year the TARA reviews are conducted.

Metric Description. Technological superiority has been, and continues to be, a cornerstone of
our national military strategy. Technologies such as radar, jet engines, nuclear weapons, night
vision, smart weapons, stealth, the Global Positioning System, and vastly more capable
information management systems have changed warfare dramatically. Today’s technological
edge allows us to prevail across the broad spectrum of conflict decisively and with relatively few
casualties. Maintaining this technological edge has become even more important as the size of
U.S. forces decreases and high-technology weapons are now readily available on the world
market. Future warfighting capabilities will be substantially determined by today’s investment in
science and technology (S&T).

Our S&T investments are focused and guided through a series of Defense Technology
Objectives (DTOs) developed by the senior planners working for the Secretary of Defense and
the Chairman of the Joint Chiefs of Staff. Each of these objectives highlights a specific
technological advancement that will be developed or demonstrated, the anticipated date the
technology will be available, the specific benefits that should result from the technological
advance, and the funding required (and funding sources) to achieve the new capability. This list
of objectives also distinguishes specific milestones to be reached and approaches to be used,
quantitative metrics that will indicate progress, and the customers who will benefit when the new
technology is eventually fielded. This metric measures the percentage of DTOs that are
progressing satisfactorily toward the goals established for them.

V&V Method. Technology Area Review and Assessment (TARA) teams—independent peer
review panels composed of approximately six experts in relevant technical fields from U.S.
government agencies, private industry, and academia—assess the DTOs for each program every
2 years. The reviews are conducted openly; observation by stakeholders (typically, senior S&T
officials, members of the joint staff, and technology customers) is welcomed.




DoD Performance and Accountability Report      380      Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
The TARA teams assess the objectives in terms of three factors—technical approach, funding,
and technical progress—and rate the programs as follows:

    ♦ Green—progressing satisfactorily toward goals.

    ♦ Yellow—generally progressing satisfactorily, but some aspects of the program are
      proceeding more slowly than expected.

    ♦ Red—doubtful that any of the goals will be attained.

The benefits of these ratings are many. Not only do they reflect the opinions of independent
experts, but also they are accepted and endorsed by stakeholders. These reviews result, and will
continue to result, in near real-time adjustments being made to program plans and budgets based
on the ratings awarded.

Performance Results for FY 2003. The Department met its performance target and no shortfall
is projected for FY 2004. Although actual performance continues well above target, the target
will be maintained at 70% due to the inherent high risk of failure in technology development.




DoD Performance and Accountability Report   381     Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
Performance Metric: Reduce Major Defense Acquisition Program (MDAP)
acquisition cycle time (months)

                                                                                          FY 2003
                                     FY 2000          FY 2001           FY 2002            Target/
    Acquisition Cycle Time            Actual           Actual            Actual            Actual
Acquisition cycle time
(for new starts from FY 1992           N/Aa             102               103             <99/104b
through FY 2001) (months)
Acquisition cycle time
(for new starts after FY 2001)         N/Aa             N/A               N/A              <66/93b
(months)
a
  The December SAR, which reflects the President’s budget submit, is used for calculating acquisition
cycle time. There were no December 2000 SARs, because a Future Years Defense Program was not
included in the FY 2002 President’s budget submit.
b
 The FY 2003 Actual is a projection based on preliminary FY 2005 budget data. This projected Actual
will be updated as necessary upon release of the December 2003 SARs in April 2004.

Metric Description. Acquisition cycle time is the elapsed time, in months, from program
initiation—when the Department makes a commitment to develop and produce a weapon
system—until the system attains initial operational capability (IOC). This metric measures the
average cycle time across all Major Defense Acquisition Programs (MDAPs). During the 1960s,
a typical acquisition took 7 years (84 months) to complete. By 1996, a similar acquisition
required 11 years (132 months) from program start to IOC. To reverse this trend, DoD
established an objective to reduce the average acquisition cycle time for MDAPs started since
1992 to less than 99 months, a reduction of 25%. We achieved that initial objective. We did so
through rapid acquisition with demonstrated technology, time-phased requirements and
evolutionary development, and integrated test and evaluation. To continue that improvement, the
Department will seek to reduce the average cycle time to less than 66 months for all MDAPs
started after FY 2001. To achieve that objective, the Department is introducing improvements to
development and production schedules similar to those it initiated for managing system
performance and cost. Rapid development and fielding of weapon systems—leveraging new
technologies faster—will enable U.S. forces to stay ahead of potential adversaries.

V&V Method. The key measure for this objective is the average elapsed time from program
start to IOC, measured in months. Average acquisition cycle time is computed using schedule
estimates from Selected Acquisition Reports (SARs). The Department also monitors MDAPs
through the Defense Acquisition Executive Summary (DAES) reporting system and the Defense
Acquisition Board (DAB) review process. In FY 1998, the Department began to evaluate cycle
times of new MDAPs (as well as schedule changes for ongoing programs) during its annual
program and budgeting process. For the projected FY 2003 Actual, there are 47 MDAPs in the
post-FY 1992 calculation, but only 4 MDAPs in the post-FY 2001 calculation.

Performance Results for FY 2003. The Department saw a relatively small increase (from 103
to 104 months) in the projected average acquisition cycle time for FY 2003. Several programs,
such as Black Hawk Upgrade, Land Warrior, and Wideband Gapfiller, were examined and then



DoD Performance and Accountability Report      382       Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
restructured with improved schedule estimates. Although only a few programs have been
restructured, the extensions have affected the average acquisition cycle time.




DoD Performance and Accountability Report   383   Part 5: Appendix A – Detailed Performance Metrics
               Appendix A: Detailed Performance Metrics
Performance Metric: Reduce percentage of DoD budget spent
on infrastructure (lagged indicator)

                                      FY 1999             FY 2000              FY 2001              FY 2002
            Metric                     Actual              Actual               Actual            Target/Actual
Percentage of DoD budget                 45                   47                  46                 44/44
spent on infrastructure
Note: This is a lagged indicator. Projections are based on the FY 2004 President’s budget Future Years Defense
Program.


Metric Description. The share of the defense budget devoted to infrastructure is one of the
principal measures the Department uses to gauge progress toward achieving its infrastructure
reduction goals. A downward trend in this metric indicates that the balance is shifting toward less
infrastructure and more mission programs. In tracking annual resource allocations, we use
mission and infrastructure definitions that support macro-level comparisons of DoD resources.
The definitions are based on the 2001 Quadrennial Defense Review (QDR), the Future Years
Defense Program (FYDP), and a soon-to-be-published Institute for Defense Analyses report
(DoD Force and Infrastructure Categories: A FYDP-Based Conceptual Model of Department of
Defense Programs and Resources) prepared for the Office of the Secretary of Defense. The
definitions are consistent with the Goldwater-Nichols Department of Defense Reorganization
Act of 1986 (P.L. 99-433). This act requires that combat units, and their organic support, be
routinely assigned to the combatant commanders and that the Military Departments retain the
activities that create and sustain those forces. This feature of U.S. law provides the demarcation
line between forces (military units assigned to combatant commanders) and infrastructure
(activities retained by the Military Departments). In addition to more precisely distinguishing
forces from infrastructure, the force subcategories have been updated to reflect current
operational concepts. The infrastructure subcategories, likewise, have been updated and
streamlined.

V&V Method. The Department updates the percentage of the budget spent on infrastructure
each time the President’s budget FYDP database is revised. The Institute for Defense Analyses
reviews and normalizes the data to adjust for the effect of definitional changes in the database
that mask true content changes. Prior-year data are normalized to permit accurate comparisons
with current-year data. Because of these adjustments, there may be slight shifts upward or
downward in the targets established for past-year infrastructure expenditures.

Performance Results for FY 2002. The Department estimates that we will have allocated about
44% of total obligational authority to infrastructure activities in FY 2002, down from about 46%
in the preceding year. The efficiencies achieved result from initiatives in the QDR and Defense
Reform Initiatives, including savings from previous base realignment and closure rounds,
strategic and competitive sourcing initiatives, and privatization and reengineering efforts. The
Department expects to continue making progress toward reducing its expenditures on
infrastructure as a share of the defense budget in FY 2003.




DoD Performance and Accountability Report         384         Part 5: Appendix A – Detailed Performance Metrics
                 Appendix A: Detailed Performance Metrics
Mission and Infrastructure Categories Used for Tracking the Portion of the DoD Budget Spent
on Infrastructure
                                                  Mission Categories
Expeditionary forces. Operating forces designed primarily for non-nuclear operations outside the United States.
Includes combat units (and their organic support) such as divisions, tactical aircraft squadrons, and aircraft
carriers.
Deterrence and Protection Forces. Operating forces designed primarily to deter or defeat direct attacks on the
United States and its territories. Also includes agencies engaged in U.S. international policy activities under the
direct supervision of the Office of the Secretary of Defense.
Other forces. Includes most intelligence, space, and combat-related command, control, and communications
programs, such as cryptologic activities, satellite communications, and airborne command posts.
                                               Infrastructure Categories
Force installations. Installations at which combat units are based. Includes the Services and organizations at these
installations necessary to house and sustain the units and support their daily operations. Also includes programs to
sustain, restore, and modernize buildings at the installations and protect the environment.
Communications and information infrastructure. Programs that provide secure information distribution, processing,
storage, and display. Major elements include long-haul communication systems, base computing systems,
Defense Enterprise Computing Centers and detachments, and information assurance programs.
Science and technology program. The program of scientific research and experimentation within the Department of
Defense that seeks to advance fundamental science relevant to military needs and determine if the results can
successfully be applied to military use.
Acquisition. Activities that develop, test, evaluate, and manage the acquisition of military equipment and supporting
systems. These activities also provide technical oversight throughout a system’s useful life.
Central logistics. Programs that provide supplies, depot-level maintenance of military equipment and supporting
systems, transportation of material, and other products and services to customers throughout DoD.
Defense health program. Medical infrastructure and systems, managed by the Assistant Secretary of Defense for
Health Affairs, that provide health care to military personnel, dependents, and retirees.
Central personnel administration. Programs that acquire and administer the DoD workforce. Includes acquisition of
new DoD personnel, station assignments, provisions of the appropriate number of skilled people for each career
field, and miscellaneous personnel management support functions, such as personnel transient and holding
accounts.
Central personnel benefit programs. Programs that provide benefits to Service members. Includes family housing
programs; commissaries and military exchanges; dependent schools in the United States and abroad; community,
youth, and family centers; child development activities; off-duty and voluntary education programs; and a variety of
ceremonial and morale-boosting activities.
Central training. Programs that provide formal training to personnel at central locations away from their duty
stations (non-unit training). Includes training of new personnel, officer training and Service academies, aviation and
flight training, and military professional and skill training. Also includes miscellaneous other training-related support
functions.
Departmental management. Headquarters whose primary mission is to manage the overall programs and
operations of DoD and its Components. Includes administrative, force, and international management
headquarters, and defense-wide support activities that are centrally managed. Excludes headquarters elements
exercising operational command (which are assigned to the “other forces” category) and management
headquarters associated with other infrastructure categories.
Other infrastructure. Programs that do not fit well into other categories. They include programs that (1) provide
management, basing, and operating support for DoD intelligence activities; (2) conduct navigation, meteorological,
and oceanographic activities; (3) manage and upgrade DoD-operated air traffic control activities; (4) support
warfighting, war-gaming, battle centers, and major modeling and simulation programs; (5) conduct medical
contingency preparedness activities not part of the defense health program; and (6) fund joint exercises sponsored
by the Combatant Commanders (COCOMs) or JCS directed. Also included in this category are centralized
resource adjustments that are not allocated among the programs affected (e.g., foreign currency fluctuations,
commissary resale stocks, and force structure deviations).




DoD Performance and Accountability Report             385          Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics



                                                                                Table D-1

                                  Department of Defense
                          TOA by Force and Infrastructure Category
                                   (FY 2004 $ in Billions)


                                                   FY 1999   FY 2000    FY 2001    FY 2002

         Forces

         Expeditionary Forces                       129        130        137         147
         Deterrence and Protection Forces            8           8          9         13
         Other Forces                                31         29         31         33
         Defense Emergency Response Fund             0           0          0         14
           Forces Total                             168        167        177         207

         Infrastructure

         Force Installations                         21         23         23         26
         Communications & Information                4           4          5          6
         Science & Technology Program                8           9          9         10
         Acquisition                                 8           9          9          8
         Central Logistics                           17         20         18         20
         Defense Health Program                      20         21         19         26
         Central Personnel Administration            9          10         11          7
         Central Personnel Benefits Programs         8           8          8          8
         Central Training                            24         25         26         29
         Departmental Management                     16         15         15         16
         Other Infrastructure                        3           4          9          4
            Infrastructure Total                    138        148        152         160


         Grand Total                                306        315        329         367

         Infrastructure as a Percentage of Total    45%        47%        46%        44%




DoD Performance and Accountability Report   386       Part 5: Appendix A – Detailed Performance Metrics
                Appendix A: Detailed Performance Metrics
Performance Metric: Fund to a 67-year recapitalization rate by 2007

                                  FY 2000               FY 2001               FY 2002               FY 2003
          Metrics                  Actual                Actual                 Actual            Target/ Actual
Facilities recapitalization          141                   192                   101                 67/149
metric–FRM (years)
Facilities sustainment               78a                   70b                   89                  100/93
model–FSM (percent)
a
 FSM did not exist in FY 2000 and FY 2001; these are estimates. Source: DoD Financial Statement, Required
Supplemental Information.


Metric Description. The facilities recapitalization metric (FRM) is a performance indicator that
measures the rate at which an inventory of facilities is being recapitalized. The term
“recapitalization” means to restore or modernize facilities. Recapitalization may (or may not)
involve total replacement of individual facilities; recapitalization often occurs incrementally over
time without a complete replacement.

The performance goal for FRM equals the average expected service life (ESL) of the facilities
inventory (estimated to be 67 years, based on benchmarks developed by a panel of Defense
engineers in 1997). The ESL, in turn, is a function of facilities sustainment. “Sustainment”
means routine maintenance and repair necessary to achieve the ESL. To compute a normal ESL,
full sustainment levels must be assumed. A reduced ESL results from less than full sustainment.
For this reason, the metrics for facilities recapitalization and facilities sustainment are
unavoidably linked and should be considered together.

Sustainment levels required to achieve a normal ESL are benchmarked to commercial per unit
costs; for example, $1.94 per square foot annually is needed to properly sustain the aircraft
maintenance hangar inventory for a 50-year life cycle. The facilities sustainment model (FSM)
adjusts these costs to local areas and assigns the costs to DoD Components and funding sources.

The recapitalization rate—measured by FRM in years—is compared to service life benchmarks
for various types of facilities. For example, the ESL of a pier is 75 years, and the ESL of a dental
clinic is 50 years (provided the facilities are fully sustained during that time). The average of all
the ESL benchmarks, weighted by the value of the facilities represented by each benchmark, is
67 years. Weighting is required to normalize the ESL. For example, without weighting, 50 years
is the ESL of a hypothetical inventory consisting of administrative buildings (75-year ESL) and
fences (25-year ESL). But fences are insignificant compared to administrative buildings—DoD
has $22 billion worth of administrative buildings, but only $3 billion worth of fences and related
structures—and should not have equal weight. The ESL of this hypothetical inventory when
weighted by plant replacement value is 68 years, not 50 years.

For evaluating planned performance, both metrics (FSM and FRM) are converted to dollars
(annual funding requirements) and compared to funded programs in the DoD Future Years
Defense Program (FYDP). Both metrics can also be used to measure executed performance.




DoD Performance and Accountability Report        387        Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
V&V Method. Recapitalization rates are computed according to set procedures for transmitting
program and budget data to the Office of the Secretary of Defense (maintained by the Program,
Analysis and Evaluation Directorate of the Office of the Secretary of Defense) and set rules as
described in the August 2002 document, Facilities Recapitalization Front End Assessment. Data
collection procedures are quite complex and are derived from multiple sources to include several
hundred FYDP program elements, multiple funding appropriations and resources from outside
DoD, and hundreds of thousands of real property records. The various data elements are
summarized and merged in the Defense Programming Database (DPD) Warehouse, where the
recapitalization rate is computed from the data. All the data submitted to the DPD Warehouse are
audited for accuracy by multiple DoD offices. The benchmark for the DoD average
recapitalization rate goal (67 years) is based on service life benchmarks developed by DoD in
1997.

Sustainment rates are computed in a similar manner. Approximately 400 benchmarks for
sustainment are contained in the DoD Facilities Pricing Guide and are each documented for
source and estimated quality. These individual cost factors are combined with real property
inventory databases by the DoD FSM, which is maintained under contract by R&K Engineering
of Roanoke, VA. FSM outputs are merged with programming and budget data contained in the
DoD FYDP; merging is done in the DPD Warehouse, where sustainment rates are computed.

Performance Results for FY 2003. These metrics do not yet capture “actual” expenditures as
the term “actual” is normally understood. For recapitalization, there is no reporting process for
determining the “actual” (i.e executed) recapitalization rate in a given year, and there are many
barriers to doing so. For example, appropriations for military construction projects – which
make up the bulk of the recapitalization investment – are good for five years and are typically
executed over more than one year. Additionally, Congressional adds, rescissions,
reprogrammings, and late project adjustments all alter the “actual” recapitalization rate. There is
no system as yet to capture these changes at the DoD level. For sustainment, a system is in place
to capture the “actual” sustainment expenditure at the DoD level, however FY03 is the very first
year for the system and the initial results may or may not be reliable. The initial result the FY03
sustainment rate is 79% – not 93% as budgeted. However, it is very likely that that some of the
“unexecuted” sustainment migrated to and was executed as recapitalization – but there is no
system as yet in place to show the effect of such migrations on the recapitalization rate. Hence,
the table continues to show budgeted rates, not actual rates.

Shortfalls in facilities recapitalization (and associated sustainment) were considered in
development of the amended FY 2002 and FY 2003 budgets. Although performance as measured
by the budgeted recapitalization and sustainment rates improved from FY 2001 levels, the targets
(67-year recapitalization rate and full sustainment) were not achieved in either budget. As a
result of not achieving full sustainment levels, the theoretical service life of the inventories (67
years) suffered another incremental reduction. As a result of not achieving a 67-year
recapitalization rate, obsolescence in the facilities inventories increased incrementally. The
cumulative and compounding effect of these shortfalls is measured by the number of C-3 and C-
4 facilities reported in the Department’s readiness reports (68% of facility classes are reported as
having serious deficiencies that adversely impact mission performance).




DoD Performance and Accountability Report   388       Part 5: Appendix A – Detailed Performance Metrics
              Appendix A: Detailed Performance Metrics
Because of the way these metrics are constructed, the underperforming results of FY 2002 and
FY 2003 do not directly affect the sustainment and recapitalization performance targets for FY
2004. The goal for sustainment remains full sustainment; a 7% shortfall in programmed
sustainment in FY 2003 cannot be offset with 7% overage in FY 2004. The interim goal for
recapitalization remains 67 years, even though past performance has already reduced the service
life of the facilities inventory. The direct effect of undersustainment and underrecapitalization is
captured in the accelerated recapitalization rate that is required to restore readiness to at least C-
2 status by 2010.




DoD Performance and Accountability Report    389       Part 5: Appendix A – Detailed Performance Metrics
                 Appendix A: Detailed Performance Metrics
Performance Metric: Eliminate inadequate family housing by 2007

                                FY 2000             FY 2001                FY 2002             FY 2003
           Metric                Actual              Actual                 Actual              Actual
Number of inadequate             182,246             170,314               143,608             129,955
family housing units
Percentage of total               60.9%                58.5%                53.4%               51.1%
family housing unitsa
a
    Targets or Projected Performance are not established for the Percentage of total family housing units.

Metric Description. The Secretary of Defense has established a goal to eliminate all inadequate
family housing by the end of FY 2007. Each Military Service has developed a Family Housing
Master Plan that outlines the approach it will follow to achieve this long-term goal. These plans
identify the program requirements, by year, to eliminate inadequate family housing by FY 2007.

Inadequate housing, in general, is any unit that requires a major repair, component upgrade,
component replacement, or total upgrade. Each Service has evaluated its housing and identified
inadequate units. Each Service has then developed a plan to eliminate this inadequate housing
through a combination of traditional military construction, operations and maintenance support,
and privatization.

V&V Method. Information was gathered from the OSD files and from the Military Departments
FY 2002 Family Housing Master Plans, which are submitted annually to the Deputy Under
Secretary of Defense (Installations and Environment). (Due to the implementation of the new
OSD Housing Requirements Guidance, Service Family Housing Master Plans were not provided
in FY 2003, as a result, the housing baseline will be adjusted with the FY 2004 Master plans).
These Master plans provide detailed information, by installation, on the Service’s ability to
achieve the 2007 family housing goal.

Performance Results for FY 2003. The Department reduced inadequate family housing by
14,000 units in FY 2003 through revitalization, demolition, and privatization. The total number
of inadequate family housing upgraded through privatization totals about 38,000 units.




DoD Performance and Accountability Report        390           Part 5: Appendix A – Detailed Performance Metrics
                   Appendix A: Detailed Performance Metrics
Performance Metric: Reduce Customer wait time (days)

                              FY 2000               FY 2001            FY 2002              FY 2003
          Metric               Actual                Actual             Actual            Target/Actual
Customer Wait time              N/Aa                  18                   16                 16/19b
(days)
a
    Reporting of CWT did not begin until FY 2001.
b
    Through 3rd Quarter of FY 2003

Metric Description. Customer Wait Time (CWT) measures the elapsed time from order to
receipt when a customer orders an item of material. The customer’s order may be filled from
assets on hand at the customer’s military installation or naval vessel, or through the DoD
wholesale logistics system. For purposes of this Enterprise Level Metric, CWT includes orders
for spare and repair parts ordered by organizational maintenance activities. CWT captured for
orders considered below enterprise level are maintained by each of the Military Services and the
Defense Logistics Agency.

V&V Method. Data on transaction volume and order-receipt times are collected monthly from
various Military Service systems. The Military Services roll the inputs from their respective
systems into a single Service report in spreadsheet format that they submit to the Defense
Automatic Addressing System (DAAS). DAAS then calculates a weighted average (based on the
relative volume of transactions) for the entire DoD, which is the figure reported above. All
Military Service inputs are based on an agreed-upon set of business rules. This methodology
helps to ensure consistent treatment of data and valid comparisons across DoD Components.

Performance Results for FY 2003. Preliminary indications are that DoD will not meet its FY
2003 CWT target of 16 days because of the increase in demand for critical items and delays in
closing out transactions caused mainly by the execution of Operation Iraqi Freedom.




DoD Performance and Accountability Report       391        Part 5: Appendix A – Detailed Performance Metrics
                            Appendix B: Internet Links


                 Topic                                          Internet Link
Department of Defense (DoD)                 www.defenselink.mil

DoD Performance and Accountability          www.dod.mil/comptroller/par
Report
DoD Quadrennial Defense Review              www.defenselink.mil/pubs/qdr2001.pdf
(2001)
DoD Business Management                     www.dod.mil/comptroller/bmmp/pages/index.html
Modernization Program
DoD Annual Defense Report (2003)            www.defenselink.mil/execsec/adr2003/

DoD Budget (2003)                           www.dod.mil/comptroller/defbudget/fy2003/index.html

Office of the Secretary of Defense          www.defenselink.mil/osd/

Joint Chiefs of Staff                       www.dtic.mil/jcs/

Department of the Army                      www.army.mil

Department of the Navy                      www.navy.mil

U.S. Marine Corps                           www.usmc.mil

Department of the Air Force                 www.af.mil

Combatant Commands                          www.defenselink.mil/sites/u.html#unified

DoD Agencies                                www.defenselink.mil/sites/a.html#agencies

DoD Field Activities                        www.defenselink.mil/sites/f.html#fldacts




DoD Performance and Accountability Report    392                   Part 5: Appendix B – Internet Links
